<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2018 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 115-448, Part 2]
[From the U.S. Government Publishing Office]




                                                             
                                                 S. Hrg. 115-448, Pt. 2

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1519

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2018 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 2

                                SEAPOWER

                               ----------                              

                          JUNE 6, 13, 21, 2017


         Printed for the use of the Committee on Armed Services
         
         
         
         
         
         
         

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
           2018 AND THE FUTURE YEARS DEFENSE PROGRAM--Part 2
                                SEAPOWER
                                
                                
                                
                                
                                
                                
                                
                                
                                



                                                 S. Hrg. 115-448, Pt. 2
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1519

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2018 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 2

                                SEAPOWER

                               __________

                          JUNE 6, 13, 21, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         


       Available via the World Wide Web: http://www.govinfo.gov/
       
       
       
                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-503 PDF           WASHINGTON : 2019      
       
       


                      COMMITTEE ON ARMED SERVICES
                      

JOHN McCAIN, Arizona, Chairman           JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma                BILL NELSON, Florida
ROGER F. WICKER, Mississippi             CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                    JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                     KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota                RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                         JOE DONNELLY, Indiana
THOM TILLIS, North Carolina              MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                     TIM KAINE, Virginia
DAVID PERDUE, Georgia                    ANGUS S. KING, JR., Maine
TED CRUZ, Texas                          MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina           ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                      GARY C. PETERS, Michigan
LUTHER STRANGE, Alabama              
                                     
                       
                                     
                                     
                  Christian D. Brose, Staff Director
                  Elizabeth L. King, Minority Staff 
                               Director



                        Subcommittee on Seapower

ROGER F. WICKER, Mississippi,     MAZIE K. HIRONO, Hawaii
Chairman                          JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas              RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota         TIM KAINE, Virginia
THOM TILLIS, North Carolina       ANGUS S. KING, JR., Maine
DAN SULLIVAN, Alaska
LUTHER STRANGE, Alabama              
                                     
                                     
                                     
                                     

                                  (ii)



                         C O N T E N T S



                              June 6, 2017

                                                                   Page

Marine Corps Ground Modernization................................     1

Walsh, Lieutenant General Robert S., USMC, Deputy Commandant for      5
  Combat Development and Integration; Commanding General, Marine 
  Corps Combat Development Command; and Commander, United States 
  Marine Forces Strategic Command; Accompanied by: John M. 
  Garner, Program Executive Officer, Land Systems Marine Corps; 
  and Brigadier General Joseph F. Shrader, USMC, Commander, 
  Marine Corps Systems Command.

Questions for the Record.........................................    32

                             June 13, 2017

Navy and Marine Corps Aviation Programs..........................    35

Grosklags, Vice Admiral Paul A., USN, Commander, Naval Air           39
  Systems, Department of the Navy; Accompanied by Lieutenant 
  General Jon M. Davis, USMC, Deputy Commandant for Aviation, 
  United States Marine Corps; and Rear Admiral DeWolfe H. Miller, 
  III, USN, Director, Air Warfare (OPNAV N98), Department of the 
  Navy.
Questions for the Record.........................................    93

                             June 21, 2017

Navy Shipbuilding Programs.......................................   117

Stiller, Allison F., Performing the Duties of Assistant Secretary   120
  of the Navy for Research, Development, and Acquisition; 
  Accompanied by: Vice Admiral William K. Lescher, USN, Deputy 
  Chief of Naval Operations for INTEGRATION OF Capabilities and 
  Resources, N8; Lieutenant General Robert S. Walsh, USMC, Deputy 
  Commandant for Combat Development and Integration; Commanding 
  General, Marine Corps Combat Development Command; and 
  Commander, United States Marine Forces Strategic Command.

                                 (iii)


  DEPARTMENT OF DEFENSE AUTHORIZATION REQUEST FOR APPROPRIATIONS FOR 
         FISCAL YEAR 2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, JUNE 6, 2017

                               U.S. Senate,
                          Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                   MARINE CORPS GROUND MODERNIZATION

    The subcommittee met, pursuant to notice, at 2:29 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Roger F. 
Wicker (chairman of the subcommittee) presiding.
    Committee members present: Senators Wicker, Cotton, Rounds, 
Tillis, Sullivan, Hirono, Blumenthal, Kaine, and King.

          OPENING STATEMENT OF SENATOR ROGER F. WICKER

    Senator Wicker. The hearing will come to order.
    The Senate Armed Services Subcommittee on Seapower convenes 
this afternoon to examine the Marine Corps ground system 
modernization programs.
    This afternoon we welcome Mr. John M. Garner, Program 
Executive Officer for Land Systems Marine Corps; Lieutenant 
General Robert S. Walsh, who serves as Deputy Commandant for 
Combat Development and Integration. General Walsh is also the 
Commanding General of Marine Corps Combat Development Command, 
and Brigadier General Joseph F. Shrader, Commander of the 
Marine Corps Systems Command.
    Our subcommittee thanks these distinguished witnesses for 
their selfless and steadfast service to the Nation.
    As the saying goes, there is no better friend than a 
marine. There is also no worst enemy than a U.S. Marine. I 
truly believe this sentiment captures the professionalism and 
tenacity of the Marine Corps. That perseverance, ingenuity, and 
smarts are traits engrained in the Marine Corps' DNA 
[deoxyribonucleic acid]. These traits have served the marines 
well during the last 15 years of war.
    However, even marines have limits. An unrelenting 
operational tempo has damaged readiness and undermined critical 
modernization efforts to replace aging equipment. Today the 
subcommittee will focus on modernization, but I cannot 
emphasize enough the connection between readiness and 
modernization.
    In terms of modernization, for too long many Marine Corps 
modernization programs have suffered from drown-out development 
timelines and unrealistic requirements and cost overruns. These 
factors have often conspired to prevent fielding replacements 
for aging systems. An ever-increasing array of threats is 
exacerbating the need to modernize, which include explosive 
foreign projectiles, IEDs [Improvised Explosive Devices]; long-
range rocket artillery; anti-tank guided missiles; electronic 
warfare drones; and cyber threats, just to name a few. 
Additionally the use of anti-access/area denial tactics is 
putting a premium on increasing the lethality and survivability 
of smaller, more dispersed ground units. Today our witnesses 
will update us on the Marine Corps' efforts to meet these 
threats head on.
    First, the subcommittee wishes to discuss the Marine Corps 
strategy for modernizing its vehicle fleet, particularly 
amphibious combat vehicles. These programs are crucial for 
enabling the marines to maintain their amphibious assault 
capabilities while providing mobile armored protection for 
ground maneuver forces.
    There are two key vehicles. One is the Assault Amphibious 
Vehicle (AAV), survivability upgrade program, which modernizes 
some of the AAVs remaining in service. The other program is the 
amphibious combat vehicle, ACV 1.1 program. Both programs will 
provide increased maneuverability and protection over current 
platforms until the future ACV 1.2 is ready, hopefully around 
2025. The Marine Corps intends ACV 1.2 to match capabilities 
similar to those envisioned for the canceled expeditionary 
fighting vehicle.
    However, a recent GAO report contends that the Marines may 
be overstating potential savings when comparing the ACV 1.1 to 
the retiring AAVs it will be replacing. The subcommittee is 
interested in hearing the Marine Corps' perspective on the 
GAO's findings and a current update on these programs.
    The wars in Iraq and Afghanistan have demonstrated the 
urgent need for increased protection and mobility offered by 
the Joint Light Tactical Vehicle [JLTV]. The subcommittee wants 
to hear how the Marine Corps plans to acquire its fleet of 
5,900 JLTVs particularly in light of the fiscal year 2018 
budget request for just 527 vehicles. That figure is about half 
the level that the Marine Corps projected to procure in the 
fiscal year 2017 budget request. Such shortfalls have an impact 
on capability, readiness, and program costs that should be 
addressed so our Humvees can be replaced as soon as possible.
    While the Army is upgrading its Stryker infantry fighting 
vehicles and planning Abrams main battle tank, or MBT, 
modernization, it is worth nothing that the Marines use the 
Light Armored Vehicle 3 (LAV-3), a vehicle very similar to the 
Army's Stryker and also the Abrams. The subcommittee is 
interested in the Marine Corps' plans for modernizing these two 
platforms.
    In addition to tactical vehicle modernization, the 
witnesses should discuss Ground-Air Task Oriented Radar (G/
ATOR) development, a system which will replace five older 
radars. G/ATOR is an all-purpose radar system that can provide 
marines with early warning from missiles, indirect fire, and 
aerial systems, and also eventually provide air traffic control 
capabilities. The subcommittee wishes to learn more about this 
complex program and its future role.
    We are also going to hear our witnesses discuss less 
prominent equipment essential to the Marine Corps mission, such 
as small arms. Over the past year, the Marine Corps has 
collaborated with the Army on a joint 5.56 millimeter round. 
Recent testimony, however, has cast doubt on the effectiveness 
of this round in light of the proliferation of advanced body 
armor. The committee looks forward to getting a better 
understanding of this strategy.
    The subcommittee is also concerned with potential 
capability gaps within the Marine Corps ground tactical 
formations centered primarily on short-range air defense 
systems and long-range precision fires. Given the Marine Corps' 
close relationship with the Navy, this subcommittee is very 
interested in how the two services can leverage each other's 
capabilities to meet these requirements, especially given the 
Navy's experience in long-range fires and air defense systems.
    Finally, this subcommittee is committed to maintaining a 
healthy industrial base which fosters innovation and 
competition. The Marine Corps leveraged competition to assess 
technological feasibility and affordability early on in the ACV 
and JLTV programs. Competition requires viable competitors 
which we do not always have. This might be why the prototypes 
of the last two contenders for the ACV 1.1 program are based on 
designs from Italy and Singapore. I would like our witnesses to 
address the state of the U.S. industrial base for ground combat 
and tactical vehicles and perhaps to suggest options to sustain 
its viability.
    The Marine Corps budget accounts for approximately six 
percent of DOD's total budget. I remain concerned about the 
impact of budget uncertainty on modernization and readiness 
across the Defense Department but especially for the Marine 
Corps. As such, I hope our witnesses today will elaborate on 
the impact that such uncertainty would have on our 
expeditionary marines, their ability to execute our country's 
national security strategy, and the vitality of our defense 
industrial base.
    For these reasons, it is imperative that Congress and the 
Corps continue to work together to ensure that the brave young 
men and women of the Marine Corps have the very best to 
accomplish their dangerous missions.
    So I look forward to the testimony of our witnesses.
    In the meantime, Senator Hirono, our distinguished ranking 
member, is recognized for her statement.

               STATEMENT OF SENATOR MAZIE HIRONO

    Senator Hirono. Thank you, Mr. Chairman. Thank you, of 
course, for holding this important hearing on Marine Corps 
ground modernization.
    I also, of course, would like to welcome our witnesses to 
today's hearing and thank you for your service to our country.
    Some of the areas that I will highlight or focus on in my 
short remarks today will be areas that the chair has already 
talked about, but it just means that the chairman and I are on 
the same page, on the same wavelength.
    Last year, I had the honor of attending the change of 
command ceremony for the 3rd Marine Regiment at Marine Corps 
Base Kaneohe Bay in Hawaii. The 3rd Marine Regiment has a proud 
and storied history as a fighting unit. They fought in some of 
the fiercest battles of the wars in Iraq and Afghanistan, 
including the battle of Marjah, the second battle of Fallujah, 
and Operation Khanjar in Helmand Province. In the years to 
come, these marines will continue to be an integral part of 
supporting our strategic interests in the Indo-Asia-Pacific 
region.
    We ask our marines to do an awful lot. We ask them to take 
on some of the toughest jobs on the front lines. Given the 
evolving nature of the threats we face, it is also crucial that 
our marines remain ready and capable to address contingencies 
at a moment's notice. We owe it to these men and women to 
ensure that resources are available for training and readiness 
activities and to ensure that they have fully functional 
equipment to get the job done.
    To ensure that our marines will be supplied with the most 
effective equipment, the fiscal year 2018 budget request makes 
targeted investments in the ground combat and tactical vehicle 
portfolio of the Marine Corps. The Amphibious Combat Vehicle 
(ACV), is one of the most important Marine Corps ground 
modernization programs. The ACV will eventually replace the 
amphibious assault vehicle, the AAV, that has been in operation 
for over 40 years.
    As part of the ACV acquisition strategy, the Marine Corps 
has awarded contracts to two vendors, each tasked with building 
16 prototypes for testing and evaluation. Following the 
testing, the Marine Corps plans to down select to a single 
vendor in 2018 with the goal of purchasing 204 vehicles for the 
program. I welcome an update from our witnesses on the status 
of this program and if our witnesses anticipate any problems 
with the program's schedule.
    While we wait for the ACV to come into service, it will 
remain critically important to modernize our existing AAVs. 
This vehicle has been in the Marine Corps inventory, as I 
mentioned, for more than four decades and requires 
modernization to meet today's threats. The Marine Corps has 
decided to modernize a portion of their AAV fleet with 
survivability upgrades to address obsolescence and increase the 
vehicle's capacity. Currently 10 prototypes are undergoing 
testing, and I would welcome any updates from our witnesses on 
the progress of this update program.
    The joint light tactical vehicle is another priority in the 
Marine Corps combat vehicle program. The JLTV is a joint Army 
and Marine Corps program that will replace the high mobility 
multi-wheeled vehicle, the Humvees. The fiscal year 2018 budget 
included $234 million to procure 527 vehicles. Over the course 
of the program, the Marines will procure at least 5,500 
vehicles to replace roughly one-third their legacy Humvee 
fleet. The Marines are scheduled to receive approximately 300 
JLTVs in 2020. However, it is my understanding that the Marine 
Corps would like to procure additional quantities for future 
JLTV increments if resources are available. I would be 
interested in hearing more from our witnesses on this matter 
and this need.
    In addition to the major ground modernization programs that 
I have highlighted, the Marine Corps is also developing the 
Ground-Air Task Oriented Radar, G/ATOR, which the chairman also 
mentioned. The G/ATOR is an expeditionary radar system that 
will replace legacy radar systems currently fielded by the 
Marine Corps Ground Task Force. The Marine Corps has begun 
testing the block 1 variant of the G/ATOR, and I would welcome 
an update from our witnesses on the status of this program.
    Again, thank you, Mr. Chairman, for holding this hearing, 
and I look forward to hearing from our witnesses.
    Senator Wicker. Thank you, Senator Hirono.
    Gentlemen, I understand from a discussion beforehand that 
Lieutenant General Walsh will make an opening statement that 
will suffice for all three of you. So, Lieutenant General 
Walsh, we are delighted to have you, and you may proceed with 
your statement.

 STATEMENT OF LIEUTENANT GENERAL ROBERT S. WALSH, USMC, DEPUTY 
 COMMANDANT FOR COMBAT DEVELOPMENT AND INTEGRATION; COMMANDING 
     GENERAL, MARINE CORPS COMBAT DEVELOPMENT COMMAND; AND 
   COMMANDER, UNITED STATES MARINE FORCES STRATEGIC COMMAND; 
ACCOMPANIED BY: JOHN M. GARNER, PROGRAM EXECUTIVE OFFICER, LAND 
SYSTEMS MARINE CORPS; AND BRIGADIER GENERAL JOSEPH F. SHRADER, 
         USMC, COMMANDER, MARINE CORPS SYSTEMS COMMAND

    Lieutenant General Walsh. Thank you, Chairman Wicker, 
Ranking Member Hirono, and distinguished members of the 
subcommittee for this opportunity to testify before you today.
    Joining me today are my combat development partners, 
Brigadier General Joe Shrader, who is the Commander of Marine 
Corps Systems Command, and Mr. John Garner, who is our Program 
Executive Officer for Land Systems Marine Corps.
    The Marine Corps' ability to serve as our Nation's premier 
crisis response force is due in large part to the 
subcommittee's continued support, and on behalf of all marines, 
I thank you.
    The United States is a maritime nation with global 
responsibilities. These responsibilities include guaranteeing 
freedom of navigation and commerce on the seas, promoting 
international stability and order, and protecting ourselves and 
our allies and partners from threats and aggression. Our Navy 
and Marine Corps' persistent presence and multi-mission 
capability represent U.S. power projection across the global 
commons. Where adversaries would prefer to keep us distant, we 
are already present on scene, engaging with our allies and 
partners, and operating routinely inside the potential 
engagement zone of threat weapons as a deterrent force.
    Today we are at an inflection point. Our priority of effort 
over the 15 years of war in Iraq and Afghanistan has been 
meeting the immediate requirements of combat operations. We 
risked modernization to ensure the combat readiness of 
deploying marines. While our focus was elsewhere, our potential 
enemies modernized, reducing the technological advantage 
American forces once stood or took for granted. In many 
theaters, we can no longer assume superiority in any domain: 
sea, air, surface, or the electromagnetic spectrum.
    Growing instability in multiple areas around the globe is 
increasingly a requirement for forward naval forces to protect 
our national interests. Potential adversaries seek to secure 
their objectives by taking a continuous series of small steps 
to incrementally establish new conditions favorable to their 
objectives, undermining existing authority and eroding 
prevailing norms without resort to actual fighting. As a 
result, the traditional technological and professional 
advantages enjoyed by U.S. forces for decades is eroding.
    Over a period of 18 months, the Marine Corps conducted an 
extremely exacting capabilities-based review of our force 
structure. This iterative effort examined end strength, force 
structure, equipment of all types, and across all warfighting 
functions in order to identify needed changes to meet this 
threat. This effort, which is collectively called Marine Corps 
Force 2025, sought to define a Marine Corps optimized to meet 
future challenges. The Marine Corps Force 2025 effort 
identified both broad capability gaps and specific requirements 
in developing a fifth generation Marine Corps.
    Within current budget and end strength limits, the Marine 
Corps has prioritized its efforts across the Marine Air-Ground 
Task Force. Ground program priorities include modernizing the 
amphibious vehicle fleet, the combat and tactical fleet, and 
our sensor and command and control capabilities. We are 
committed to delivering the required warfighting capabilities 
to our marines in a timely and affordable manner. However, 
continued budget uncertainty risks our ability to fulfill this 
commitment.
    The Marine Corps is at a critical juncture. We have delayed 
modernization so long that our technical advantage over our 
adversaries has been diminished. The continuing need to 
maintain and update legacy systems takes the focus off 
innovation and is costly in its own right. Experience tells us 
that investing in new capabilities and technologies is a proven 
cornerstone for your marines and sailors to achieve mission 
success and into an uncertain but no less demanding future.
    The Marine Corps continues to improve our essential ground 
capabilities through a series of strategy of stability and 
affordability. We recognize the need for continued vigilance in 
achievement of a proper balance between current readiness and 
long-term imperatives of modernization and innovation. This 
balance is critical to ensuring the Marine Corps and the 
individual marines have the ability to fight and win in the 
future battlefields and are prepared to respond to our Nation's 
force in readiness.
    Principal combat and tactical vehicle modernization 
programs account for a significant portion of the Marine Corps' 
ground combat modernization investment. The Marine Corps 
overarching combat and tactical vehicle investment priority, 
the modernization of our amphibian capability, the amphibious 
assault vehicle survivability upgrade, and the amphibious 
combat vehicle programs are a means to replace the legacy AAV 
and are both in engineering and manufacturing and development 
phase.
    The second highest priority for combat and tactical vehicle 
investment remains the replacement of a portion of the high 
mobility multi-purpose wheeled vehicle, or Humvee, fleet that 
is most at risk. Those trucks have performed a combat function 
and are typically exposed to enemy fires. In partnership with 
the Army, the Marine Corps has sequenced the joint light 
tactical vehicle, or JLTV, program to ensure affordability 
while, in the first increment, replacing about one-third of our 
legacy Humvee fleet with a modern tactical truck in conjunction 
with fielding the ACV.
    Our third priority concerns our ability to coordinate and 
synchronize command and control sensors and systems to ensure 
the critical success of the MAGTF [Marine Air-Ground Task 
Force] both afloat and ashore. These capabilities are ever more 
important as our adversaries' technological capabilities 
continue to advance. Our top priority in this area is the 
ground/air task oriented radar, or G/ATOR radar. The state-of-
the-art ground-based medium range multi-role radar is designed 
to detect low and low radar cross section air threats for the 
MAGTF. It adds superior tracking capability and sensor 
coverage, flexibility to the MAGTF. This critical MAGTF enabler 
is central for identifying and destroying air and surface 
targets. Combined with the common aviation command and control 
sensors ensures no other service is more capable in controlling 
MAGTF airspace.
    On behalf of the marines and sailors who provide the Nation 
with the forward-deployed crisis response capability, we thank 
you for your constant support in an era of competing 
challenges. We are proud of our reputation for frugality, and 
we remain one of the best values for the defense dollar. These 
critical modernization investments, among many others, will 
ensure our success not if but when the future conflict occurs. 
Fiscal uncertainty is threatening both our capability and 
capacities. Recognizing these fiscal challenges, we remain 
committed to fielding the most ready Marine Corps the Nation 
can afford.
    Mr. Chairman, distinguished members of the committee, on 
behalf of your marines, we request your continued support for 
our modernization strategy.
    [The prepared statement of General Walsh, General Shrader, 
and Mr. Garner follows:]

  Prepared Statement by General Walsh, General Shrader, and Mr. Garner
                              introduction
    Mr. Chairman, Ranking Member Hirono, and distinguished members of 
the Subcommittee, we thank you for the opportunity to appear before you 
today to discuss Marine Corps Ground Programs. Our testimony will 
provide the background and rationale for the Marine Corps' fiscal year 
2018 budget request which is aligned to our strategic priorities and 
budgetary goals.
    The United States is a maritime nation with global 
responsibilities. These responsibilities include guaranteeing freedom 
of navigation and commerce on the seas, promoting international 
stability and order, and protecting ourselves and our allies and 
partners from threats and aggression. Our Navy and Marine Corps' 
persistent presence and multi-mission capability represent U.S. power 
projection across the global commons. Where adversaries would prefer to 
keep us distant, we are already present on scene, engaging with our 
allies and partners, and operating routinely inside the potential 
engagement zone of threat weapons systems.
    The Marine Corps is the Nation's expeditionary force-in-readiness. 
By Congressional mandate, it has a unique role and structure described 
as a `` . . . balanced force-in-readiness, air and ground.'' Our forces 
enable global reach and access through presence, sea control, mission 
flexibility and when necessary, direct interdiction. This mandate also 
requires the Marine Corps to maintain a high state of combat readiness 
and to be ``most ready, when the Nation is least ready.''
                           current operations
    The past three decades have seen an incessant and growing demand 
from our regional combatant commanders (CCMDs) for forward naval 
forces, Marine Corps forces in particular. Last year alone, the Marine 
Corps executed over 210 operations, 20 amphibious operations, 160 
Theater Security Cooperation (TSC) events, and participated in 75 
exercises. Marine Corps units deployed to every geographic combatant 
command (GCC) and executed numerous TSC exercises to help strengthen 
relationships with allies and build partner capacity. Advise and Assist 
teams from Special Purpose Marine Air Ground Task Force--Crisis 
Response (SPMAGTF - CR)--Central Command helped enable Iraqi Army 
operations at multiple sites in Iraq. SPMAGTF-CR-Africa's crisis 
response force maintained alert postures from Naval Air Station 
Sigonella, Italy, Moron Air Base, Spain and Djibouti during multiple 
Special Operations Command operations in North Africa. In Afghanistan, 
the Marine Corps deployed Task Force Southwest to Helmand Province to 
train, advise and assist the Afghan National Army and Police.
    Marine Expeditionary Units (MEU) deployed to multiple GCCs over the 
year and successfully integrated with U.S. Special Operations Command 
in support of operations in North Africa and the Southern Arabian 
Peninsula. Marine Security Augmentation Unit (MSAU) teams deployed 64 
times in 2016 at the request of the State Department, executing 20 
Embassy/Consulate security missions and 46 VIP security missions. 
Additionally, at the request of the U.S. Agency for International 
Development, Joint Task Force-Matthew was activated in October 2016 in 
response to Hurricane Matthew, a Category four hurricane which made 
landfall in Haiti and left over 750,000 people in need of assistance. 
Within 48 hours, SPMAGTF-Southern Command (SC) self-deployed to provide 
much needed aid to the people of Haiti. Shortly thereafter, the 24th 
MEU deployed to Haiti aboard amphibious shipping to provide additional 
support. Overall, SPMAGTF-SC and the 24th MEU delivered 578,491 lbs. of 
relief supplies to the disaster stricken area.
                      future operating environment
    Today we are at an inflection point. Our priority of effort over 
the 15 years of war in Iraq and Afghanistan has been meeting the 
immediate requirements of combat operations. During this period, we 
risked modernization to ensure the combat readiness of deploying 
marines. While our focus was elsewhere, our potential enemies 
modernized, reducing the technological advantages American forces once 
took for granted. In many theaters we can no longer assume superiority 
in any domain; sea, air, land, space or the electromagnetic spectrum. 
In short, the Marine Corps is not organized, trained, or equipped to 
meet the demands of the future operating environment.
    Growing instability in multiple regions increases the necessity of 
having forward postured naval forces to protect our national interests. 
Some regional actors seek to secure their objective by taking a 
continuous series of small steps to incrementally establish new 
conditions favorable to their objectives. This undermines existing 
authority and erodes prevailing norms without resorting to actual 
fighting. Simultaneously, these actors seek to challenge us in new ways 
within the littorals, advancing their ability to locate, track, and 
attack the naval fleet and testing current naval force designs and 
operating concepts. As a result, the traditional technological and 
professional advantages enjoyed by US forces for decades are eroding.
    The Marine Corps Operating Concept (MOC), published in September of 
2016, articulates these problems and several drivers of change 
affecting the future operating environment. First, increasingly complex 
and highly populated urban coastal regions magnify the challenges of 
operating in the littorals. Second, technology proliferation grants 
many adversaries access to high end technologies that allow them to 
engage our forces more effectively, from greater distances and in any 
environment. Third, our adversaries increasingly use information as a 
weapon, soliciting local support and effecting global opinion. Fourth, 
every observable aspect of our force is a vulnerability, be it visual, 
audible, or electro-magnetic. Lastly, the maritime domain is becoming 
ever more contested, with adversaries challenging our in and around the 
global commons.
    In order to compete in the future operating environment 
characterized above, the MOC identifies five critical tasks which are 
guiding our efforts to change how we organize, train and equip our 
forces. In support of our title 10 responsibilities to serve as the 
Nations' expeditionary naval force, we must first integrate the naval 
force to fight at and from the sea. The MAGTF's ability to rapidly 
deploy, employ, and sustain versatile combat power from the sea to the 
shore and back is crucial to the security of the Nation.
    Second, we must evolve the MAGTF by maintaining and improving its 
ability across the Range of Military Operations, enhance Special 
Operations Force integration, exploit automation and manned-unmanned 
teaming, and improve the agility the MAGTF through improved command and 
control. Third, the MAGTF must be able to operate with resilience in a 
contested network environment by reducing signatures, improve our 
networks, enhance the effectiveness of massed and precision fires, and 
improve our ISR. Fourth, we must enhance our ability to maneuver in and 
around the littorals, broaden our idea of combined arms to include 
information warfare, and improve our mobility and ability to disperse 
in increasingly complex urban terrain.
    The fifth and final task identified in the MOC is to exploit the 
competence of the individual marine. This requires seeking high-quality 
human capital first and foremost. Accomplishing this task also requires 
training and educating marines in ways that prepare them for the 
complexity of the future operating environment. Lastly, it requires 
developing leaders at every level and managing our talent to improve 
our return on investment.
                    the 5th generation marine corps
    The MOC defined the problem, offers a framework for developing 
solutions, and an azimuth for the Marine Corps to follow. What remained 
was the detail work, work that would clearly articulate specific 
requirements. Over a period of 18 months, the Marine Corps conducted an 
extremely exacting capabilities-based review. This iterative effort 
examined end strength, force structure, equipment of all types and 
across all warfighting functions, in order to identify needed changes. 
The output of this work, which is collectively called Marine Corps 
Force 2025, seeks to define a Marine Corps optimized to meet future 
challenges. Marine Corps Force 2025 also identifies several immediate 
priorities that must be addressed in order to fight and win against 
highly capable enemies.
    First, within the fiscal year 2017 NDAA authorized endstrength of 
185,000 marines, the Marine Corps will focus its personnel growth in 
areas such as intelligence, electronic warfare, cyber and information 
warfare. This growth will compliment both planned and current equipment 
modernization efforts. While I want to express my gratitude to the 
Congress for the additional endstrength authorization, it is also 
important to be clear about the gaps these extra 3,000 marines do not 
fill. For example, we are nearing the official activation of the office 
of the Deputy Commandant for Information, but our information warfare 
and cyber capabilities will still be constrained under current 
endstrength levels.
    Most critically, 185,000 marine endstrength only improves the 
deployment-to-dwell ratio slightly. A 1:3 deployment to dwell ratio is 
our goal, which merely means that if a marine deploys for seven months, 
they are non-deployed for 21 months. At the individual and personal 
level, a 1:3 deployment-to-dwell ensures our marines achieve a minimal 
level of work-life balance, taking care of their families and their own 
personal needs. However, the 1:3 metric serves a broader purpose which 
is directly linked to providing for the Nation's defense. The 1:3 ratio 
is the only way to ensure marines are afforded the training time 
necessary to build full-spectrum readiness necessary to fight peer 
adversaries. Operating below a 1:3 ratio also forces us to choose 
between the readiness of deploying units and modernizing the force.
    The Marine Corps operating forces are currently averaging, in the 
aggregate, less than 1:2 deployment-to-dwell ratio. Individual unit 
deployment tempo remains on par with the height of our commitments in 
Iraq and Afghanistan. Deliberate and measured capacity increases, 
reduction of our operational tasking, or a combination of the two, are 
solutions that would put us on the path to improve our deployment-to-
dwell ratio..
    Naval forces postured forward in formations appropriately tailored 
to the requirements of a region are essential to continual engagement 
and underscore our commitment to allies. Fielding naval forces at the 
capacity needed to operate forward is critical to projecting a credible 
deterrence. Insufficient endstrength creates a lack of capacity. Marine 
Corps Force 2025 attempts to mitigate some of these shortfalls.
                    requirements of the future force
    In addition to force structure changes, the Marine Corps Force 2025 
effort identified broad ground equipment capability gaps and specific 
requirements of the future force. Within current budget and endstrength 
limits, the Marine Corps has prioritized its efforts across the MAGTF. 
Ground program priorities include modernizing the amphibious vehicles, 
combat and tactical vehicles, sensor and command and control 
capabilities, and long range precision fires.
Modernize the amphibious vehicle fleet
    The combat and tactical vehicle modernization programs account for 
a significant portion of Marine Corps modernization investment. The 
overarching combat and tactical vehicle investment priority is the 
modernization of the assault amphibian (AA) capability with a 
combination of complementary platforms. The Amphibious Assault Vehicle 
Survivability Upgrade (AAV SU) and the Amphibious Combat Vehicle (ACV) 
programs are the means to replace the legacy AAV.
    The AAV SU program will ensure the current fleet of AAVs is more 
survivable and combat effective until ACV and future systems are fully 
developed. The AAV SU program will modernize 4 of 10 Assault Amphibian 
(AA) companies and requisite elements of the supporting establishment. 
This quantity supports the phased modernization of this critical 
capability while sustaining sufficient capacity to meet a 2.0 MEB 
Assault Echelon lift through 2035. The Amphibious Combat Vehicle (ACV) 
1.1 program will modernize 2 of 10 AA companies. The program was 
certified Milestone B in the fall of 2015. Two vendors, BAE and SAIC, 
were selected to produce 16 prototypes each for further testing. The 
vendors are currently building and delivering their prototypes for 
developmental testing. Milestone C is planned for 3rd quarter fiscal 
year 2018, with an Initial Operating Capability (IOC) planned for 
fiscal year 2020, and Full Operating Capability (FOC) by fiscal year 
2022. ACV increment 1.2 will modernize 4 of 10 AA companies and is 
expected to achieve IOC by fiscal year 2023, FOC by fiscal year 2026. 
Increment 1.2 will also add mission role variants for command and 
control and recovery.
    We plan to replace AAV SU by 2035. We remain committed to 
evaluating ways to extend the amphibious task force's operational 
reach. We have identified a decision point in the mid-2020s that will 
allow us to assess technologies and materiel alternative to enable 
extended reach without unacceptable trade-offs and unaffordable costs. 
Science and Technology (S&T) lanes have been established to (1) improve 
water speed and fuel economy, (2) research future sleds and connectors 
to transport lower water speed platforms at higher speed and (3) to 
develop and experiment with small unmanned amphibious vehicles and 
swarms with modular payloads. This mid-2020s decision point will set 
conditions to begin a program to replace the Survivability Upgrade AAV.
Modernize ground vehicles
    Replacement of the portion of the high mobility multi-purpose, 
wheeled vehicle (HMMWV) fleet that is most at risk remains our second 
highest priority. Our most at-risk HMMWVs are those that perform combat 
functions which typically expose them to enemy fires. In partnership 
with the Army, the Marine Corps has sequenced the Joint Light Tactical 
Vehicle (JLTV) program to ensure affordability while in the first 
increment replacing about one third of the legacy HMMWV fleet in 
conjunction with the fielding of ACV 1.1. This first procurement 
constitutes Increment 1.0, which achieves the Approved Acquisition 
Objective (AAO) of 5,500 vehicles. This AAO is fully funded and will 
achieve IOC in fiscal year 2020 and FOC in fiscal year 2022. Future 
increments will address the remainder of the HMMWVs.
Modernize our ability to command and control
    The ability to coordinate and synchronize distributed Command and 
Control (C2) sensors and systems is critical to the success of the 
MAGTF both afloat and ashore. These capabilities are ever more 
important as our adversaries' technological capabilities rapidly 
advance. Our top priority in this arena is the Ground/Air Task Oriented 
Radar (G/ATOR). G/ATOR Block 1 provides the MAGTF a state-of-the-art 
air defense/surveillance capability. Block 1 is currently in low rate 
initial production (LRIP) and the first two systems were received by 
the Marine Corps this spring for testing. G/ATOR Block 2 provides the 
MAGTF new counter-battery/target acquisition capability and is in the 
Engineering & Manufacturing Development (EMD) phase of acquisition. 
Block 1 and 2 systems will achieve IOC during fiscal year 2018 and FOC 
by 2024.
    In addition to these major programs, the Marine Corps is developing 
and procuring several critical enablers for the MAGTF of 2025. Common 
Aviation Command and Control System (CAC2S) provides common, modular, 
and scalable solutions to replace legacy aviation Command and Control 
(C2) systems in C2 nodes such as the Direct Air Support Center (DASC) 
and Tactical Air Command Center (TACC). The system integrates G/ATOR 
and AN/TPS-59 radar feeds with tactical data link information from 
other networks in order to conduct air command and control. CAC2S Phase 
2 fielding began on May 8th at Marine Air Control Group 28, Cherry 
Point, NC. The first nine systems will be fielded by February 2018.
    The MAGTF of 2025 must also improve the networking capability of 
ground systems. Networking on the Move (NOTM) is being procured to 
enhance networking among both ground vehicles and aviation platforms. 
NOTM provides the MAGTF with robust beyond-line-of-sight command, 
control and communication capabilities while on the move or stationary. 
Using existing commercial or military broadband SATCOM, this system 
extends the digital network to marines at the furthest reaches of the 
battlefield. This system will enable the distributed Marine Forces of 
2025.
    The Marine Corps continues to make rapid progress in the use Small 
Unmanned Arial Systems (SUAS). Within the next 18 months, every 
infantry battalion in the Marine Corps will have multiple SUAS 
platforms for conducting Intelligence, Surveillance, Target Acquisition 
and Reconnaissance (ISR), enhancing the reach of current communications 
equipment, and for use in training for countering enemy UAS platforms. 
As recently as February 2017, 3rd Light Armored Reconnaissance 
Battalion conducted a proof of concept during training using SUAS as 
the primary observer for the adjustment of mortar fires. The Marine 
Corps is using some commercial off-the-shelf systems as well as systems 
produced through the use of additive manufacturing. Simultaneously, the 
Marine Corps is advancing the digital interoperability between these 
systems and digital communications systems in order to synchronize as 
well as control SUAS platforms.
    Lastly, the Marine Corps must advance its long range precision 
fires capabilities. In support of this requirement, we have prioritized 
the reactivating 5th Battalion, 10th Marines as a High Mobility 
Artillery Rocket System (HIMARS) unit. Due to reach IOC in fiscal year 
2021, this battalion will expand long range fires capability to II 
Marine Expeditionary Force based in Camp Lejeune, North Carolina. In 
addition, we are exploring the ability to launch Guided MLRS rockets 
from aboard ships and modifications to the rockets to enable engagement 
of moving targets.
    Create opportunities to innovate and achieve rapid advances in 
capability (separate section, not linked to ``ground programs''
    Innovation, both at the individual and institutional level, is key 
to building the future force. The Marine Corps Warfighting Lab/Futures 
Directorate (MCWL/FD) leads the Marine Corps' innovation efforts. In 
constant pursuit of leap ahead technologies and innovative ideas, MCWL, 
along with the operating forces, the supporting establishment, and 
coalition partners, conducts exercises and experiments to test ideas 
that will enable the amphibious force of the future. Just over a month 
ago, MCWL and its Rapid Capabilities Office (RCO) lead the Ship to 
Shore Maneuver Exploration and Experimentation (S2ME2) demonstration, 
part of the Advance Naval Technology Exercise series of experiments. 
The exercise explored over 110 technologies focused on enabling 
amphibious operations in a contested maritime environment. Technologies 
on display included unmanned systems and robotics, additive 
manufacturing and autonomous technologies and weapons platforms. At 
little cost to the Marine Corps, the exercise identified several 
technologies with potential that will be further explored at exercises 
like Bold Alligator 17, and subsequently provide operational prototypes 
for employment and assessment by the operating forces. For fiscal year 
2018, MCWL and DASN, RD&E will seek opportunities to equip marine units 
with emergent and disruptive capabilities in areas such as long-range 
precision fires, swarming unmanned systems, and tactical Information 
Warfare.
    Experiments and exercise like S2ME2 enable the pursuit of 
practical, cost effective advancements in technology. Authorized 
funding for these low-risk, potentially high-reward efforts must be 
protected as the Congress seeks cost savings across the federal budget. 
The fiscal year 2017 NDAA enabled the Marine Corps' rapid acquisition 
process through section 804 and 806. Though successful, our efforts 
have been funded by sacrificing funding in other related programs. 
Access to the funds authorized under the Rapid Prototyping Fund, 
referred to in section 84, will enable the service to make the most out 
of these new authorities.
              continued relevance of the amphibious force
    I must take a moment to emphasize our title 10 responsibilities to 
serve as the nations' amphibious force in readiness. The MAGTF's role 
in the nation's defense is to serve as part of the naval force. Our 
ability to project power and respond swiftly to any crisis is 
contingent upon the mutually supporting relationship between the Navy 
and Marine Corps. The ground programs highlighted previously serve 
little purpose if they cannot be projected to the point of crisis. 
Power projection from the sea requires a forcible entry capability, 
capability that is provided by Marine Expeditionary Brigades (MEB) 
embarked on amphibious warships. Current strategy requires us to be 
able to response to two crises simultaneously, referred to as the 2.0 
MEB requirement. While the on hand number of amphibious warships falls 
short of the mutually agreed upon 38 ship requirement, the current 30 
year shipbuilding plan supports a 38 ship amphibious fleet. The Marine 
Corps fully supports the 38 ship amphibious fleet and the allocation 
requisite funding to improve the readiness of the current amphibious 
fleet.
    The requirement for 38 ships remains relevant despite the 
increasingly contested maritime domain. Peer and near-peer adversaries 
with increasingly capable technology have caused us to re-examine how 
we operate and how we gain and maintain access to the littorals. We 
continuously study the problem, and we explore possible solutions in 
the form of concepts, such as Littoral Operations in a Contested 
Environment, through exploration of new technologies such as those 
highlighted at S2ME2, and through cooperation with the Joint Force and 
coalition partners. Access to the littorals is a requirement for United 
States to remain a credible force on foreign shores and to deter 
aggression.
    Lastly, the Marine Corps Operating Concept requires surface and 
vertical lift capability to transport personnel, supplies and equipment 
from within the sea base and maneuver them to objectives ashore. The 
ability to project credible power from the sea is contingent upon the 
availability of high speed, heavy lift, long range surface connectors 
that allow future expeditionary force commanders the flexibility to 
operate in contested environments. We will continue to use multiple 
complementary systems that buttress the strengths or mitigate the 
weaknesses of sister systems to set the conditions for forcible entry 
operations. However, the current fleet of surface connectors, the 
Landing Craft Air Cushioned (LCAC) and Landing Craft Utility (LCU), are 
reaching the end of their services lives. The Marine Corps supports the 
current Navy Connector Strategy to procure replacement LCAC 100s, but 
remains extremely concerned with any delay in delivery of these 
platforms. Further delay risks creating gaps in this critical 
capability.
                               conclusion
    We are committed to delivering required warfighting capabilities to 
marines in a timely and affordable manner. However, continued budget 
uncertainties risk our ability to fulfill this commitment. The Marine 
Corps is at a critical juncture. We have delayed modernization so long 
that our technical advantages over our adversaries have been 
diminished. The continuing need to maintain and update legacy systems 
takes the focus off innovation and is costly in its own right. 
Experience tells us that investing in new capabilities and technologies 
is a proven cornerstone for your marines and sailors to achieve mission 
success today and into an uncertain, but no less demanding future.
    The Marine Corps continues to improve our essential ground 
capabilities through a strategy that is stable and affordable. We 
recognize the need for continued vigilance in achievement of a proper 
balance between current readiness and the long-term imperatives of 
modernization and innovation. This balance is critical to ensuring the 
Marine Corps and the individual marine has the capability to fight and 
win future battles while being prepared to respond today as our 
Nation's force in readiness.
    On behalf of the marines and sailors who provide the Nation with 
its forward deployed crisis-response force, we thank you for your 
constant support in an era of competing challenges. These critical 
modernization investments will ensure our success not if, but when 
future conflict occurs . Recognizing fiscal challenges faced by the 
Nation, we remain committed to fielding the most ready Marine Corps the 
Nation can afford. Mr. Chairman, and distinguished committee members, 
on behalf of your marines, we request your continued support for our 
modernization strategy.

    Senator Wicker. Well, thank you. You were kind enough to 
thank the committee, but thank you.
    With regard to your record of frugality, we appreciate 
that, but frankly I think frugality can only go so far. We need 
to get you what you need, General. I hope this hearing will 
enlighten us and perhaps those who are watching this hearing 
about what we need.
    So let us drill down on some of the things that Senator 
Hirono and I mentioned in our opening statements. Walk us 
through the concept of operations for getting ashore from the 
amphibious ships in the future, the roles of ship-to-shore 
connectors, utility landing craft, and amphibious combat 
vehicles.
    Lieutenant General Walsh. Thank you, Chairman.
    I would start with whatever the mission may be. The Navy-
Marine Corps team forward deployed is ready for a number of 
missions. Those could be from the lower end humanitarian 
assistance missions to the higher end of joint forcible entry 
operations where we may be the first ones on the scene. So 
taking a look at that capability, I would start with whatever 
the mission is, and we always start with what that threat may 
be and defining how we will approach that threat based on the 
capabilities that not only we but also the naval force and the 
joint force at large.
    So with that said, the first thing that we always have to 
do is take a look at the threat and set the conditions to 
operate in that environment. So depending on that threat 
bringing in joint and naval capabilities to set those 
conditions right to be able to allow us to operate from those 
amphibious ships to conduct amphibious operations is a critical 
part of setting those conditions right.
    We have got the landing force that is out on those ships on 
the amphibious task force that we have got. To be able to get 
ashore to move those both marines, sailors, and equipment 
ashore, we start with the AAV, or our primary vehicle that we 
have today that we are upgrading, to be able to move those 
marines ashore in a requirement that we have today for a two 
marine expeditionary force forcible entry capability that would 
allow in that size operation in a large-scale operation.
    Now, those same vehicles can be used all the way down to 
the low end for humanitarian assistance all the way to more 
crisis response type missions. Those AAVs are those first 
capabilities that bring those marines ashore to conduct those 
amphibious operations.
    At the same time, we are developing the amphibious combat 
vehicle 1.1. That 1.1 capability will be a follow-on amphibious 
capability that we will be using into the future.
    Senator Wicker. Well, let us go ahead and then talk about 
the 1.2 and the 2.0.
    Lieutenant General Walsh. The 1.1 is--again, it is two 
companies or two battalions--an amphibious company supports a 
Marine battalion. So the ACV 1.1 is 204 vehicles to be able to 
support Marine operations with two battalions of marines. So 
that is the next increment.
    The program itself is designed along an incremental 
approach. So these vehicles, as we talked about at the 
beginning, were by two contractors right now, two vendors, that 
we will evaluate over the next year to be able to decide as we 
downsize which one has the best capabilities. But those 
capabilities are really designed to get the marines, once they 
are ashore, to operate in a lethal and maneuverable fashion.
    As we evaluate what we see out of the 1.1 capability, those 
204 vehicles, about 3 years behind that is we are developing 
the 1.2 capability. That 1.2 capability is going to be a little 
over double in size the requirement of the 1.1. So we will 
learn from the 1.1 capability, and as we then look to see how 
the incremental approach towards the 1.2 capability to spiral 
in new capabilities into that, that would provide the 
capability for four battalions to operate once they are ashore. 
So between the AAV with the amphibious assault capability of 
four battalions, two battalions on the 1.1, and four battalions 
on the 1.2, that would be our requirement for 10 battalions' 
worth of amphibious capability.
    Senator Wicker. Very good. I really anticipated that that 
question would take my entire first round. So Senator Hirono, 
you are recognized, and then Senator Cotton.
    Senator Hirono. Thank you very much.
    General, I noted in your testimony that you paint a very 
serious picture of where we are in terms of our capabilities. I 
quote. While our focus was elsewhere, our potential enemies 
modernized, reducing the technological advantages American 
forces once took for granted. In many theaters, we can no 
longer assume superiority in any domain: sea, air, land, space, 
or the electromagnetic spectrum. In short, the Marine Corps is 
not organized, trained, or equipped to meet the demands of the 
future operating environment. So clearly, you need help. That 
is what we are here to do.
    So the various vehicles like the ACV, are really critical 
to your mission. The ACV is your highest priority in the ground 
combat and technical vehicle portfolio, as it will replace, as 
you said, the existing AAV.
    In November 2015, the Marine Corps awarded, as I mentioned, 
two contracts. I just want to make sure that these contracts 
are on time, and there has already been a bid protest. So do 
you feel confidant, General, that the program is on track and 
will still meet the development and testing guidelines because 
there are 32 vehicles that are going to be developed by these 
two companies, and there will be all kinds of testing? Can you 
assure us that things are on track?
    Lieutenant General Walsh. Yes, ma'am. We are just getting 
ready to start the testing, and we are on track for that. But 
if I could, I would ask if I could defer the question to Mr. 
Garner, who has really the expertise and can really walk you 
through that.
    Mr. Garner. Yes, Ranking Member. This is actually a good 
day for me to do this because we have had some successes as 
recently as today.
    Both contractors are delivering. It is a competitive 
environment. One of them is ahead on the delivery schedule, is 
meeting all criteria, is ahead on testing, and by the end of 
this week, we will have 13 vehicles from one of them. We 
currently have 12 already from them.
    The other one--we are accepting four vehicles today, which 
is why I say it is a good day to do this. We already had two. 
So we will have six.
    By the end of next week, it will be 15 from one and it will 
be 12 from the other. That is enough to fully support the test 
schedule to maintain the critical milestone, the milestone C, 
about this time next year, next July or August time frame.
    These are in many cases well developed vehicles and are 
doing well in the testing and are in fact exceeding some of our 
expectations. So we are very much comfortable that we are on 
course. Between the two competitors, we are going to have a 
very good selection that will bring really good capabilities to 
the Marine Corps, and we will be prepared to move forward this 
time next year into production.
    Senator Hirono. To follow up, the GAO [Government 
Accountability Office] office noted in an April 27 report that 
the protest, as I mentioned, resulted in testing delays for the 
program. While you are articulating that we are on track, I 
have a concern that there will be an overlap between the 
testing and the production. So what should follow is the 
testing is completed and then you produce the vehicles. But 
apparently with the time frame, there may be an overlap? So 
there may be some vehicles that will be built that potentially 
will require costly modifications. So what are you doing to 
make sure that that----
    Mr. Garner. Well, ma'am, we have done a couple of things. 
One is that we actually adjusted the schedule to accommodate 
the protest. So we actually moved the schedule almost three 
months to the right in terms of the testing and the milestone 
C. So the protest did slow down the overall program, but it did 
not affect the testing. The testing that we are conducting is 
all of the testing prior to milestone C, is all of the testing 
that was originally in the testing plan that was approved by 
DOT&E [Department of Test & Evaluation] and all the agencies. 
All of the critical testing required prior to milestone C will 
still be done. On practically any program, some testing like 
continued reliability growth, other testing continues after 
milestone C. That is considered to be actually very low risk.
    Our budget includes the ability to do the retrofit for the 
initial vehicles which is actually a pretty low number of 
vehicles. It is in the 20s. So we believe we have accommodated 
that.
    Frankly, DOD non-concurred with that GAO report, to include 
the DOT&E strongly non-concurred with it. They believe we are 
doing what we need to do.
    Senator Hirono. Thank you.
    Senator Wicker. Senator Cotton?
    Senator Cotton. Thank you.
    Thank you, gentlemen.
    General Walsh, I found a line from your opening testimony 
to be particularly notable. You said on page 3: Some regional 
actors seek to secure their objective by taking a continuous 
series of small steps to incrementally establish new conditions 
favorable to their objectives. This undermines existing 
authority and erodes prevailing norms without resorting to 
actual fighting. That is pretty much the definition of 
strategy. Is it not?
    Lieutenant General Walsh. Yes, Senator, it is.
    Senator Cotton. To achieve a preponderance of force and 
strategic position from which to deploy to force your enemy to 
submit to your will, preferably without fighting.
    Lieutenant General Walsh. Yes, Senator.
    Senator Cotton. As you say, without resorting to actual 
fighting, that is because the forces in defense of the 
international order that are attempting--that is being 
challenged are refusing to commit to fighting to defend that 
order against such incremental steps.
    Lieutenant General Walsh. Yes, sir. Like I said, I think 
since we have been so focused on Iraq and Afghanistan, that a 
lot of things have gone on around the world, and we are being 
challenged in areas where we have not--we have taken for 
granted in the past.
    Senator Cotton. So you say some regional actors. Who are 
those regional actors?
    Lieutenant General Walsh. I would start with Russia, China, 
North Korea, Iran would be the four main actors, and certainly 
a lot of violent extremist state actors around the world.
    Senator Cotton. Are Russia and China the biggest 
challengers since they are the ones who have global or at least 
continental ambitions?
    Lieutenant General Walsh. As we look at the threats that 
are out there, obviously there are threats like North Korea and 
a very conventional fight in North Korea, a major adversary for 
us to deal with. But I think as we have looked at modernizing 
the force and looking at the future operating environment, 
there is no question that as we look at as regional actors, 
Russia, China, and Russia operating in areas well outside of 
where we have seen them operate before, the capabilities that 
they are developing are certainly capabilities that work 
asymmetrically against our strengths. I think that is what we 
are seeing is that for us to be able to stay with overmatch 
wherever we go we expect our marines to have, we are going to 
have to continue to look at that threat and outpace that threat 
in a lot of areas that we have not had to deal with in the last 
15 years.
    Senator Cotton. Can you say more about those asymmetrical 
capabilities that they are developing, in particular Russia and 
China?
    Lieutenant General Walsh. Things I think that we focus on 
is when we talk about maneuver warfare, maneuvering today in 
all domains. So when we talk about maneuvering in the 
electromagnetic spectrum, we see today capabilities that while 
Russia kept a lot of their Cold War capabilities when it came 
to electronic warfare, they have kept those, they have improved 
on those, and they have kept a lot of their fielded formations 
that we have let those capabilities recess that we did not 
need. A lot of our EW [Electronic Warfare] capabilities--we 
worked in the counter-IED areas. We did not work against 
counter long-range fires, counter-battery, electromagnetic 
spectrum denial, the EW capabilities that we had back in those 
days. So I think the electromagnetic spectrum we see, we see in 
cyber them operating in that area, along with capabilities and 
information operations that we have seen expand tremendously 
when you look at some of the operations that they have done in 
Ukraine.
    Long-range precision fires, now capabilities that in the 
Cold War days we would constantly have to meet that threat and 
outpace that threat. We see in a lot of cases today that their 
long-range precision fires, their ability to sense, make sense 
of the area, then act, and use long-range precision fires is 
well beyond what we have been looking at over the last few 
years in our own arsenal.
    Senator Cotton. Long-range precision fires, whether that is 
in Eastern Europe with Russia advancing a more advanced air 
defense system or on the Chinese shore with anti-access/area 
denial weapons--we often focus on what that means for air power 
pushing, for instance, ships out of the first island chain in 
East Asia or even out to the second. What does it mean, though, 
for amphibious warfare? How will the marines conduct amphibious 
warfare in a hostile A2/AD [Anti Access/Area Demand] 
environment?
    Lieutenant General Walsh. The first thing I would say is 
pushing us out--that is some of the things that we do, your 
forward-deployed naval forces do every day. We operate inside 
that contested space every day, building alliances, building 
partners, working with our allies. So with the hope that we are 
there, we build partners. We have done the deterrence that we 
never go the war.
    At the same time, when you see China building some of the 
islands that they have done in the South China Sea, those kind 
of things challenge not only freedom of navigation, but they 
also threaten our allies. So building those kind of 
partnerships to ensure we can persist and operate with advanced 
expeditionary bases is a piece of that.
    But when it comes to operating in that contested 
environment, it is certainly going to take not only our 
amphibious force and our marines, but the entire joint force 
and probably more specifically, the entire naval force when it 
comes to submarines, aircraft carriers, cruisers, destroyers to 
be able to persist and operate in that contested environment.
    Senator Cotton. Thank you, gentlemen.
    Senator Wicker. Senator King?
    Senator King. Thank you, Mr. Chairman.
    We are talking mostly about amphibious vehicles here so 
far. Over the last 20 years, what percentage of marine 
deployments have involved amphibious assaults? Any idea?
    Lieutenant General Walsh. We kind of track that and show 
that over the years, depending on what type of amphibious 
operation, but between exercises, deployments, humanitarian 
assistance operations, we use our amphibs all the time. I mean, 
there are times--I mean, we use examples where we were 
conducting humanitarian assistance, disaster relief operations 
that were conducted in Pakistan at the same time we were doing 
deep strike operations into Afghanistan from the same three 
ships, and the third ship doing maritime counter-piracy 
operations. So these type of operations are going on every day 
with those amphibious ships.
    Senator King. These amphibious attack vehicles, though--
were they used in those?
    Lieutenant General Walsh. Certainly in the case of our 
humanitarian assistance in Pakistan specifically, they would 
have been used. Anytime our marines are going ashore, they are 
taking these vehicles with them to operate. In many cases, they 
are coming ashore where they do not need any type of pier 
capability to be able to come ashore. They can come ashore, 
bring their capabilities with them, along with the connectors 
we bring like our LCACs [Landing Craft Air Cushion] and our LCU 
capability.
    Senator King. These vehicles that we are talking about, the 
AAV and now the ACV--how effective are they on land? They will 
drive up on the beach. Are they effective fighting vehicles on 
land, or does that have to be an entirely different vehicle?
    Lieutenant General Walsh. That is a great question. So one 
of the things that we were struggling with the EFV 
[Expeditionary Fighting Vehicle] program that was canceled was 
trying to design a vehicle that could go fast like a connector 
would, like an LCAC, something like that, and could fight 
ashore. What we decided with that was the tradeoff was just too 
high to try to do both things within one vehicle. So the effort 
that we have put into now with the ACV is to be able to get a 
vehicle that can get us ashore, but when it operates, it is 
probably going to operate 99 percent of the time ashore. It is 
going to be able to operate a fighting vehicle with our marines 
when they get ashore.
    Senator King. When it is ashore.
    Lieutenant General Walsh. When it is ashore.
    Senator King. So the ACV is designed to do both.
    Lieutenant General Walsh. It is designed to do both, but I 
would argue where we were with the EFV where we were trying to 
optimize in warfare at sea, the ACV is more optimized to 
operate and fight ashore.
    Senator Wicker. So what will it not be able to do that you 
hoped the----
    Lieutenant General Walsh. What we had hoped is we had speed 
desirements up to about 25 knots back on that vehicle, to try 
to be able to come from the ships to shore at about 25 knots. 
Now we are looking at vehicles that are at a much lower number 
than that because of the technology. To get them to go that 
fast, we are trading off too many capabilities, armor 
protection, lethality, and mobility, the ability to maneuver 
quickly when they got ashore.
    Senator King. Our question is how effective is it as an 
onshore vehicle.
    Lieutenant General Walsh. Once it gets ashore?
    Senator King. Correct.
    Lieutenant General Walsh. I think that is where we are 
going to see the real benefit. It is a wheeled vehicle, number 
one, which is probably going to operate much better ashore than 
we had with some of the tracked vehicles that we have had in 
the past. So I think by going in this direction, the marines 
that are going to be optimized when they are ashore--they are 
going to have a much better capability now with the two vendors 
we are using today as we compete those two capabilities that we 
will see as probably a much better fighting vehicle ashore than 
we have in our current AAV force today.
    Senator King. How heavily armored is this? Is there any 
consideration of active defensive measures?
    Lieutenant General Walsh. The armor protection that we have 
got in those vehicles today would be what we call a two times 
armor protection capability. So on the order of what we have 
got in our MATVs [Mine Resistant-All Terrain Vehicle] or MRAP 
[Mine Resistant Ambush Protected Vehicle] capabilities. So 
built into that vehicle is high protection capability once that 
vehicle gets ashore.
    Going back to what we were talking about earlier with the 
threats that we are seeing today, the active protection system, 
by buying a new vehicle like the ACV with the growth capacity 
that the vehicle will have, we will be able to bring in active 
protection systems into the future. It is something we are 
looking at very hard right now. The technology really has just 
not been where we wanted it to be. It is starting to get there. 
Coming from the sea as more of a light force, these active 
protection systems have weighed an awful lot, and we did not 
want to be able to put them--some of it is a buoyancy thing 
being able to get the vehicles ashore. The technology is 
getting better, and we are looking at that. We think in the ACV 
in the future we will be able to do that. With General Shrader, 
we are already, along with the Army, experimenting with an 
active protection system, the Trophy system, on our M1A1 tank 
because it can carry a lot more weight than our amphibious 
vehicles can.
    Senator King. I hope when you are designing, testing, and 
developing the manufacturing that modularization is part of the 
concept so that we do not have to build new platforms as 
technology changes. I think that is a key thought because 
technology is developing so fast. We have to be able to plug 
and play different systems and different types of technology. 
General, is that part of your design concept?
    Brigadier Brigadier General Shrader. Yes, sir, absolutely. 
Right now, speaking about active protection systems, the 
challenge right now is size, weight, and power. As General 
Walsh said, a lot of the systems--right now, what we have 
basically non-developmental or off-the-shelf--are heavy and 
they draw a lot of power. So while we are looking at those to 
how it would adapt to the M1A1 tank, we are also looking at how 
can we now take that and design it into future vehicles so that 
we can plug and play because maybe we only want to buy a 
battalion's worth of set----
    Senator King. We do not want to be bringing marines ashore 
in a vulnerable vehicle given development of offensive 
capability.
    Brigadier General Shrader. Yes, sir.
    Senator King. Thank you very much, Mr. Chairman.
    Senator Wicker. General Walsh, before I recognize Senator 
Rounds, if we came back early on a Monday morning and went to 
Aberdeen, what could this subcommittee--what sort of testing 
could you show this subcommittee?
    Lieutenant General Walsh. We need to defer that to Mr. 
Garner, if you do not mind, Senator, because he is probably a 
little bit more familiar than I am in the exact testing. I know 
a lot of it is how the vehicle can sustain damage hits. We have 
got the testing going on in a lot of different places, but 
specifically to Aberdeen, which is close by, if you do not 
mind, I would like to defer to Mr. Garner, sir.
    Mr. Garner. Mr. Chairman, had you gone this morning, you 
would have seen the final live fire shot on the AAV-SU [Assault 
Amphibious Vehicle Survivability Upgrade] which was successful, 
the survivability upgrade. So AAV-SU, as of about 10 o'clock 
this morning, has met all of its survivability requirements.
    Senator Wicker. I did not get the invitation. I was with 
General Goldfein on this originally.
    [Laughter.]
    Mr. Garner. So Aberdeen does a lot of our testing. We do a 
lot of the swim testing out at the amphibious vehicle test 
branch in California. What is primarily done at Aberdeen is all 
of the live fire testing. We do a lot of the reliability 
testing where they run it over various mobility courses. In 
fact, they will swim it up there and they do reliability growth 
testing. They do a lot of the other what we call just general 
mobility testing, how it handles rough courses, how it goes 
over obstacles, et cetera. That is the bulk of it--the 
mobility. The live fire is the big one up there. But we 
currently have ACVs up there doing testing every single day 
from both vendors.
    Another thing they do is what we call transportability 
testing where they hook onto the tie-downs and pull on them to 
make sure they do not break and that you could hook the vehicle 
down on a ship or on a connector, an LCAC.
    If you were to go up on a Monday morning, you would see 
right now primarily ACV doing those sorts of things because AAV 
is pretty much finished up there. They are within the last week 
of their operational assessment, and they are done with their 
first round of testing leading to a potential milestone here in 
about two months.
    Senator Wicker. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service.
    General Walsh, in testimony before the full committee, 
General Dunford identified inventories of Javelin, TOW [tube-
launched optically tracked wire-guided missile], and HIMARS 
[High Mobility Artillery Rocket System] weapons programs as 
insufficient to meet U.S. Marine Corps requirements. Can you 
describe in more detail the risks being assumed by these 
shortfalls and your efforts to mitigate them?
    Lieutenant General Walsh. Senator Rounds, we have had those 
shortfalls that were identified because of the numbers that we 
had been using. During the last year and into this budget year, 
we are plusing up all three, the Javelin, the TOW, the HIMARS, 
to include the new HIMARS AW [Advanced Warhead] round, 
alternate weapon. So we have seen that, and I think with the 
focus with the additional money that Congress has been giving 
us, the Secretary of Defense has had us focused on near-term 
readiness, along with filling holes, as we have called it, in 
2018 with looking at more modernization growth into 2019. In 
that filling holes, one of it was exactly what you are talking 
about, filling holes in our ammunition accounts. The ones that 
have been focused on in this budget was the Javelin, TOW, and 
certainly the HIMARS pieces.
    Senator Rounds. Any other weapons systems that are facing 
similar shortages?
    Lieutenant General Walsh. The 155. As you have probably 
seen in the paper, we have been firing a lot of 155 HE [High 
Explosive] rounds in Syria and Iraq. That is an area that we 
are funding and plusing up that account also, Senator.
    Senator Rounds. Can you update the subcommittee on the 
Marine Rotational Force Darwin? They will be conducting 
exercises and training on a rotational basis with the 
Australian defense force. Can you kind of give us an update on 
what is going on? I understand that the intent in the coming 
years is to establish rotational presence of up to, I believe, 
2,500 Marine Air/Ground Task Force members in Australia.
    Lieutenant General Walsh. Thanks for that question, 
Senator.
    I tell you, the partnership that we have always had with 
the Australians is it is just a tremendous ally all the way 
back to the days where marines were working with the 
Australians in World War II. This has become a very good 
partnership. As you know, the Pacific is such a huge area, and 
trying to find good locations where we can train as a Marine 
Air/Ground Task Force Darwin operating down there, along with 
other places in Australia, has been a great place to now train 
and operate in the Pacific.
    We have been at it now for a few years. We continue to gain 
and learn from that. This last cycle that we--we go there in 
what is considered the dry period, which is April through 
October. We are there right now. For the first time, Senator 
Hirono, we flew four MV-22's all the way from Hawaii all the 
way to Australia. So we now have four MV-22's. You have seen 
them fly from the east coast or the west coast going over to 
the CENTCOM [Central Command] AOR [Area of Responsibility]. We 
just flew them all the way to the Pacific in a lot of areas 
marines throughout World War II had flown.
    Now we have got 1,250 marines there. We are continuing to 
maintain that. We have got ambitions to grow up to 2,500, and a 
lot of that so far has been fiscally constrained. But we have 
got a lot of great ideas we have to work with our partners over 
in Australia.
    Senator Rounds. Either for General Walsh or Mr. Garner. 
During the full committee as well as the Airland Subcommittee 
testimony, Army leadership and outside experts have cast doubt 
on the ability of the 5.56 round's ability to penetrate modern 
composite body armor that is proliferating at an alarming rate. 
We are concerned that Marine infantry units could find the 
standard issue M4A1 ineffective, which naturally we would 
consider to be wholly unacceptable.
    How closely is the Marine Corps working with the Army in 
terms of fielding a new round that can penetrate enemy body 
armor? Is there a strategy in place to accomplish this? If so, 
please provide an update.
    Lieutenant General Walsh. We are. We have been after this 
for quite a while with the Army trying to--and Congress has 
pushed us in this direction too to try to find a common round 
with the Army. Just as you said, we are seeing more body armor 
wherever our marines and soldiers deploy, more of it and better 
quality or better capability.
    So the rounds that we currently have are 855 rounds. We 
have been in the process of looking at a SOCOM [Special 
Operations Command] round, the 318A1, along with the 855A1 that 
the Army is using. We have been testing with them now for well 
over a year, trying to figure out the best round to go with. 
Indications are that we are trying to go with the direction 
that the Army is. In fact, right now our marines that are 
deployed into Afghanistan with our weapons are using the Army 
round. So there is a lot of good reason to have commonality.
    The good news with that round--both rounds actually--much 
more capable, and specifically the Army 855A1, much better at 
penetrating armor, along with personal armor protection. So 
that is a good reason to go with that. We have to work through 
a lot of things on our own weapons. The M-4, our M-27's, our 
IAR [infantry automatic rifle], infantry advanced weapon, along 
with our M-16's that we are working through some of the 
reliability things we are learning and testing. But we will 
make some adjustments from that, and I think in the end our 
marines will have a much better capability when we are done 
with it.
    Senator Rounds. So you think are moving in the right 
direction with regard to the new----
    Lieutenant General Walsh. I do, sir. Not only that, we are 
looking with the Army at another weapon that would give us 
increased capability for our marines, to include a higher 
caliber weapon.
    If you do not mind, I would like to let General Shrader who 
knows a little bit more about the testing of the 5.56, if he 
has time for that.
    Brigadier General Shrader. So, sir, General Walsh is 
referring to the testing that we have been doing with the Army 
on the EPR [Enhanced Performance Round] round, which is their 
advanced round. It is the M855A1 round. That is the one we have 
heard a lot about. The Marine Corps and the Army have been 
working toward trying to get to the same round.
    The testing that we are doing is that round has had some 
durability--it causes some durability issues for our new 
infantry automatic rifle that we fielded, the M-27. The testing 
will be complete by July of this year, and along with 
performance, specifically stopping power, effect on the 
durability of that weapons system, the ancillary equipment like 
the rifle combat optic--it has a flatter trajectory than the 
round that we currently have. Also training facilities--that 
round requires a larger surface danger area that we have to 
take into account for our ranges. So those four areas is what 
we are looking at for testing to inform us to make a decision 
how we will go forward.
    With regard to maybe a higher caliber, to answer the 
question about proliferation of body armor, we are working with 
the Army and SOCOM. As late as last week, there was a limited 
technical demonstration that was done with SOCOM on a higher 
caliber round specifically for their sniper rifle suite that we 
are working with them on. That could potentially address that. 
So we are very in tune with that. We do understand that that is 
a capability we have to pay attention to.
    Senator Rounds. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Senator Wicker. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thanks to the witnesses. Good discussions so far. There are 
a couple of things I wanted to ask about.
    Power source increasingly is a limiting factor that I know 
we are all trying to grapple with. Secretary Mattis, when he 
was General Mattis, used to come before the committee and once 
testified that we needed to unleash us from the tether of fuel, 
and recently Tesla surpassed GM in market capitalization. There 
is a lot of potential in markets for alternative power sources, 
and I wondered if you would talk about how you are looking at 
new power sources either for amphibious or ground combat 
vehicles.
    Lieutenant General Walsh. Thank you, Senator Kaine.
    This last year, as we were looking at where the force 
should go, one of the things that we did was we took 3rd 
Battalion 5th Marines as experimentation force. We took that 
battalion, redesigned the way they were configured by each 
company designed in a different configuration, and we gave them 
different capabilities from weapons, electronic warfare 
capability, intelligence.
    One of the things that we have been working very hard with 
is how do we save power differently, and not only how do we 
save power, how do we do things like purify water in different 
ways so we are not carrying as much water to things like 
General Shrader is looking at, how do we use polymer casing to 
lighten the load on the ammo to be able to do that.
    We did a lot of solar efforts with the experimentation 
force and hybrid generators. What we are seeing is with that 
experimentation battalion, between those different efforts, we 
are allowing them to maneuver much further and much faster 
because they have much less logistics requirements and able to 
operate on their own.
    One of the things that we are trying to do is operate in a 
distributed manner. The more we can distribute, the more we can 
maneuver and out-maneuver the enemy. But to distribute, you 
have got to have a lot of capabilities and be able to go 
further, and some of it is on the power side.
    So we are moving forward. We realize that that is something 
that has been our weak link, and it is going to allow us to 
operate in new ways. So I think between the hybrid generators 
that we are able to pull dirty power from a lot of different 
places, along with the solar capabilities that we are getting 
down to the squad level, it is moving us in the right 
direction.
    Senator Kaine. That is exciting and something that we focus 
on a little bit in the Readiness Subcommittee too, and we will 
continue to ask questions about that.
    Another innovation question that I am interested in Ranking 
Member Hirono talked about is the G/ATOR system in her opening 
comments. This one interests me because it is an open systems 
architecture model. I wonder about pursuing open systems 
architecture. Are there acquisition challenges to that? Is that 
relatively easy? Are you finding the private contractors you 
are working with are excited about that model? Talk a little 
bit about open systems architecture and the G/ATOR system and 
what you are learning as you are using that model.
    Mr. Garner. Senator, that is the way to go because it 
allows you to have the flexibility, obviously, to continue to 
develop a system for the future. That is one of the reasons 
that G/ATOR will actually replace five other radars and will 
fill multiple roles that will fill the role of air defense. It 
will fill the role of counter-battery, counter-mortar, and 
eventually it will do traffic control. It is the open system 
that allows us to do that.
    Back to Senator Hirono's remarks, G/ATOR is also doing 
extremely well. We are on track to field around February of 
next year the first block, which is the air defense, and later 
next year, the second block, which is the counter-battery 
radar. As we speak, it is down at Wallops Island conducting 
very, very successful DT [developmental testing] and, I would 
comment, linking with the common air command and control 
system, which provides an overall capability to the Marine 
Corps to detect but also to communicate. When you link that 
with shooters, that is a big part of your counter-UAS [unmanned 
areal systems] and other evolving threats.
    So I could have given a shorter answer which says we are 
very focused on it. Industry works with us on it. It is 
absolutely the way we have to go, and it is being very 
successful.
    Senator Kaine. It is vendor independent. It is 
nonproprietary. It allows interoperability among a number of 
different platforms. It allows private contractors to kind of 
use the open architecture and then build add-on units that you 
can more easily incorporate as you are working on----
    Mr. Garner. Absolutely, sir. All of those things and very 
successful.
    Senator Kaine. You know, the open architecture in G/ATOR--
is this something that you are doing in other acquisition 
programs? I just have not focused on this as much in other 
hearings we have had, and I was interested in the use of the 
open systems architecture on the G/ATOR.
    Mr. Garner. Generally, yes, sir. We are mandated, but we 
would do it anyway whether we were mandated or not. But that is 
across our acquisition programs we want to do that.
    Senator Kaine. That is great.
    Mr. Garner. Because we absolutely want to be able to--the 
ACV is a perfect example. The mention was made earlier of plug 
and play. We can plug and play weapons systems on that. We can 
plug and play things like the active protection. We can plug 
and play all the communications type systems, eventually even 
engines and transmissions. So we focus on it.
    Senator Kaine. If I could ask just one more question, Mr. 
Chair. Did the open systems architecture create security 
challenges of, you know, easier to hack? I mean, by being a 
more open system, are there unique security challenges to it?
    Mr. Garner. To be perfectly honest, sir, everything we do 
right now is creating----
    Senator Kaine. They have their own challenges.
    Mr. Garner. We have to go through the same measures 
regardless, and that is a growing and very complicated thing. 
But I would not say it is any harder because it is open 
architecture. You get into the issues of who is providing it 
and what the sources are for a lot of the stuff, but we have to 
do that with everything we do anyway.
    Senator Kaine. I appreciate it.
    Thank you, Mr. Chair.
    Senator Wicker. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair.
    Thank you, gentlemen, for being here.
    General Walsh, in your opening testimony in closing, I 
think you said that you are working to have the most ready 
Marine Corps the Nation can afford. The question that I have 
is, is the Marine Corps the Nation can afford the best possible 
Marine Corps to protect our troops and to project lethality on 
the battlefield? What is the gap, if there is one?
    Lieutenant General Walsh. I think that has been a real 
challenge or us looking back to where we have been. We have 
been so focused on forward-deployed readiness, very high tempo, 
and looking at the constant, same area we were deploying to, 
Afghanistan and Iraq, pretty much the same threat--it changed a 
little bit--trying to keep the readiness up so those marines 
had the best ready equipment to go forward.
    What we see now, though, as I touched on earlier, is if you 
continue to do that and do not modernize your force, you are 
not going to be ready to fight the next threat or these threats 
today with the high technology we are seeing, for example, 
unmanned aerial systems, some of the signals intelligence 
capabilities that they are getting. These things are pretty 
off-the-shelf technologies that they can buy, and now we are 
putting our marines at risk if we do not modernize also.
    So the challenge that I am seeing that we are working with 
the Commandant on is we cannot modernize across the entire 
force. So we are looking at where we can buy two battalions' 
worth, four battalions' worth of a capability to get modernized 
in these different areas so that we are getting these advanced 
capabilities but it is unaffordable to get them across the 
force in many cases. So the focus now is to modernize in 
discrete ways where we see a capability that we have got to 
have and try to bring that in as fast as we can, maybe at 
smaller quantities than we would have in the past.
    Senator Tillis. The next question has more to do with just 
the underlying processes of modernization and going from the 
concept to actual testing and certification. What work is being 
done to look back at the current processes and drive out 
efficiencies, compress timelines, and reduce cost? What 
specific efforts, beyond just fielding the capability, can you 
point to that you think are good practices to get to leaner 
execution?
    Lieutenant General Walsh. Two areas I would say is, one, 
the amphibious combat vehicle is one. It is an example of 
taking a non-developmental program that is pretty far along 
that somebody else has put the R&D [research and development] 
into, that you can look at it, compete it, and be able to 
procure that right in, bring that right in like we are doing 
right now. That is one example.
    The other one that I would say--and a lot of the help that 
Congress has done with the law with rapid acquisition that now 
what we are able to do much more effectively is something that 
works underneath me down at Quantico is the Marine Corps 
warfighting lab where we are able to bring in--buy a 
capability, experiment with our experimentation force, with our 
marines, experiment that, use that within our rapid 
capabilities office, and if we like what we see, to bring this 
in very quickly instead of in a slow developmental process 
where we would develop the requirement and go through our 
normal requirements process that in many cases can take years. 
So I think what we are seeing is being able to buy things 
quickly that have already been developed, a lot of technologies 
that way, and bring them in much later that when we experiment 
with it, try it, and then go out and buy it very quickly.
    Senator Tillis. Are you moving to a point to where when you 
are looking at fielding new capabilities, that you would use 
rapid acquisition process before you choose a more lengthy or 
costly process? Is that a standard operating procedure?
    Brigadier General Shrader. Senator, I think what you are 
describing is probably the rapid prototyping effort where we go 
out on the market and see if there is something out there that 
matches a need that we need. If we find it, we will go after 
it, buy it, and try it. Once we have tried it, if we think it 
is worthy of then fielding, the challenge, frankly, is trying 
to figure out how to take it from that to fielding and the 
funding that goes along with that, making sure that you have a 
long-term funding stream to support it, once it is fielded 
because if you buy it, try it, and then field it and if it is 
not supported in the long term, then you can run into problems 
there downstream with readiness and how do you refresh it.
    Senator Tillis. So that speaks to our ability to provide 
reliable funding streams on the tail end after you determine 
you need to deploy it.
    Brigadier General Shrader. Yes, sir.
    Senator Tillis. Today, how would you rate our reliability 
in terms of providing those kind of reliable funding streams?
    Brigadier General Shrader. I would say there have been some 
challenges in the past, sir.
    Senator Tillis. Thank you.
    Thank you, Mr. Chair.
    Senator Wicker. Were you asking the witness to rate the 
Congress, Senator?
    [Laughter.]
    Senator Wicker. Good question.
    I have been an advocate, gentlemen, of giving the Ukrainian 
military the weapons they need to get the job done. General 
Walsh, you and I discussed this earlier when you came by the 
office. What does that mean? What do I mean when I say what is 
going to be necessary and what are the Russians doing that we 
will have to combat? We are not going to put ground troops 
there. If we give them lethal weapons so they have a chance to 
win, which I think is in the vital national security interests 
of the United States' taxpayer, what are the dynamics there, 
sir?
    Lieutenant General Walsh. I think the dynamics would be the 
same whether it is equipping the Ukrainian forces--and I really 
probably am not smart enough to talk to exactly what they need 
specifically. However, what we see and how they are operating 
against Russian forces or Russian-supported forces is the same 
thing that we are viewing on how we would operate against them. 
So as we study them and watch, it is literally becomes a 
laboratory both for the Russian forces and the Russian-
supported forces and also what we are seeing. It is a 
laboratory both ways. They are testing their capabilities. They 
are using their capabilities, and then we are having to see 
what they are doing, just like we did in a lot of cases in the 
Cold War, but this is on an actual battlefield.
    So as I look at that and look at a lot of the ways the 
forces are being used--I mentioned to you earlier, Senator 
Wicker, a lot of this is stuff we had never dealt with for a 
long, long time, Cold war capabilities that certainly to be 
able to detect our radios when we operate. Everything we are 
doing today is the ability to share information, sharing 
information as our computers are up, our radios are up. We are 
emitting. In Afghanistan and Iraq, we took that for granted. We 
did not in the Cold War. We knew what our signatures were, what 
the requirements for signature management was.
    So in today's force, as we are experimenting based on what 
we see the Russians doing and what we now have to do in our own 
force-on-force training that we are doing today and the 
equipment that we are buying, is looking at how we can detect 
how we are emitting, what our electromagnetic signature is. 
Some of it is training. Some of it is capability on much they 
emit. But if they turn their radios on, what we see there, they 
are quickly detected. The Russian capabilities will know what 
units are located, just like they did in the Cold War and just 
as we did. We could locate units very quickly.
    A lot of what the UAS capability, unmanned systems that we 
see today that lots of proliferation of unmanned systems that 
are up that have electronics capability, along with EOIR 
[Electro Optical Infrared] capability, can quickly figure out 
where the units are located based on their electromagnetic 
signatures, and then with that, be able to target them very 
quickly with long-range precision fires that can move. How that 
equates to is if the enemy has better capabilities and they are 
able to bring that into their command and control construct 
better, that they can outpace and out-tempo the enemy. So in 
essence, when a force like us would turn on our gear to try to 
detect where an enemy force that has a higher capability, by 
the time we can pull it all together and target them, they have 
already got incoming rounds at us before we can target them.
    Senator Wicker. But how does that translate into what the 
Ukrainian forces need?
    Lieutenant General Walsh. I think it is a lot of cases, the 
same type of capabilities that we need, the ability to sense 
the electromagnetic spectrum, how we are emitting, where are 
our radios, how far out the distances are going, how we can 
detect enemy signals, where they are located, how strong they 
are, and quickly be able to figure out what type of unit that 
is located, get precision locations against those units to be 
able to jam those units, and be able to target them with 
precision fires.
    Senator Wicker. How helpful would this be to the Ukrainian 
effort to combat what the Russians are doing?
    Lieutenant General Walsh. I think just as helpful as it is 
for our own forces.
    Senator Wicker. It might be a game changer. Might it not?
    Lieutenant General Walsh. I will give you an example. One 
of the things, if you are familiar with our CREW jammers, are 
jammers that have been used to detect and defeat IEDs on the 
ground. We have got good capabilities against that. Now today, 
we are looking at those CREW jammers to use them to be able to 
sense the electromagnetic spectrum and also jam enemy 
capabilities. That is one example of repurposing what we 
already have in a way that we are going to be able to use that 
to get all of our ground formations the ability to operate in 
an electromagnetic way that we have never done since probably 
the Cold War. So those same kind of capabilities that we are 
trying to develop in our own force would be useful for the 
Ukranians or any other friendly force.
    Senator Wicker. What would your advice be to the commander 
in chief about what our policy should be with regard to 
supplying lethal weapons to the Ukrainians?
    Lieutenant General Walsh. Sir, I would have to take that 
for the record, and that would be one that would be outside my 
lane to be able to talk into that area. I could talk to 
capabilities, but what they should be getting and what they do 
not have today is something that----
    Senator Wicker. No reason I should not try. But I did 
expect that answer.
    Senator Hirono?
    Senator Hirono. General Walsh, you describe scenarios where 
it is really important that technologically we are able to keep 
up with whatever our enemies are doing in terms of detection 
and jamming. In line with some of the modernization questions 
that Senator Tillis was asking, are you satisfied with the 
targeted investments in research and development that are 
included in this budget request, and do we need additional 
investments? Because they are constantly improving their 
ability to see what we are doing and prevent us from doing 
whatever we are doing. We have to do the same thing. So are we 
keeping up or advancing actually?
    Lieutenant General Walsh. You know, I think, Senator, in 
the past--I think we have to look at research and development 
and experimentation in a new way. In the past, when we have put 
research and development out there, the money that we put into 
R&D is tied to a specific program in most cases. So as we 
develop an amphibious combat vehicle, we review the 
requirements process. We know we have to do the R&D to develop 
the program. We kind of know where we are going. The technology 
is moving so fast today that we do not necessarily know where 
it is going. A large vehicle like an F-35 or a Ford-class 
carrier or an ACV, you have got to put that R&D into the 
program to develop the program.
    What I think what we really need is, as General Shrader was 
touching on, money for R&D past the S&T [Science & Technology] 
world, but in the R&D world where we can have money that we can 
experiment and use some of these non-developmental capabilities 
that are out there to be able to procure some of it, to use it, 
test it, experiment with it, and see where those capabilities 
are going to take us. If we learn from it quickly--we may fail 
in certain cases and say that is not the direction we go. But I 
think in a lot of cases, what we are seeing is as we experiment 
in that area--I will give you an example of what Senator King 
was talking about.
    We have got a lot of light utility vehicles that are 
lightening the load. They are ATVs [All Terrain Vehicles] that 
can move marines and equipment very quickly around the 
battlefield, go on our MV-22's, and give mobility as we go 
forward. We were just out in an experiment that we did out at 
Camp Pendleton where we had over ten different vendors come in 
that allowed us to kind of see what their wares were, and we 
experimented with those capabilities. Afterwards, we went 
forward with contracts to buy a few more of those capabilities 
to put them into our next series of exercises like Bold 
Alligator.
    In the past when we have gotten the money for that R&D is I 
have had to tie to that to say, hey, this is tied to ship-to-
shore maneuver, and I would squeeze John's programs, Mr. 
Garner's programs, out of money he needed for something that it 
was already designed for. What we need is money in the R&D 
budget to be able to experiment with to be able to move forward 
in ways that we can learn from that experimentation as we see 
this technology moving so fast. It is almost a way to look at 
colorless money that we could work with Congress on set areas 
that we want to work on with congressional oversight, but yet 
we have got the ability to experiment and demonstrate 
capabilities.
    Senator Hirono. Is there such monies in the fiscal year 
2018 budget?
    Lieutenant General Walsh. We put some money in this year. 
We put about $10 million to do this. What I am hoping to do is 
that the appropriators--we can have the right conversation with 
the appropriators that they see what we are doing, and we can 
explain to them the different project areas that we are working 
and that money can stay in the budget. I think we can do a lot 
more of this. But the law that you have written allows us to 
move in that direction, but I think there is some hesitancy to 
allow us to have funds that may not have the discrete money 
tied to existing programs like we have had in the past. I think 
that is the old way of thinking, and I think you may have to do 
that on the large programs, but some of the things we are 
talking about we are talking about spending $10 million to $50 
million in a year to be able to move things much faster in our 
acquisition process.
    Senator Hirono. I am very intrigued by your approach. Are 
other services also wanting to do these kinds of experimenting, 
and do they have monies in their budgets, the Navy, the Air 
Force?
    Lieutenant General Walsh. On the Navy side, we tried that 
last year from the Department of the Navy, and I think it was 
around $55 million that was put into that. When it got up, it 
was taken.
    Senator Hirono. When you say it was taken, it was taken 
away?
    Lieutenant General Walsh. It was taken away when it got up 
with the Congress.
    I think this is something that we just need to have better 
dialogue back and forth. As we put the money in, what are we 
going to use it so Congress understands it may not be on a 
specific because we cannot, a year in advance, figure out 
exactly, but we know areas that we want to experiment in. It 
could be electronic warfare jamming capability. It could be how 
we are going to have unmanned vehicles get us ashore in a 
different way. We know we want to kind of go in that direction. 
We do not have the exact project a year out. Then when we see 
what is out there and having that dialogue with Congress so you 
know where we are going to spend the money, and then it is 
appropriated in the right way.
    Senator Hirono. Well, it make sense to me. It is very 
intriguing. I would want to have further dialogue with you, and 
I would like to be as supportive as I can be. I hope the chair 
is there too.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Hirono.
    Gentlemen, I said I would ask about the industrial base. So 
who would like to take that question? Assess the state of our 
industrial base for ground combat and tactical vehicles and 
suggest options.
    Mr. Garner. Senator, on my programs, which covers that 
portfolio of basically all the ground vehicles and G/ATOR and 
common aviation command, we do not really have significant 
industrial base issues right now in the traditional sense of 
your thinking of the heavy steel or the turrets or things of 
that nature.
    Part of our strategy is that a lot of the things we use 
have commercial applications. So to use again ACV as an 
example, the engines and transmissions and things of that 
nature are used in a lot of agricultural applications and they 
are worldwide.
    Where we do have an issue is sometimes with some of the 
suppliers of not the major components but the lesser components 
and the fact that if you do not have enough demand for them, 
they will go out of business and then you do not necessarily 
have a supplier. So we use a lot of mechanisms to deal with 
that, including foreign military sales in the case of the AAV.
    But quite frankly, at our scale--now, the Army may have a 
very different issue, but at our scale with our heavy 
vehicles--for example, when we did the ACV competition, we did 
have five vendors, and all of them had the industrial 
capability that they could have built it. It is not the 
standard model that it was in the past. But, for example, with 
ACV, about 80 percent of those vehicles and eventually more is 
being transitioned to U.S. production, and it has not been a 
major issue with us yet.
    What is an issue is when you go low and then you come back 
up. So it is true that some of the major producers--BAE, being 
a perfect example--went into a trough a couple of years ago. So 
now they are having to ramp back up, and it is less their plant 
capacity. It is the skilled workers. It is the highly trained 
welders, people of that nature. That is a challenge as they 
ramp back up to production.
    Senator Wicker. On the BAE situation, what was the reason 
for that?
    Mr. Garner. It was just lack of demand, Senator. It was the 
fact that they were not doing enough work to keep the size 
workforce they had had in previous years. In a place, for 
example, like York, Pennsylvania, those skilled workers will 
move away. They will go somewhere else. Then it takes a while 
to train them and grow them back up. So I would say on the 
labor end of it, it is an issue. In terms of plant capacity and 
things of that nature, it has not been as much of an issue for 
us.
    Senator Wicker. I also said in my opening statement--on 
short-range defense systems and long-range precision fires, can 
you give us anything on the Navy and the Marine Corps 
leveraging each other's capabilities?
    Lieutenant General Walsh. I think, Senator, one example 
that I would say that we have had is looking at this threat. It 
was a little bit the piece that Senator Cotton was touching in 
the Pacific--is to be able to operate inside that A2/AD 
environment. So many times people ask this question. How are 
amphibs going to be able to operate in that environment? Well, 
they are not going to operate in a contested environment in the 
big shooting or all by ourselves. It is going to be the Navy 
and the Marine Corps working together, along with the joint 
force.
    Over the last year, one of the things we focused on very 
heavily--and I co-chair the Naval Board for the CNO and the 
Commandant, along with Vice Admiral Aquilino--is operating 
together. We have developed a concept called littoral 
operations in a contested environment. That has driven many war 
games and experiments. One exact experiment that we are doing 
here--I think it is next month--is to put a HIMARS rocket 
firing battery or capability, one of our HIMARS shooters, onto 
an LPD-17 ship. That is just one example on how we could use 
that, but there are many more on how we are using our long-
range precision fires to try to use them in more a sea-
controlled role going from shore to sea, then using them from 
just on land in that capability. So there are many 
capabilities. I think we do like that.
    I think another example would be our F-35's operating off 
the amphibious ships and how they would support the Navy in a 
sea-controlled mission.
    Senator Wicker. General Shrader, we have a budget request 
for 527 JLTVs. The Marine Corps says they want to acquire 
5,500. Do you acknowledge that is an unrealistic budget request 
in light of what it will buy?
    Brigadier General Shrader. Sir, I would love to answer the 
question, but John manages it, so I am going to defer to John 
Garner, sir, on JLTV.
    Mr. Garner. Sir, the 5,500 is the ultimate acquisition 
objective over many years. The 527 is, of course, this year.
    Senator Wicker. Are you okay with that for a year?
    Mr. Garner. Would I like it to go higher? Yes, sir. But 
there are always other competing priorities, including things 
like ACV. So that is balanced. Right now, that works fine for 
2018. What we would like to do is probably in future years, we 
may decide we would like to accelerate and increase that 
requirement. But for right now--remember, Senator, we are still 
in the low rate initial production phase. We have not completed 
the IOT&E [Initial Operational Test & Evaluation]. So between 
our buy and the Army buy, we are pretty much against the LRIP 
[Low Rank Initial Production] cap right now.
    Senator Wicker. Well, we will have some questions for the 
record.
    Senator Hirono. I just have one question----
    Senator Wicker. Senator Hirono?
    Senator Hirono.--regarding the JLTVs. So the ultimately 
goal is 5,500 JLTVs. So what is the time frame for that 5,500 
to be procured?
    Lieutenant General Walsh. Senator Hirono, so right now, as 
we look at the requirement, the initial acquisition objective 
was 5,500. Just as Mr. Garner said, with the delays in the 
program initially, that slid the full rate production decision 
a year. So that caused some of the reduction in the vehicles 
that we would have been buying. But in the long-term, we have 
got that 5,500 objective. But our entire Humvee fleet is up 
over 17,000 vehicles. We are not exactly sure what that 
objective is going to be in the long term on those numbers. It 
is going to be much higher than 5,500 we think out in the 
future. But what we do not know is also do all those Humvees 
need to be JLTVs. Could they be some other type of lighter 
truck that does not have the same protection requirements that 
a JLTV would have? Because not all our vehicles may be 
operating in a highly contested threat environment. So that is 
part of the decision as we continue to build this increment 
from increment 1 to increment 2 to increment 3. We will look 
through what that long-term requirement will be.
    Senator Hirono. So setting aside any potential further 
delays with the JLTVs, what is the time frame for when you will 
be getting to the 5,500 number? Are we talking about 2030? What 
kind of time frame?
    Mr. Garner. Ma'am, I would like to take that one for the 
record. I believe it is within the FYDP [Future Years Defense 
Program].
    Senator Hirono. Within the what?
    Mr. Garner. Within the next 5 years. It is in the 2022-2023 
time frame.
    Senator Hirono. Thank you.
    Mr. Garner. Because we hope to kick up significantly as 
soon as we hit the full rate production decision.
    Senator Hirono. My understanding is that you would like to 
get to more than 5,500.
    Lieutenant General Walsh. Senator Hirono, if I could 
correct that. Actually what I have got is within PB-18, we 
funded a quantity of 7,241. So we move into increment two 
inside the FYDP.
    Senator Hirono. Thank you.
    Senator Wicker. Might some of those vehicles continue to be 
Humvees for a long time?
    Lieutenant General Walsh. So the 7,241 that I just 
briefed--that would be coming from the 17,000. There would be 
plenty of Humvees out there for many, many more years until we 
figure out how many we are going to turn into JLTVs.
    Senator Wicker. Gentlemen, thank you very much. We 
appreciate your service and we appreciate your information 
today.
    The hearing is closed.
    [Whereupon, at 3:56 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Jeanne Shaheen
                       amphibious combat vehicle
    1. Senator Shaheen. Mr. Garner, on Friday, June 2nd, Inside the 
Navy published an article regarding the status of the Amphibious Combat 
Vehicle (ACV) 1.1 program. The article indicated that the Marine Corps 
intends to modify the prototype vehicle delivery schedule for ACV 1.1 
due to ``challenges'' and ``technical issues'' experienced by one of 
the contractors. Will this adjustment to the prototype delivery 
schedule delay program milestones and eventual fielding to the marines?
    Mr. Garner. The modifications to the contractor's delivery schedule 
of prototypes will not delay the ACV 1.1 milestones or fielding. The 
developmental testing is well underway with the prototypes already 
delivered, and it is anticipated that testing will remain on schedule.

    2. Senator Shaheen. Mr. Garner and General Walsh, your joint 
written statement discusses increments 1.1 and 1.2 for the Amphibious 
Combat Vehicle identifying that increment 1.1 vehicles will reach full 
operating capability in fiscal year 2022 and increment 1.2 vehicles in 
fiscal year 2026. Will the improvements from increment 1.1 to increment 
1.2 be backfit on all the increment 1.1 vehicles to ensure the same 
capability across the fleet of vehicles?
    Mr. Garner and Lieutenant General Walsh. It is anticipated that the 
improvements from increment 1.1 to increment 1.2 will be back fitted on 
the increment 1.1 vehicles.
                             cybersecurity
    3. Senator Shaheen. General Walsh, in light of the focus on 
cybersecurity and modernizing your command and control systems, what 
steps are you taking to ensure the security of all your networked 
systems?
    Lieutenant General Walsh. The Marine Corps takes cybersecurity 
seriously. It is vital to the protection of our data, users, systems, 
connections, and networks. We understand the ever-changing cyber threat 
environment and continue to pursue and implement agile and responsive 
defense-in-depth for the Marine Corps Enterprise Network (MCEN), both 
in garrison and deployed environments. We are taking the following 
steps:
    <bullet>  Implementation of DOD's Comply to Connect on the MCEN: 
This is an automated capability that ensures information systems comply 
with cybersecurity and technical standards (e.g., patch management, 
end-point/end-user protections, security standard configurations) 
before connecting to the network. The end result is improved 
cybersecurity through automated end-to-end network visibility and 
assured interoperability through a single security architecture 
framework. We are currently testing this capability prior to full 
implementation across the MCEN.
    <bullet>  Cybersecurity Assessments: These assessments occur in 
coordination with MARFORCYBER's Cyber Readiness Reviews and Cyber 
Protection teams and in conjunction with named operations. These occur 
monthly at the regional level and cover all Marine Corps bases, camps, 
stations.
    <bullet>  Mission Assurance Assessments: These assessments identify 
cybersecurity issues that could impact ground, air, and logistics 
missions areas in order to resolve vulnerabilities. The Marine Corps 
Operational Test and Evaluation Activity conducts test and assessments 
throughout the acquisition process to determine cyber resiliency of 
tactical systems.
    <bullet>  Marine Corps Cyber Range: Aggressive testing occurs at 
the Marine Corps Cyber Range (part of the DOD Cybersecurity Range) to 
resolve cybersecurity weaknesses before they become a compromised 
vulnerability. We are currently growing this capability and capacity.
    <bullet>  Cryptographic Modernization: The Marine Corps is moving 
out on the DOD's mandate to meet improved NSA Communications Security 
(COMSEC) and encryption standards by 2024. Specifically, the USMC 
tactical radio portfolio is being modernized ($600 million + 
investment) to meet advanced cryptography standards, limit adversary 
threat, and improve security of our tactical networked systems.
    <bullet>  Communications Military Occupational Specialty (MOS) 
(06XX) modernization. Improves Cybersecurity training across the 
spectrum of communications occupational fields. Network and System 
Operators take over an increased responsibility for Cybersecurity, 
while Cyber defense technicians are trained to enhanced standards and 
capabilities.
    <bullet>  Completed the ``MAGTF Defensive Cyberspace Operations 
Internal Defensive Measures Company Concept of Employment'' in July 
2017. This concept supports CMC's intent and direction to increase the 
service's ability to defend the MAGTF (in and through Cyberspace). USMC 
has approved force structure force both Active and Reserve components 
for fiscal year 2019. CD+I is currently working development of tool set 
requirements and training to round out the full capability. Proof of 
concept to begin later this year and next spring.
    The Marine Corps has also maintained compliance with the DOD 
Cybersecurity Scorecard, and we have had success in software assurance 
testing (as directed by NDAA 966) and Command Cyber Readiness 
inspections. We will increase security by transitioning from the 
Electronic Key Management System (EKMS) to the new Key Management 
Infrastructure (KMI) by the end of CY17. The Marine Corps is also 
improving how we measure and analyze cyber risk. We must continue to be 
proactive in the cybersecurity environment, counter adversary threats, 
and ensure the security of our networked systems.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                     laser warning receiver system
    4. Senator Blumenthal. Mr. Garner, Lieutenant General Walsh, 
Brigadier General Shrader, since 1994, the Marine Corps has had a 
requirement generated from a joint Mission Need Statement and follow on 
Operational Requirements Document to incorporate a laser warning 
receiver system to protect Marine Corps combat vehicles from threats. 
The requirement was a part of a joint effort between the Marines Corps 
and the US Army and included the M1A1 Main Battle Tank, Light Armored 
Vehicle (LAV), and the Assault Amphibious Vehicle (AAV). Why has this 
laser warning system requirement not been fielded? Are you working 
toward fielding it in the near term? What are the obstacles? What can 
this capability bring to the Marine Corps' armored fleet?
    Mr. Garner, Lieutenant General Walsh, Brigadier Brigadier General 
Shrader. The Marine Corps has an overall survivability requirement for 
the M1A1 tank which laser warning receiver systems can help satisfy in 
some cases. The USMC tested several LWS systems in June 2011 and 
determined that they provided a mixed level of performance against 
threats that employ lasers to either locate or designate the M1 prior 
to or during attack. After completion of the testing, the USMC reviewed 
options for development of an integration kit and fielding but did not 
pursue a LWS program at that time based on service priorities. As part 
of ongoing efforts to improve M1A1 vehicle protection, including 
addition of Active Protection Systems, the USMC is reviewing the 
integration and benefits of LWS systems along with other survivability 
improvements. A key enabler will be improvements in the integration of 
M1A1 displays and battle management systems which will allow operators 
to take immediate advantage of LWS warnings and indicators. Without the 
ability to fuse LWS data into a complete battle management picture to 
enable rapid response from the crew, the utility of an LWS system is 
limited.
     united states-israel cooperation on active protection systems
    5. Senator Blumenthal. Mr. Garner, Lieutenant General Walsh, 
Brigadier General Shrader, Israel has deployed Active Protection 
Systems (APS), such as the Trophy and Iron Fist systems, to provide 
protection for combat vehicles against rocket-propelled grenades and 
anti-tank missiles--a threat US forces also must contend with. I 
understand the Marine Corps is evaluating the integration of Israeli 
Active Protection Systems (APS) into our own efforts. Where do marine 
efforts stand in upgrading their armored fleets to defend against 
current and future threats by deploying active protection system 
technologies?
    Mr. Garner, Lieutenant General Walsh, Brigadier Brigadier General 
Shrader. The Marine Corps has just completed the initial testing of the 
Trophy Active Protection System (APS) on the M1A1, observing good 
intercepts against the evaluated threat. We are in the process of 
evaluating the impact of the additional weight, power and space claim 
of the APS system on other tank systems. For example, the APS system in 
the current configuration blocks vision in some angles and reduces the 
ability to traverse the main gun in some situations. The operational 
impact of these issues and how they can be mitigated is ongoing. 
Presently, the USMC has programmed procurement beginning in fiscal year 
2021. However, options to accelerate the program to achieve early 
system fielding in fiscal year 2019 and maintain program alignment with 
U.S. Army timelines are being developed. Our APS effort is a 
cooperative effort with the Army using the Army's existing Project 
Agreement with the Israeli Ministry of Defense. As such, the Marine 
Corps has been able to leverage a significant amount of work and test 
data completed by the Army and the USMC plans to continue to move 
forward with the Army on APS efforts.

    `6. Senator Blumenthal. General Walsh, last year at this hearing 
you noted that the Marine Corps is working to ``try to buy or lease 
some Trophy systems . . . and put those on our M1A1 tanks.'' How soon 
will APS technologies be integrated on-board Marine armored platforms?
    Lieutenant General Walsh. The USMC M1A1 Trophy Technology 
Demonstrator (TD) is part of the US Army Expedited APS program. The TD 
has provided a platform for the installation and test of the Trophy 
Active Protection System on an USMC M1A1. Over the past year the TD has 
been useful in the development of requirements, setting the conditions 
for a future program of record, and has allowed the Marine Corps to 
characterize an Israeli active protection system in a U.S. Government 
controlled test environment. As of August TD performance testing is 
complete. The next phase in developing this capability, for which the 
Marine Corps is fully funded, transitions to U.S. Army led 
developmental and operational testing. Current USMC planning supports 
system procurement in beginning fiscal year 2021, however, options to 
accelerate the program to achieve early system fielding in fiscal year 
2019 and maintain program alignment with U.S. Army timelines are being 
developed.



  DEPARTMENT OF DEFENSE AUTHORIZATION REQUEST FOR APPROPRIATIONS FOR 
         FISCAL YEAR 2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, JUNE 13, 2017

                               U.S. Senate,
                          Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                NAVY AND MARINE CORPS AVIATION PROGRAMS

    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Roger 
Wicker (chairman of the subcommittee) presiding.
    Committee members present: Senators Wicker, Rounds, Tillis, 
Sullivan, Hirono, Kaine, and King.

           OPENING STATEMENT OF SENATOR ROGER WICKER

    Senator Wicker. The hearing will come to order.
    We've been advised by minority staff that Senator Hirono is 
on her way from the vote and that in the interest of time it 
might be best if I went ahead, so we'll do that. I certainly 
would not have done that without permission of Senator Hirono's 
staff.
    The Senate Armed Services Subcommittee on Seapower convenes 
this afternoon to examine Navy and Marine Corps aviation 
programs.
    Our subcommittee welcomes three distinguished witnesses: 
Vice Admiral Paul A. Grosklags, Commander, Naval Air System 
Command; Lieutenant General Jon M. Davis, Deputy Commandant for 
Marine Corps Aviation; and Rear Admiral Chip Miller, Director 
of Air Warfare for the Department of the Navy.
    Our subcommittee is grateful to these witnesses for being 
here, for their decades of dedicated service. I'd like to offer 
special thanks to General Davis, who for some reason is 
retiring next month after nearly 37 years of service. Best 
wishes to General Davis and his family.
    The United States faces a complex and increasingly 
dangerous security environment. This subcommittee is well aware 
of the challenges posed by China and Russia's military 
modernization and assertive behavior, North Korea's 
belligerence, and Iran's malign activities. The Islamic State 
also remains a potent threat.
    To confront these challenges, our country relies heavily on 
Navy and Marine Corps aviation. However, 15 years of 
continuous, high-tempo operations and years of inadequate 
budgets have strained our aviation forces. Congress has not 
delivered sufficient and predictable funding to our naval 
aviation forces. I look forward to hearing from the witnesses 
about the long-term funding requirements necessary to regain 
full-spectrum readiness.
    Today, our subcommittee will examine five key areas related 
to the Navy and Marine Corps aviation programs. First, 
physiological episodes. First and foremost, the safety of our 
Navy and Marine Corps aviators remains paramount. The 
subcommittee remains concerned about the persistence of these 
PE episodes experienced in Navy aircraft, particularly the F/A 
0918 [Fighter/Aircraft] Hornets and Super Hornets, EA-18G and 
T-45s. This situation is naval aviation's number-one safety 
priority.
    As subcommittee chairman, it remains a matter of great 
personal interest. In early April, I made a fact-finding trip 
to Naval Air Station Meridian following a widely observed 
instructor pilot boycott of training flights at Meridian, 
Kingsville, and Pensacola. I spoke with instructors and 
students, and also senior leadership, including the commander 
of naval forces, Vice Admiral Shoemaker, and the chief of naval 
air training, Rear Admiral Bull. I've also received updates 
from each of our witnesses, which I appreciate.
    After my visit to NAS [Naval Air Station] Meridian, the 
Vice CNO [Chief of Naval Operations] directed the Commander of 
Pacific Fleet, Admiral Scott Swift, to conduct a review of the 
facts, circumstances, and processes surrounding the PE 
[Physiological Episodes] issue. We hope to get an update on 
this today.
    Overall, the Navy needs a plan to get T-45 students back 
flying safely and to fix the problem for the long term. Looking 
toward the future, the subcommittee would like to hear 
assurances from the witnesses that the Navy and Marine Corps 
are taking action to prevent the F-35 from suffering the same 
problems. It's worth noting that Luke Air Force Base 
temporarily canceled flying operations last week after five Air 
Force pilots experienced physiological episodes.
    Next, aircraft readiness, our second area of interest. The 
Navy and Marine Corps lack sufficient numbers of ready, basic 
aircraft for aviators to remain qualified, proficient, and 
motivated. The witnesses should discuss the Navy's budget 
request for depot maintenance, flying hours, and spare parts.
    Third, our subcommittee would like to learn more about gaps 
in the Navy fighter fleet. The Navy's Strike Fighter shortfall 
will continue to expand unless enough aircraft are procured to 
replace the 24 to 36 aircraft which are retired annually. The 
CNO and Commandant both included Strike Fighters on their 
unfunded priority lists. In fact, the Navy's number one and 
number three unfunded priorities are Super Hornets and F-35C 
Joint Strike Fighters, respectively. Our witnesses should 
provide more details on unfunded requirements for multi-role 
fighter aircraft.
    The fourth area of interest is development of operations of 
the F-35B and F-35C Joint Strike Fighter. While F-35 is 
approaching the end of its development phase, the Marines are 
already flying the aircraft operationally. Earlier this year 
the Green Knights permanently changed their home station to 
Iwakuni, Japan, and will make the first F-35 shipboard 
deployment in 2018. The subcommittee looks forward to hearing 
an update on F-35 operations and the lessons learned from the 
first units to fly the aircraft.
    Finally, our subcommittee would like an update on 
inventories for air-launched munitions. Inventories for many of 
our weapons remain critically low. At the same time, 
technological advances of our potential adversaries require us 
to modernize our munitions to remain relevant. The subcommittee 
needs to understand where the Department is taking risk, what 
is being done to mitigate that risk, and also comment on the 
industrial base's ability to produce the required munitions.
    So I welcome our witnesses, and if we will pause for a 
moment, we will check on the whereabouts of our distinguished--
--
    Senator Hirono. Here she is.
    Senator Wicker. My goodness, I couldn't have timed it 
better.
    Senator Hirono. I heard my name and----
    Senator Wicker. Now, Maize, you know I went ahead only with 
permission.
    Senator Hirono. Oh, of course. You always have.
    Senator Wicker. Well, we're delighted to see you, and we 
know you are very, very busy this afternoon and will have to 
leave to attend another very important matter.
    Senator Hirono. Yes, thank you.
    Senator Wicker. You are recognized.

               STATEMENT OF SENATOR MAZIE HIRONO

    Senator Hirono. Thank you. Thank you, Mr. Chairman.
    I would also, of course, like to welcome our witnesses for 
this afternoon's hearing. We are grateful for your service and 
for the professional service of the men and women who are under 
your command.
    Today we have an opportunity to discuss how the Department 
of the Navy's fiscal year 2018 budget request for Navy and 
Marine Corps aviation programs would help increase readiness, a 
huge issue for all of our services, address shortfalls in 
munitions, pilots, and maintenance personnel, and modernize our 
strategic deterrence capability.
    Navy and Marine Corps aviation programs play a critical 
role in supporting and advancing our country's strategic 
interests in the Indo-Asia Pacific region, including, of 
course, from bases in Hawaii.
    Last summer I attended the dedication of the first of two 
new MV-22 hangars at Marine Corps base Kaneohe. In April, four 
Ospreys operating from those hangars departed Kaneohe Bay for 
the Royal Australian Air Force Base Starwin after flying nearly 
6,000 miles. This flight demonstrated how the operating range 
of our MV-22s and the strategic location of Hawaii permit us to 
reach across the Pacific Ocean to respond to the ever-growing 
threats in the region.
    These threats require us to consider how best to get the 
Navy and Marine Corps the resources that you need, but we must 
also make sure that any increases in resources do not come at 
the expense of important domestic programs that families, 
including our military families, rely on every day.
    In this request, the administration is asking for a $54 
billion top-line increase above the total budget for fiscal 
year 2018, prescribed in the Budget Control Act (BCA). Of that 
total, the Department of the Navy budget would receive an 
increase of roughly $12 billion. Unless Congress can achieve a 
broad and bipartisan agreement to repeal or modify the BCA, any 
approval of the $12 billion increase for the Navy and Marine 
Corps will trigger sequestration of a similar amount in 
domestic programs.
    This increase would come at the expense of huge cuts to 
health care, environmental protection, and State Department 
programs critical to our national security, and I'd like to 
mention in that regard Hawaii's East-West Center. This is a 
non-starter. As Secretary Mattis said this morning, no enemy 
has done more damage to the U.S. forces than what we've done to 
ourselves with the BCA.
    Mr. Chairman, I look forward to working with you and other 
members to eliminate sequestration in a way that balances the 
needs of our military with critical domestic programs. We 
cannot continue down this path.
    As we consider the fiscal year 2018 budget, we must also 
consider the significant challenges we face in naval aviation. 
While the Marine Corps has been operating the F-35B variant, we 
need to hear more about how testing on the F-35C is proceeding. 
We also need to understand better how other parts of the 
program are supporting the Navy's initial Operating Capability 
Declaration plan for 2018, or OCD.
    In the budget, the Defense Department is also asking for 
authority to execute economic order quantity, EOQ, contracts 
with the F-35 program in advance of successful completion of 
operational testing. Normally, Congress has not approved EOQ 
authority unless and until the weapon system in question has 
completed a successful operational test, and we will have to 
consider this matter carefully.
    Second, the Navy is facing a major shortfall in its Strike 
Fighter inventory. The Navy responded to forecasts of a 
shortage of almost 200 aircraft several years ago by better 
managing the remaining life on the existing aircraft. They've 
done this by redistributing aircraft within the force, 
designing a series of maintenance and rehabilitation measures, 
including a service life extension program (SLEP), for older 
aircraft, and by new F-18 aircraft. The Navy has predicted that 
SLEP would lead to significant improvements in its ability to 
support operating forces such as aircraft carrier squadrons and 
Marine Corps squadrons for several years.
    This year, however, the Navy is still having difficulty 
moving F-18 aircraft through the SLEP lines, which means that 
fleet squadrons are having to make due with fewer aircraft. 
This puts a strain on the whole system. We need to hear about 
actions the Navy is taking to improve this situation.
    Navy and Marine Corps pilots have been experiencing 
problems with the environmental control systems in certain 
aircraft, mainly F-18s and T-45s, that have resulted in what is 
referred to as ``physiological episodes.'' We need to hear from 
the services what progress is being made to address those 
problems.
    I'd also like to hear about the investments the Navy and 
Marine Corps are making in training and maintenance operations.
    General Davis, yesterday at our meeting, I was encouraged 
to hear that Marine Corps aviation has chosen to focus 
significantly on training and development for pilots and 
maintenance workers, both officers and enlisted personnel. 
Sending Marine aviators and maintainers to the advanced 
aviation management training course is a demonstration of your 
commitment to improving readiness and getting the aviation 
fleet back to where it needs to be.
    Thank you again, Mr. Chairman. I certainly look forward to 
hearing from our witnesses. Mahalo.
    Senator Wicker. Very good. Our distinguished ranking member 
has to testify at a hearing and may be able to come back and be 
with us.
    Admiral Grosklags?

 STATEMENT OF VICE ADMIRAL PAUL A. GROSKLAGS, USN, COMMANDER, 
   NAVAL AIR SYSTEMS, DEPARTMENT OF THE NAVY; ACCOMPANIED BY 
 LIEUTENANT GENERAL JON M. DAVIS, USMC, DEPUTY COMMANDANT FOR 
AVIATION, UNITED STATES MARINE CORPS; AND REAR ADMIRAL DEWOLFE 
    H. MILLER, III, USN, DIRECTOR, AIR WARFARE (OPNAV N98), 
                     DEPARTMENT OF THE NAVY

    Vice Admiral Grosklags. Sir, I'll be giving an opening 
statement for all three of us.
    Senator Wicker. Oh, okay. Good.
    Vice Admiral Grosklags. Mr. Chairman, Ranking Member 
Hirono--I hope she comes back--and distinguished members of the 
subcommittee, it's our pleasure to be here with you today to 
talk about naval aviation and our programs.
    Our 2018 President's budget submission is governed by the 
Secretary's priorities to improve war-fighting readiness by 
addressing pressing programmatic shortfalls that have accrued 
from 15 years of wartime operational tempo and chronic under-
funding of many of our readiness accounts. This budget request 
is designed to maintain the operational effectiveness of our 
current force, also building a bridge to growing the future 
force starting in 2019.
    Current readiness of our naval aviation forces is clearly, 
as you stated, less than it needs to be. The fiscal year 2017 
enacted budget provided much needed increases in funding for 
many of our naval aviation readiness accounts. Our fiscal year 
2018 request builds on 2017 with a request for funding of these 
readiness accounts that both in real terms and as a percentage 
of the requirement is to a level not seen in eight to ten 
years. Support for these readiness accounts is the most 
important leverage that we have in returning our aircraft to 
the required state of readiness.
    Close behind is the need to continue, and in some cases to 
accelerate, the procurement of new aircraft. This includes F-
35s for both the Marine Corps and the Navy, as well as 
additional F-18 Super Hornets for the Navy. As we continue to 
struggle with extending the service life and maintaining the 
readiness of our legacy F-18s, both services are working to 
accelerate the transition to other aircraft.
    In addition to the F-35B and C models, critical priorities 
for the Marine Corps include initiation and the ramp-up of CH-
53K production, completing the procurement of the KC-130J, 
execution of the V-22 common configuration readiness and 
modernization initiative, also known as CCRAM, and initiation 
of the MAGTF Expeditionary Unmanned Air System, also known as 
MUX, M-U-X.
    Each of these priorities is a key contributor today and in 
the future to the Marine Corps' capability and capacity to meet 
plans and combatant commander requirements.
    On the Navy side of the house, in addition to the F-18s and 
the F-35s required to minimize our Strike Fighter inventory 
challenges, priorities include initiating service life 
extension of our F-18 Super Hornets, pushing forward with MQ-4 
Triton procurement, awarding a development contract for the MQ-
25 carrier-based unmanned tanking aircraft, continued 
development of the next-generation jammer for our Growlers, and 
fielding of the long-range anti-ship missile on initially the 
B-1 and then the F-18.
    We will continue to leverage every tool and opportunity 
available to drive down the cost of each of our programs, and 
this subcommittee has been very supportive of our efforts in 
the past, and we are again asking for your support for a couple 
of initiatives.
    One is the V-22 multi-year program which will support the 
final seven years of planned Marine, Navy, and Air Force 
procurements; and the second one, already mentioned by the 
ranking member, is the F-35 EOQ associated with a block buy, 
and I'd be happy to talk about the importance of that in more 
detail if we have the opportunity.
    Separate from the procurement focus, this subcommittee is 
well aware, as you stated, of the continued challenges that we 
face in resolving the high rate of physiological episodes that 
we have seen in our T-45s and F-18s. It bears repeating that 
this is naval aviation's number-one safety issue, and we 
continue to approach our mitigation steps and our search for 
root cause in an unconstrained funding perspective.
    As we continue to assess potential root causes, we in 
parallel are focused on implementation of air crew alerting and 
protection devices and systems so that we can resume student 
training in the T-45 just as soon as possible, but keeping in 
mind that safety is the number-one priority.
    Now, our aviation priorities are directly tied to the 
increasing worldwide security challenges. Our ability to 
achieve the improved readiness, increased capacity, and 
enhanced capabilities required to deal with these challenges 
remains constrained by the overall resourcing constraints 
imposed by the Budget Control Act and the often inefficient use 
of resources driven by the seemingly chronic extended execution 
under continuing resolutions. You have our commitment to making 
the best possible use of the resources we are given, and we ask 
this subcommittee's continued support in working to eliminate 
these barriers.
    I want to thank you again for your support of our sailors 
and Marines, and we look forward to answering your questions.
    [The prepared statement of Admiral Grosklags, Lieutenant 
General Jon Davis, and Rear Admiral DeWolfe H. Miller III 
follows:]

Prepared Combined Statements by Vice Admiral Paul Grosklags, Lieutenant 
       General Jon Davis, and Rear Admiral DeWolfe H. Miller III
                              introduction
    Mr. Chairman, Senator Hirono, and distinguished members of the 
Subcommittee, we thank you for the opportunity to appear before you 
today to discuss the Department of the Navy's (DON) Aviation programs. 
Our testimony will provide background and rationale for the 
Department's fiscal year 2018 aviation programs budget request aligned 
to our strategic priorities and budgetary goals.
    The United States is a maritime nation with global 
responsibilities. Our Navy and Marine Corps' persistent presence and 
multi-mission capability represent U.S. influence across the global 
commons. We are an agile maritime strike, amphibious and expeditionary 
power projection force in readiness, and such agility requires that the 
aviation arm of our naval strike and expeditionary forces remain 
strong. Our budget submission ensures Naval Aviation possesses the 
capability, capacity and readiness to deliver five essential functions 
outlined in our maritime strategy--All Domain Access, Deterrence, Sea 
Control, Power Projection and Maritime Security. These key, essential 
functions are missions that depend upon Naval Aviation to enable their 
success.
    Global connections continue to multiply, fueled by rapid advances 
and proliferation of technology, particularly cyber and other 
information technologies. Our competitors are pursuing advanced weapon 
systems at a development pace we have not seen since the mid-1980s, and 
because of these focused pursuits; both near-peer nations and non-state 
actors pose credible threats to our security. As such, it is imperative 
that we fund a force with the capability and capacity to fight and win 
against any of our five major challengers (China, Iran, North Korea, 
Russia, and Violent Extremism) by investing in advanced systems that 
increase lethality for both the current and future force.
    Our ability to respond to this dynamic strategic environment, high 
operational tempo and evolving combatant commander (CCDR) requirements 
continues to be constrained by current fiscal realities. The Department 
is still recovering from appropriations that were significantly lower 
than the budget requests for fiscal years 2013-2016. We strive to 
improve efficiency in our own internal business practices to make every 
dollar count, but our efforts are undermined by the absence of stable, 
timely budgets and resources aligned to stay ahead of the threats. We 
encourage Congress to re-evaluate the Budget Control Act caps, as 
outlined by our President's Budget request. Timely passage of a full 
year appropriation as at requested level will provide for the most 
efficient execution of the resources provided by Congress, while 
bringing stability to our workforce and the industrial base.
    This fiscal context drives difficult choices to best balance 
between capability, capacity, readiness and the industrial base. Our 
fiscal year 2018 budget supports the five essential functions outlined 
in our maritime strategy, the operational context we as a Nation find 
ourselves in, and the current fiscal environment.
    Our investments are focused, balanced and prioritized to deliver 
and support a global sea-based and expeditionary force. Our budget is 
based on the transition of major components of the Carrier Air Wing 
(CVW), Expeditionary Strike Group and land-based Expeditionary Wings, 
and includes: manned and unmanned aviation system teaming; integration 
of warfighting capabilities to ensure multiple systems operate together 
across platforms, weapons, networks and sensors; advanced computing; 
and incorporation of commercially driven technology and additive 
manufacturing to provide a technological advantage over adversaries.
    The Department continues to pursue acquisition and business process 
reform measures to deliver capability faster at reduced cost. New 
measures include implementation of accelerated acquisition policies for 
Rapid Prototyping, Experimentation and Demonstration; establishment of 
Maritime Accelerated Capability Office programs; and the use of Rapid 
Deployment Capability processes. We are actively promoting innovation 
and the transition of key manufacturing technologies and processes with 
investments focused on affordability and those most beneficial to the 
warfighter. There is also a continuing transition from a hardware-
centric world to a software-centric world by leveraging common 
development standards and requirements for modular weapon system 
components.
    The Navy/Marine Corps ``Vision for Naval Aviation 2025'' provides 
the framework for determining investment priorities across the triad of 
warfighting capability, capacity, and Naval Aviation wholeness. There 
are several central themes to our 2018 Naval Aviation budget plan: next 
generation fighter/attack capability; unmanned systems; netted 
persistent multi-role intelligence, surveillance, reconnaissance (ISR) 
and targeting; advanced strike and networked enabled weapons programs; 
supporting capabilities such as electronic attack and electromagnetic 
spectrum superiority, maritime patrol, and vertical lift; readiness; 
and targeted modernization of the force for relevance and 
sustainability.
    The best way for pilots to train for combat is by flying their 
aircraft in live, scenario-based training missions against live 
opposition. However, many elements of combat cannot be replicated in 
the training environment. The Department is committed to augment 
aircraft flight hours by providing high-end virtual training. To do 
that, we are making investments in Live, Virtual, and Constructive 
Training that enable our aircrews to link across the country and train 
in high fidelity simulators. As we develop these technologies, the 
Department plans to connect aircrews in live flying aircraft against 
synthetic adversaries. We are also dedicated to leveraging the Science 
of Learning into all levels of aviation training. To do this, we are 
exploring innovative ways to leverage big data/analytics and flexible 
training systems that will maintain the nation's competitive advantage.
    At its foundation, as core unpinning principals, Naval Aviation is 
actively pursuing and seizing innovation and advantage wherever it can. 
We are implementing our vision toward greater tactical and technical 
innovation to provide the right capability in the hands of the 
warfighter, on schedule, and in the most affordable manner possible.
                           tactical aviation
F/A-18 Overview
    There are four Navy and eleven Marine Corps F/A-18A-D active strike 
fighter Hornet squadrons with a total inventory of 546 aircraft. There 
are 30 Navy Super-Hornet (F/A-18E/F) strike fighter squadrons with a 
total inventory of 544 aircraft. Combined, F/A-18A-D Hornets and F/A-
18E/F Super-Hornets have conducted more than 219,454 combat missions 
since September 11, 2001.
F/A-18 A/B/C/D Hornet
    Based on inventory modeling, a portion of the existing inventory of 
546 Navy and Marine Corps F/A-18 A-D aircraft will be flown through the 
mid-2030 timeframe. The DON will continue to meet Navy active F/A-18A-D 
squadron operational commitments until 2027, Marine Corps active and 
Reserve squadrons until 2030, and Navy Reserve squadrons through 2034.
    To support this Fleet plan, the Fiscal Year 2018 President's Budget 
requests $294 million in APN to implement aircraft commonality 
programs, enhance relevant capability, improve reliability, and ensure 
structural safety of the inventory of 546 F/A-18 A-D Hornets; $31.4 
million is for a Service Life Extension Program (SLEP). The funding 
priorities for F/A-18 A-D Hornet will be safety, reliability, and 
capability.
    Service life management efforts have extended the F-A-18 A-D beyond 
its original service life of 6,000 flight hours to 8,000 flight hours 
with select aircraft that may be extended up to 10,000 flight hours. 
Discovery of unanticipated corrosion on these legacy jets complicates 
depot throughput, and service life extensions for aircraft with more 
than 8,000 flight hours require High Flight Hour inspections, which 
furthers increases maintenance-man hours. These inspections assess the 
material condition of each aircraft and apply a unique combination of 
inspections and airframe modifications to maintain airworthiness 
certification. As of April 2017, 92 percent of the F/A-18 A-D fleet has 
over 6,000 flight hours and 24 percent have flown more than 8,000 
flight hours; the highest flight hour airframe has attained over 9,799 
hours. The Department endeavors to return the required number of 
aircraft to the flight line with the necessary capability upgrades, but 
remains concerned that low reliability rates will affect our ability to 
train and fight.
    In addition to the flight hour extension strategy, these aircraft 
require capability upgrades in order to maintain warfighting relevancy. 
The Department will continue to procure and install advanced systems 
such as mission computers, aircraft survivability equipment, radios, 
radars and targeting pods on select F/A-18 A-D aircraft to counter 
evolving threats. However, while the DON continues investing in 
warfighting upgrades in order to maintain tactically relevant aircraft, 
the Services are challenged to improve the reliability of this aged 
airframe.
F/A-18E/F Super Hornet
    The F/A-18E/F Super Hornet will be the numerically predominant 
aircraft in the Navy's CVW Strike Fighter force through 2035. The F/A-
18E/F began Full Rate Production (FRP) in 2000. Continued investment in 
capability upgrades significantly improves the lethality of the CVW.
    The Fiscal Year 2018 President's Budget requests $1.25 billion in 
APN for 14 F/A-18E/F Super Hornet aircraft and $251.2 million of RDT&E 
for F/A-18 Block III, IRST Block II, F/A-18E/F Service Life Assessment 
Program (SLAP), radar upgrades and improvements. With the support of 
Congress, we will also procure a minimum of 80 additional Super Hornets 
across the Future Years Defense Program (FYDP) and continue 
modernization plans to address continuing warfighter demand for 
advanced tactical aircraft. These additional procurements begin to 
mitigate the decline in DON's strike fighter inventory and enable older 
aircraft to be pulled from service for mid-life upgrades and rework to 
extend their service life.
    The Super Hornet modernization plan features an incremental 
approach to add conformal fuel tanks to extend range and replace 
outdated electronics. Other modernization efforts will incorporate new 
technologies and capabilities, to include, Digital Communication System 
Radios, Advanced Targeting Forward Looking Infrared (with shared real-
time video), Accurate Navigation Distributed Targeting System, Infrared 
Search and Track, and continued advancement of the APG-79 Active 
Electronically Scanned Array Radar.
    Due to high utilization rates, the F/A-18E/F fleet has flown 
approximately 47 percent of the total flight hours available within the 
6,000 hour limit design life. The remaining fleet flight hour capacity 
will be inadequate to meet operational commitments starting in the 
early 2020s. As a result, the Department initiated a phased F/A-18E/F 
SLAP to determine requirements to extend the airframe service life 
beyond 6,000 flight hours. The F/A-18E/F SLAP incorporates lessons 
learned from the F/A-18A-D SLAP and SLEP analysis and was initiated 
earlier in the F/A-18E/F life-cycle. Super Hornet SLAP commenced in 
2008 with completion expected in 2018. The SLAP goal is to analyze 
actual Fleet usage versus structural test data to support the design of 
Service Life Modifications (SLM) that will ultimately extend F/A-18E/F 
service life from 6,000 to 9,000 flight hours. The initial phases of 
the F/A-18E/F SLM began in 2014 with the development and fielding of 
Engineering Change Proposal kits to upgrade life-limited areas of the 
F/A-18E/F that were revealed by SLAP analysis.
EA-18G Growler
    The EA-18G Growler is a critical enabler for the Joint force. EA-
18G brings fully netted warfare capabilities to the fight, providing 
unmatched agility in the Electromagnetic Maneuver Warfare environment. 
The Fiscal Year 2018 President's Budget requests $173.5 million of 
RDT&E for modernization.
    To date, 136 EA-18G aircraft have been delivered, representing 85 
percent of the funded inventory objective. Initial Operational 
Capability (IOC) occurred in September 2009 and the Fleet Response Plan 
was approved in November 2009. Since their initial deployment, Growlers 
have flown more than 2,300 combat missions and have expended 
approximately 16 percent of the 7,500 flight hour life per aircraft. 
Electronic attack capabilities, both carrier-based and expeditionary, 
continue to mature with development of the Next Generation Jammer 
(NGJ). NGJ Increment 1 is scheduled to begin replacing the legacy ALQ-
99 Tactical Jamming System in fiscal year 2021. Additionally, we 
continue to invest in the EA-18G passive detection and identification 
capabilities while improving network connectivity to provide overall 
battlespace awareness and targeting for the carrier strike group.
    The recent authorization of seven additional EA-18Gs will extend 
aircraft deliveries into fiscal year 2018. With the seven additional 
aircraft, the total procurement quantity of 160 EA-18Gs fulfills Navy 
requirements for carrier-based Airborne Electronic Attack (AEA) and 
expeditionary EA-18G squadrons.
    Additional EA-18Gs, above the funded procurement objective of 160, 
may be explored by the Department of Defense as it considers options to 
support an AEA force structure that meets the Joint Warfighter 
requirement.
AV-8B Harrier
    Since the beginning of the war on terror, the AV-8B Harrier has 
been a critical part of the strike fighter inventory for the Joint 
force. This aircraft has flown more than 60,000 hours in combat since 
2003, an average of over 475 hours per aircraft, with zero losses from 
the enemy in the air, but six losses on the ground when the enemy broke 
through our perimeter at Bastion Air Base in 2012.
    The Fiscal Year 2018 President's Budget requests $48.8 million in 
RDT&E funds to continue Design, Development, Integration and Test of 
various platform improvements. These improvements include an Engine 
Life Management Program, Escape Systems, Joint Mission Planning System 
updates, Link 16 Digital Interoperability (DI) integration, Operational 
Flight Program (OFP) block upgrades to mission and communication 
systems, navigation equipment, weapons carriage, countermeasures, and 
the Obsolescence Replacement/Readiness Management Plan. Additionally, 
the Department is requesting $43.6 million in APN funds to continue the 
incorporation of Obsolescence Replacement/Readiness Management Plan 
systems, electrical and structural enhancements, inventory sustainment 
and upgrade efforts to offset obsolescence and attrition, LITENING Pod 
upgrades, F402-RR-408 engine safety and operational changes, and DI 
upgrades that include Link 16.
    The AV-8B continues to deploy in support of operational 
contingencies and each Marine Expeditionary Unit (MEU) deploys with 
embarked AV-8Bs. The AV-8B equipped with LITENING targeting pods and a 
video downlink to ROVER ground stations, precision strike weapons, 
Intrepid Tiger II Electronic Warfare (EW) pods and beyond visual range 
air-to-air radar guided missiles, continues to be a proven, invaluable 
asset for the Marine Air Ground Task Force (MAGTF) and Joint commander 
across the spectrum of operations. AV-8B squadrons, both land- and sea-
based, have flown more than 10,000 hours of strike sorties against 
Islamic State in Iraq and Syria with an average combat radius of 900 
miles. Digital Improved Triple Ejector Racks have allowed us to load up 
to six precision guided munitions per aircraft, with fuel tanks, guns, 
and LITENING Pods, exponentially increasing the combat viability of 
this platform. Airborne Variable Message Format terminals are currently 
being installed in AV-8B to replace the current digital-aided Close Air 
Support (CAS) technology. The program will continue development of the 
H6.2 OFP which includes initial integration of Link 16 message sets. 
Additionally, this OFP will integrate Federal Aviation Administration 
compliant Navigation Performance/Area Navigation capability, an update 
to the LITENING Common OFP to implement improvements to moving target 
tracking, and correction of software deficiencies identified through 
combat operations. The program will also work on the H7.0 OFP which 
will integrate full Link 16 functionality. As an out-of-production 
aircraft, the AV-8B program continues to focus on sustainment efforts 
to mitigate significant inventory shortfalls, maintain airframe 
integrity, achieve full Fatigue Life Expended, and address reliability 
and obsolescence issues of avionics and subsystems.
    Operations Odyssey Dawn, Odyssey Lightning, Enduring Freedom, 
Freedom Sentinel, and today's Operation Inherent Resolve confirm the 
expeditionary advantages of Short Take-Off and Vertical landing (STOVL) 
capabilities. Placing the Harrier as the closest multi-role fixed-wing 
asset to the battlefield greatly reduces transit times to the fight and 
enables persistent CAS without strategic tanking assets. Airframe 
sustainment initiatives, capability upgrades, and obsolescence 
mitigation is essential and must be funded to ensure the AV-8B remains 
lethal and relevant.
F-35 Lightning II
    The F-35 Lightning II will form the backbone of U.S. air combat 
superiority for decades to come. The F-35 brings unprecedented low 
observable technology, modern weaponry, and electronic warfare 
capability to the Navy and Marine Corps. Delivering this 
transformational capability to front-line forces as soon as possible 
remains a top priority. The F-35 will replace legacy tactical fighter 
fleets of the Navy and Marine Corps with a dominant, multirole, fifth-
generation aircraft, capable of projecting U.S. power and deterring 
potential adversaries. The Fiscal Year 2018 President's Budget requests 
$550 million in RDT&E to support system design and development close-
out and ramp-up Follow-on Modernization and $3.9 billion in APN for 20 
F-35B aircraft, 4 F-35C aircraft, modifications and spares.
    The F-35 has flown over 70,000 flight hours, including 
approximately 27,000 for the F-35B and 7,000 hours for the F-35C. 
Marine Fighter Attack Squadron (VMFA) 121, the first IOC squadron, is 
now forward deployed in Japan defending the Nation's interests abroad. 
In 2018, the Navy and Marine Corps team will deploy two MEUs with a 
detachment of F-35Bs aboard ship marking the first extended at sea 
deployments for F-35. The fielding of the Marine Corps' F-35B STOVL 
variant continues to make excellent progress due to the combined 
efforts of the Department, industry, and Congress. Critical Military 
Construction (MILCON) at our bases and air stations is underway both at 
home and overseas to support this fifth generation capability. Due to 
the level of effort, funding, and timely MILCON, the Marine Corps' 
transition plan remains on-track. VMFA-211 stood up in July 2016 on 
Marine Corps Air Station, Yuma, AZ and the Marine Corps' will 
transition its third operational squadron, VMFA-122, to the F-35B in 
2018.
    The F-35B achieved a number of operational and training milestones. 
Operationally, the Marine Corps has permanently stationed an F-35B 
squadron in Japan, conducted trans-oceanic flights across both the 
Atlantic and Pacific, and exercised the expeditionary capability of the 
aircraft both aboard ship and in austere environments. In training, 
Marine Corps has seen return on training investments. The first two F-
35B pilots graduated flight school and have conducted sustained 
training operations across the range of military operations, including 
participation in large-scale joint exercises like ``Red Flag''. Pilots 
and instructors continue to praise the F-35 situational awareness and 
lethality as it achieves mission success previously unrealized in 
legacy platforms.
    The Navy's first F-35C squadron begins transition in 2018. Navy IOC 
is event-driven and expected in the late 2018 to early 2019 timeframe. 
The first F-35C aircraft carrier deployment is planned for 2021. The 
Marines begin their first F-35C squadron transition, VMFA-314, in 2018, 
will be ready for expeditionary operations by 2020 and deploy aboard a 
carrier in 2022. Together, the Navy and Marine Corps will be 
operational in 2020 and replace our aging aircraft inventory with the 
greatest practical speed. The F-35B/F-35C aircraft will help 
recapitalize some of our oldest aircraft--our legacy F/A-18s--which are 
rapidly approaching the end of their service lives.
    F-35 employs a block upgrade program to usher in new and advanced 
war-fighting capabilities. Whether the mission requires the execution 
of strike, CAS, counter air, escort, or EW, this aircraft is the key to 
our future. It empowers our maritime forces to fight from sea bases and 
expeditionary bases ashore anywhere in the world. However, to take full 
advantage of the aircraft's advanced capabilities and to keep the 
transition from legacy platforms on-track, this effort requires the 
continuation of the support received from Congress thus far.
    The F-35 continues to mature and progress with programs in 
development and design, flight test, production, fielding, base stand-
up, sustainment of fielded aircraft and stand-up of a global 
sustainment enterprise. The final system development and demonstration 
configuration, Block 3F, is finishing its final developmental test 
flights and our overall assessment is that steady progress continues to 
be made on all aspects of the program, although not without risk in 
software development and integration. This risk will continue to 
decline as the Department learns and makes adjustments. The discipline 
instilled several years ago in the method by which software is 
developed, lab tested, flight tested, measured and controlled has 
resulted in improved and more predictable outcomes.
    The program has delivered over 230 aircraft to test, operational, 
and training sites, with the production line delivering F-35s on 
schedule. It remains a clear and prominent priority for the Department 
to complete the development phase on cost and schedule. DON is 
committed to drive aircraft production cost and life-cycle costs down. 
As examples of cost reduction efforts, combined government and industry 
teaming has reduced aircraft production costs through ``blueprint for 
affordability'' initiatives and reduced F135 engine costs through 
ongoing engine ``war on cost'' strategies.
    These affordability efforts include up-front contractor investments 
in cost reduction initiatives that are mutually agreed upon by the 
government and contractor team. This arrangement motivates contractors 
to accrue savings as quickly as possible in order to recoup their 
investment, and benefits the government by realizing cost savings at 
the time of contract award. The Department's goal is to reduce the 
flyaway cost of the USAF F-35A to between $80 and $85 million dollars 
by 2019, which is anticipated to also decrease the cost to the Marine 
Corps F-35B and Navy F-35C variants. The Department set a goal of 
decreasing overall operating and support life-cycle cost by 30 percent.
Next Generation Air Dominance (NGAD) Family of Systems
    The Department initiated a Next Generation Air Dominance (NGAD) 
Analysis of Alternatives (AoA) in January 2016 to address the 
anticipated retirement of the F/A-18E/F and EA-18G aircraft beginning 
in late 2020 early 2030 timeframe.
    The Joint Chiefs of Staff approved the Initial Capabilities 
Document that frames NGAD study requirements to support the full range 
of military operations from carrier-based platforms. The AoA will 
consider the widest possible range of materiel concepts while balancing 
capability, cost/affordability, schedule, and supportability. It will 
assess manned, unmanned, and optionally manned approaches to fulfill 
predicted 2030+ mission requirements. Analyses will consider baseline 
programs of record (current platforms), evolutionary or incremental 
upgrades to baseline programs (including derivative platforms), and new 
development systems or aircraft to meet identified gaps in required 
capability.
                  strike fighter inventory management
    Through 2009, the Department's Strike Fighter force was relatively 
healthy. Several events transpired since 2009, however, which drove our 
current Strike Fighter inventory shortfall. The Budget Control Act of 
2011 started multiple years of reduced military funding and F-35B/C 
fielding plans were delayed. As a result, the DON decided to extend the 
life of legacy F/A-18A-Ds using our aviation depots. Sequestration led 
to furlough and a hiring freeze of a skilled government civilian 
artisan workforce at aviation depots, significantly impacting depot 
throughput and fleet readiness along with other factors such as high 
utilization rates, lack of aircraft procurement and lack of spare 
parts. Throughout this period, the operational demand for Naval 
Aviation forces remained high and accelerated the consumption of 
existing fleet aircraft. In essence, consumption of aircraft exceeded 
the new and rework production capacity of aircraft and caused an 
increasing shortfall.
    The Naval Aviation Enterprise (NAE) aggressively tackled Strike 
Fighter Inventory Management (SFIM) to ensure that deployed forces are 
properly manned, trained and equipped. Each budget year, the NAE 
attempts to harmonize available funding between flying hours and 
readiness enabler accounts in order to achieve the greatest return on 
investment towards improved readiness.
    Under the current budget and with Secretary Mattis' focus on 
readiness, aviation spares and readiness enabler accounts are receiving 
improved funding levels. It is important to note, however, that years 
of underfunding cannot be corrected in one budget year and will require 
stable, predictable funding over multiple years to achieve positive 
results. This shortfall will take time and likely require several years 
to correct.
    The DON has accepted significant risk in SFIM. The Department 
remains challenged with planning for F/A-18A-D and AV-8B aircraft that 
reach the end of their service life before replacement aircraft (F-35B/
C or follow on F/A series) can be delivered into service. Fiscal year 
2018 investments begin to address the gap between the Strike Fighter 
inventory forecasts and Global Force Management Allocation Plan (GFMAP) 
demands by fully funding depot capacity. Near-to-mid-term risk remains 
due to uncertainty in readiness accounts and procurement levels that 
fail to match Strike Fighter service life consumption. Mid-to-long-term 
risk is driven by a shortfall in tactically relevant aircraft to 
replace F/A-18E/Fs that are soon to be inducted into commercial depots 
for SLM. Long-term risk is driven by Strike Fighter procurement that 
fails to match Strike Fighter service life consumption and attrition.
    SFIM should be viewed in two separate and distinct phases. The 
near-term challenge is managing a DON Tactical Aviation (TACAIR) force 
that has been reduced in capacity through a combination of historically 
high TACAIR utilization rates, constrained resourcing of sustainment 
and enabler accounts resulting in inadequate availability of spare 
parts, F/A-18 depot production falling short of the required output, 
and reduced Strike Fighter aircraft procurement. TACAIR aviation depots 
are expected to continue to improve productivity through 2019. In 2019, 
the focus will shift toward F-35 repair and begin to support F/A-18E/F 
SLM. In a similar effort to increase Harrier aircraft availability, the 
Marine Corps conducted a Harrier Independent Readiness Review which 
identified a need for changes in the Harrier sustainment plan to 
achieve required flight line and inventory readiness. This year, with 
sufficient resources, the Department is implementing these changes to 
return Harrier readiness to the required T 2.0 levels.
    In the far-term, Strike Fighter inventory is predominantly affected 
by new procurement of F-35B/Cs and F/A-18E/Fs, as well as the F/A-18E/F 
SLM of our current fleet. CCDR driven operational demand, Fleet 
Response Training Plans and readiness requirements are expected to 
continue to drive increased Strike Fighter utilization rates that 
outpace procurements.
    The DON program of record is 680 F-35 aircraft. The Navy F-35C 
requirement is 340 aircraft, which includes 67 Marine Corps F-35C 
aircraft. Due to evolving circumstances, the total Marine Corps F-35 
requirement is 420 aircraft; 353 F-35Bs and the 67 F-35Cs. The Navy and 
Marine Corps will continue to modify transition plans to take advantage 
of any possible F-35 accelerated procurement. Due to delays in the F-35 
program and a changing threat environment, sustainment and 
modernization funding will be required to maintain the relevant 
operational capability of the F/A-18A-F and the AV-8B.
Strike-Fighter Force Structure
    The 1,174 aircraft Strike Fighter force provides the projected DON 
inventory needed to support the anticipated operational demand of nine 
CVWs through the 2025 timeframe. The Navy inventory requirement of 779 
aircraft supports 36 Active Duty DON Strike Fighter squadrons (with a 
mix of 10-12 aircraft per squadron). This requirement includes four 
Marine Corps Strike Fighter squadrons and is composed of 396 aircraft 
and two Reserve squadrons with 22 total aircraft assigned. In order to 
maintain the operational aircraft, support aircraft are required for 
aviator training, flight-test, attrition Reserve and the depot 
pipeline. This inventory entitlement is estimated based on historical 
averages and supports the validated requirement of four Strike Fighter 
squadrons per CVW. Through detailed analysis, inspections and 
structural repairs, the DON has been successful in extending F/A-18 A-D 
aircraft to 8,000 flight hours to 2,000 flight hours beyond the 
original designed service life. Future inventory projections are based 
on a service life extension for F/A-18E/F aircraft to 9,000 flight 
hours from the current design life of 6,000 flight hours.
    The Department's F-35C Strike Fighter program requires 14 Active 
Navy squadrons, four Active Marine Corps squadrons, and two training 
squadrons. The F/A-18E/F capabilities complement the F-35C and enhance 
the overall carrier-based warfighting capabilities. This force 
structure supports the operational demand per the GFMAP and projected 
aircraft carrier deployments. The Marine Corps' F-35B Strike Fighter 
program requires 14 Active, 2 Reserve and 2 training squadrons. 
Integral to DON's current force structure reductions, tactical aviation 
squadrons were restructured to optimize the support they provide to the 
MAGTF and the Joint force.
                         physiological episodes
    The status of DON efforts to address Physiological Episodes can be 
found at Addendum A.
                    airborne electonic attack (aea)
Next Generation Jammer (NGJ)
    The Next Generation Jammer (NGJ) is the follow-on to the Vietnam-
era AN/ALQ-99 initially fielded in 1971. The ALQ-99 has reached its 
capability limit both technologically and materially and is challenged 
against modern state-of-the-art computerized surface-to-air missiles 
systems. NGJ is designed to provide improved capability in support of 
Joint and coalition air, land and sea tactical strike missions and is 
critical to Navy's vision for the future of strike warfare. It will be 
DODs only comprehensive tactical airborne electronic attack platform 
and is required to meet current and emerging threats. NGJ will use 
Active Electronically Scanned Array technology to provide full-spectrum 
dominance, the ability to jam multiple frequencies at the same time, 
higher radiated power, increased precision, and the application of 
digital techniques to counter increasingly advanced and sophisticated 
adversary radars and communications systems. NGJ will be implemented in 
three increments: Mid-Band (Increment 1), Low-Band (Increment 2), and 
High-Band (Increment 3).
    Our fiscal year 2018 budget request of $632.9 million RDT&E,N is 
vital to maintain Increment 1 schedule, continue procurement and 
assembly of the Engineering and Development Models, and commence 
developmental flight testing. In addition, $66.7 million RDT&E,N is 
requested to complete Increment 2 technology feasibility studies and 
initiate technology demonstration efforts.
MAGTF Electronic Warfare/EA-6B Prowler
    The Fiscal Year 2018 President's Budget request includes $29.6 
million in RDT&E,N and $10.1 million in APN for MAGTF EW.
    The MAGTF EW approach to Electromagnetic Spectrum Operations (EMSO) 
is a distributed, platform-agnostic strategy where every platform 
contributes and functions as a sensor, shooter and sharer to include 
EW. Marine Aviation is integrating EW systems and Intrepid Tiger II (IT 
II) payloads across all aviation platforms to provide commanders with 
an organic and persistent airborne EW capability--for every MAGTF--
large and small. Included in this plan are the IT II EW payload, the F-
35s organic EW capabilities, and the EW Services Architecture network 
to facilitate collaborative EW Battle Management.
    IT II is a precision EW system providing EW Support and Electronic 
Attack capabilities. IT II has been integrated on the AV-8B, F/A-18A-D, 
and UH-1Y. Since 2012 IT II has completed over 20 deployments, and is 
currently deployed with the 11th, 24th, and 31st MEUs. Future aviation 
platforms for IT II integration are the MV-22B, KC-130J, AH-1Z, CH-53K, 
and RQ-21. Development of an IT II counter-radar capability began in 
fiscal year 2016 and will be fielded on the AV-8B, F/A-18A-D, and MV-
22B from fiscal years 2020-2022. The F-35 brings a powerful combination 
of EW, weapons, sensors, and reduced signature to the MAGTF.
    Currently, there are 18 EA-6Bs distributed to two Marine Corps 
operational squadrons, one deactivating Marine Corps squadron, and one 
Navy flight test squadron. Final retirement of the EA-6B from the DON 
inventory will be in fiscal year 2019.
    Future aviation EW capabilities will also be provided by the MAGTF 
Expeditionary Unmanned Aviation System (MUX). In addition to providing 
persistent reconnaissance, surveillance and communications, MUX will 
also provide a long range, persistent, penetrating and responsive 
airborne EMSO capability.
                   other electronic warfare inquiries
    Responses to Congressional requests for updates on electronic 
warfare can be found at Addendum B.
                    airborne early warning aircraft
E-2D Advanced Hawkeye (AHE)
    The E-2D AHE is the Navy's carrier-based Airborne Early Warning and 
Battle Management Command and Control system. The E-2D AHE provides 
Theater Air and Missile Defense and is capable of synthesizing 
information from multiple onboard and off-board sensors, making complex 
tactical decisions and then disseminating actionable information to 
Joint Forces in a distributed, open-architecture environment. E-2D is 
also a cornerstone of the Naval Integrated Fire Control--Counter Air 
system of systems capability.
    Utilizing the newly developed AN/APY-9 Mechanical/Electronic Scan 
Array radar and the Cooperative Engagement Capability system, the E-2D 
AHE works in concert with tactical aircraft and surface-combatants 
equipped with the Aegis combat system to detect, track and defeat air 
and cruise missile threats at extended ranges.
    The Fiscal Year 2018 President's Budget requests $292.5 million in 
RDT&E,N for continuation of added capabilities, to include Aerial 
Refueling, Secret Internet Protocol Router chat, Advanced Mid-Term 
Interoperability Improvement Program, Multifunctional Information 
Distribution System /Joint Tactical Radio System Tactical Targeting 
Network Technology, Counter Electronic Attack, Sensor Netting, and Data 
Fusion, Navigation Warfare, Fighter to Fighter Backlink, ALQ217 
Electronic Support Measures, and Crypto Modernization/Frequency 
Remapping. In the fifth year of a 26 aircraft Multi-Year Procurement 
(MYP) contract covering fiscal years 2014-2018, the budget also 
requests $835.9 million in APN for five FRP Lot 6 aircraft and Advance 
Procurement for Fiscal Year 2019 FRP Lot 7 aircraft.
                        assault support aircraft
MV-22/CMV-22
    The Fiscal Year 2018 President's Budget requests $171.4 million in 
RDT&E,N for continued product improvements, including continued 
development of a Navy variant, the CMV-22B; and $706.7 million in APN 
for procurement of 6 Lot 22 CMV-22s.
    The DON begins procurement of the Navy CMV-22B variant in support 
of the Carrier On-Board Delivery mission in fiscal year 2018 which 
represents the first year of the next V-22 MYP contract (MYP III). The 
proposed follow-on MYP III contract will span seven years (fiscal years 
2018-2024) and buy out the remaining domestic aircraft program of 
record. Fiscal Year 2018 President's Budget requests will fully fund 
Lot 22 and procure long-lead items for fiscal year 2019 Lot 23 CMV-22 
aircraft. The request also includes $228.3 million to support 
Operations and Safety Improvement Programs (OSIPs), including 
Correction of Deficiencies, Readiness improvements, Common 
Configuration, and Aerial Refueling.
    MV-22 Osprey vertical flight capabilities, coupled with the speed, 
range, and endurance of fixed-wing transports, continue to enable 
effective execution of current missions that were previously 
unachievable. The MV-22 fleet continues executing at a high operational 
tempo consisting of multiple MEU deployments and two Special Purpose 
MAGTF--Crisis Response (SPMAGTF-CR) deployments in support of AFRICOM 
and CENTCOM. During 2016, the 15th of 18 planned Active component 
squadrons met Full Operational Capability (FOC), with the 16th 
scheduled for FOC in June 2017. This marks the beginning of MV-22 
capacity catching up to operational demand requirements. To date, 293 
of 360 MV-22s have been delivered and 52 of 53 AFSOC CV-22s have been 
delivered. The V-22 program focus establishes a third MYP for 
production aircraft, sustains Fleet aircraft, improves aircraft 
readiness, reduces operating costs, and expands the domestic and 
international business base. Both the MV-22 and CV-22 continue to meet 
all cost, schedule and performance requirements.
    MYP III continues affordable procurement, provides stability to 
industry and maintains a production line and contractual foundation to 
attract future V-22 international sales/customers. Continuing 
procurement under a MYP is particularly beneficial to the supplier 
base. It provides long-term stability and generates lower costs that 
may provide incentive for international V-22 customers. The program's 
first Foreign Military Sales program, 17 aircraft with the Government 
of Japan, was established under MYP II. The final four (of 17 aircraft) 
are planned to be included in the fiscal year 2018 procurement 
contract.
    Due to extremely high CCDR MV-22 demand and operational tempo, the 
mission capability (MC) aircraft readiness rates have not improved as 
desired. The primary contributor to lower than planned MC rates is our 
ability to train and retain enlisted maintainers with the requisite 
qualifications needed to sustain the high demand. An equally important 
secondary contributor is related directly to multiple MV-22 
configurations. In an attempt to increase overall readiness, the Marine 
Corps reduced each of the SPMAGTF-CR to a 0.5 VMM squadron footprint. 
The Marine Corps plans to allow the ``remain behind'' element necessary 
time to develop and train personnel for future deployments and improve 
the overall MV-22 readiness and MC rates.
    Marine Aviation commissioned an Osprey Independent Readiness Review 
which identified a number of factors driving down MV-22 readiness. The 
major factor identified was the excessive number of aircraft 
configurations that resulted from years of concurrently incorporating 
engineering changes and reliability improvements during aircraft 
production. The Department's ``Common Configuration, Readiness and 
Modernization'' plan will streamline the total number of MV-22 
configurations from 77 to three, simplify the supply system, reduce the 
number of technical manuals and improve troubleshooting and maintenance 
procedures. This will decrease maintenance man-hours, increase aircraft 
availability and reduce total operating costs by approximately $1.5 
billion. The Fiscal Year 2018 OSIP provides a necessary and stable 
source of crucial modification funding as the program continues to 
implement these readiness and cost reduction initiatives.
    Along with the readiness and support initiatives, the Department is 
adding new capabilities to the MV-22 that will make it more valuable to 
the CCDRs such as the development of MV-22 Aerial Refueling System 
which will enable the MV-22 to deliver fuel to other airborne 
platforms. This is a critical enabler for both shore and sea-based 
operations and will extend the operational reach of deployed MAGTFs. 
Initial capability is planned to deliver by the summer of 2019.
    Another transformative capability for the entire aviation force is 
the continued development and integration of Digital Interoperability 
(DI). A limited DI objective experiment was conducted utilizing a 
deployed MEU. The results showed promise and informed continued 
development of this capability. Initial DI fielded capability will 
consist of a suite of electronics to allow the embarked troop commander 
and aircrew to possess unprecedented situational awareness via real-
time transmission of full motion video and other data generated by 
multiple air and ground platforms throughout the battlespace. This DI 
suite will also be able to collect, in real time, threat data gathered 
by existing aircraft survivability equipment and accompanying attack 
platforms, thereby shortening the kill-chain against ground and air 
based threats.
    The MV-22 is the assault support platform of choice for all CCDRs. 
From MEUs to SPMAGTF-CR, the speed, range, and aerial refueling 
capability allow the Osprey to remain postured in strategic locations 
throughout the world, ready and poised to quickly support Marines Corps 
operations wherever they are required.
CH-53K Heavy Lift Replacement Program
    The Fiscal Year 2018 President's Budget requests $341.0 million in 
RDT&E,N to continue the Engineering Manufacturing Development (EMD) 
phase of the CH-53K program and $756.4 million in APN for Low Rate 
Initial Production (LRIP) Aircraft (Lot 2), including Advance 
Procurement and initial spares.
    The CH-53K achieved Milestone C, receiving an Acquisition Decision 
Memorandum April 3, 2017, authorizing LRIP. To date, four Engineering 
Development Model aircraft have accumulated over 450 test flight hours, 
completed the first `Operational Test Assessment' ahead of schedule and 
set a U.S. Heavy Lift record with an 89.5K Maximum Gross Weight lift.
    During fiscal year 2018, the program will continue to execute 
developmental test flights, complete the relocation of test assets to 
NAS Patuxent River, and take delivery of System Demonstration Test 
Article (SDTA) aircraft (production representative aircraft utilized 
for Operational Test). Three of the four SDTAs will deliver to NAS 
Patuxent River to supplement the remainder of developmental test. 
Marine Test and Evaluation Squadron One will take delivery of the 
balance of aircraft at Marine Corps Air Station (MCAS) New River to 
execute publication and maintenance demonstrations prior to Operational 
Test & Evaluation.
    The CH-53K will provide land and sea based heavy-lift capabilities 
not resident in any of today's platforms and contribute directly to the 
increased agility, lethality, and presence of joint task forces and 
MAGTFs. The CH-53K can transport 27,000 pounds of external cargo out to 
a range of 110 nautical miles under the most extreme operational 
conditions, nearly tripling the CH-53E's lift capability under similar 
environmental conditions, while fitting into the same shipboard 
footprint. The CH-53K will provide an unparalleled lift capability 
under high-altitude and hot weather conditions and greatly expand the 
CCDRs operational reach and flexibility.
    Compared to the CH-53E, maintenance and reliability enhancements of 
the CH-53K will improve aircraft availability and ensure cost effective 
operations. Additionally, survivability and force protection 
enhancements will dramatically increase protection for both aircrew and 
passengers. Expeditionary heavy-lift capabilities will continue to be 
critical to successful land and sea-based operations in future anti-
access, area-denial environments, enabling sea-basing and the joint 
operating concepts of force application and focused logistics.
CH/MH-53E
    As the CH-53E approaches 30 years of service, the community has 
accumulated over 95,000 combat flight hours in support of various 
combat operations. The unprecedented operational demand of this 
aircraft (peaking at three times the published utilization rate) has 
degraded the material condition of our heavy lift assault support 
aircraft sooner than expected. This makes them more challenging to 
maintain and underscores the importance of its replacement, the CH-53K 
King Stallion. We have instituted a fleet wide ``reset'' of the CH-53E 
inventory to ensure we extract maximum utility and readiness until the 
transition to the CH-53K occurs.
    The MH-53E continues to perform its primary mission of airborne 
Mine Countermeasures (MCM) as well as transport of cargo and personnel. 
Over the past 12 years the MH-53E community has accumulated 84,131 
flight hours. It too is approaching 30 years of service life and 
continues to be a challenging asset to maintain. MCM operations put 
added stress on these airframes. These aircraft are planned to remain 
in service until they are replaced by the Littoral Combat Ship (LCS) 
with its MCM mission package systems.
    To keep the CH-53E and MH-53E viable through their remaining 
services lives, the 2018 President's Budget requests $37.0 million in 
APN and $5.1 million in RDT&E,N. The requested funding provides for 
critical capabilities, including Condition Based Maintenance software 
upgrades, finishing Kapton wiring replacement installations, improved 
engine nacelles, non-recurring engineering cockpit upgrades, Embedded 
Global Positioning System/Inertial Navigation System, T-64 engine 
reliability improvements, critical survivability upgrades, satellite 
communications kits and Phase I of CH-53E's Degraded Visual Environment 
capability. These critical safety and avionics upgrades will address 
obsolescence issues within the cockpit and increase overall situational 
awareness and mission effectiveness.
                      attack and utility aircraft
UH-1Y / AH-1Z
    Marine Corps Venom and Viper utility and attack aircraft have been 
critical to the success of the Marines in harm's way and have flown 
over 162,000 hours over the past decade. The Fiscal Year 2018 
President's Budget requests $61.3 million in RDT&E,N for continued 
product improvements and $822.4 million in APN for 22 AH-1Z aircraft 
and system improvements. This budget reflects a deliberate decision to 
fund readiness through a five aircraft procurement reduction.
    As of April 2017, 210 aircraft are operational within the Marine 
Force (146 UH-1Ys and 64 AH-1Zs). An additional 72 aircraft are on 
contract and in production, to include the first three of 12 Pakistan 
Foreign Military Sales aircraft. Lot 1-7 (fiscal years 2004-2010) 
aircraft deliveries are complete for both the UH-1Y and AH-1Z. Lot 8, 
9, and 10 (fiscal years 2011-2013) deliveries are complete for the UH-
1Y. Lot 11 UH-1Y deliveries are in progress and ahead of schedule. 
Additionally, the Czech Republic signed a Letter of Request for Letter 
of Acceptance in April 2017 for 12 UH-1Ys, which will be placed on 
contract in fiscal year 2018.
    The H-1 Upgrades program is integrating both the UH-1Y and AH-1Z 
into the DI environment established throughout the MAGTF. With the 
integration of IT II EW pod, the Marine Corps' Light Attack Helicopter 
Squadron community will be able to provide MAGTF commanders with all 
six functions of Marine Aviation, further increasing capability and 
flexibility. Additionally, these aircraft will incorporate Software 
Reprogrammable Payloads (SRP), which enables utilization of diverse 
networks and waveforms, thereby enabling maneuverability within the EW 
spectrum. SRP will employ systems such as Link-16, Tactical Targeting 
Network Technology, Adaptive Networking Wideband Waveform, and the 
Soldier Radio Waveform.
MH-60 (Overview)
    MH-60 Seahawks have consistently met readiness and operational 
commitments. There will be 38 Navy Seahawk squadrons, with 275 MH-60S 
and 280 MH-60R aircraft, when transitions from the SH-60B, SH-60F, and 
HH-60H are complete. The last MH-60S delivered in January of 2016 and 
MH-60R deliveries are projected to continue into fiscal year 2018. The 
production program continues to deliver on cost and on schedule. Over 
the last twelve years of combat operations, deployed ashore and aboard 
our aircraft carriers, amphibious ships, and surface combatants at sea, 
Navy H-60 helicopters have provided vital over-watch and direct support 
to troops in combat across multiple theaters of operation and a variety 
of mission areas; including support for Surface Warfare (SUW), Anti-
submarine Warfare (ASW), special operations forces, mine warfare, 
logistics support and humanitarian assistance/disaster relief.
    The MH-60R Multi-Mission Helicopter provides Carrier Strike Group 
protection and adds significant capability in its primary mission areas 
of ASW, EW and SUW. The MH-60R is the sole organic air ASW asset in the 
Carrier Strike Group and serves as a key contributor to theater level 
ASW. The MH-60R also employs advanced sensors and communications to 
provide real-time battlespace management with a significant, active or 
passive, over-the-horizon targeting capability, as well as Fast Attack 
Craft/Fast In-shore Attack Craft threat response capabilities. 
Secondary mission areas include Search and Rescue, Vertical 
Replenishment, Naval Surface Fire Support, Logistics Support, Personnel 
Transport and Medical Evacuation.
    The MH-60S supports Carrier and Expeditionary Strike Groups, Combat 
Logistics Ships, and LCS Surface Warfare and Mine Countermeasures 
variants in the mission areas of SUW, Strike Warfare, Combat Search and 
Rescue, Vertical Replenishment.
    The Fiscal Year 2018 President's Budget requests $11.3 million in 
RDT&E,N across the FYDP for an MH-60S SLAP. SLAP will inform the 
Department on what will be required to extend the MH-60S airframe 
service life beyond 2030. The program will initially focus on the air 
vehicle and include a Fatigue Life Assessment, Dynamic Component, and 
Subsystem Analysis to inform SLEP requirements.
    The Budget request includes $5.4 million in RDT&E,N to support the 
MH-60 test program and other improvements. The MH-60 test program 
consists of numerous system upgrades and Pre-Planned Product 
Improvements, and include the Multifunctional Information Distribution 
System--Low Volume Terminal Block Upgrade 2, the VHF Omnidirectional 
Ranging/Instrument Landing System, System Configuration 18 
enhancements, MH-60S fixed forward-firing weapon/rocket corrections of 
deficiencies, and commencement of initial studies for a MH-60 Mid-Life 
Upgrade. These investments improve MH-60S lethality and provide 
forward-deployed capabilities to defeat area-denial strategies and 
allow joint forces to project and sustain power.
                       executive support aircraft
VH-3D/VH-60N Executive Helicopter Series
    The VH-3D and VH-60N are safely performing the Executive Lift 
mission worldwide. As these aircraft continue to provide seamless 
vertical lift for the President of the United States, the DON works 
closely with HMX-1 and industry to sustain these aircraft until a 
Presidential Helicopter Replacement platform (VH-92A) is fielded.
    The Fiscal Year 2018 President's Budget requests an investment of 
$38.8 million of APN to continue programs that will ensure the in-
service Presidential fleet remains safe and reliable. Ongoing efforts 
include a Communications Suite Upgrade (Wide Band Line of Sight) that 
provides persistent access to the strategic communications network, the 
continuing Structural Enhancement Program necessary to extend the 
service life, and Obsolescence Management needed to sustain and improve 
system readiness for both VH-60N and VH-3D platforms. The Cabin 
Interior and Environmental Control System upgrade is a critical 
obsolescence management effort for the VH-3D, reducing aircraft 
operational weight and improving maintainability. Where appropriate, 
technology updates for legacy platforms will be directly leveraged for 
the benefit of the VH-92A program.
VH-92A Presidential Helicopter Replacement Aircraft
    The Fiscal Year 2018 President's Budget requests $451.9 million in 
RDT&E,N to continue Engineering Development Model (EDM) activities, to 
include, contractor test for airworthiness certification and 
modifications of EDM and System Demonstration Test Article aircraft. 
The Sikorsky S-92A aircraft will be used to execute the acquisition 
strategy of integrating mature subsystems into an air vehicle that is 
currently in production. Significant progress has been made in the past 
year: completion of the System Critical Design Review in July 2016; 
continued progress of the test aircraft build with first flight and 
Contractor Test beginning July 2017; and the projected induction of the 
first of four S-92A aircraft into the modification process in May to 
become the SDTA aircraft that will support IOC. Government ground and 
flight testing is planned to commence in 2018. The first four of the 
planned operational inventory of 21 aircraft are planned to achieve IOC 
in 2020.
                          fixed-wing aircraft
KC-130J
    The DON continues to procure two KC-130Js per year, and will 
continue product improvements. Targeted improvements include aircraft 
survivability through advanced electronic countermeasure modernization 
and obsolescence upgrades to the Harvest HAWK ISR/Weapon Mission Kit.
    Fielded throughout our Active force, the KC-130J brings increased 
capability, performance and survivability with lower operating and 
sustainment costs for the MAGTF. Forward deployed in support of ongoing 
operations since 2005, the KC-130J continues to deliver Marines, fuel 
and cargo whenever and wherever needed. Today, the KC-130J remains in 
high demand, providing tactical air-to-air refueling, assault support, 
CAS and Multi-sensor Imagery Reconnaissance (MIR) capabilities in 
support of SPMAGTFs and deployed MEUs.
    First deployed in 2010, the roll-on/roll-off Harvest HAWK Mission 
Kit for the KC-130J continues to provide extended MIR and CAS 
capabilities. With almost 7,000 hours flown, 210 Hellfire missiles, and 
91 Griffin missile combat engagements, this expeditionary mission kit 
has proven its worth and made the KC-130J even more indispensable for 
Marines on the ground. All six mission kits have been fielded, and the 
requested funding in the fiscal year 2018 budget request will be used 
to maintain operational relevance of this mission system through 
compatibility with additional Hellfire variants and an improved full 
motion video data-link.
    The Marine Corps has funded 66 of the 79 KC-130J aircraft through 
the current FYDP. The 3 aircraft included in the fiscal year 2013 
budget would have completed the Active Component (AC) requirement of 51 
aircraft. However, in 2014 the Marine Corps began using the AC backup 
aircraft to accelerate the Reserve Component (RC) transition from the 
legacy KC-130T aircraft to the more capable and efficient KC-130J. The 
aircraft requested in the Fiscal Year 2018 President's Budget will 
continue to increase KC-130J inventory as we strive to achieve FOC in 
the RC. Delays in procurement would force the Marine Corps to sustain 
the KC-130T aircraft longer than planned at an increased cost and incur 
additional manpower issues.
    It is also important to note that the USAF C-130J procurement is 
anticipated to end in 2023. If the Marine Corps procure KC-130Js at a 
rate of two per year, we will have approximately ten aircraft remaining 
to procure after fiscal year 2023 in order to reach the POR of 79 
aircraft. The loss of USAF aircraft quantities and the uncertainty of 
additional Foreign Military Sales may result in a significant unit cost 
increase for these final aircraft.
                       maritime support aircraft
P-8A Poseidon
    The P-8A Poseidon recapitalizes the ASW, Anti-Surface Warfare 
(ASuW) and armed ISR capabilities from the aging P-3C Orion. The P-8A 
combines the proven reliability of the commercial 737 airframe with 
avionics that enable integration of modern sensors and robust military 
communications. The first P-8A operational deployment was completed in 
June 2014, with continuous deployments to both 7th Fleet and 6th Fleet 
underway. As of April 2017, seven of twelve fleet squadrons have 
completed transition and an eighth is underway. All squadrons are 
scheduled to complete transition by fiscal year 2020. The P-8A program 
is meeting all cost, schedule and performance parameters in accordance 
with the approved Acquisition Program Baseline. It has achieved and 
surpassed reliability standards for operational availability and 
delivered forward commanders unprecedented capability.
    Each of the 54 fleet aircraft delivered early or on time. Lot 6 and 
Lot 7 are under contract, including eight aircraft for the Royal 
Australian Air Force, our cooperative partner. Lots 8-10 will include 
nine aircraft for the United Kingdom and five for the Royal Norwegian 
Air Force. In fiscal year 2018, our request is for $1.386 billion in 
APN for seven aircraft and $181.7 million in RDT&E,N for aircraft 
updates to include the addition of Networked Enabled Weapons 
capabilities.
    The first planned upgrade for the P-8A, Increment 2, added a broad-
area, multi-static acoustic (MAC) ASW capability to the aircraft. This 
capability significantly increased the P-8A ASW search rates in harsh, 
littoral environments. The capability is scheduled to receive regular 
incremental upgrades over the next five years in order to pace the 
threat and improve the aircraft's search capability. MAC completed 
Follow-On Operational Test & Evaluation in April 2015 and has been 
delivered to the Fleet. Separately, Increment 2 integrates a High 
Altitude ASW Weapons Capability under a contract awarded in December 
2014, in support of a planned 2020 fleet introduction.
P-3C Orion
    The aging P-3C fleet will continue to provide critical ASW, ASuW 
and ISR support for operations worldwide until the fleet completes 
transition to P-8A. The fiscal year 2018 budget request provides $0.7 
million to manage P-3C aircraft mission systems obsolescence and $1.4 
million to fund the P-3 Fatigue Life Management Program in order to 
maintain sufficient capacity to complete the transition to P-8A.
EP-3 Aries
    The EP-3E Aries is the Navy's only Maritime ISR and Signals 
Intelligence (SIGINT) platform. The Joint Airborne SIGINT Common 
Configuration includes Multi-INT sensors, robust communication, and 
data links employed by the venerable P-3 air vehicle to ensure 
effective fleet support across the full spectrum of military 
operations. The Fiscal Year 2011 National Defense Authorization Act 
directed the Navy to sustain EP-3E airframe and associated mission 
systems to minimize SIGINT capability gaps until the systems are fully 
recapitalized with a system or family of systems that in aggregate 
provide equal or better capability and capacity. The Navy's family of 
systems approach to ISR shifts the focus from platforms to payloads to 
deliver increased capacity and persistence by the end of this decade. 
The EP-3 fiscal year 2018 budget request of $14.5 million (Baseline and 
OCO) reduces risk compared to previous fiscal years while the Navy 
continues to collaborate with the Joint Staff and DOD to optimize the 
future of ISR.
                    unmanned aircraft systems (uas)
    The DON has placed a priority on the development of unmanned 
systems leading to a fully integrated manned and unmanned fleet. 
Unmanned technology will not replace our sailors and marines; instead 
it will unlock their full potential as we integrate this technology 
within our total force.
MQ-4C Triton UAS
    The Fiscal Year 2018 President's Budget requests $84.1 million in 
RDT&E,N to continue Triton baseline development activities; $229.4 
million in RDT&E,N for Triton modernization; and $676.3 million of APN 
for procurement of the third lot of LRIP aircraft and spares, retrofit 
of the LRIP Lot 1 aircraft to the Multi-INT configuration, and for 
procurement of long lead materials for the fourth lot of LRIP aircraft.
    The MQ-4C Triton is a key component of the Navy Maritime Patrol 
Reconnaissance Force. Its persistent sensor dwell, combined with 
networked sensors, will enable it to effectively meet ISR requirements 
in support of the Navy Maritime Strategy. Triton will start 
establishing five globally-distributed, persistent Maritime ISR orbits 
beginning in fiscal year 2018, as part of the Navy's Maritime ISR&T 
Transition Plan. MQ-4C Triton test vehicles have completed over 110 
test flights as of April, 2017, and will complete sensor and 
performance flight testing this fall in support of establishing an 
early operational capability in the Pacific next year. Milestone C was 
successfully completed in September 2017, and the program has entered 
the production and deployment phase.
    The Navy currently maintains an inventory of four RQ-4A Global Hawk 
Block 10 UAS, as part of the BAMS Demonstrator, or BAMS-D program. 
These aircraft have been deployed to CENTCOM's AOR for over eight 
years. BAMS-D recently achieved over 23,000 flight hours in support of 
CENTCOM ISR tasking.
MQ-25 Stingray
    MQ-25 will deliver the Navy's first carrier-based unmanned aircraft 
to function primarily as a mission tanker to extend the range and reach 
of the CVW with secondary recovery tanking and ISR capabilities. MQ-25 
will reduce current use of F/A-18E/Fs as CVW tankers and extend F/A-
18E/F service life. As a secondary mission, MQ-25 will provide the 
Carrier Strike Group Commander an organic, persistent ISR capability 
for maritime domain awareness. The Fiscal Year 2018 President's Budget 
requests $222.2 million in RDT&E,N for MQ-25 developmental activities 
and the Air System Engineering and Manufacturing Development contract 
award.
MQ-8 Fire Scout
    The MQ-8 Fire Scout is a rotary-wing system that includes two 
airframe types, the MQ-8B and MQ-8C. The MQ-8C is a larger, more 
capable and more cost-effective airframe that uses the same mission 
control system, avionics and payloads as the MQ-8B. The system is 
designed to operate from any suitably-equipped air-capable ship, carry 
modular mission payloads, and operate using the Tactical Control System 
and Line-Of-Sight Tactical Common Data Link. The Fiscal Year 2018 
President's Budget requests $62.7 million of RDT&E,N to continue 
hardware and software modifications, payload integration, cyber 
vulnerability closure and safety capability improvements such as a 
backup landing system and collision avoidance system. The request for 
$85.4 million in APN procures four MQ-8 mission control systems, MQ-8C 
AESA Radar kits, ancillary shipboard equipment, trainers and aircraft 
support equipment, technical support, modifications based on 
engineering changes, and logistics products to outfit suitably-equipped 
air-capable ships and train the associated Aviation Detachments.
    The MQ-8B has completed 11 operational deployments and flown more 
than 16,000 operational hours, including deployments to Afghanistan, 
deployments on Navy Frigates, and deployments aboard LCS supporting 
Special Operations Forces and Navy operations. The MQ-8B is currently 
deployed on USS CORONADO (LCS-4) with HSC-23 in a composite aviation 
detachment with an MH-60S. This detachment represents the first 
deployment of an MQ-8B with a maritime search radar capability. HSC-21, 
located in San Diego, California, is currently working up for a fiscal 
year 2018 employment onboard USS Independence (LCS-2) marking the first 
deployment of the Coastal Battlefield Reconnaissance and Analysis MCM 
payload. HSC-22, located in Norfolk, Virginia, has been identified as 
the MQ-8 introductory squadron for the east coast and will deploy 
onboard the USS DETROIT (LCS-7) in early 2018.
    The MQ-8C Fire Scout has flown more than 800 flight hours 
conducting developmental and land-based operational testing including 
dynamic interface testing on LCS-8 in April 2017. The program begins 
Initial Operational Test & Evaluation in the first quarter of fiscal 
year 2018. The Navy is continuing efforts to integrate an AESA radar 
capability into the MQ-8C and is planning to integrate the APKWS II 
weapon system and future MCM payloads. The Fire Scout program will 
continue to support integration and testing for LCS-based Surface 
Warfare and MCM mission modules.
Tactical Control System (TCS)
    The Fiscal Year 2018 President's Budget requests $7.8 million in 
RDT&E,N for the MQ-8 System's Tactical Control System (TCS). TCS 
provides a standards-compliant open architecture with scalable command 
and control capabilities for the MQ-8 Fire Scout system. In fiscal year 
2018, TCS will continue transition of the Linux operating system to a 
technology refreshed mission control system, and enhance the MQ-8 
System's Automatic Identification System and sensor track generation 
integration with ship systems. The Linux operating system conversion 
overcomes hardware obsolescence issues with the Solaris based control 
stations and provides lower cost software updates using DOD common 
application software. In addition, the TCS Linux upgrade will enhance 
collaboration with the Navy's future UAS Common Control System.
RQ-21A Blackjack
    The Fiscal Year 2018 President's Budget requests $13.7 million in 
RDT&E ($4.8 million USN, $8.9 million USMC); $4.8 million in APN for 
support of Naval Special Warfare; and $86.2 million in PMC for four 
expeditionary RQ-21A systems (which includes 20 air vehicles) to 
address Marine Corps ISR capability requirements. This Group 3 UAS 
provides persistent ship and land based ISR support for expeditionary 
tactical-level maneuver decisions and unit level force defense and 
force protection missions. Blackjack entered LRIP in 2013, completed 
Initial Operational Test & Evaluation in the second quarter of fiscal 
year 2015, and reached IOC in January 2016. FRP was approved in the 
fourth quarter of fiscal year 2016.
    The RQ-21 completed its first combat deployments in 2016 with 
support to the 24th and 22nd MEU and Marine Corps Special Operations 
Command operations in Operation Inherent Resolve. The Blackjack has 
flown over 700 sorties and 3940 hours in support of the MAGTF.
    The RQ-21's current configuration includes full motion video, 
communications relay package and automatic identification systems. The 
air vehicle's bay allows for rapid deployment of signals intelligence 
payloads. The Marine Corps is actively pursuing technological 
developments for the RQ-21A system in an effort to provide the MAGTF 
and Marine Corps Special Operations Command with significantly improved 
capabilities. Initiatives include over-the-horizon communication and 
data relay ability to integrate the system into future networked 
digital environments; electronic warfare and cyber payloads to increase 
non-kinetic capabilities; and change detection radar and moving target 
indicators to assist warfighters in battlespace awareness and force 
application.
MAGTF Expeditionary UAS (MUX)
    As the Marine Corps recapitalizes toward a more diverse, lethal, 
amphibious and middleweight expeditionary force, the Marine Corps will 
require a UAS that is network-enabled, digitally interoperable, and 
built to execute responsive, persistent, lethal, and adaptive full-
spectrum operations. A MUX is planned to be the system that will 
provide the MEF/MEB-sized MAGTF with an advanced multi-mission 
platform.
    The fiscal year 2018 budget requests $5.0 million in RDT&E for the 
MUX program to conduct an AoA and begin development of an acquisition 
strategy; $3.0 million in RDT&E for KMAX operations in support of MUX 
technology demonstrations and Concept of Operation development 
(included under the MUX line).
    The MUX Initial Capabilities Document was approved by the Joint 
Requirements Oversight Council on October 4, 2016. The AoA study plan 
and guidance are being developed with OSD(CAPE). The AoA is projected 
to be completed by the fourth quarter of fiscal year 2018.
    MUX supports the Marine Corps Operating Concept by significantly 
mitigating or eliminating the following MAGTF gaps: EW, ISR, Command, 
Control and Communications (C3) DI, Aerial Escort, all weather, 
persistent CAS and Deep Air Support, Airborne Early Warning, and 
Tactical Cargo Distribution. MUX will be a long range (690+ NM), 
persistent (24+ hours) UAS capable of complimenting MV-22 operations 
and operating from both sea and expeditionary bases.
Common Control System (CCS)
    The Fiscal Year 2018 President's Budget requests $39.7 million in 
RDT&E,N for the Common Control System (CCS). The primary mission of CCS 
is to provide common control across the Navy's unmanned systems (UxS) 
portfolio to add scalable and adaptable warfighting capability, 
implement robust cybersecurity attributes, leverage existing government 
owned products, eliminate redundant software development efforts, 
consolidate product support, encourage innovation, improve cost 
control, and enable rapid integration of UxS capabilities across all 
domains: Air, Surface, Sub-Surface, and Ground. CCS leverages existing 
Government owned software to provide UxS Vehicle Management (VM), 
Mission Management (MM) and Mission Planning (MP) capabilities. CCS 
uses an open and modular business model and is being developed 
initially as Government Furnished Information/Equipment for the MQ-25 
and for follow-on use with Triton and Fire Scout. In fiscal year 2018, 
CCS Increment I will continue to perform software design, development, 
integration and test for VM. Concurrently, CCS Increment II will 
conduct MM/MP requirements development and software design.
                                 safety
    Responses to Congressional requests for updates on Naval Aviation 
safety can be found at Addendum C.
                        strike weapons programs
Cruise Missile Strategy
    The DON has aligned its Cruise Missile Strategy along warfighter 
domains to pursue maximized lethality while minimizing overall costs to 
the taxpayer and Department.
    The first tenet of our plan is to sustain the Tomahawk cruise 
missile inventory through its anticipated service-life via a mid-life 
recertification program (first quarter of fiscal year 2019 start). This 
recertification program will increase missile service-life by an 
additional 15-years (total of 30-years) and enable the Department to 
support Tomahawk in our active inventory through the mid-late 2040s. In 
concert with our recertification program we will integrate 
modernization and technological upgrades and address existing 
obsolescence issues. In addition, we are developing a Maritime Strike 
Tomahawk capability to deliver a long-range anti-surface warfare 
capability.
    Second, we will field the Long Range Anti-Ship Missile (LRASM) as 
the air-launched Offensive Anti-Surface Warfare (OASuW)/Increment 1 
material solution to meet near to mid-term anti-surface warfare 
threats. LRASM is pioneering accelerated acquisition processes in 
accordance with DOD-5000.02 (Model 4). Currently, we anticipate LRASM 
to meet all Joint Chiefs of Staff approved warfighting requirements, 
deliver on-time, and cost within approximately one-percent of its 
original program cost estimate.
    We also plan to develop follow-on next generation strike 
capabilities. We intend to develop an air-launched OASuW/Increment 2 
weapon to address long-term ASuW threats and a surface and submarine 
launched Next Generation Land Attack Weapon (NGLAW). NGLAW will have 
both a long-range land strike and maritime ASuW capability that 
initially complements, and then replaces, the highly successful 
Tomahawk Weapon System.
    To the maximum extent possible, the DON plans to utilize common 
components and component technologies (e.g. navigation, communications, 
seeker, guidance and control) to reduce cost, shorten development 
timelines, and promote interoperability. Based on performance 
requirements and launch parameters, next generation strike capability 
missile airframes and propulsion systems will differ between the air-
launched and sea-launched weapons.
Tactical Tomahawk (TACTOM) BLK IV Cruise Missile
    The Fiscal Year 2018 President's Budget requests $234.5 million in 
WPN for procurement of an additional 100 TACTOM weapons and associated 
support to include replacement of weapons launched in combat (Syria), 
$31.7 million in OPN for the Tomahawk support equipment, and $114.8 
million in RDT&E,N for capability updates of the weapon system. WPN 
resources will be for the continued procurement of this versatile, 
combat-proven, deep-strike weapon system in order to meet ship load-
outs and combat requirements. OPN resources will address the resolution 
of Tactical Tomahawk Weapons Control System obsolescence, Tomahawk 
Theater Mission Planning Center (TMPC) complexity and usability issues, 
interoperability, and information assurance mandates. RDT&E,N resources 
will be used to develop navigation system improvements and 
communications upgrades to improve TACTOMs performance in Anti-Access/
Area Denial environments, as well as development of a seeker to enable 
TACTOM to engage maritime targets, and the development and integration 
of a multiple effects warhead.
    Tomahawk provides an attack capability against fixed and mobile 
targets, and can be launched from both Ships and Submarines. The 
current variant, TACTOM, preserves Tomahawk's long-range precision-
strike capability while significantly increasing responsiveness and 
flexibility. TACTOM's improvements include in-flight retargeting, the 
ability to loiter over the battlefield, in-flight missile health and 
status monitoring, and. Other Tomahawk improvements include rapid 
mission planning and execution via Global Positioning System (GPS) 
onboard the launch platform and improved anti-jam GPS.
Tomahawk Theater Mission Planning Center (TMPC)
    The Fiscal Year 2018 President's Budget for TMPC requests $18.8 
million in RDT&E,N and $41.5 million in OPN. TMPC is the mission 
planning and strike execution segment of the Tomahawk Weapon System. 
TMPC develops and distributes strike missions for the Tomahawk Missile; 
provides for precision targeting, weaponeering, mission and strike 
planning, execution, coordination, control and reporting. TMPC provides 
CCDRs and Maritime Component Commanders the capability to plan and/or 
modify conventional Tomahawk Land-Attack Missile missions. TMPC is a 
Mission Assurance Category 1 system, vital to operational readiness and 
mission effectiveness of deployed and contingency forces. RDT&E,N 
efforts will address National imagery format changes, update Tomahawk 
navigation and accuracy algorithms--to include operations in the 
maritime and/or Anti-Access Area Denial environments, upgrade obsolete 
Tomahawk Cruise Missile Communications and initiate a Tomahawk seeker 
integration into the TMPC mission planning environment. OPN resources 
will enable the Navy to continue software engineering efforts 
associated with Tomahawk Missile Modernization, upgrade unsupportable 
and obsolete TMPC software to ensure compliance with DOD cybersecurity 
mandates, and implement the TMPC Enterprise Network to allow for rapid 
delivery of security policies, cybersecurity software patches and anti-
virus definitions. All of these upgrades are critical for the support 
of over 180 TMPC operational sites worldwide, afloat and ashore, to 
include: Cruise Missile Support Activities (inclusive of STRATCOM), 
Tomahawk Strike and Mission Planning Cells (5th, 6th, 7th Fleet), 
Carrier Strike Groups, Surface and Subsurface Firing Units and Labs/
Training Classrooms.
Offensive Anti-Surface Warfare (OASuW) Increment 1 (Long Range Anti-
        Ship Missile (LRASM))
    OASuW/Increment 1 (LRASM) will provide CCDRs the ability to conduct 
ASuW operations against high-value surface combatants protected by 
Integrated Air Defense Systems with long-range Surface-to-Air-Missiles 
and deny adversaries the sanctuary of maneuver against 2018-2020 
threats. The program is scheduled to achieve Early Operational 
Capability on the Air Force B-1 by the end of fiscal year 2018 and Navy 
F/A-18E/F by the end of fiscal year 2019.
    The Fiscal Year 2018 President's Budget request contains $160.7 
million in RDT&E,N for LRASM development and testing and $74.7 million 
in WPN to purchase 25 LRASM All-Up-Round weapons. OASuW Increment 1 
(LRASM) leverages the Defense Advanced Research Projects Agency weapon 
demonstration effort.
Offensive Anti-Surface Warfare (OASuW) Increment 2
    OASuW/Increment 2 is required to deliver the long-term air-launched 
ASuW capability to counter 2024 (and beyond) threats. The Department 
continues to plan for OASuW/Increment 2 to be determined via full and 
open competition. Full OASuW/Inc. 2 capability is delayed until at 
least fiscal year 2026 (est.).
Next Generation Land Attack Weapon (NGLAW)
    The Next Generation Land Attack Weapon (NGLAW) will provide the 
next generation of long-range, kinetic strike to destroy high-priority 
fixed, stationary and moving targets--as well as those targets 
hardened, defended or positioned at ranges such that engagement by 
aviation assets would incur unacceptable risk. NGLAW will be capable of 
kinetic land and maritime attack from surface and sub-surface platforms 
and initially complement, and then eventually replace, the Tomahawk 
Weapon System. IOC is planned for the 2028-2030 timeframe (est.).
    On November 28, 2016, the Under Secretary of Defense approved 
Navy's entry into the MS-A phase and authorized initiation of an AoA. 
Fiscal year 2018 resources totaling $9.9 million begins the transition 
from the analysis phase to planning for a formal program of record.
Sidewinder Air-Intercept Missile (AIM-9X)
    The Fiscal Year 2018 President's Budget requests $ 42.9 million in 
RDT&E,N and $79.7 million in WPN for this joint DON and USAF program. 
RDT&E,N will be applied toward the Engineering Manufacturing 
Development phase of critical hardware obsolescence redesign and 
Developmental Testing of Version 9.4 missile software, both part of the 
AIM-9X/Block II System Improvement Program (SIP) III. Navy also 
continues the design and development of Insensitive Munitions 
improvements in accordance with direction from the Joint Chiefs of 
Staff. WPN funding is requested to procure a combined 185 All-Up-Rounds 
and Captive Air Training Missiles and associated missile-related 
hardware. The AIM-9X Block II/ II+ Sidewinder is the newest in the 
Sidewinder family and is the only short-range infrared air-to-air 
missile integrated on Navy, Marine Corps, and USAF strike-fighter 
aircraft. This fifth-generation weapon incorporates high off-boresight 
acquisition capability and increased seeker sensitivity through an 
imaging infrared focal plane array seeker with advanced guidance 
processing for improved target acquisition; data link capability; and 
advanced thrust vectoring technology to achieve superior 
maneuverability and increase the probability of intercept of adversary 
aircraft.
Advanced Medium-Range Air-to-Air Missile (AMRAAM/AIM-120D)
    The Fiscal Year 2018 President's Budget requests $25.4 million in 
RDT&E,N for continued software capability enhancements and $197.1 
million in WPN for 120 All-Up-Rounds and associated missile-related 
hardware. AMRAAM is a joint USAF and DON weapon that counters existing 
aircraft and cruise-missile threats. It uses advanced counter-
electronic attack capabilities at both high and low altitudes, and can 
engage targets from both beyond visual range and within visual range. 
AMRAAM provides an air-to-air first look, first shot, first kill 
capability, while working within a networked environment in support of 
the Navy's Theater Air and Missile Defense Mission Area. RDT&E,N will 
be applied toward critical hardware obsolescence through the Form, Fit, 
Function, Refresh (F3R) redesign effort as well as software upgrades to 
counter emerging Electronic Attack threats for AIM-120C/D missiles. 
Production challenges linked to the F3R program forced the Navy to 
reduce its planned procurement of AMRAAM in fiscal year 2018.
Small Diameter Bomb II (SDB II)
    The Fiscal Year 2018 President's Budget requests $112.8 million in 
RDT&E,N for continued development of the USAF-led Joint Service SDB II 
weapon and Joint Miniature Munitions Bomb Rack Unit (JMM BRU) programs 
and $21.0 million in WPN to procure 90 All-Up-Round weapons. Using 
multi-mode seeker and two-way data-link capabilities, SDB II provides 
an adverse weather, day or night standoff capability against mobile, 
moving, and fixed targets, and enables target prosecution while 
minimizing collateral damage. SDB II will be integrated into the 
internal carriage of both DON variants of the Joint Strike Fighter (F-
35B/F-35C) and externally on the Navy's F/A-18E/F via the JMM BRU (BRU-
77A). JMM BRU completed Milestone B and entered Engineering 
Manufacturing Development in August 2015. Both SDB II and JMMU BRU will 
use an Universal Armament Interface architecture to enable more 
efficient and less costly future weapon/platform integration.
Advanced Anti-Radiation Guided Missile (AARGM) & AARGM Extended Range
    The Fiscal Year 2018 President's Budget requests $6.4 million of 
RDT&E,N for High-Speed Anti-Radiation Missile (HARM) and AARGM Foreign 
Material Assessment; $15.2 million for AARGM to implement M Code, 
transition receiver upgrade from ONR efforts and Block 1 follow-on 
development; $66.3 million of RDT&E,N for AARGM Extended Range (AARGM-
ER) development; and $183.4 million of WPN for production of AARGM 
modification kits for 251 All-Up-Rounds and Captive Training Missiles. 
The AARGM cooperative program with the Italian Air Force transforms the 
HARM into an affordable, lethal, and flexible time-sensitive strike 
weapon system for conducting Destruction of Enemy Air Defense missions. 
AARGM adds multi-spectral targeting capability and targeting 
geospecificity to its supersonic fly-out to destroy sophisticated enemy 
air defenses and expands upon the HARM target set. The program achieved 
IOC on the F/A-18C/D aircraft in July 2012, with forward deployment to 
PACOM; integration is complete for AARGM with release of H-8 System 
Configuration Set for F/A-18E/F and EA-18G aircraft. The AARGM Block 1 
software only update will achieve IOC the third quarter of fiscal year 
2017. The AARGM-ER modification program, involving hardware and 
software improvements, began in fiscal year 2016. This effort will 
increase the weapon system's survivability against complex and emerging 
threat systems and affords greater stand-off range for the launch 
platform. AARGM-ER will be designed to fit internally in both the F-35A 
and F-35C, thereby increasing the capability and lethality of the 
Lightening II weapon system.
Joint Air-to-Ground Missile (JAGM)
    The Fiscal Year 2018 President's Budget requests $15.5 million in 
RDT&E,N to continue a five year integration effort of JAGM Increment 1 
onto the Marine Corps AH-1Z and $3.8 million in WPN to support the 
fiscal year 2017 procurement of 96 All-Up-Rounds in order to meet the 
IOC in fiscal year 2020. The fiscal year 2017 and fiscal year 2018 
funding will be used to procure the JAGM LRIP All Up Rounds, Other 
Production Support, training missiles, production related engineering 
and logistics to support the procurement in order to meet the IOC.
    JAGM is an Army-led, Joint ACAT-1D Major Defense Acquisition 
Program. JAGM is a direct attack/CAS missile program that will utilize 
advanced seeker technology to provide fire-and-forget, simultaneous 
target engagement against land and maritime targets. JAGM will replace 
the HELLFIRE and TOW II missile systems for the DON. In November 2012, 
the Joint Chiefs of Staff authorized the JAGM incremental requirements 
and revalidated the DON's AH-1Z Cobra aircraft as a threshold platform. 
JAGM Increment 1 achieved Milestone B approval in fiscal year 2015, a 
Milestone C (LRIP) is planned for the fiscal year 2018 and AH-1Z Cobra/
JAGM IOC is planned for fiscal year 2020.
Advanced Precision Kill Weapon System II (APKWS II)
    The Fiscal Year 2018 President's Budget requests $39.5 million in 
PANMC for procurement of 1,210 APKWS II Precision Guidance Kits. APKWS 
II provides an unprecedented precision guidance capability to DON 
unguided rocket inventories, improving accuracy and minimizing 
collateral damage. Program production continues on schedule, meeting 
the needs of our warfighters in today's theaters of operations. Marine 
Corps AH-1W and UH-1Y achieved IOC in March 2012 and the Marine Corps 
AH-1Z platform was certified to fire APKWS II in June 2015. To date, 
these platforms have expended more than 190 APKWS II weapons during 
combat missions. The Navy successfully integrated APKWS II on the MH-
60S for an Early Operational Capability in March 2014 and fielded a 
similar effort on the MH-60R in March 2015. A variant of APKWS II has 
been integrated onto the AV-8B, A-10 and F-16 aircraft, and is 
currently being employed in support of Operation Inherent Resolve.
Direct Attack Weapons and General Purpose Bombs
    The Fiscal Year 2018 President's Budget requests $108.9 million in 
PANMC for Direct Attack Weapons and General Purpose bombs and an 
additional $164.3 million specifically to procure 7,209 Joint Direct 
Attack Munition (JDAM) kits to enhance readiness. In thirty months of 
Operation Inherent Resolve, DON aircraft have expended more than three 
times the number of 500lb JDAM kits than we have procured during the 
same period. This significant warfighter demand has forced the Navy to 
reduce the number of 500-pound JDAM available for training in order to 
preserve warfighting inventory. The OCO request for fiscal year 2018 
replaces the ordnance expended in the first six months of 2016. While 
OCO replenishment is helpful, it does not overcome the remainder of the 
year's expenditures which will continue to exacerbate the current 
inventory shortfall. Fully funding the General Purpose Bomb line item 
is critical to sustaining the DON's inventory for ongoing combat 
operations and replenishing it for future contingencies.
                               conclusion
    The Department of the Navy continues to instill affordability, 
strive for stability, and maintain capacity to advance capabilities and 
meet mission requirements. We remain an agile strike and amphibious 
power projection force in readiness, and such agility requires that the 
aviation arm of our naval strike and expeditionary forces remain 
strong. Mr. Chairman, and distinguished committee members, we request 
your continued support for the Department's fiscal year 2018 budget 
request for our Naval Aviation programs.

                               Addendum A

                         physiological episodes
    Physiological Episodes (PEs) occur when aircrew experience a 
decrement in performance, related to disturbances in tissue 
oxygenation, depressurization or other factors present in the flight 
environment. PEs are categorized into two general groups, those related 
to Onboard Oxygen Generation Systems (OBOGS) or pilot breathing gas, 
and those caused by problems in the Environmental Control System s 
(ECS), i.e.--unscheduled pressure changes in the flight station. These 
phenomena jeopardize safe flight.
    As a result of physiological episodes, the F/A-18 Program Office 
(PMA-265) established a Physiological Episode Team (PET) in 2010. In 
March of 2017, the PET was reorganized to form the PMA-265 
Physiological Episode (PE) Integrated Product Team (IPT) to perform a 
formal Root Cause and Corrective Action analysis of F/A-18A-F and EA-
18G events. The F/A-18 PE IPT is a formal partnership between PMA-265 
and Boeing, and includes participation from Northrop Grumman, the 
NAVAIR Engineering Fleet Support Team (FST), NAVAIR 4.3's Environmental 
Control System (ECS) Team, NAVAIR 4.6's Human Systems Team, and the 
NAE's Aeromedical Crisis Action Team. The F/A-18 PE IPT works closely 
with other program offices, cross-service affiliates and industry 
partners in evaluating each episode for root cause and appropriate 
corrective action.
    The PMA-265 PE IPT is currently addressing hypoxia and 
decompression events as the two most likely causes of recent 
physiological episodes in aviators. As symptoms related to 
depressurization, tissue hypoxia and contaminant intoxication overlap, 
discerning a root cause is a complex process. Episodes of decompression 
sickness typically accompany a noticeable loss or rapid fluctuation of 
cabin pressure, while the cause of hypoxic related events is often not 
readily apparent during flight or post flight. Reconstruction of the 
flight event is difficult with potential causal factors not always 
readily apparent during post-flight debrief and examination of aircraft 
and aircrew.
    Historical data of F/A-18 physiological events prior to May 2010 is 
based on safety reports. The rate per 100,000 flight hours during 
fiscal year 2006 to fiscal year 2010:

 
----------------------------------------------------------------------------------------------------------------
            Date Range                      F/A-18A-D                 F/A-18E-F                  EA-18G
----------------------------------------------------------------------------------------------------------------
FY06..............................                     3.66                      2.18                      0.00
----------------------------------------------------------------------------------------------------------------
FY07..............................                     1.63                      3.73                      0.00
----------------------------------------------------------------------------------------------------------------
FY08..............................                     3.72                      4.28                      0.00
----------------------------------------------------------------------------------------------------------------
FY09..............................                     6.19                      8.33                      0.00
----------------------------------------------------------------------------------------------------------------
FY10..............................                     4.95                     11.96                      0.00
----------------------------------------------------------------------------------------------------------------

    In May 2010, the Commander, Naval Air Forces directed specific 
reporting procedures to collect more data on the occurrence of PEs. 
Following implementation of the new reporting protocol, the rate per 
100,000 flight hours beginning in May 2010:

 
----------------------------------------------------------------------------------------------------------------
            Date Range                      F/A-18A-D                 F/A-18E-F                  EA-18G
----------------------------------------------------------------------------------------------------------------
05/1/2010 - 10/31/2010............                    12.20                      8.98                      0.00
----------------------------------------------------------------------------------------------------------------
11/1/2010 - 10/31/2011............                    10.90                      8.65                      5.52
----------------------------------------------------------------------------------------------------------------
11/1/2011 - 10/31/2012............                    16.39                     23.35                      5.42
----------------------------------------------------------------------------------------------------------------
11/1/2012 - 10/31/2013............                    21.01                     26.23                      9.80
----------------------------------------------------------------------------------------------------------------
11/1/2013 - 10/31/2014............                    29.54                     26.39                     15.05
----------------------------------------------------------------------------------------------------------------
11/1/2014 - 10/31/2015............                    30.20                     28.02                     42.89
----------------------------------------------------------------------------------------------------------------
11/1/2015 - 10/31/2016............                    57.24                     31.05                     90.83
----------------------------------------------------------------------------------------------------------------

      
    The process for investigating a physiological episode begins with 
the submission of data describing the event. Engineers from the ECS FST 
and the Aircrew Oxygen Systems In-Service Support Center work with the 
squadron maintenance department to identify which components of the 
aircraft should be removed and submitted for engineering investigation. 
The squadron flight surgeon also submits data on the medical condition 
of the pilot and in-flight symptoms that were experienced.
    After completion of the component investigations, the incident is 
examined holistically by members of the engineering teams and 
Aeromedical specialists to identify the most likely cause of the 
incident. Of 382 cases adjudicated by the PET so far, 130 have involved 
some form of possible contamination, 114 involved an ECS component 
failure, 91 involved human factors, 50 involved an OBOGS component 
failure, 13 involved a breathing gas delivery component failure, and 76 
were inconclusive or involved another aircraft system failure. Of note, 
some of the events resulted in assignment to more than one category.
T-45 Physiological Episodes
    Data recorded since introduction of the T-45 Physiological Event 
Reporting Protocol form in November 2011 is presented below by calendar 
year. Prior years' data for T-45 aircraft is incomplete and is not 
included.

 
----------------------------------------------------------------------------------------------------------------
                                         Calendar year rate per 100K flight    Cumulative rate per 100K flight
             Calendar Year                             hours                                hours
----------------------------------------------------------------------------------------------------------------
2012..................................                               11.86                                11.86
----------------------------------------------------------------------------------------------------------------
2013..................................                               16.22                                13.94
----------------------------------------------------------------------------------------------------------------
2014..................................                               18.43                                15.36
----------------------------------------------------------------------------------------------------------------
2015..................................                               44.99                                22.70
----------------------------------------------------------------------------------------------------------------
2016..................................                               46.97                                28.01
----------------------------------------------------------------------------------------------------------------

      
    The process for investigating a physiological episode mimics that 
being used by the F/A-18 and is also managed by PET. After completion 
of the component investigations, the incident is examined holistically 
by members of the PET's engineering teams and aviation medical 
specialists to identify the most likely cause of the incident. More 
than one causal factor can be attributed to a single physiological 
episode event. Of the 79 physiological episode reports adjudicated to 
date, 24 were assessed to be possible contamination, 12 involved human 
factors (these may also include incidents of airsickness and vertigo), 
12 involved OBOGS component failure, 11 involved a breathing gas 
delivery failure, three involved cabin integrity, and the remaining 23 
were inconclusive or involved another system failure.
Efforts to Mitigate Physiological Episodes on F/A-18 and EA-18G
    A variety of actions have been undertaken to address the occurrence 
of physiological episodes in the F/A-18 / E/A-18G:
     1.  New maintenance rules for handling the occurrence of specific 
ECS built-in test faults have been implemented throughout the fleet 
requiring that the cause of the fault be identified and corrected prior 
to next flight.
     2.  Transportable Recompression Systems have been put on forward 
deployed aircraft carriers to immediately treat aircrew in the event 
they experience decompression sickness symptoms.
     3.  Mandatory cabin pressurization testing is now performed on all 
F/A-18A-F and EA-18G aircraft every 400 flight hours and ECS pressure 
port testing is performed on all F/A-18A-D aircraft every 400 flight 
hours. Overhaul procedures for ECS components and aircraft servicing 
procedures have been improved.
     4.  Emergency procedures have been revised, all pilots now receive 
annual hypoxia awareness training, and biennial dynamic training using 
a Reduced Oxygen Breathing Device to experience and recognize hypoxia 
symptoms while operating an aircraft simulation.
     5.  Aircrews are provided portable hypobaric recording watches to 
alert them when cabin altitude reaches a preset threshold.
     6.  Internal components of the F/A-18 OBOGS have been redesigned 
to incorporate a catalyst to prevent carbon monoxide from reaching the 
pilot and provide an improved capability sieve material (filter). These 
new OBOGS components have been installed in 84 percent of the in 
service F/A-18 fleet so far.
     7.  Improvements to existing maintenance troubleshooting 
procedures and acceptance and test procedures for reworked components 
have been incorporated and additional improvements are under 
evaluation.
     8.  Hardware and software changes are in work for Super Hornets 
and Growlers to mitigate cabin pressurization issues due to moisture 
freezing in the ECS lines.
     9.  Component redesign, improved performance testing, and newly 
established life limits will improve component reliability across all 
F/A-18 configurations.
    10.  An increased capacity for the emergency oxygen bottles is 
under contract.
    11.  Trial sampling efforts for contamination have been conducted 
at EA-18G squadrons located at NAS Whidbey Island to improve real-time 
data collection for OBOGS related systems. ``Sorbent tubes'' which help 
collect and identify unknown contaminants have been attached to aircrew 
regulators to collect samples of breathing gas for post-flight analysis 
of potentially harmful compounds.
    12.  An ECS laboratory is under construction to improve root cause 
and correct actions of ECS engineering investigations of fleet events. 
The projected operational date of the ECS lab is September of 2017.
    13.  Aircraft are flown with ``slam sticks'' to track and collect 
cabin pressure changes over time for rigorous data analysis and to 
compare data to what the aircrew experienced.
    14.  Future projects include systematic evaluations of technologies 
to monitor and detect physiological symptoms.
Efforts to Mitigate Physiological Episodes on T-45
    A variety of actions have been undertaken to address the occurrence 
of physiological episodes in the T-45:
     1.  Instituted recurring immersion training at all Chief of Naval 
Air Training sites using Reduced-Oxygen Breathing Devices.
     2.  Flight manual procedures were updated to optimize crew posture 
for PE recognition, response, and avoidance.
     3.  Revised maintenance publications at both the operational and 
intermediate maintenance levels to increase the minimum oxygen 
generating performance of the concentrator.
     4.  Conducted engine wash water intrusion tests to determine if 
water was entering the OBOGS bleed air. Tests indicated that no water 
was ingested in the OBOGS bleed air lines.
     5.  Installed sorbent tubes and hydrocarbon detectors on aircrew 
to monitor breathing gasses coming off OBOGS. The sorbent tube and HCD 
are attached to the aircrew vest and ported off the oxygen mask hose.
     6.  Installed new sieve beds in the Gas Generating Unit (GGU)-7 
Oxygen Concentrator. The new sieve beds addressed the possibility of 
built up contaminants in the sieve bed material by installing all new 
material, and incorporated a carbon monoxide catalyst to protect 
against carbon monoxide.
     7.  Began fielding of new design CRU-123 oxygen monitoring units. 
A fielded demo unit has over 100 flight hours; up to 15 additional new 
monitors are expected by the end of May. Thirty additional units will 
be installed every month thereafter. The new oxygen monitor provides 
new aircrew alerting if delivery pressure falls, and it records system 
performance and faults.
     8.  Initiated requirements analysis for a new OBOGS oxygen 
concentrator unit.
     9.  Formed a combined team with Government, Boeing (T-45 OEM), and 
Cobham (Oxygen Concentrator OEM) members to cooperate on multiple lines 
of effort to address Physiological Episodes.
    10.  Conducted multiple rounds of high intensity stress testing of 
the GGU-7 Oxygen Concentrator at both NAVAIR and Cobham Laboratories to 
determine concentrator performance outside of the normal operating 
limits (high temperature and high humidity).
    11.  NAVAIR released an end to end cleaning procedure for the OBOGS 
bleed system. Updated regular maintenance procedures to sustain system 
hygiene. Additional thorough cleaning procedures are being developed.
    12.  Evaluated the thermal performance of the OBOGS bleed air 
system by conducting tests on in-service heat exchangers and 
temperature switches that provide alerts when over-temperature 
conditions occur.
    13.  Conducted laboratory testing and on-aircraft fit checks of a 
new water separator that would be installed in the OBOGS bleed line 
prior to the OBOGS concentrator to help guard against water intrusion 
in the concentrator. This program is currently in the early stages of 
detailed engineering design.
    14.  Enhanced data management and collection through initiation of 
a new data management plan; contracted data analysis support to
    15.  Developed new test procedures and conducted OBOGS and ECS 
bleed air contaminant testing on fleet aircraft to establish 
measurement thresholds and foment a predictive system performance 
methodology; developed new test sets to assess oxygen system degraded 
performance.
    16.  Updated flight and maintenance publications to help prevent 
inadvertent system damage, ensure leak free system integrity, add 
periodic inspections, and ensure system cleanliness.
    The Department of the Navy remains focused on solving this issue. 
Fleet awareness is high, protocols are in place and we are focused on 
mitigating risk, correcting known deficiencies and attacking this 
issue. Moving forward we will continue to fly while applying every 
resource to solve this challenging problem.

                           End of Addendum A

                               Addendum B

                    electronic warfare supplemental
    AN/ALQ-214--Navy completed testing the upgraded version of the ALQ-
214 v4 Integrated Defensive Electronic Countermeasure (IDECM) last year 
and continues developing software improvements under the Software 
Improvement Program (SWIP). IOC of SWIP is expected in the second 
quarter of fiscal year 2018. IDECM hardware is currently being 
installed into deploying F/A-18 E/F aircraft on the planned procurement 
ramp.
    Next Generation Jammer (NGJ)--The first increment of NGJ, which 
covers a mid-band frequency range, completed its critical design review 
in May and is on timeline for a fiscal year 2021 IOC. OSD established 
this program as a Skunk Works charter in fiscal year 2015 which has 
allowed a small team of experts to streamline the acquisition process. 
The Next Generation Jammer Low Band (increment 2) is the next material 
solution to replace the 40 year old ALQ-99 low band transmitter 
systems. The acquisition strategy for Low Band (Inc. 2) will be a full 
and open competition supporting program entry at Milestone (MS) B. 
Prior to the EMD competition, there will be up to three Demonstration 
of Existing Technology (DET) contracts awarded as an extension of the 
Low Band (Inc. 2) program's market research effort. In the execution of 
the DET contracts, contractors will demonstrate their existing, mature 
technologies in a relevant environment (i.e. not a technology 
maturation effort, but rather substantiation of the assertion the 
technologies of appropriate level of maturity currently exist to 
support program entry at MS B). Not being awarded a DET contract will 
not preclude any contractor from submitting a proposal and competing 
for award of the Low Band (Inc. 2) EMD contract, as, again, it will be 
a full and open competition. IOC for NGJ Low band is being planned for 
fiscal year 2025.
    ALQ-99--While sustainment and reliability of the 40 year old ALQ-99 
systems continues to challenge the DON (USMC and Navy), we have 
prioritized NGJ implementation to replace the most stressing frequency 
coverage first. Navy is developing an interim upgrade solution for the 
low frequency range transmitter in the Low Band Consolidation (LBC) 
transmitter set. The LBC is on track to field in the first quarter of 
fiscal year 2020. The LBC does not meet the full requirements of the 
NGJ Low Band system, however will increase the reliability of the low 
frequency system.

                           End of Addendum B

                               Addendum C

       summary of class a, b and c aviation-related safety issues
    A summary of all Naval Aviation Class A, B and C aviation-related 
safety issues, including recent mishaps, trends, and analysis from 
October 2015 through May 24, 2017 follows. The rates presented in the 
table are based on total mishaps per 100,000 flight hours and include 
Flight, Flight-Related and Ground mishaps.

----------------------------------------------------------------------------------------------------------------
                                Flight                  Class A                 Class B                 Class C
            Year                 Hours      Class A      Rate       Class B      Rate       Class C      Rate
----------------------------------------------------------------------------------------------------------------
FY16                          1,098,519          18        1.64          27        2.46         224       20.39
FY17                            689,850          15        2.17          19        2.75         163       23.63
----------------------------------------------------------------------------------------------------------------

      
    The most recent fiscal year 2017 DON flight Class A mishaps 
include: 26 Apr 2017: (Off the Coast of Guam) MH-60R collided with 
water on initial takeoff from ship. No injuries.
    <bullet>  21 Apr 2017: (Philippine Sea) F-18E lost on approach to 
landing on carrier. Pilot ejected without injury prior to water impact.
    <bullet>  05 Apr 2017: (Yuma, AZ) CH-53E landed hard and rolled on 
day training flight. Crew of 5 uninjured.
    <bullet>  17 Jan 2017: (NAS Meridian, MS) T-45 crashed following a 
BASH incident on takeoff. Both crewmembers ejected. No fatalities.
    <bullet>  13 Dec 2016: (Off the Coast of Okinawa, Japan) MV-22B 
attempted a precautionary emergency landing (PEL) to dry land but crash 
landed in shallow water. Crew of 5 evacuated with injuries.
    <bullet>  07 Dec 2016: (Off the Coast of Iwakuni MCAS, Japan) F/A-
18C crashed into the water while conducting a night mission. 1 
fatality.
    <bullet>  21 Nov 2016: (Upper Mojave Desert Region) F/A-18F struck 
a tree while instructor pilot was conducting a currency flight event. 
Returned to base safely. No injuries.
    <bullet>  09 Nov 2016: (Off the Coast of San Diego) Two F/A-18As 
were conducting basic flight maneuvers and had a mid-air collision. 1 
aircraft crashed in the water. Pilot ejected successfully. 1 aircraft 
landed with significant damage
    <bullet>  27 Oct 2016: (MCAS Beaufort, SC) F/A-35B had an inflight 
weapons bay fire followed by an uneventful landing. No injuries.
    <bullet>  25 Oct 2016: (Twentynine Palms, CA) F/A-18C crashed on 
final approach. Pilot ejected successfully. No injuries.
    <bullet>  20 Oct 2016: (Yuma, AZ) CH-53E main rotor contacted 
building causing damage to the aircraft.
    <bullet>  13 Oct 2016: (Tinker AFB, OK) E-6B #2 engine sustained 
compressor blade damage due to bird ingestion. Aircraft landed safely. 
No injuries.
    There are three recent fiscal year 2017 DON Class A aviation ground 
operations mishaps (AGM):
    <bullet>  19 January 2017: (NAS Norfolk, VA) Three E-2C aircraft 
damaged in an engine oil related event. (AGM)
    <bullet>  18 December 0216: (Kadena Air Force Base, Japan) Tow bar 
separation resulted in aircraft/tow collision with damage to nose gear 
and lower fuselage of P-8A. (AGM)
    <bullet>  16 December 2016: (NAS Whidbey Island, WA) Canopy on EA-
18G exploded/jettisoned resulting in severe injuries to two personnel. 
(AGM)

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
   

                           End of Addendum C

    Senator Wicker. Well, thank you very much.
    I said this this morning at the full committee, and I'll 
say it again today at the subcommittee level, about the chronic 
underfunding. We really do need to join hands and address this 
once and for all. I would remind members and guests and 
everyone listening or watching that the reason we adopted 
sequestration in the first place was as an incentive to make us 
come to grips with entitlement programs, entitlement programs 
like Medicare, Medicaid, Social Security, and, of course, 
interest on the debt, which is only partially within our 
control.
    The good news about these very valuable safety-net programs 
is that we don't have to cut them. They need to grow and will 
continue to grow, but we simply need to grow them at a slower 
rate. It is the inability of the House and Senate and the 
collective administrations to deal with this issue that got us 
to sequestration.
    So, I am not the least bit proud of our record with regard 
to this chronic underfunding. We certainly don't need to use 
sequestration as a way to short-change the war fighter, and we 
certainly don't need to short-change national security, the 
security of Americans. But it is worth saying that it is a 
failure because we have been unwilling, for whatever reason, 
unable, for whatever reason, in both parties and at both ends 
of Pennsylvania Avenue, to come to grips with simply slowing 
the growth rate of these excellent programs that we all depend 
on.
    Admiral Grosklags, I appreciate the information your team 
has given to all of us about the PE issue, and you mention it 
in your testimony. But if you're sick, if a person is sick, the 
most important step is a good diagnosis. Once we get the 
diagnosis, physicians know how to come in and give the right 
medicine or the right treatments.
    We're having a diagnosis problem with the physiological 
episodes, so tell us where we are. I appreciate Admiral Miller 
and General Davis coming in and speaking to me yesterday about 
this. But how are we doing on the diagnosis? Are you able to 
give us any hope on a timeline to solving this problem?
    Vice Admiral Grosklags. Sir, we're not doing well on the 
diagnosis. We have two parallel paths under execution right 
now. As you said, it would be far easier if we could find out 
what the root cause was and then go after correcting that root 
cause. To date, we have been unable to find any smoking guns. I 
will refer back to an exception to that here in just a second.
    But for T-45s specifically, where most of our issues to 
date, almost all of them, have been associated with what we'll 
call breathing gas issues, as opposed to the pressurization 
issues in the cockpit that we've seen with some of our F-18 
incidents, we do not----
    Senator Wicker. Toxic oxygen, actually.
    Vice Admiral Grosklags. Well, to date, we have not been 
able to discover a toxin or a contaminant in the breathing gas 
despite our testing. Just to give you a snapshot without going 
into great detail, we have taken several of the aircraft from 
CNATRA [Chief of Naval Air Training] from the training 
squadrons, brought them up to Patuxent River, and we have torn 
some of them apart to the extent that we took every component, 
every single component in that gas path, that breathing gas 
path if you will, out of the aircraft, starting with the engine 
and going through the entire system, inspecting all the piping 
in-between, all the way up to the mask and the vests that the 
air crew wear. We've subjected each one of those individual 
components to extremes of testing, extremes of environmental 
conditions in excess of what we would ever expect to see in the 
aircraft, and we still have not been able to find what we would 
consider a proximate cause of contamination or something being 
released into that gas path.
    We are also doing testing at the system level. We're flying 
the entire aircraft--again, these are aircraft that had issues 
down at CNATRA. We're flying the entire aircraft with 
additional instrumentation on the aircraft, trying to detect 
stuff in-flight, real time. To date, we have not been able to 
find that root cause or been able to diagnose the problem.
    In parallel, for T-45, because obviously one of our 
concerns is getting back into the training environment as 
quickly as possible, but we focused on 10 to 12 different 
alerting or protective measures for the air crew, and it is our 
plan that once we are comfortable that we've got those 
individual items all in place for every single aircraft and air 
crew down at CNATRA, that is at the point where we will 
consider resuming the training syllabus.
    We believe that will probably be a matter of weeks instead 
of months, but there is still some testing of new equipment 
that we intend to----
    Senator Wicker. The full training syllabus.
    Vice Admiral Grosklags. Yes, sir. So that's kind of our 
path, the two parallel paths on T-45s.
    On F-18s----
    Senator Wicker. Well, sir, on the training syllabus now, 
what are you able to do and what are you not able to do?
    Vice Admiral Grosklags. To date, since the beginning of 
April/end of March, we have not flown any training events with 
the students. The students have not flown at all. Our 
instructor pilots are flying some currency flights. They are 
not using the oxygen generation system, so they're basically 
breathing ambient cockpit air, and because of that we've 
restricted their flight envelope to 5,000 feet and below and 
less than 2 G's. So a relatively benign environment but 
sufficient for them to remain proficient in flying the 
aircraft.
    Senator Wicker. We're going to lose a crop of undergraduate 
pilots?
    Vice Admiral Grosklags. We won't lose them permanently, but 
we lose about--we delay about 25 a month if we don't start 
flying students again. So if you say the end of June, we will 
have racked up about 75 students that have been delayed going 
to the next squadron, which would be the fleet replacement 
squadron.
    Senator Wicker. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thanks to the witnesses for your testimony and service.
    A couple of disparate items. The force structure assessment 
recently has led the Navy to readjust their thought about the 
size, the number of ships, from 308 to 355. But I was 
interested that the force structure assessment didn't talk 
about what that would dictate in terms of aviation. Since a lot 
of the ships have an aviation component, I would suspect that 
that's kind of the next ask, there would be kind of an aviation 
follow-on component that would change if we were able to grow 
the Navy that size of ships. I'm sure there isn't an answer to 
that question today, but I would just love you to address that 
issue, what are we likely to see as the Navy contemplates the 
shift in the number of ships and what that would mean in terms 
of additional need for aviation assets.
    Rear Admiral Miller. Yes, sir. I'll go ahead and take that. 
As you know, in the budget in 2017, the whole focus was on 
readiness, and on 2018 now it's to continue that readiness and 
look at the wholeness. So the question that you ask is really 
what we're working in the building right now as we're putting 
together the 2019 budget. Part of that is, okay, we envision 
eventually getting back to 12 aircraft carriers, which is going 
to require an extra air wing. So with the timing of that, how 
you would then flow in the aircraft to be able to support an 
extra air wing to be able to deploy on that 12th carrier is 
something that would have to be mapped out and, of course, have 
the available resources to be able to do that.
    On the surface side, the largest contributor to aviation 
support to our surface Navy has to do with our helicopters. 
Currently, the H-60 inventory that we have meets the 
requirements that we have currently in our surface fleet. 
Again, once those plans are determined on when and if we're 
able to grow the Navy per what we assess the needs are, then we 
would obviously lay in a procurement program that would be able 
to support that on the aviation side.
    Senator Kaine. Okay. I just wanted to have some sense, as 
you point out, for the future. I'm on the Budget Committee too, 
and I'm curious about this.
    We've had some posture hearings in the main committee with 
Air Force, and one of the issues we've talked about is the 
issue of maintainers. So we're talking about aviation programs. 
Platforms is one thing; pilots are critically important. I was 
a little struck in the Air Force discussions we've had that 
some of the workforce gaps are more significant on the 
maintainer side than even on the pilot side, and both are 
significant.
    Talk a little bit on the Navy and Marine side about what 
you're doing to deal with the maintainer workforce.
    Lieutenant General Davis. Thanks for that question, 
Senator. We've done five independent range reviews in the 
Marine Corps and looked at all the things we need to do to make 
sure our legacy fleet generates the range requirements we use 
in the Marine Corps. One of the things that came out of that 
was not the numbers of maintainers we have but the overall 
qualifications of the maintainers we have, especially with a 
little bit different readiness model for the United States 
Marine Corps and the United States Navy.
    So we actually needed to hire density of maintainers in 
each unit and tailored for each unit's mission out there to 
make the range requirements. We looked at those qualifications 
and how hard it is. It takes two years to make a collateral 
duty inspector. It takes four years to make what they call a 
CDQAR [Collateral Duty Quality Assurance Representative], which 
is the next level up. Your master mechanic takes seven years on 
average to make those, and it's kind of consistent between the 
Navy and the Marine Corps.
    What we have done is we've mapped out for each and every 
unit, and now providing incentives, starting this July, to keep 
both Marines who earn those qualifications, and those are the 
very best Marines and sailors inside those units that do that, 
and keep them in the densities we need to make our range 
requirements out there.
    The second thing is we've looked at--I ran our fighter 
weapons school in Yuma, Arizona for two years, great job as the 
CO [Commanding Officer] of that schoolhouse, and almost 40 
years ago we created Match 1 to make sure we were at the top of 
our game in standards and best tactics, techniques, and 
procedures to go fight the looming threat on our nation's bow. 
We didn't do that for our aviation maintainers. We are doing 
that now.
    So a kind of companion schoolhouse, a top wrench, if you 
want to call it that, for our young officers and our 
maintenance Marines to make sure that they are sharing best 
practices and getting the very biggest bang for the buck we can 
out of our Marines.
    Senator Kaine. Excellent, excellent. I'll ask you one other 
question, if I could. This is one for me and for Senator 
Tillis. So if he comes in, tell him I had his back.
    We have training ranges that we use heavily, Navy and 
Marines, in Virginia and North Carolina. With the advent of 
fifth-generation aircraft, are we making the investments that 
we need in maintaining the usefulness of those ranges, or do 
the ranges maintain continuing viability? Because some of the 
platforms have some additional bells and whistles to them.
    Rear Admiral Miller. Yes, sir. Thank you for that question, 
because when we talk about wholeness, everyone likes to look 
at, hey, I'm providing this object, whether it's a new F-35, 
but with that comes the whole training apparatus that goes with 
it. So not only from the maintainers that are maintaining the 
aircraft but for the aviators that have to fly it, the 
decision-makers as we put together, and as you well know, COM 2 
exercises are pretty large events that we do off of the coast 
of Virginia.
    So we are making investments in live virtual constructive. 
We have to, with the threat that's continuing to evolve, with 
the tactics that continue to keep pace with the threat, and 
with a lot of the new equipment, we have to transition the way 
we train.
    So it's a combination of using simulation, combining that 
with live assets, and also being able to throw constructive 
threats out there. For example, to be able to have a scenario 
that has representative threat aircraft, we probably don't have 
the adversary support to be able to do that.
    So we need to evolve the way we train. So that live virtual 
constructive aspect absolutely needs to start down at the basic 
level where I'm learning how to fly an airplane and, hey, I 
need to connect an E-2 to an F-18 in a simulator. Then as we 
use the building block approach, as we prepare our carrier 
strike groups and our amphibious groups to deploy, to be able 
to take it up to the fleet-wide level of training as well.
    So there are definite investments in live virtual 
constructive, and it's all part of the wholeness aspect of our 
approach to new weapon systems and new platforms.
    Senator Kaine. No other questions. Thanks, Mr. Chairman. I 
think maybe General Davis wanted to weigh in briefly, if that 
would be acceptable?
    Senator Wicker. That would certainly be acceptable.
    Lieutenant General Davis. Thank you, sir. That's a great 
question, sir. What we're finding with operating our fifth-
generation airplanes, we actually expanded Townsend Range to 
accommodate the mission profiles the F-35s can bring to flight, 
and we're seeing it every day in Yuma. For Senator Tillis, 
we're already looking at what we need to do off the coast of 
North Carolina to make sure that the Cherry Point facility is 
ready to take those airplanes.
    The fifth-gen airplanes are changing the way we train and 
changing the way we fight and changing the way we think about 
fighting in a very dynamic way, in a very good way. It's really 
good news for the nation. But these airplanes, we're finding, 
require--the standard formations aren't the close formations 
like I grew up flying. They are separated by tens of miles. The 
bottom line is the airplane is perfectly comfortable flying 
like that. It will also fly and fight in bad weather as well, 
and allow our training.
    It's not just how we train in the air component; it's how 
we train with our surface forces and our land forces out there 
as well. The other day, doing close air support through the 
cloud with F-35s with guys on the ground, that was something we 
probably wouldn't do with a high degree of fidelity, but now 
they actually not only do that but see the targets through the 
cloud.
    I think it's going to change the way we do business, both 
live virtual constructive and also, too, the mandate for us to 
protect our training ranges and the air space over those 
training ranges. It's going to require some different thinking, 
and it will be a national asset for all of us with these new 
airplanes.
    Senator Kaine. Thanks, Mr. Chairman.
    Senator Wicker. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service.
    When it comes to the readiness and the capabilities or the 
availability of your aircraft right now, could you share with 
me what the readiness percentages are? I think the last couple 
of months it seems like the unavailability was somewhere in 
excess of 60 percent for FA-18s and so forth. Could you share 
with me what your readiness capabilities are? It seems to me 
that the F-35B variant, being new, was actually having a pretty 
good capability rating, even this early in its current 
development, if you want to call being seven years late 
current. But it seems like its capabilities were maintaining in 
excess of 80 percent. So could you share with me?
    Vice Admiral Grosklags. I can give you some generic 
numbers. We can drill down on each platform if you want, but 
you're about on the money. We're currently at a mission capable 
percentage as of the 24th of last month, at 56 percent. So it's 
mission capable across the fleet.
    For the F-35 in particular, for the F-35B, we're actually 
above 80 percent, as you stated. So it's doing very well.
    Lieutenant General Davis. Sir, if I could, looking at the 
VMF/A-121, the VMF/A-211, getting ready to be VMF/A-122, and 
then the 501, which is our training squadron at Buford, South 
Carolina, focusing on 121, very active squadron. Ten of the 16 
are over there now. The next six show up this summer. I track 
them every day between 70, 75 and 80, 85 percent, so very high 
rates. The Marine F-18s in particular right now running a 
little bit less than 50 percent, although we're trending up, 
and Harriers are better than that.
    But bottom line, the newer metal gets us to higher rates 
across the force. Those F-18s are old, trusty airplanes, but 
we're finding that with the readiness rate--and we're doing 
better in F-18 now. Our flight time per pilot has gone up 
significantly from the last time we talked. We're still shy of 
our objective, but we have a break. We start off in the 
morning, we have a 55 percent break rate with the older 
airplanes. So we start off in the morning, we've got them on 
the line, you worked all night to get them up. We used to do a 
six turn, six turn four, to get your training objectives, and 
that's how we fight as well.
    A lot of those airplanes, half those airplanes are breaking 
after the first go, so we're not getting the numbers and the 
production we need out of those old platforms.
    Senator Rounds. I have to share. I had the opportunity to 
fly with the Blue Angels last fall in a demonstration, and I 
think these guys do their best to break them sometimes. I know 
I was going left when he was going right on several different 
occasions, and I wasn't that far away from him.
    Senator Wicker. You're scaring me, Senator.
    Senator Rounds. I'm just telling you, these guys are good, 
but they put those aircraft through their paces, and you can 
see why they have some challenges once in a while. But that's 
the way that they need to train, the way that they need to 
fight, and those aircraft have got to be as top-notch as we can 
keep them.
    I'm just curious, Admiral, you indicated 56 percent. Is 
that across the entire fleet, or is that across the fighter 
fleet?
    Vice Admiral Grosklags. That's across the entire fleet, 
sir.
    Senator Rounds. How about if we just change that to the 
fighter fleet right now? Where are we at then?
    Vice Admiral Grosklags. Probably--well, certainly a little 
bit less than that. If we're talking about F-18s of all makes 
and models, it's probably right around 50 percent.
    Senator Rounds. Okay. Thank you.
    You indicated that the anti-ship missile that's being 
developed--and if I heard you correctly, originally or to begin 
with you were going to be placing it on the B-1.
    Vice Admiral Grosklags. Yes, sir.
    Senator Rounds. Then eventually transitioning over to the 
FA-18. I presume that would be on the Super Hornet?
    Vice Admiral Grosklags. That's correct.
    Senator Rounds. Okay. Can you share how that would be 
utilized if it's on a B-1? I mean, it seems to me that that's a 
new capability that we're talking about for the B-1 or a new 
use for the B-1.
    Vice Admiral Grosklags. I've got to be a little bit careful 
here.
    Senator Rounds. Okay.
    Vice Admiral Grosklags. It's a derivative of the JASSM 
[Joint Air to Surface Stand Off Missile] missile that's already 
carried on board the B-1. It has a different target set, and it 
will be used differently, but the mission is very compatible 
with that aircraft, as well as with the Super Hornet.
    Senator Rounds. Having the Ellsworth Air Force Base as one 
of the homes of the B-1, we're always happy to hear of new 
mission sets for the B-1 as well.
    When it comes to the F-35--and I recognize this is the 
aircraft of the future for the Navy and the Air Force and the 
Marines. Over its lifetime, the F-35 sustainment is projected 
to cost over $1 trillion. Most alarming is that the cost may be 
underestimated. Based on data from the Air Force and the Marine 
Corps concerning F-35 variance at testing and operational 
sites, parts are being replaced on average 15 to 16 times 
higher than the assumptions used across the life cycle of the 
Joint Program or JPO [Joint Program Office] estimate. A GAO 
[Government Accountability Office] report highlights a multi-
billion-dollar increase in each of the service's flying hour 
programs.
    My question, based on the procurement of 20 additional F-
35Bs and four additional F-35Cs in 2018, what impact will this 
have on the U.S. Navy and the U.S. Marine Corps in terms of 
your O&M challenges?
    Lieutenant General Davis. I can answer that one if you 
want?
    Senator Rounds. Yes.
    Lieutenant General Davis. First off, we've got to be 
driving costs out of all of our programs. So we're actually 
running actually shy of the estimates for what it's going to be 
to run the F-35 for the Marine Corps. So we're kind of out 
there in front. The Air Force is building up steam right now.
    But what we're spending to fly the airplane is actually 
less than we estimated. We also just hired an outside firm to 
go look at it, because even though it's less, I'd like it to be 
even less. We believe we can take significant amounts of money 
out of what we're spending just by doing it differently, 
working that in conjunction with the Joint Program Office, 
Lockheed Martin and the engine manufacturers to drive cost out 
of this program.
    So what we do know is we have a winner on our hands. As we 
have more airplanes in the fleet, you actually will be able to 
drive cost out. Right now it's costing a heck of a lot of money 
to fly the legacy airplanes and get readiness out of that, and 
that's a very expensive proposition when you have airplanes you 
can't fly but you're still trying to maintain them because 
they're broken.
    The F-35 has a high readiness rate for us right now, also 
working and driving cost per flight hour down and the O&S cost 
out. So we're attacking it very aggressively. The Marine Corps 
did that as a beta test, but we're sharing our information with 
both the Navy and the Air Force, and we'll do that at the CEO 
conference coming up this week. But we believe we can drive 
cost down significantly, sir.
    Senator Wicker. What about that replacement rate that 
Senator Rounds mentioned? Is that accurate?
    Lieutenant General Davis. I'd have to get back to you on 
break rates for parts.
    Senator Wicker. Admiral Grosklags, is that going to 
continue?
    Vice Admiral Grosklags. I think we'd have to get to the 
specific components. I would not be, quite honestly, surprised 
if we saw that for some number of components on the airplane. I 
would also be willing to bet that there is some number that are 
having lives in excess of what we predicted, and that's pretty 
typical with every new aircraft we introduce to the fleet. We 
and the industry make assumptions and calculations on what the 
reliability of every single component is going to be, and then 
we are continually surprised. We have to either buy more 
spares, which is not a good answer, or we figure out how to 
deal with the specific reliability issue associated with those 
components you're talking about.
    Senator Wicker. General Davis, since this is a winner, 
Admiral Grosklags, should we be proud of this aircraft?
    Vice Admiral Grosklags. I'll answer it quickly and turn it 
over to Admiral Miller.
    I think so, sir. I think we are in a fairly good place as 
I've been watching the completion of developmental tests. 
General Davis can certainly talk more about how it's performing 
for them operationally, but I think in terms of the development 
process, we're on very solid ground at this point, and I look 
at a couple of key metrics, one of them being software 
stability. As we want to get to the final 3F software 
configuration before we introduce the aircraft in the Navy, 
we're very closely watching the stability, and we have seen 
over the last year to 18 months the in-flight stability go from 
where they were having a system reset or having to do something 
with the system in-flight from about every five hours to the 
most recent software releases are about every 40 hours, which 
is more than acceptable for us right now.
    Senator Wicker. Good to hear it.
    Admiral Miller?
    Rear Admiral Miller. What's that, sir?
    Senator Wicker. That's good to hear, isn't it?
    Rear Admiral Miller. Oh, it's great to hear. We're quite 
excited. General Davis says it's a winner. We absolutely agree.
    I get the question a lot, hey, tell me about the F-35 
versus F-18, and I say it's not a versus. The complementary 
nature of both of these aircraft into the future for our 
aircraft carrier Navy is very exciting. We've taken F-35 out to 
the ship already. About 150 traps, this is with fleet pilots, 
100 percent boarding rate, no 1 wires--it was a dream to bring 
aboard.
    So as we integrate it, the fact that we're getting 
supersonic stealth, data fusion, the sensor netting that this 
airplane is going to be able to provide, it adds capability, 
lethality and survivability not just to the air wing but to the 
entire carrier strike group. The way we integrate it with our 
Aegis ships and our baseline 9 configuration, the way we fight 
it alongside of our--the capability that it brings with the 
capacity that the Super Hornet brings under the control of an 
E2D and with the capability of a Growler is just exciting for 
us guys who are carrier aviators.
    Senator Wicker. Thank you.
    Lieutenant General Davis. Sir?
    Senator Wicker. Yes, General Davis.
    Lieutenant General Davis. On the Marine Corps side, we also 
track the Air Force numbers as well. It's hard to put a 
qualitative number on what an airplane brings to the fight, but 
the Air Force--and we are seeing similar operation in our major 
exercise. We just got back from a big exercise in Alaska, sir, 
20 to zero, 21 to zero. I mean, the exchange rates for these 
airplanes going into highly contested environments, operating 
in weather that we wouldn't be able to operate in before, 
electronic warfare mission, strike mission, air-to-air mission, 
in the hands of what were pretty inexperienced, younger guys 
flying airplanes, it's exceptional.
    The other thing, if you combine that with the Marine Corps 
being all F-35 and F-35Cs. But the ability to go land in an 
expeditionary base--75 percent of our error in the big fight is 
ashore with the capability to go back aboard the ship and 25 
percent aboard the ship.
    For the Marines, where we go, we're probably going to be in 
a kinetic fight. You cannot rule that out. So the ability to 
go, take the airplane from an amphibious ship, go to a strike 
mission, land at a forward operating base ashore, get rearmed 
with the motor down, which we practice with the F-35 right now 
in our weapon school, and get airborne again to go basically 
take whatever number of airplanes that you have look like more 
and be more is a truly incredible capability, and you can do 
that any climate, any place, and any threat.
    Senator Wicker. Thank you.
    Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    I wanted to discuss an issue that doesn't come up too much 
on the readiness with regard to naval aviation. There was an 
article--and, Mr. Chairman, I'll ask that this be submitted in 
the record. It was from the Marine Corps Times last year titled 
``Marine Corps Aviation Fleet is in Peril.''
    Senator Wicker. Without objective.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Sullivan. Thank you.
    One of the things that this article highlighted was it's 
not just readiness but actually the safety of our aviators when 
they're not being able to fly. So this whole article talked 
about how Marine aviation-related deaths hit a five-year high 
in September. This was last year, when fatalities reached 18 
during the first nine months of 2015, and there's a quote from 
a retired Navy commander who is a pilot saying there's a direct 
line between flight hours and mishaps. The less they're flying, 
the less they're training, the less maintenance personnel are 
getting involved, the higher the mishap rate.
    So can you talk about that? We always talk about, hey, 
we're not ready to fight, but maybe even more troubling is our 
lack of readiness is potentially risking the lives of our 
aviators who are already in a very dangerous profession.
    Lieutenant General Davis. Here's how I'd couch that, 
Senator, watch it very closely. Every one of those losses 
affected me personally, deeply. What I would say is we're 
flying safe airplanes. We're not flying them enough.
    I would say probably the bigger threat out there is when 
you don't have enough hours, you can fly according to the book 
safely, but what you're not getting is the looks at the ball, 
not being as proficient as you should be. To me, the primary 
player at risk is the Marine infantryman. They deliver close 
support fire, air-to-air fire, assaults aboard for them, that 
the pilots and the crews aren't as practiced as they should be, 
and doing that under every threat condition that's out there.
    We've not been able to draw a line with the mishaps we've 
had to a lack of proficiency with those crews out there.
    Senator Sullivan. I think it's good, General, that you guys 
are focusing on that because, obviously, readiness is one 
thing, we want that, but if we're losing lives because we're 
not training enough, I think that's--shame on all of us.
    Lieutenant General Davis. As the nation's force, on 
readiness, we have to be ready to go, especially a small force, 
small in size. We're supposed to be in a high state of 
readiness. That readiness has taken a hit over 16 years of 
fighting, flying airplanes that were built in the 1980s at a 
depth to dwell of 1 to 2 that General Miller talked about this 
morning, sir.
    Senator Sullivan. Yes.
    Lieutenant General Davis. All that puts wear and tear, and 
it's just not enough time and not enough power tools to train 
the aviators to the degree they need to be truly on their A 
game for that force of readiness. So the risk for us is there. 
We need to get out of this zone of low readiness, low 
inventory, as quickly as we can to provide the fires that we 
need for the Marine Corps to be that force we need.
    Senator Sullivan. I wanted to follow on to Senator Kaine's 
point and what you mentioned, General. I did get to see just 
briefly the F-35 Bravos that were in Alaska. As the Navy and 
the Marine Corps are fielding the F-35s, the discussion about 
having a much bigger range complex for the standoff to be able 
to train better with these fifth-generation aircraft is 
critical.
    So I would welcome all of you to come on up and see the 
Joint Pacific Alaska Range complex (JPARC), which some of you 
might be familiar with. The Air Force, obviously, is very 
familiar. But that has an air size bigger than Florida, and 
we're actually expanding it. You can do CAS. It's got the SAM 
simulations.
    The Air Force is up there a lot. I had General Neller up in 
Alaska two summers ago, and there was a squadron of Hornets 
that had just done the Red Flag exercise and stayed after, and 
they happened to bump into the commandant of the Marine Corps 
on a Sunday morning, which was a little bit, I think, stunning 
for them. But the squadron commander said to the general, to 
General Neller, that that was the best air-to-air training he 
had ever done in his entire career.
    So we would welcome whether it's Northern Edge or Red Flag, 
getting up and seeing that, because there's a dedicated F-16 
Aggressor squadron up there. It's probably the best air-to-air 
training on the planet, and it's only going to get better when 
the F-35s are fully fielded because the space is so huge.
    Any comments on that, about the great training at JPARC?
    Lieutenant General Davis. Sir, I wish I was still flying 
gray airplanes like that so I could be up there in Alaska 
flying with those. I'll tell you, though, and I'll speak for 
the brothers as well, but we like to deploy, we like to go 
train, we like to train hard. It's a great place to train hard, 
up there in Alaska. It's new. It's great adversary support.
    Again, we need to be able to train, as General Miller said 
and the CNO said, to the high-end fight. That's a great place 
to train to the high-end fight. You can do everything you need 
to do in the theory books and all that stuff, and training 
transactionally in garrison. When you get out, you get on the 
road, you go someplace else, you take your unit out there, you 
focus on the task at hand, it's great training in Alaska.
    Senator Sullivan. Also, a lot of CAS opportunity.
    Lieutenant General Davis. Absolutely.
    Senator Sullivan. Admiral, have you ever trained at JPARC?
    Vice Admiral Grosklags. I have not. I'm a helicopter pilot, 
so we try to stay out of those cold weather areas if we can.
    [Laughter.]
    Vice Admiral Grosklags. I will comment that one of the 
critical things, whether in Alaska or other places, that we 
need to continue to invest in is the threat simulations or the 
actual threats on the range. That is one of the places where, 
I'll say, we've fallen a little behind. I think there's some 
investment in our budget request exactly for that.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service, and thank you for 
being here.
    Admiral Grosklags, I wanted to ask you--I think last year I 
asked the question. I assume it's the same answer, that the 
LAFAM facility down at Cherry Point is still a priority, and it 
looks like we're probably two or three years away from 
beginning to see a flow of Joint Strike Fighters--I woke up 
thinking about it this morning--going down to that area. So, do 
you feel like--we were talking about the limits at the Rolls 
Royce factory and the need to stand this thing up. I mean, is 
the run rate in reaching maximum capacity at the Rolls Royce 
facility roughly the same? So the need, the priority is still 
there?
    Vice Admiral Grosklags. Yes, sir, the priority is still 
there. As we were talking just a minute ago about combatting 
the cost of sustaining these aircraft, one of the things that 
we need to do sooner and one of the things that has been a 
large topic of discussion over the last six months or so with 
the F-35 program office and all the services is standing up 
that depot capability across the board, organic depot 
capability much more quickly.
    So we're trying to pull all of that stuff to the left so 
that we can not only support the aircraft more cost effectively 
but in cases like this just support the aircraft, because the 
vendors, the OEMs [Original Equipment Manufacturers] are 
quickly, I believe, going to be in a spot where they're trying 
to support a significant increase in production at the same 
time they're seeing increase in demand for their repair 
capability, and that's truly our challenge.
    Senator Tillis. Yes. Just to finish this thought and move 
to a related topic, I worked with the state legislature, and 
they're negotiating a budget right now that is a specific 
appropriation for things that the states can do to anticipate 
some of the broader needs that will occur with getting the 
LAFAM facility there and maybe an increase in depot operations 
down there.
    Another topic that came up that I told the legislature to 
look at is the potential hangar capacity to really be able to 
expand and leverage that site down there. Is that something 
that you all agree has potential and a part of that solution?
    Lieutenant General Davis. Sir, we are already starting to 
lay in the money in our five-year plan to start to build out 
Cherry Point. Part of that is hangars. It's ramp improvements 
to handle F-35s. So not only the lift facility at the FRC but 
also, too, the hangars and the construction we need in the 
simulator buildings to bring in F-35s. So we're starting to get 
to a healthier ramp-up. We can certainly use more and faster to 
replace those older airplanes that we're using up. But that 
money is starting to go into the budget now to go build those 
hangars.
    Senator Tillis. Well, there are a number. If you all think 
more broadly when you do that and you increase the operations, 
the number of either civilian or uniformed personnel that are 
going to be down there, to the extent that that suggests some 
need for underlying infrastructure that may be appropriate for 
state investment, I would very much appreciate. We've certainly 
gotten the attention.
    I, for one, wouldn't want you to put the LAFAM facility or 
the hangar in any place that's not what you all consider to be 
the best and highest use. So if you've arrived at the 
conclusion that Cherry Point is one of those places, what I 
would also like to do is make sure that we're ahead of the 
curve on things that we may be able to work with the state 
legislature and the governor, who are very open and supportive, 
because it has an economic impact for the state, and we want to 
make sure that we're doing everything at the state and local 
level to knock down any other challenges that come when you 
expand the capacity down there.
    Lieutenant General Davis. A lot of the infrastructure at 
Cherry Point, sir, is World War II infrastructure. It has not 
been improved since then. So this is sorely needed out there, 
and it's in the plan right now, so we'll look forward to 
teaming with the State of North Carolina to build hangars and 
build facilities as quickly as we can so we get a place to bed 
these airplanes down.
    Senator Tillis. We'll probably submit some questions for 
the record.
    Mr. Chair, I apologize for coming late. I've got to go off 
to another commitment, but I wanted to thank you all. I 
appreciate you getting it on the priorities list and appreciate 
your feedback on anything we can do to facilitate the process. 
Thank you for your service.
    Senator Wicker. Thank you, Senator Tillis.
    Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    General Davis and Admiral Miller, when Congress agrees to 
support an administration request for multi-year procurement 
authority, it is a serious matter, and this year the Department 
is seeking authority to enter into contracts for economic order 
quantity items with the F-35 contract. EOQ [Economic Order 
Quantity] contracting authority is typically limited to the 
programs that have been approved for multi-year contracting 
authority.
    So why is the Department asking for a multi-year-like 
contracting authority when the F-35 program has not completed 
operational testing? How can you assure us that this is a low-
risk kind of authorization?
    Vice Admiral Grosklags. Senator, I'll take that one, if I 
may. What we're specifically asking for is taking approximately 
4 percent of the fiscal year 2019 and 4 percent of the fiscal 
year 2020 EOQ [Economic Order Quality] and pulling it forward 
and executing it with the fiscal year 2018 EOQ. So it's a total 
across all the services--Navy, Marine Corps, and Air Force--of 
about $616 million that we would pull forward. That enables 
Lockheed and the other vendors, the makers of the airplanes, 
the engines, et cetera, to go out and buy those long-lead 
materials and get the economic order quantity cost savings.
    What outside agencies have told us, as well as our own 
calculations, the savings associated with pulling that money 
forward would be about $800 million across the three services 
for the aircraft, reduction in aircraft unit cost, because 
we're able to pull that relatively small amount of money 
forward.
    So it's not additional money. It's money that would already 
be spent in fiscal year 2019 or fiscal year 2020 for those lots 
of airplanes. It's only 4 percent of the EOQ in each one of 
those years, and it does not commit the services nor the 
Congress to actually buying a set number of aircraft in those 
years. So it is not a multi-year procurement from that extent. 
We are committing to absolutely nothing, other than a cost 
savings.
    Senator Hirono. Well, that's good, because I was going to 
say if we're committing to absolutely nothing, why do you even 
need authorization? But, be that as it may, we'll be talking 
with you further about that.
    I have a question regarding--is for General Davis. The 
commandant's unfunded priority list includes a request for two 
C-40A aircraft this year, similar to the request the commandant 
made last year. Last year, the Congress provided two C-40 
aircraft for the Navy in accordance with the CNO's unfunded 
priority list but failed to address the commandant's request.
    I understand that the current aging C-9 aircraft that the 
C-40s would be replacing are now, in the words of Reserve 
Commander Lieutenant General McMillan, hard down and not safe 
to fly. General Davis, do you agree with General McMillan's 
assessment? If you agree that they are hard down and not safe 
to fly, why doesn't the budget request fix this problem?
    Lieutenant General Davis. Senator Hirono, thanks for the 
question. I would say the C-9s are not only hard down but we've 
transitioned them out of the Marine Corps inventory. They're 
gone. We're the only people in the United States military 
flying those airplanes, those old C-9s. It's very difficult to 
get them parts, to get them worked on, and it was, frankly, we 
thought it was too much of a high-risk proposition to be flying 
our Marines around on those airplanes, so we transitioned them 
out. So they're out of the inventory now. We don't own them 
anymore.
    We have a lot of requirements. The C-40s are on the 
unfunded priority list, but if you looked at our other 
inventory challenges with the nation's force and readiness, 
what we have to be ready to do, we do need those C-40s, but we 
also need F-35s, we need 53 kilos, we need C-130Js even more. 
So we are asking for the C-40s, but as far as rank order 
priority, at the end of the day the nation needs the Marine 
Corps to be able to go forward, and I have no options for the 
jets, I have no options for the helicopters, I have no options 
for the C-130Js. So I had to put the priority there. It's not a 
perfect world, but we laid out what we thought we were going to 
be called on to do as a nation.
    But right now, to fulfill that mission, we count on the 
Navy to fly us around when they can. We use C-130s to go with 
the cargo seats, or commercial carriers to do the C-40 mission 
right now.
    Senator Hirono. So with the C-9 aircraft out of your 
inventory, has that impeded the operational support aircraft 
mission flown by the Marine Corps Reserve?
    Lieutenant General Davis. It has. The Marine Corps Reserve 
is flying the UC-35 and the UC-12 for the bigger missions, and 
we transitioned the VMR-1 down to the Reserve unit down there 
in Texas. We're waiting for airplanes to arrive. They're co-
located with some of the Navy C-40s that are there and looking 
for some help from this body to get those airplanes. It's just 
there's not enough money in our budget to cover everything, so 
they are on the unfunded priority list, ma'am.
    Senator Hirono. Then would you consider the need for the C-
40 replacements critical at this point for cargo and passenger 
movement?
    Lieutenant General Davis. They are critical for cargo and 
passenger movement, but also too we have war-fighting 
requirements that have to be met as well, ma'am, and that's why 
they're not right at the top of the list.
    Senator Hirono. You and I talked about the problem of 
corrosion, Admiral Miller, and this is something that Admiral 
Grosklags--am I pronouncing the name correctly? Close enough? 
Sorry.
    Vice Admiral Grosklags. Grosklags.
    Senator Hirono. Grosklags. About two years ago Rear Admiral 
Manazir, speaking before a conference here in D.C., said that 
the corrosion damage on the F-18 fleet was more than expected. 
Many Navy and Marine Corps airplanes and helicopters are 
grounded due to corrosion issues. As corrosion costs the 
Department about $20 billion annually, it seems to make sense 
to provide for preventing corrosion where possible, including 
robust R&D work in this area.
    So can you tell me how the fiscal year 2018 budget request 
impacts the Department's corrosion program and what the 
Department of the Navy is doing in terms of meeting the 
challenges caused by corrosion, and are steps being taken in 
new acquisition programs to ensure that, to the extent 
possible, corrosion can be controlled or prevented?
    Vice Admiral Grosklags. Ma'am, I can tell you that there is 
not a specific RDT&E line or other line for corrosion 
prevention in our budget. There are funding corrosion efforts 
that are embedded in a number of lines. I'll give you at least 
one example from aviation, and we can go beyond that if you 
want.
    We fund today about 60, 65 individuals that are called our 
corrosion maintenance readiness team, and those individuals are 
at every one of our fleet sites, and their sole purpose in life 
is to help the squadron maintenance professionals understand 
what they need to do in terms of corrosion prevention work on 
the aircraft in those squadrons.
    We've been doing that--we started that back in about 2011. 
We started with F-18s because of the very issue that you 
mentioned earlier, and we had gotten away from it. We had 
gotten away from doing that basic level of corrosion control at 
some of our squadrons. This has reinvigorated that, and we're 
starting to see the benefits. So as we've been tracking this, 
what we have been measuring is the change in the number of 
corrosion hours that our depot artisans have to do on aircraft 
in areas that should have been done at the squadron level. For 
those aircraft that we started this on several years ago, we 
are seeing a significant decrease in the labor hours at the 
depot, so we know we're having an impact and it's worth the 
investment in this particular area.
    On the research and development side, I can also tell you 
we have about nine ongoing projects with universities around 
the nation where we're involved in basic research on materials 
and coatings and that type of thing. We also have as of today 
about 60 funded projects that are being run. This was OSD 
[Office of the Secretary of Defense] money that was given to 
the services. We have about 60 projects that we are running 
with various organizations and companies around the nation, 
again looking at materials, coatings, how to combine the two 
and how to stay away from--I dropped the sink on the word I'm 
looking for, but how to prevent this similar metal corrosion 
even in cases where, from a technical aircraft structure 
aspect, it may make sense, and I'll give you an example.
    Our F-18Es and Fs, considerably greater use of composites, 
a titanium center barrel. These are as opposed to our F-18A 
through D, where we're seeing the problems that you mentioned 
earlier and that Admiral Manazir talked about.
    So on F-18E and F, we're seeing significantly less of that 
deeply embedded corrosion in the aircraft because we changed 
materials, we changed the build process, and we added corrosion 
protection into those aircraft as we built them.
    Senator Hirono. I think it's really important that you are 
paying attention to the corrosion issue because the lifetime 
use of our aircraft can be extended by that kind of attention 
to that matter.
    Thank you very much, Mr. Chairman.
    Senator Wicker. Thank you, Senator Hirono.
    General Davis, let's talk about the CH-53K and the costs 
having a marked rise. Can you explain the causes of the cost 
inflation?
    Lieutenant General Davis. I can, sir. A couple of things. 
The costs are staying in band with the estimates that we have. 
There's no threat of a Nunn-McCurdy breach or anything like 
that. So we're staying inside the band for the cost. Sometimes 
people get confused about the cost, are acquisition costs 
really staying very close to what we originally projected. A 
lot of times people dump in the cost out there that includes 
the military construction, includes all spare parts, all the 
engineering and the cost of the airplane. But when you compare 
apples to apples, we're staying very close to our original 
cost.
    We did have a quill problem that we worked our way through 
last year. We are going to build the airplane up in Connecticut 
in case some of the labor rates that we dealt with, with 
Sikorsky and Lockheed Corporation to build the airplane. But at 
the end of the day, this airplane is going to--right now what 
we're seeing in tests is incredible capability. We have to work 
every day----
    Senator Wicker. Another winner.
    Lieutenant General Davis. It is, actually, and there's 
nothing like it in the world that does what the 53K will do. 
It's designed with kind of a clean sheet design to take a 
Marine battalion's worth of gear and lift that in one area of 
darkness from a sea base ashore at a 100-mile distance. That's 
a 36,000-pound lift capability. No airplane in the world can do 
that. The 53K can. So it's an incredible capability.
    I would tell you that as a guy who spent a lot of time in 
college working for minimum wage, you want to keep all the 
costs of these things down. I think we need to hawk that, and 
Admiral Grosklags, Admiral Miller and myself, the commandant 
worked very hard to keep the cost under control and make sure 
that the company is doing right by us, right by the taxpayer in 
keeping costs down.
    What we are finding is an airplane that is very easy to 
maintain. So if you look at the amount of hours, not just what 
it cost to buy it but how many man hours it takes to maintain 
the airplane, a much easier airplane to maintain and sustain 
than the 53E.
    I think, as--you and I have talked, Senator Hirono, about 
the lessons learned about the 53E and what we have to do to 
extract maximum value from that airplane. We did an independent 
range review and, frankly, we stole a playbook from the United 
States Army, who were doing a better job resetting their 
helicopters than we were. We are adopting that very same 
strategy that the United States Army did. So bringing all of 
our 53E's out, resetting them completely, and those airplanes 
on the back side of that reset are much lower cost per flight 
hour. They're running about half what it costs to run an 
airplane that's not been through reset. A properly reset, 
sustained airplane is half the cost per flight hour, which is a 
lot of money.
    So if we maintain it, if we sustain it, we train those 
enlisted Marines the right way, we'll be in much better shape, 
and we'll keep the cost, the total ownership cost of the 53K 
down and have a winning capability for our nation.
    Senator Wicker. So the cost is no surprise.
    Lieutenant General Davis. Right now it's an expensive 
airplane, but it's staying within its cost band, and we have 
every intention of keeping it within its cost band, sir.
    Senator Wicker. At the top of it.
    Lieutenant General Davis. We don't want it to go to the top 
because if we go to the top, we go into a Nunn-McCurdy breach. 
We're not interested in that. We're interested in keeping that 
very close to what the original estimates were for that 
airplane.
    Senator Wicker. Do you think Admiral Grosklags could fly 
it?
    Lieutenant General Davis. I do, and I think he would 
actually want to fly that one in cold weather too, because the 
Marines do fly our helicopters in cold weather, and I've seen 
pictures of Navy helicopters in my first deployment up north of 
the Arctic Circle, in some very cold weather.
    Vice Admiral Grosklags. Not intentionally.
    Senator Wicker. Admiral Grosklags----
    Vice Admiral Grosklags. Yes, sir.
    Senator Wicker. I guess this is the first hearing you've 
ever had in which your name has been mispronounced.
    Vice Admiral Grosklags. Absolutely.
    Senator Wicker. I'm so sorry for that.
    [Laughter.]
    Senator Wicker. Let's talk about the Osprey. There's a 
request for multi-year procurement for seven years. Can you 
describe the need for such a long multi-year?
    General Davis, I understand the Marine Corps is studying 
the potential need to increase the V-22 program, a record, from 
360 to 380. Can you update us on that?
    Admiral Grosklags?
    Vice Admiral Grosklags. I'll start with the multi-year and 
then pass it over to the General.
    Seven years. Typically we ask for five years for a multi-
year. Seven years would enable us to buy the remaining total of 
67 Navy, Marine Corps, and Air Force aircraft that are 
currently in the three services' plans, notwithstanding your 
question about potentially increasing the Marine Corps 
requirement. Otherwise, if we just got a five-year multi-year, 
we would have the two years and about 20-plus airplanes hanging 
out.
    We've got the cheap single-year cost estimate, which is the 
foundational piece of understanding what our savings will be by 
going to a multi-year. Last week we received the not-to-exceed 
letters from the OEMs, Bell and Boeing in this case, that 
really justify that, and you should see that package coming 
over here to the Hill shortly.
    But the savings in those NTE [not to exceed] letters get us 
10 percent per aircraft. So without getting into the street 
costs right now, we're looking at about $650 million-plus of 
savings across that seven-year multi-year. So it is a bit 
unusual to ask for seven versus five, but we think it's 
justifiable given the savings and the fact that if we leave two 
years hanging out on the end, those aircraft will certainly 
cost us more than if we were able to include them in the multi-
year.
    Senator Wicker. General Davis?
    Lieutenant General Davis. Sir, we have a study that looks 
at would we want to increase the total program of V-22, and as 
you know, the Marine Corps, we pride ourselves on our ability 
to stay on our mark-up there as far as staying with the program 
of record.
    On the V-22, though, the priority for us is this thing that 
Admiral Grosklags talked about earlier, this common 
configuration reliability and maintainability initiative, which 
is basically going to take all of our earliest V-22s through--
basically, it's more than a reset. It would bring us up to a 
common configuration. We introduced the V-22 in 2007 and sent 
it directly into combat, and every single year we had it in 
combat we would have these urgent changes to make sure we were 
adapting the airplane for threat conditions, reliability 
conditions for the battlefield.
    On the back side of that, one of our range reviews showed 
us that we had about 77 different variations of V-22s in the 
Marine Corps. If you were a young enlisted Marine, that makes 
it very difficult to maintain, to get high manage rates out of 
that airplane. So job 1 for us is to make them all one 
configuration, V-22, one parts list for the V-22, high 
reliability components on there, and drive costs out of owning 
that airplane. That's job 1 for us right now, and we'll look at 
increasing the--buying the additional 20 airplanes.
    But right now we want to continue our fielding and deliver 
a very high readiness aircraft to the fleet, and that requires 
[inaudible], which is where 52 percent of the readiness 
challenges in the V-22 reside, and then making it so we have 
one parts list, one repair manual, and one configuration of the 
V-22.
    Rear Admiral Miller. Senator, if I may, normally when we're 
having a V-22 conversation, I'd be silent, but this year is 
different in that this budget, the 2018 budget, is the first 
year of the CMV-22 for the Navy. Our request is for six 
aircraft, and the CMV-22 takes the Marine Corps MV-22, adds 
some extra fuel, puts an intercom for passengers in the back, 
and also adds a SATCOM radio for long-distance operations 
overseas, and this is going to replace the carrier on-board 
delivery, the C-2, for our carrier strike groups embedded on 
our aircraft carriers.
    The reason for this change and the reason that we're making 
the move to the CMV-22 is twofold. One, our cods are old and 
need to be recapitalized. Secondly and most importantly, you'll 
see that the CMV-22s are going to be tied to our F-35C 
deployments on the carriers. It's the only thing that can 
actually carry the engine on board, and that's clearly going to 
be critical as we sustain that airplane into the future. So 
CMV-22 will now be a part of the air wing of the future.
    Senator Wicker. Last question, Admiral Miller. What do you 
think about General Davis' upcoming retirement?
    Rear Admiral Miller. I think it's a great day to celebrate 
a fantastic Marine who has dedicated his entire life to the 
defense of this country, sir.
    Senator Wicker. So do I. Is this the sort of career you'd 
recommend to the next generation?
    Rear Admiral Miller. In a heartbeat. As a matter of fact, 
I'd do a re-do if I could, and I'm sure he would as well.
    Senator Wicker. General Davis, you have the last word.
    Lieutenant General Davis. I walked into a recruiting office 
40 years ago as a college freshman needing discipline. I found 
that in the United States Marine Corps, and I didn't even know 
they had airplanes. So the fact that I'm running Marine Corps 
aviation--the three of us, we support and defend the greatest 
country the world has ever seen. It's been an absolute honor 
every single day on Active Duty. I'll miss it, but like 
Cincinnatus, I'll be ready to go help out any way I can in the 
years to come. I love this country, love the Corps, love the 
naval services. Semper fidelis.
    Senator Wicker. Thank you very much.
    Let's get our questions for the record in by Friday 
afternoon.
    Senator Hirono. General Davis, we want to wish you the best 
in your retirement. Didn't you tell me that your wife wanted to 
move to Hawaii?
    Lieutenant General Davis. She does. She was very angry that 
I never got orders to Hawaii in 37 years.
    Senator Wicker. This hearing is adjourned. [Whereupon, at 
3:49 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain
                               dod budget
    1. Senator McCain. Lieutenant General Davis, Vice Admiral 
Grosklags, and Rear Admiral Miller, is the President's budget 
sufficient to meet the needs of Navy and Marine Corps aviation in terms 
of readiness and modernization? What are the implications for Naval 
Aviation of returning to Budget Control Act levels of funding?
    Lieutenant General Davis. A return to BCA funding levels will 
jeopardize Marine Aviation's readiness recovery and force us to re-
prioritize our sustainment funding on units preparing to deploy--at the 
expense of remain-behind units. Efforts to modernize our aviation fleet 
will also be at risk as most of our aircraft procurement programs are 
currently at or near the minimum sustainable production rate and 
reducing procurement of any (e.g. F-35B/C, CH-53K) increases the 
individual unit cost. In addition, Marine aviation will incur 
additional risk by operating rapidly aging legacy aircraft well beyond 
the platform's intended service life. The President's Budget provides 
Marine Aviation the resources to continue to modernize our fleet of 
aging legacy aircraft by procuring F-35 and CH-53K, among others. By 
funding the readiness enabler accounts to their maximum executable 
levels, this budget provides the resources required to continue our 
readiness recovery plan and train a ``ready bench'' by fiscal year 
2022. Stable, predictable funding for sustainment and aviation spares 
accounts is critical to our ability to increase our number of flyable 
aircraft so that we can fulfill our responsibility as the Nation's 
Force in Readiness.
    Vice Admiral Grosklags. The Fiscal Year 2018 President's Budget 
(PB18) builds on the fiscal year 2017 (FY17) readiness investments to 
address programmatic shortfalls and achieve greater wholeness, both now 
and into the future. Although PB18 is a critical step in readiness 
recovery, PB18 alone is insufficient to fully address aviation 
readiness and modernization. The Department's significant readiness 
debt was accrued over years of high optempo, budget reductions and 
fiscal uncertainty, and it will take time, sufficient funding and 
stability to fully recover.
    Returning to BCA funding levels would reverse the readiness 
recovery progress made in fiscal year 2017 and exacerbate shortfalls. 
Naval Aviation would be unable to provide the trained and ready forces 
the nation needs in both the near and long term. The Navy overall would 
be too small and lack advanced and asymmetric capabilities needed to 
conduct our primary missions.
    Rear Admiral Miller. The Fiscal Year 2018 President's Budget (PB18) 
builds on the fiscal year 2017 (FY17) readiness investments to address 
programmatic shortfalls and achieve greater wholeness, both now and 
into the future. Although PB18 is a critical step in readiness 
recovery, PB18 alone is insufficient to fully address aviation 
readiness and modernization. The Department's significant readiness 
debt was accrued over years of high optempo, budget reductions and 
fiscal uncertainty, and it will take time, sufficient funding and 
stability to fully recover.
    Returning to BCA funding levels would reverse the readiness 
recovery progress made in fiscal year 2017 and exacerbate shortfalls. 
Naval Aviation would be unable to provide the trained and ready forces 
the nation needs in both the near and long term. The Navy overall would 
be too small and lack advanced and asymmetric capabilities needed to 
conduct our primary missions.
                         physiological episodes
    2. Senator McCain. Vice Admiral Grosklags, how much funding does 
the budget request include for addressing physiological episodes in 
Navy aircraft? The Navy has repeatedly referred to its ``resource 
unconstrained'' efforts to mitigate and solve the PE problem. In other 
words, money, time, and personnel are no object. Is there any program 
or project which needs more funding?
    Vice Admiral Grosklags. The President's Budget currently funds 
$4.211 million of RDTEN for physiological monitors and an Enhanced 
Emergency Oxygen System in efforts to solve the PE problem. There are 
currently no PE-related programs or projects that require additional 
fiscal year 2018 funding. As continuing investigations identify root 
causes and solutions, additional funding may be required.

    3. Senator McCain. Vice Admiral Grosklags, please describe the 
Navy's most recent efforts to mitigate physiological episodes.
    Is a limited number of vendors hindering equipment modification 
efforts? Can industry produce enough specialized components?
    Vice Admiral Grosklags. The Navy's most recent efforts to mitigate 
physiological episodes center on alerting, protecting, preventing, and 
monitoring. Specific actions include performance of maintenance 
activities to ensure the hygiene and integrity of the breathing gas 
system and to functionally check and recertify critical systems sensors 
and components that affect its designed functionality; air quality will 
be measured for all aircraft. System modifications include addition of 
a water separator and a new oxygen monitoring system. All flights 
include sorbent tube assemblies and hydrocarbon detector devices issued 
to all aviators to measure the quality of the breathing gas reaching 
their masks.
    The breathing gas system is highly specialized and there are a 
limited number of vendors in this industry sector. That said, current 
industrial and sustainment capacity for onboard oxygen generating 
system (OBOGS) components had been planned and resourced at a level 
consistent with current demand for specialized components, yet some 
capacity shortfall does exist. Given this condition, all known 
industrial partners capable of aiding in root cause resolution and 
manufacturing capacity have increased their participation and 
production capacity to support expeditious resolution of PE issues.

    4. Senator McCain. Vice Admiral Grosklags, what is the latest 
projection for when T-45s will be back training student pilots at their 
full envelope?
    Vice Admiral Grosklags. Student syllabus events began the first 
week of August.

    5. Senator McCain. Vice Admiral Grosklags and Lieutenant General 
Davis, students have not flown since April 14. What are the 
implications for pilot production? Has this reached a critical stage?
    Vice Admiral Grosklags. As of 21 July CNATRA has lost 30 percent of 
its yearly production and missed delivery of 154 FRS seats. We do not 
expect any new T-45 students from CNATRA in the 3rd QTR of fiscal year 
18. CNATRA is working with FRS and PERS-43 to understand the impacts of 
lost throughput to the fleet, impacts to the careers of instructors and 
students, and mitigation measures for each. CNATRA has identified its 
flight training priorities for the return to training and is working 
with NAVAIR to identify options to restore lost throughput such as 
expanded support capability and incentives for Contractor Logistics 
Support maintenance. CNATRA is also working with PERS 43 and our 
Reserve component to identify additional instructor support. Dispersed 
across the 58 VFA, VAQ, VAW, and VRC squadrons, such a shortfall can be 
managed in the near-term through routine personnel distribution 
measures (tour extensions and re-tours of some fleet squadron junior 
officers), coupled with minor manning adjustments to non-deployed units 
while keeping our deployed units fully manned.
    Lieutenant General Davis. As of 21 July CNATRA has lost 30 percent 
of its yearly production and missed delivery of 154 FRS seats. We do 
not expect any new T-45 students from CNATRA in the 3rd QTR of fiscal 
year 2018. CNATRA is working with FRS and PERS-43 to understand the 
impacts of lost throughput to the fleet, impacts to the careers of 
instructors and students, and mitigation measures for each. CNATRA has 
identified its flight training priorities for the return to training 
and is working with NAVAIR to identify options to restore lost 
throughput such as expanded support capability and incentives for CLS 
maintenance. CNATRA is also working with PERS 43 and our Reserve 
component to identify additional instructor support. Dispersed across 
the 58 VFA, VAQ, VAW, and VRC squadrons such a shortfall can be managed 
in the near-term through routine personnel distribution measures such 
as tour extensions and re-tours of some fleet squadron junior officers, 
coupled with minor manning adjustments to non-deployed units while 
keeping our deployed units fully manned. Based on CNATRA N3's 
assessment that training flights will resume at the end of August or 
early September 2017, HQMC Aviation expects minimal short-term impacts 
to pilot production. To date, USMC FRSs have not missed any starts 
based on students awaiting training. If training commences in 
September, the pool of students awaiting training will deplete and we 
project only five missed FRS starts. However, if training delays 
continue past September the number of missed starts will increase each 
month. By December, the cumulative missed FRS starts would be 26. Long-
term impacts are insignificant if T-45 commences in September as 
forecasted. If delays continue past September and into the first half 
of fiscal year 2018, impacts can be offset by adjusting pilot 
assignments of existing TACAIR pilots.

    6. Senator McCain. Vice Admiral Grosklags and Lieutenant General 
Davis, since these aircraft do not have automatic PE sensors, 
maximizing data collection is critically important. Collecting and 
analyzing more flight data will help us find the root cause. As 
students begin flying again, can you assume this committee that all 
aircraft--both operational and training--will include data collection 
tools such as hydrocarbon detectors and sorbent tube assemblies? Given 
the Navy's ``resource unconstrained'' commitment to fixing this 
problem, I would be concerned if the Navy was not making every effort 
to collect data.
    Vice Admiral Grosklags. Hydrocarbon detectors and sorbent tubes are 
data collection tools being provided for all T-45 aircrew. Instructors 
and student aviators are required to have these devices incorporated 
into their flight gear. Additional physiological episode (PE) sensors, 
data collection and analytics are being investigated and aggressively 
pursued to include automated sensing monitoring and reporting 
technology that measure aircraft performance and/or human performance 
related to PEs. Aircraft also have a new O2 monitoring system and 
incorporate a water separator to improve system operation.
    Our current plan is to also outfit all F-18 aircrew with sorbent 
tube assemblies and hydrocarbon detectors. This is being accomplished 
as the components become available.
    Lieutenant General Davis. Hydrocarbon detectors and sorbent tubes 
are data collection tools that will be issued for all T-45 aircrew. 
Instructors and student aviators will have these devices incorporated 
into their flight gear prior to return to flight with the onboard 
oxygen generating system (OBOGS). Additional physiological episode (PE) 
sensors and filters to include an O2 monitor and vest pocket aircrew 
filter are being investigated and aggressively pursued. Data collection 
and analytics to include automated sensing monitoring and reporting 
technology that measure aircraft performance and/or human performance 
related to PEs remain a priority and will be fielded expeditiously. 
(NAVAIR, CNAP N40, DASN, N98 CHOP)
                            industrial base
    7. Senator McCain. Vice Admiral Grosklags, how would you describe 
the state of the industrial base that supports Navy and Marine Corps 
aviation programs? What must this subcommittee be particularly mindful 
of related to the industrial base?
    Vice Admiral Grosklags. The state of the Navy/Marine Corps aviation 
defense industrial base is directly related to timely and stable 
budgets which drive steady weapon system design, manufacturing, and 
operations & sustainment programs. With resource and program stability, 
the defense industrial base can maintain a highly trained work-force, 
support long-term continuity of operations, and make prudent 
investments in manufacturing and depot tooling/robotics that can 
sustain, and if necessary, surge to meet current and projected future 
warfighter readiness demands.
    The subcommittee should be particularly mindful in understanding 
that a design engineering and sustaining engineering/logistics core of 
highly trained personnel are required for each weapons system and that 
many industrial sectors and sub-contractors that support our national 
security requirements are also supported by highly competitive 
commercial markets that are larger than the Department of Defense 
(DOD). If business operations do not support timely and consistent 
contract awards that support long-term profitability, vendors can and 
do walk away from the defense sector. In particular, the industrial 
sector is routinely impacted by shifts in DOD demand as a result of 
budget fluctuations and constraints and the demands placed on them by 
statutes and derived regulations.
             multiyear procurement or block buy authorities
    8. Senator McCain. Vice Admiral Grosklags, are there programs that 
would benefit from cost reduction initiatives, such as Multiyear 
Procurement or block buys, that do not currently have these 
authorities?
    Vice Admiral Grosklags. The V-22 program is currently benefiting 
from the Congressional approved fiscal years 2013- 2017 Multi-Year 
Procurement (MYP) II contract. Given the lower costs, stabilization of 
contractor work force and continuity of production facilitated by MYP 
contracts, V-22 has requested a fiscal year 2018 Congressional 
authorization of a MYP III strategy through the established 
certification process. The Department of Defense expects the proposed 
follow-on MYP to yield significant savings and industrial base 
benefits, while instilling confidence in the international community 
and generating additional V-22 sales that will increase overall MYP 
savings.
                        future carrier air wing
    9. Senator McCain. Vice Admiral Miller, what is your vision for the 
future carrier air wing?
    Rear Admiral Miller. The future of Naval aviation continues to 
face, and must pace, a rapidly evolving threat. Substantial force 
modernization is required to pace the threat in the near term and 
through the 2024-2030 timeframe. The Air Wing of the future will be 
lethal, survivable, relevant, networked, sustainable, flexible and 
increasingly unmanned and autonomous. This Air Wing will decisively 
defeat increasingly advanced near peer threats using a balanced mix of 
4th and 5th generation aircraft; netted sensors, systems and weapons; 
and include manned and unmanned capabilities.
    <bullet>  Lethal. A 4th and 5th generation strike fighter mix 
provides the necessary complementary capacity and capability required 
through the 2030s. The Navy's planned strategy for sustaining and 
recapitalizing strike fighters is reliant on fully funded readiness 
sustainment accounts, strike fighter utilization management, and F/A-
18E/F and F-35C procurement. Future Air Wings will include two F-35C 
squadrons and two F/A-18E/F squadrons with a minimum of 44 Strike 
Fighters. This makeup provides the best balance between capability, 
capacity and affordability.
    <bullet>  Survivable. The EA-18G Growler is the Department of 
Defense's single aviation platform with the capability to detect and 
identify emitters as well as provide passive precision targeting and 
connectivity. Future integration of the Next Generation Jammer will 
improve electronic attack capabilities and contribute to outpacing 
future threats. To defeat more technologically advanced threats, the 
Navy expects an increase from five to seven aircraft per Air Wing.
    <bullet>  Relevant. The Navy is conducting strike fighter 
assessments for sufficiency (capacity) and proficiency (capability) 
gaps in the 2025 and beyond timeframe when F/A-18E/F and EA-18G 
aircraft begin reaching the end of service-life. This analysis, 
referred to as Next Generation Air Dominance (NGAD), will inform future 
balances for Air Wing capability, capacity, affordability and risk 
across the family of Air Wing systems. NGAD will support the full range 
of military operations, be foundational to future air-sea battle 
engagements and a critical element for Joint operations.
    <bullet>  Networked. Countering advanced threats requires 
battlespace awareness dominance. The Air Wing of the future will 
utilize five E-2D Advanced Hawkeyes (multiple simultaneously airborne) 
to process tremendous amounts of battlespace information producing 
actionable decision space. The Navy is conducting a study to identify 
the correct number of E-2Ds per squadron required to fully implement 
future capabilities of the Air Wing. The Air Wing of the future will 
rapidly share multi-spectrum sensor and target information across the 
battlespace while countering threat sensors and weapon capabilities 
using robust, secure and survivable tactical data link networks. These 
systems will fuse information from multiple input sources into a clear 
and accurate common operational picture.
    <bullet>  Sustainable. The oldest aircraft currently operating from 
the flight deck is the C-2 Greyhound. In fiscal year 2018, the Navy 
begins procurement of a new Air Wing logistics aircraft--the CMV-22 
Osprey. The Osprey will provide increased flexibility and range to our 
fleet logistics capability and is the only aircraft capable of 
transporting the F-35 engine to the Carrier Strike Group.
    <bullet>  Flexible. The multi-mission MH-60R combat helicopter will 
continue to support Air Wing of the future requirements for Anti-
Submarine Warfare, Anti-Surface Warfare, Naval Surface Fire Support, 
Search and Rescue and Logistics Support with an 11 aircraft squadron. 
Five helicopters will embark the aircraft carrier and six will embark 
the Carrier Strike Group's cruisers and destroyers. Similarly, the 
multi-mission MH-60S combat helicopter provides Anti-Surface Warfare, 
Personnel Recovery, Naval Special Warfare Support, Search and Rescue 
and Logistics Support with an 8 aircraft HSC squadron. Six helicopters 
will embark the aircraft carrier and two will embark a supporting 
auxiliary ship. By 2025, as MH-60R/S approaches service life limits and 
requires a Service Life Extension Program (SLEP) and Mid-Life Upgrade 
(MLU) program. These programs will modernize, sustain and extend 
service life.
    <bullet>  Increasingly Unmanned and Autonomous. MQ-25 Stingray will 
be the Navy's first unmanned Air Wing platform and will increase the 
lethality and reach of the Air Wing as a tanker with a secondary 
Intelligence, Surveillance and Targeting (ISR&T) roll. The Navy will 
leverage unmanned and autonomous systems as they become more available 
and affordable. These systems could fill diverse rolls in a future Air 
Wing in missions such as refueling, communications relay, logistics, 
airborne electronic attack, strike and ISR&T. Unmanned and autonomous 
teaming will reduce risk to the force, increase access to denied areas, 
increase force capability and capacity at lower costs.

    10. Senator McCain. Rear Admiral Miller, the Air Force Research 
Laboratory's Loyal Wingman program seeks to pair unmanned aircraft with 
a fifth generation fighter. How do you envision such manned-unmanned 
teaming manifesting in naval aviation and with strike-fighters in 
particular?
    Rear Admiral Miller. The Department of the Navy is committed to the 
use of unmanned capabilities providing communications relay nodes; 
Intelligence, Surveillance, Reconnaissance, Targeting (ISR&T); 
refueling; logistics; Airborne Electronic Attack; and strike. 
Integration of these systems with manned systems will reduce risk to 
the force, provide access to areas previously denied to manned 
platforms, increase force capability and capacity at lower costs, and 
provide distributed intelligent battlespace awareness.
    Continued research is required to determine how to most efficiently 
use inexpensive, unmanned systems. This enables our 5th generation 
manned aircraft to maintain the tactical advantage. How the Navy 
envisions employing these systems would need to be addressed at a 
higher classification.
                       f/a-18 super hornet block
    11. Senator McCain. Rear Admiral Miller, can you please describe 
the Navy's plan and timeline for upgrading its Super Hornet fleet?
    Rear Admiral Miller. The F/A-18E/F will be the Navy's predominant 
strike fighter platform into mid-2030s. President's Budget 2018 
requests procurement of 14 F/A-18E/F aircraft in fiscal year 2018 
(FY18) and an additional 66 aircraft across the Future Years Defense 
Plan, with upgrades to Block III configuration starting in fiscal year 
2019. Block III is designed to be complementary to the capability 
delivered in F-35 and E-2D. The Navy's fiscal year 2018 Unfunded 
Priorities List itemizes an additional 10 aircraft procurement.

    12. Senator McCain. Vice Admiral Grosklags and Rear Admiral Miller, 
please describe how the Navy is preparing for the Service Life 
Extension Program (SLEP) for the Super Hornet using the lessons learned 
from our experience with the Legacy Hornets.
    Vice Admiral Grosklags. Lessons learned from legacy Hornet have 
resulted in a significantly different approach for Super Hornet service 
life extension. Material supply challenges and non-standardized repair 
requirements driven by material condition challenges have hampered 
legacy Hornet life extension efforts. For the first several years, the 
Super Hornet Service Life Modification (SLM) program will be 
accomplished at a Boeing commercial depot rather than using organic 
depot facilities. This approach will leverage the supply chain and 
technology of the currently active F/A-18E/F Super Hornet production 
line while incorporating the latest industry best practices to 
standardize production flow and speed delivery of extended life 
aircraft. New facilities will enable Boeing to perform engineering 
dispositions and resource/supply material requirements for this effort 
under the SLM Contract. In addition, protocols have been established to 
ensure knowledge gained from material condition findings during SLM are 
incorporated into fleet preventative maintenance practices resulting in 
better aircraft material condition at induction. Taken in the 
aggregate, these efforts are expected to minimize material issues, 
enhance service life extension predictability and reduce SLM cycle 
time, thus returning aircraft to fleet customers in less time than 
under previous efforts.
    Rear Admiral Miller. Navy's planned Super Hornet service life 
extension program (referred to as the Service Life Modification (SLM) 
program) was developed around lessons learned from the Legacy Hornet.
    Legacy Hornets were inducted into organic depots late in their 
service life cycles for life extensions. These aircraft were 
significantly degraded with unplanned material condition issues. This 
drove unplanned material supply requirements and resulted in non-
standardized repair efforts. Additionally, Legacy Hornet service life 
extensions used an ``inspect and then repair'' model. This model forced 
additional time for aircraft extensions and further strained throughput 
at the depot. The Navy plans to reduce the time required (relative to 
Legacy SLEP) by conducting concurrent overhaul and aircraft 
modification (SLM earlier in the aircraft's life cycle).
    Learning from Legact Hornets, the Navy funded a Super Hornet 
Service Life Assessment Program (SLAP) to identify maintenance and 
material required to extend Super Hornet service life and minimize 
aircraft maintenance backlog. ``Early-learning'' Super Hornets were 
recently inspected to inform this analysis. ``Early-learning'' Super 
Hornets were recently inspected to inform this analysis. Preliminary 
data indicates material degradation is as originally expected by 
analysis. These two ``early-learning'' aircraft are about to undergo 
destructive teardown. The results of the early inspection will aid in 
the SLM specification development, inspection techniques, and build of 
materials that will be required to extend the life of these aircraft.
    To mitigate Navy depot throughput constraints during Legacy SLEP, 
Super Hornet SLM will be accomplished at a Boeing commercial facility 
(with more capability) for the first several years. This approach will 
leverage the supply chain and technology of the currently active F/A-
18E/F Super Hornet production line while incorporating the latest 
industry best practices to standardize production flow and ensure 
efficient timlines for SLM completions.
    The Navy also established protocols to ensure knowledge gained from 
material condition findings of ``early-learning'' aircraft and those 
undergoing SLM are incorporated into fleet preventative maintenance 
practices. This effort will be used to address material condition 
issues early and minimize major (unexpected) aircraft material 
condition issues.
    The Navy is making every effort to minimize material issues, 
enhance service life extension predictability and reduce SLM cycle time 
based on lessons learned from the legacy Hornet extensions. These 
efforts will ensure SLM aircraft minimize unexpected costs and are 
returned to the warfighter as fast as possible.
                        strike-fighter shortfall
    13. Senator McCain. Rear Admiral Miller, please update us on the 
Navy's strike-fighter shortfall, efforts to alleviate it, and the 
biggest challenges to overcome.
    Rear Admiral Miller. The Navy's biggest challenges for Strike 
Fighter Inventory Management (SFIM):
    (1)  Unexpected Demand and Consumption Rate: F/A-18E/Fs were 
designed and delivered with a 6,000 flight hour service life. Heavy 
warfighting demand around the world over the past decade consumed these 
flight hours much sooner than expected. Recapitalization has not kept 
up with the level of aircraft the Navy ``consumes'' each year. The 
Navy's current deficit is projected to grow higher by 2024 as 
additional fleet aircraft reach the 6,000 hour service life limit.
    (2)  F/A-18E/F Service Life Modification Program (SLM): F/A-18E/Fs 
begin to reach designed limits (6,000 hours) next year. The Navy needs 
to extend the life of these aircraft to 9,000 hours to meet SFIM 
targets through 2035. As F/A-18E/F SLM begins, the Navy needs to plan 
for 15 percent of aircraft inventory (``pipe'') to be in extended depot 
maintenance at any given time. Extension of aircraft life will 
ultimately reduce procurement requirements, but some recapitalization 
investment is required to avoid significant gaps on the flight line 
beginning in the early 2020's.
    (3)  F-35C Delays: Due to the F-35C Initial Operational Capability 
delay from 2012 to 2019, the lack of F-35C procurement has increased 
the impact of not replacing F/A-18s. These aircraft would have provided 
the needed replacement ``flight hours'' for F/A-18A-F.
    (4)  Readiness: An expeditious and effective lever for the 
Department to increase readiness is for the Navy to accelerate 
divestment from Legacy F/A-18A-D. Accelerating transition to Super 
Hornets will allow cost savings and reduce depot maintenance workload. 
As the Navy approaches the end of the extended service life for 
Hornets, the cost per flight hour continues to rise. Additionally, 
there are shortages in the Department of the Navy's (DON) spare parts 
and supply system that have contributed to flight line readiness 
challenges, as well as our ability to extend the service life of these 
airframes. Accelerated divestiture of operational Hornets will avoid 
further costly repairs and depot inductions. Working together, the Navy 
and Marine Corps are developing a DON solution to efficiently and 
effectively sundown legacy F/A-18A-Ds.
    The Navy is taking the following actions to help mitigate the 
shortfall:
    (1)  Prioritizing funding for aviation readiness, flying hour and 
enabler accounts.
    (2)  Managing and conserving hours on our aging fleet.
    (3)  Extending aircraft service life from their originally planned 
6,000 hours to 9,000 hours using our aviation depots and commercial 
assistance. We expect to induct 60-70 aircraft per year.
    (4)  Procuring new aircraft (both F/A-18E/F and F-35C).
    The Department will continue to meet operational demand with 
continued support of strike fighter procurement that paces retirements, 
modifications that increase capability, and service life extensions.
    To overcome years of underfunding aviation readiness accounts 
coupled with continuous high operational tempo and delays to the F-35C 
program, we require a disciplined commitment toward increased funding 
of enabler accounts and increased procurement of both FA-18E/Fs and F-
35Cs. Efficiencies and desired ROI will be maximized only through 
stable and consistent funding throughout the Future Years Defense 
Program.
                     f/a-18 service life extension
    14. Senator McCain. Vice Admiral Grosklags, please describe what 
the Navy is doing to improve depot throughput for Legacy Hornets and to 
apply lessons learned to the looming service life extension program for 
the Super Hornet.
    Vice Admiral Grosklags. The Navy has several initiatives underway 
that are designed to improve depot throughput. First, Critical Chain 
Project Management (CCPM) is a rigorous, theory-of-constraints based 
approach designed to maximize depot throughput by performing an 
exhaustive analysis to identify and alleviate constraints affecting the 
production, material, and engineering pillars associated with depot 
maintenance. Second, the Navy is implementing a consolidated end-of-
life management strategy for the F/A-18 A-D that better aligns major 
depot maintenance events. Finally, by continuing to execute the SLEP, 
through by complete development and fielding of all required structural 
modifications, depot maintenance will become more predictable and less 
variable from one induction to the next as inspections continue to be 
replaced by modifications and standard work.
               unfunded priority list--f/a-18e/f request
    15. Senator McCain. Rear Admiral Miller, the CNO's Unfunded 
Priority List has 10 additional Super Hornets as the Navy's #1 
priority. Given the strike-fighter shortfall and concerns about 
aviation readiness, why were these aircraft not included in the 
President's budget request?
    Rear Admiral Miller. The Navy's Fiscal Year 2018 President's Budget 
(PB-18) includes procurement of 14 Super Hornets to mitigate the strike 
fighter shortfall. In addition, PB-18 increases investments in aviation 
readiness accounts and enablers, such as flying hours, air depot 
maintenance, logistics and spares. Both the procurement and readiness 
investments will increase the number of ready available strike fighter 
aircraft. Additional aircraft procurement was not included in PB-18 in 
order to prioritize other readiness recovery and improve program 
balance across the entire Navy portfolio, consistent with the Secretary 
of Defense's three-phase campaign. Years of high optempo, funding 
reductions and budget uncertainty have resulted in a significant 
readiness debt that cannot be fixed in one year--it will take years of 
sustained commitment to readiness in order to fully recover. PB-18 
delivers the best balance of resources to improve all aspects of 
readiness within fiscal controls.
                       ea-18g growler requirement
    16. Senator McCain. Rear Admiral Miller, the Navy has completed it 
planned procurement of 160 EA-18G Growlers. Navy leadership has 
testified to Congress that 160 fulfills the Navy requirement for 
Growlers, but the number needed to fulfill the joint requirement is 
still being evaluated. Do you believe the Navy requires more Growlers 
to fulfill the needs of the joint force?
    Rear Admiral Miller. The Navy has a sufficient number of EA-18G 
Growlers to support current Joint force requirements. The Joint Staff 
plans to reassess the joint force requirement following review of the 
National Defense Strategy.
               electronic warfare--next generation jammer
    17. Senator McCain. Rear Admiral Miller, the Navy is currently 
developing an advanced electronic warfare system, the Next Generation 
Jammer, currently planned to only be carried by the EA-18G Growler. How 
does the Navy envision operating these Jammers? Is the currently 
planned number of Growlers sufficient to effectively employ the NGJ?
    Rear Admiral Miller. Next Generation Jammer (NGJ) is a powerful 
electronic warfare jamming technology designed to allow strike aircraft 
to destroy enemy targets without being detected by modern surface-to-
air missile systems. NGJ will be employed to protect fighter and 
stealth aircraft, allow penetration closer to intended targets and 
increase probability of mission success.
    The Navy has a sufficient number of EA-18G Growlers to support 
current Joint force requirements. The Joint Staff plans to reassess the 
joint force requirement following review of the National Defense 
Strategy.

    18. Senator McCain. Vice Admiral Grosklags, the Next Generation 
Jammer (NGJ) has been designated the first program in a ``SkunkWorks'' 
pilot that aims to streamline the acquisition process. Can you describe 
how the NGJ has benefited from this approach and any programs currently 
using this approach or that are planned to use it in the future?
    Vice Admiral Grosklags. USD(AT&L) and ASN(RDA) selected the Next 
Generation Jammer Mid-Band (NGJ-MB) program (formerly known as 
Increment 1) as the first Skunk Works program in April 2015 following 
the program's Development Request for Proposal Release Decision Point. 
The program was formally chartered on September 17, 2015, and the Skunk 
Works management construct has been implemented. The benefits of the 
Skunk Works charter to NGJ have been directly realized as reduced 
administrative and oversight burden as a result of tailored 
documentation and milestone processes. Documentation tailoring includes 
the optimization of regulatory requirements and delegation of document 
approvals. Milestone process tailoring includes elimination of the 
traditional OSD Defense Acquisition Board process and the Navy Gate 
Review process, including associated preparatory reviews such as 
Overarching Integrated Product Teams. These are replaced with a program 
execution review process overseen by an Executive Management Board 
(EMB). The EMB brings together key leadership from the Navy and OSD to 
review program execution at relevant, and more frequent, program 
knowledge points, rather than just the traditional milestones. The EMB 
is supported by a 'core team' of empowered subject matter experts from 
the EMB offices. The core team actively participates in the program in 
order to transform traditional external oversight and influence into 
hands-on insight. EMB reviews are conducted directly and concurrently 
with both ASN(RDA) and USD(AT&L), eliminating multiple pre-briefs at 
both the Navy and OSD levels, therefore allowing the program to focus 
on program execution. To date, three EMB reviews have been successfully 
executed: a post Preliminary Design Review; a Technical Deep Dive/
Milestone B held at the contractor site; and a post Critical Design 
Review summary and recent wind tunnel test overview held at the 
Pentagon.
    The NGJ-MB Skunk Works charter has been expanded to include the 
Next Generation Jammer Low Band program (NGJ-LB) (formerly Increment 2) 
and is pending final approval by USD(AT&L).
       marine air ground task force electronic warfare (magtf ew)
    19. Senator McCain. Lieutenant General Davis, when the last EA-6B 
Prowler squadron sundowns in 2019, the Marine Corps will no longer have 
a dedicated airborne electronic attack aircraft. How will the Marine 
Corps through the MAGTF [MAG-TAFF] EW systems of systems replace the 
electronic surveillance and electronic attack capabilities of the 
Prowler? Will the lack of a dedicated airborne electronic attack 
aircraft community create a capability gap for the Marines?
    Lieutenant General Davis. The Marine Corps' approach to electronic 
warfare (EW) after the EA-6B sundowns will ensure that the MAGTF 
commander has access to EW assets that are adaptable, scalable, and 
collaborative. There are several initiatives that will be used to meet 
and modernize the Corps' capacity and capabilities for electronic 
warfare support (ES) and electronic attack (EA). These initiatives will 
be complementary to our sister Services' programs, providing the joint 
force with diverse and flexible options for EW. The Intrepid Tiger II 
(IT II) pod is currently carried on the AV-8B, F/A-18, UH-1Y. The IT II 
pod provides EA against communications targets--an organic capability 
that the MAGTF commander has previously lacked. Future platforms for IT 
II integration include the MV-22B, KC-130J, AH-1Z, RQ-21A, and CH-53K. 
IT II Block X was funded for technology development starting in fiscal 
year 2016 and is funded through the FYDP. This variant will provide 
counter-radar EA--again, a capability that the MAGTF commander has 
historically lacked. The F-35 Joint Strike Fighter possesses inherent 
EW capabilities and the Marine Corps is exploring options to further 
expand this ability. The Marine Corps intends to retain its existing 
airborne EA-6B EW expertise to the maximum extent possible. We are 
offering in-service transitions to EA-6B aircrew so they may continue 
to contribute to the operating forces and supporting establishments. 
The personnel structure (106 billets) currently allotted to the EA-6B 
community has been re-allocated to a mixture of operational and support 
billets, predominantly concentrated in the UAS community. To equip the 
UAS community with the material solutions to conduct EW, the Marine 
Corps has fully funded in POM-18 through the FYDP an IT II payload for 
the RQ 21A. Future Marine Corps Group 4/5 UAS platforms will also be 
key airborne EW nodes for the MAGTF. To date, (53) EA-6B aircrew have 
been selected for MOS transition (EA-6B Pilot: F-35B, F/A 18, MV-22B, 
KC-130J, C-9), (EA-6B Electronic Counter Measures Officer: F/A-18 
Weapon Systems Officer, Student Naval Aviator, UAS). EA-6B aircrew MOS 
transitions will continue to be offered for the foreseeable future. Any 
structure lost as the EA-6B sundowns is consistent with the overall 
drawdown of Marine Corps total strength.
                    joint strike fighter operations
    20. Senator McCain. Lieutenant General Davis, could you provide an 
update on F-35B operations since VMFA-121 moved to Japan?
    Lieutenant General Davis. Since moving to Japan in January of this 
year, VMFA-121 has executed over 1,033 flight hours and 470 sorties (as 
of 19 Jul 17). They are the first USMC unit to field CAT I Pilots 
(first-tour aviators) into the Operational Fleet. As the first F-35 
unit, they have participated in exercises Northern Edge and Distant 
Frontier in Alaska. They have flown Close Air Support (CAS) training 
missions over the Korean Peninsula in support of the Korean Marine 
Exchange Program exercise with our partnered nation (ROK Marines). They 
have also conducted CAS training missions in Okinawa in support of III 
MEF ground units to include inert ordnance employment. VMFA-121's 
recent flight operations also validated adaptive basing concepts in 
support of future strategic and operational plans by conducting 
distributed aviation operations, expeditionary refueling, joint Forward 
Arming Refueling Point, and ``hot'' reloading evolutions (rearming the 
aircraft while the engines are still running). Lastly, they have begun 
in-depth planning for the first shipboard deployment with 31st Marine 
Expeditionary Unit scheduled in spring 2018.

    21. Senator McCain. Lieutenant General Davis, the F-35B brings new 
capabilities and operational possibilities to the Marine Expeditionary 
Unit and you have discussed the vision of linking Marine Expeditionary 
Units (MEUs) more closely into the joint force. However, those new 
capabilities and operating concepts require investment in shipboard 
infrastructure to include upgraded data links. Please discuss your 
vision for L-class ship connectivity and current plans to achieve that 
vision.
    Lieutenant General Davis. The Marine Corps Operating Concept 
imposes an operational requirement to command and control (C2) the 
Marine Air Ground Task Force (MAGTF) from the sea base during 
operational maneuver from the sea and distributed enhanced MAGTF 
operations. To meet this requirement for enhanced C2 while embarked, 
and exploit the improved capability of the F-35B, we must improve the 
capability of the LHD/LHA to send, receive, and distribute C2 data. 
This includes shipboard integration of weapons coordination as well as 
control and status reporting with remote land, air, surface, and sub-
surface units. The F-35B provides great potential for increased 
capability within the MAGTF, Naval and Joint Force--but only if it is 
appropriately integrated. In forums, councils, wargames and concept of 
operations development over the past decade, we have carefully 
identified current and future requirements that will ensure integration 
between the F-35B, the MAGTF Tactical Data Systems, and L-class ships. 
These requirements outline the human and system interfaces for 
commanders and decision makers to access the operational environment 
and information network and enable effective C2 of all fires and 
aviation assets in support of the MAGTF afloat and ashore. Five areas 
of improvement are identified to achieve system level digital 
interoperability: Improved Link-16 capabilities to support C2 in a 
digital environment, track data exchanges, electronic warfare, mission 
assignment, target engagement order/status, imagery, and free text 
messages. Improved Variable Message Format (VMF) to support digital C2 
track data, mission assignment data (e.g. Close Air Support, Airspace 
Control, and Fire Support Control Measures, Call for Fires), imagery, 
and free text messages. Ability to send/receive Intelligence, 
Surveillance, Reconnaissance (ISR) Full-Motion Video/Still Imagery 
Photograph (FMV/SIP) receipt via Common Data Link (CDL). Integrated 
Combat Systems and local area networks cross-domain solutions to 
support exchanges of track, targeting, electronic warfare, cyber, ISR 
and C2 data to supporting systems and functional agencies. Sufficient 
network and communications capacity to provide increased throughput and 
reach back to facilitate F-35B pre-flight data upload, in-flight 
information exchange, and post flight mission data downloads and ISR/
FMV/SIP on-board and off-board distribution. At a minimum, the end-
state is to elevate the capability of the Amphibious Ready Groups and 
Marine Expeditionary Units to match the information exchange 
capabilities of today's Carrier Strike Groups. Ideally, these 
capabilities would be elevated to match the F-35B's 5th Generation 
sensing and fusion capability in order to effectively command and 
control the amphibious force in the future operating environment. 
Beginning in 2018, the F-35B will represent the nation's most-advanced 
(5th generation), forward deployed, counter Anti-Access/Area Denial 
(A2/AD) capability for a period of several years. The requirement to 
implement the identified solutions is valid, compelling, and urgent. 
Additionally it is critical to synchronize and track ship upgrades and 
deployment schedules to avoid a gap in capability.

    22. Senator McCain. Rear Admiral Miller, what do you view as the 
biggest challenges to successful integration of the F-35 into the 
carrier air wing?
    Rear Admiral Miller. The largest challenge to F-35C Carrier Strike 
Group (CSG) integration is aligning F-35C capability procurement with 
investments in other current and future CSG platforms. Full F-35C 
integration and interoperability (across all CSG platforms) ensures 
critical battlespace awareness and dominance across all spectrums of 
Naval operations. The Navy needs these capabilities to fight and win.

    23. Senator McCain. Lieutenant General Davis and Rear Admiral 
Miller, Navy leaders have testified regarding their concerns about the 
sustainment model and costs for F-35. What recommendations do you have 
to increase the affordability and transparency of F-35 sustainment?
    Lieutenant General Davis. The Marine Corps' concerns are being 
addressed; we remain engaged throughout the Global Support Solution 
(GSS) development process and the program's ``blueprint for 
affordability.'' Over the course of the past year, the Joint Program 
Office (JPO) made significant strides in developing, refining and 
implementing the F-35 GSS. The USMC remains committed to this 
architecture as outlined in the ``Hybrid Product Support Integrator'' 
(HPSI) initiative and continues to monitor the implementation of the 
GSS. Simultaneously, select subject matter experts from various Marine 
Corps competencies have been participating in its development, which is 
categorized as a ``best of breed'' construct. This new GSS concept 
contains elements from both the JPO and USAF proposed models. The best 
recommendation from my view is to continue to adjust the program based 
on the lessons learned from our experienced folks as the processes 
mature, and not become married to our current construct. We are 
confident that our concerns are being addressed and that the program is 
headed in the right direction for sustainment.
    Rear Admiral Miller. Increasing the affordability and transparency 
of F-35 sustainment remains a top priority for the Department of 
Defense. The Joint Program Office (JPO), the Services and Industry 
partners have committed to reduce overall F-35 operating and 
sustainment life-cycle cost by 30 percent.
    The Navy is evaluating acceleration of organic depot capabilities 
to provide cost-effective aircraft support while augmenting the 
Original Equipment Manufacturing (OEM) existing capacity. While OEM 
production requirements remain high, acceleration of depot capabilities 
will ensure efficient production and maintenance of aircraft.
    Recent efforts, including the combined Joint Strike Fighter Program 
Office, Hybrid Product Support Integrator (HPSI) and the Marine Corps 
Pathfinders Campaign, evaluate operational/sustainment costs and 
aggressively pursues cost reduction initiatives. Additionally, with a 
shared vision, mission and objectives, the Services, industry and 
international partners plan to deliver Global Sustainment Support 
framework, coupled with maturing HPSI in order to increase F-35 
sustainment affordability and transparency.
                      f-35 follow-on modernization
    24. Senator McCain. Lieutenant General Davis and Rear Admiral 
Miller, the follow-on modernization for the F-35 is scheduled to bring 
key warfighting capabilities to the fleet, but the schedule and budget 
remain in flux. Are you concerned about the affordability and 
executability of the Department's plan for Block 4 Follow-on 
Modernization?
    Lieutenant General Davis. Follow-on-Modernization (FoM) is critical 
for the F-35 program to remain the most advanced, capable and lethal 
platform against current and emerging threats in the air-to-air and 
air-to-ground arenas. FoM efforts focus specifically on developing 
capabilities that pace the threat and complete the required kill 
chains. The schedule and budget are certainly a concern and we work 
diligently with the JPO and our partners. While the structure of the 
Block 4 program may deviate from its current state, I have no doubt 
that the capabilities contained within the program will deliver the 
best schedule technologies and budgets will allow. We monitor FoM 
closely and remain actively engaged.
    Rear Admiral Miller. The F-35 Joint Program Office (JPO) is 
continuously evaluating processes and methods to bring capabilities to 
the fleet. These efforts include an ongoing 90 day study to evaluate 
capability delivery timelines and associated costs. The Department of 
the Navy (DON) will review this study to inform decisions concerning 
DON Joint Strike Fighters and Follow-on Modernization.
    Significant threat capabilities have reached Operational Capability 
in the late 2010s and will continue to improve into the early 2020s. 
Multiple marks against the F-35 Modernization Program Element have 
delayed necessary pre-engineering contract work which, if not funded in 
fiscal year 2018, could delay capability delivery to the warfighter. 
This adversely impacts our ability to adequately pace the threat 
resulting in increased warfighting risk.
                        f-35 program management
    25. Senator McCain. Lieutenant General Davis and Rear Admiral 
Miller, does the Joint Program Office management structure properly 
align responsibility and accountability? What are your views on 
alternative management structures for the F-35 program, such as 
establishing separate service or variant program offices rather than 
maintaining a joint program office?
    Lieutenant General Davis. Ultimately, the Department of the Navy 
seeks to develop, procure, and deliver the most combat capable weapon 
system to the warfighter in order to meet operational requirements. 
While the Joint Program Office handles overall program management well, 
it is incumbent upon each service and partner nation to recognize the 
challenges of fleet integration and requirements definition and adapt 
to overcome these concerns. Much like other Marine Aviation programs, 
Headquarters Marine Corps has a team dedicated managing Marine Corps F-
35 requirements. Today, it is critical to our success to have an 
external program management structure that coordinates and focuses 
service and partner requirements and manages vendors in order to 
maximize efficiency and effectiveness of the program. While there are 
certain pieces of the JPO structure and operation that may need to 
change and evolve as we move forward, I do not believe that having each 
service stand-up its own program office is the answer. If each service 
produced its own program management office, the layers in the program 
would only increase and synchronization would decrease.
    Rear Admiral Miller. In response to Section 146 of the National 
Defense Authorization Act for Fiscal Year 2017 (Public Law 114-328), 
the Department has initiated a comprehensive study of potential 
alternative management structures for the F-35 Joint Strike Fighter 
program. This study will also address the alignment of responsibility 
and accountability across the Department of Defense's F-35 enterprise. 
The study is presently on-going, led by the Office of the Under 
Secretary of Defense Acquisition, Technology & Logistics with 
representation from each of the services and a report will be submitted 
to your committee by December 30, 2017.
                        airborne data link plan
    26. Senator McCain. Lieutenant General Davis and Rear Admiral 
Miller, you both have talked about the importance of networks to your 
visions of Naval and Marine aviation. The committee is concerned that 
the Department of Defense's ideas for airborne data links have lacked 
vision and been disjointed. Please discuss your efforts in this area 
and how you are ensuring that the Navy and Marine Corps are 
interoperable not only with each other, but with the Air Force and Army 
as well.
    Lieutenant General Davis. The United States Marine Corps is 
leveraging the capability of a software reprogrammable payload, which 
will host waveforms from the Joint Tactical Networking Center DOD 
Waveform Information Repository. This enables an infrastructure of air 
data links that leverages the standardized DOD waveforms, including 
TTNT and Link-16 in the short term, and provides the flexibility to 
adjust to new waveform capabilities via the inherent reprogrammable 
framework. Additionally, the Marine Corps is maturing a gateway 
technology that enables the Service to exchange data between compatible 
and non-interoperable networks. Marine Aviation is working closely with 
NSA to overcome the challenges of handling the multi-level security 
challenges inherent in this approach. The Marine Corps' efforts align 
with the Marine Operating Concept.
    Rear Admiral Miller. The Navy achieves secure tactical 
communications using different tactical data link waveforms for diverse 
missions and platforms. This complexity requires different types of 
tactical datalinks to meet differing requirements.
    The Link-16 network is planned to remain the foundation for Navy 
Tactical Data Links (TDL) for the foreseeable future. Worldwide, there 
are more than 10,000 Link 16 terminals integrated in the Navy, the 
Marine Corps, the Army, the Air Force, and the 43 partner nation's 
combat systems. Currently, all Navy and Air Force tactical aircraft 
either have Link 16, or are in the process of being upgraded to this 
capability. Seamless network integration in a combat environment (with 
so many diverse systems) remains one of the highest priorities of the 
Department. Link-16 working groups, across all Military Services, 
review interoperability regularly. The US Coast Guard and international 
partners are also included where appropriate.
    The Navy uses a number of other tactical data links that fulfill 
requirements that are different or mutually exclusive of the Link 16 
attributes and capabilities. Radio Frequency (RF) spectrum mission 
requirements that differ from Link 16 specification is one reason other 
TDLs are required. Some alternative TDLs that the Navy uses for 
tactical communications are Cooperative Engagement Capability (CEC), 
Multifunction Advanced Data Link (MADL) and Tactical Targeting Network 
Technology (TTNT).
    CEC uses a common architecture and uses the exact same hardware, 
software, messages and algorithms amongst the participants to achieve 
interoperability.
    MADL exists only on the Joint Strike Fighter and similarly achieves 
network interoperability by using a common architecture including 
hardware, software, messages and algorithms amongst the participants to 
achieve interoperability. MADL is common among all variants of F-35 to 
include the F-35 sold to partner nations.
    TTNT is currently on DON platforms only, but could be integrated on 
other services' platforms. TTNT is a transport mechanism that provides 
an internet protocol (IPv4) enabled waveform and uses commonly defined 
message formats such as JPEG, HTML and XML. Common applications and 
common messages among TTNT platforms ensure interoperability.
    Interoperability from Joint Publication 1-02 is the condition 
achieved among communications-electronics systems or items of 
communications-electronics equipment when information or services can 
be exchanged directly and satisfactorily between them and/or their 
users. The discussion above is summarized in that context in the table 
below.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
                        usmc aviation readiness
    27. Senator McCain. Lieutenant General Davis, Marine Corps aviation 
readiness appears to still be in a crisis. How did we get here, what 
are you doing to improve readiness, and what are the biggest challenges 
to overcome?
    Lieutenant General Davis. Marine aviation support to OEF and OIF 
utilized aircraft at wartime surge rates for over a decade, including 
in 2013 at the onset of sequestration. A shrinking force and continuous 
deployments, combined with fiscally constrained budgets and the loss of 
skilled artisans, set the current conditions. The reduction of contract 
services and funding shortfalls resulted in a degraded aviation force 
that was in need of a reset. Since 2014, with the end of OIF and a 
major force reduction in Afghanistan, the Marine Corps continues to 
respond to the Nation's requirements with Marine Expeditionary Units. 
However, lack of available amphibious ships forced the Marine Corps to 
adapt and create a forward-deployed, land-based crisis response force 
to protect the Nation's interests abroad and respond at a moment's 
notice. In an effort to recover readiness, Marine Corps leaders have 
prioritized and balanced funding between readiness accounts and 
procurement of new aircraft to enable recovery. 2016 was a transitional 
year, and while some efforts for recovery of funding were identified, 
the majority of long-term recovery efforts began in 2017. There are 
many reasons for these reduced readiness numbers. Budget constraints 
lowered readiness funding; High Operational Tempo; Aging aircraft have 
not been replaced or reset. Less-than-optimal procurement rates to 
replace over-age and aging aircraft, which is critical to maintaining 
our capability over near peer competitors; Spares--Aircraft Not Mission 
Capable Supply rates are 25+%; RBA recovery has stalled. There is a 
two-year lag between funding readiness accounts and realized gains; 
Continued support of readiness and Flight Hours Program is critical; 
RBA aircraft is 441. Marine aviation requires 589 to maintain T-2.0 and 
690 to achieve a ready bench. The flight hour metric, while not the 
only measure of capability, is an indicator of the depth of the 
material bench and of the ability to surge. Marine aviators and aircrew 
operate in high-tempo environments, flying increasingly complex mission 
profiles. The time between operational deployments is decreasing, the 
inventory of aircraft to train with is decreasing and today's aviators 
are not getting enough ``looks at the ball'' to ensure they are as 
proficient as they should be. Marine aviation initiated six Independent 
Readiness Reviews (IRRs) beginning in December 2014. To date, AV-8Bs, 
CH-53Es, H-1s, MV-22s, as well as an aviation ground MISHAP review are 
complete. These reviews, led by independent leaders outside the Naval 
Aviation Enterprise, provide different perspectives, assessments and 
courses of action to achieve positive gains and meet readiness 
requirements. Since implementation, there are more Ready Basic Aircraft 
(RBA) on the flight line than previous years, and the recovery effort 
focuses on four primary lines of effort: 1) Depot throughput; 2) In-
service repairs; 3) Non-mission capable supply; 4) Non-mission capable 
maintenance. The common thread in each IRR focused on non-mission 
capable supply aircraft and identified funding shortfalls in readiness 
accounts as a critical factor. PB-18's focus is to fund these accounts 
to to the maximum executable level, ensuring stable and predictable 
funding to support Marine Aviation's recovery to training levels by 
fiscal year 2020 and a ready bench by fiscal year 2022. Four main 
factors surfaced within each IRR (with different combinations in each 
Type/Model/Series): People, Parts, Process, and Funding. The Marine 
Corps is tackling these components head-on. Continuing resolutions and 
delays in budgets have stalled recovery in the short-term. The real key 
to reducing risk in capacity and recovering future readiness is through 
recapitalization of the fleet--transitioning to new aircraft. The 
Marine Corps is 41 percent through its aviation fleet transition of 
every type/model/series. Twenty-eight squadrons are complete with 40 
awaiting transition. This recovery plan balances current readiness and 
modernization to maintain and increase our operational advantage as we 
procure a new aircraft and transition to a modern force.
                              v-22 osprey
    28. Senator McCain. Vice Admiral Grosklags, the President's budget 
request includes a request for authority for multiyear procurement for 
7 years. Can you describe the need for such a long multiyear?
    Vice Admiral Grosklags. The proposed follow-on multi-year 
procurement contract (MYP III) spanning seven years (fiscal years 2018-
2024) would buy out the remaining domestic aircraft program of record. 
Buying out the remaining requirement (44 CMV-22 for the US Navy and 21 
MV-22 for the US Marine Corps) under a single MYP is the most cost 
effective means to complete the production phase of the program. 
Competing resource requirements and the constraints imposed by the 
Budget Control Act preclude the Department from completing the program 
of record under a five year MYP contract. If MYP III were only to cover 
five years, the requirement remaining after the MYP would likely be 
unaffordable. Including these final two years under a seven year MYP is 
expected to net an additional $223 million in savings.
    A seven year MYP III continues affordable procurement, provides 
stability to industry and maintains a production line and contractual 
foundation to attract future V-22 international sales/customers. Long-
term stability and lower costs provide incentives for prospective 
international V-22 customers which benefits both the Department and the 
industrial base.

    29. Senator McCain. Lieutenant General Davis, I understand the 
Marine Corps is studying the potential need to increase the V-22 
Program of Record from 360 to 380. Can you provide an update on that 
study and what an increase in the PoR would mean for the proposed 
multiyear?
    Lieutenant General Davis. Marine Corps Concept Development & 
Integration's Operational Analysis Division recently completed a study 
concerning future capability and warfighting capacity within the MV-22B 
community. The study suggests an increase of 20 MV-22B aircraft to the 
Program of Record (PoR) may be required to meet future Major Combat 
Operation demands and account for projected attrition losses. The 
Marine Corps is not currently increasing its MV-22B PoR but will 
continue assessing potential requirements.
              navy and marine corps air-launched munitions
    30. Senator McCain. Lieutenant General Davis and Rear Admiral 
Miller, in your judgment, are your air-launched munitions inventories 
sufficient to support current operations and the Defense Strategic 
Guidance writ large? Are there individual air-launched munitions whose 
inventories, either present or projected, are insufficient to meet 
requirements? If so, what are they and what is being done to address 
the shortfalls?
    Lieutenant General Davis. The Department of the Navy (DON) 
continues to lag behind the Total Munitions Requirement (TMR) for Air-
to-Air and Air-to-Ground weapons. In order to fill the current 
munitions shortfalls, the DON will continue to rely on legacy weapon 
variants to bridge the gap in quantity but this does not address 
shortfalls in capability. Due to challenges from the Budget Control Act 
and resultant funding inconsistencies, there are a number of weapons 
that lack capacity and capability. Budgetary constraints have also had 
the same effect on the industrial base and their ability to address 
capacity shortfalls, capability upgrades and parts obsolescence issues. 
The DON conducts detailed analysis on a yearly basis which analyzes our 
current inventory referencing OPLAN requirements and attempts to 
determine risk mitigation strategies in regards to munitions funding 
shortfalls.
    Rear Admiral Miller. The Department of the Navy (DON) is committed 
to maintaining the Total Munitions Requirements for Air-to-Air and Air-
to-Ground weapons but continues to lag. To fill capacity shortfalls, 
DON relies on legacy weapon variants. Decreased funding across DON's 
air launched weapons portfolio has resulted in lower procurement 
numbers. This shortfall is compounded by a constrained industrial base 
that has struggled to address capability upgrades, parts obsolescence 
issues and would find it very difficult to increase production to 
address capacity shortfalls. DON conducts yearly inventory analysis and 
establishes risk mitigation strategies to support operational 
requirements around the world.
                            advanced weapons
    31. Senator McCain. Lieutenant General Davis and Rear Admiral 
Miller, what steps are the Navy and Marine Corps taking to ensure they 
have munitions that are relevant and effective against the increasingly 
difficult defenses our potential adversaries are developing and 
fielding?
    Lieutenant General Davis. It is an imperative that the Department 
of the Navy (DON) has a force with the capability and capacity to fight 
and win against any of our five major challengers (China, Iran, North 
Korea, Russia, and Violent Extremism) by investing in advanced weapon 
systems that increase lethality for both the current and future force. 
We are engaged towards implementing our vision of greater tactical and 
technical innovation to provide the right capability in the hands of 
the warfighter, on schedule, and in the most affordable manner possible 
but are disadvantaged by fiscal constraints and budget instability. Our 
strategy is based in part by the transition/update to major components 
of the Carrier Air Wing (CVW), Expeditionary Strike Group and land-
based Expeditionary Wings, and includes: manned and unmanned aviation 
system teaming; integration of warfighting capabilities to ensure 
multiple systems operate together across platforms, weapons, networks 
and sensors; advanced computing; and incorporation of commercially 
driven technology to provide a technological advantage over 
adversaries. In the near-term, we have implemented a series of 
modernization programs to legacy weapon systems that includes 
technological upgrades to Tactical Tomahawk, Harpoon/BLK II, and AIM-
9X/BLK II. In the mid-term we are investing in new development programs 
as the Joint Air-to-Ground Missile and Small Diameter Bomb II. For the 
long-term, we have developed a Cruise Missile Strategy to develop the 
next generation of long-range strike weapons that will enable Carrier 
Strike Groups, Amphibious Strike Groups, Surface Action Groups and 
individual firing units to project power across the global commons, 
against near-peer threat nations and non-state actors. Answered via 
DASN(Air)
    Rear Admiral Miller. The Department of the Navy (DON) is committed 
to maintaining a force with the capability and capacity to fight and 
win. Investments in advanced weapon systems increase lethality for both 
the current and future force. Providing needed warfighter capabilities, 
when needed, and in an affordable manner, is often challenged by fiscal 
limitations and budget instability.
    The Department's strategy focuses on transition and modernization 
of needed capabilities for the Carrier Air Wing, Expeditionary Strike 
Group and land-based aviation squadrons of the future. This effort 
includes advancements in manned and unmanned aviation system teams; 
maximization of sensor, payload and platform capability integration; 
and advanced computing. Commercially driven technology should provide a 
technological advantage over adversaries.
    In the near-term, DON has invested in modernization programs to 
legacy weapon systems that includes technological upgrades to Tactical 
Tomahawk, Harpoon Block II and AIM-9X Sidewinder Block II.
    In the mid-term, DON plans investments in new development programs 
such as the Joint Air-to-Ground Missile and Small Diameter Bomb II.
    In the long-term, DON's Cruise Missile Strategy focuses on the next 
generation of long-range strike weapons that will enable the Carrier 
Strike Groups, Amphibious Strike Groups, Surface Action Groups and 
individual firing units of the future to project power across the 
global commons against near-peer threat nations and non-state actors.

    32. Senator McCain. Vice Admiral Grosklags and Rear Admiral Miller, 
in your statement for the record you state that the Department intends 
to develop and acquire an Offensive Anti-Surface Warfare (OASuW) 
Increment 2, yet the budget zeroes our the funding for the effort. Can 
you explain the Navy's plan and why this effort is being delayed when 
threat advancements are not?
    Vice Admiral Grosklags. The Department of the Navy (DON) requested 
funding for OASuW Increment 2 (OASuW-2) in fiscal year 2015 and fiscal 
year 2017 to meet a 2024 Initial Operational Capability. These requests 
were not funded due to ``early to need'' justifications. In President's 
Budget 2018 (PB18) request, funding reductions for OASuW-2 were 
necessary to address immediate fleet readiness issues which delayed 
fielding these capabilities. An OASuW-2 material solution remains a key 
component of DON's long-range Cruise Missile Strategy. DON will 
continue to evaluate a cost effective and timely solution to mitigate 
additional delays in fielding OASuW-2.
    Rear Admiral Miller. The Department of the Navy (DON) requested 
funding for OASuW Increment 2 (OASuW-2) in fiscal year 2015 and fiscal 
year 2017 to meet a 2024 Initial Operational Capability. These requests 
were not funded due to ``early to need'' justifications. In President's 
Budget 2018 (PB18) request, funding reductions for OASuW-2 were 
necessary to address immediate fleet readiness issues which delayed 
fielding these capabilities. An OASuW-2 material solution remains a key 
component of DON's long-range Cruise Missile Strategy. DON will 
continue to evaluate a cost effective and timely solution to mitigate 
additional delays in fielding OASuW-2.
                         usmc unmanned roadmap
    33. Senator McCain. General Davis, please discuss the roadmap for 
Marine Corps unmanned systems, and in particular L-class ship-based 
unmanned systems, including MuX.
    Lieutenant General Davis. The USMC unmanned roadmap provides for a 
family of unmanned aircraft systems that will support any sized MAGTF 
for influence of the electromagnetic spectrum, battlespace awareness, 
offensive air support, target acquisition, force protection, and 
digital communication backbone. The Marine Corps' small unit leaders 
are supported by the Small Unit Remote Scouting System (SURSS) Family 
of Small UAS and provide Marines at the lowest tactical level the 
decision-speed and decision-space to out-maneuver and outpace the enemy 
by providing for and having the most current and accurate battlespace 
information at their disposal. In accordance with the Commandant's 
guidance, we are aggressively pursuing man-portable technology 
solutions to be deployed with Marine Corps infantry that support a 
single operator while offering multi-mission and multi-intelligence 
capabilities to ensure significant battlespace awareness with kinetic 
capability. The Marine Corps is currently operating the RQ-21 aboard L-
class shipping with our Marine Expeditionary Units. Unlike most type/
model/series, the RQ-21 deployed simultaneously to multiple operational 
deployments across the globe within six months of initial operational 
capability in July of 2016. In addition to flying over 2000 combat 
flight hours in support of Marine Special Operations in Operation 
Inherent Resolve, the RQ-21 has successfully deployed aboard the 22 
MEU, 24 MEU, and will shortly expand out to the PACOM AOR with the 15th 
MEU. Equipped with a day/night electro-optical sensor, Link-16 (system 
dependent), a communications relay package, as well as a collection 
payload, the RQ-21 has performed admirably in both combat and peacetime 
missions to include humanitarian assistance operations. The Marine 
Corps' next L-class capable UAS will be the MAGTF Expeditionary UAS 
(MUX). While seeking opportunities to achieve affordable and cost-
effective technical solutions, MUX will be built to be shipboard 
capable and expeditionary. It will provide multi-sensor, electronic 
warfare, C4 bridge, anti-air warfare and strike capability at ranges 
complimentary to the MV-22 and F-35, giving MAGTF commanders flexible, 
persistent, and lethal reach. It will provide scalable MAGTF support 
deploying as detachments or squadrons supporting commanders at the 
tactical, operational, and strategic levels. We are currently working 
with Combat, Development, and Integration, Naval Air Systems Command, 
as well as industry, to establish requirements and secure the most 
viable and efficient acquisition pathway for MUX.
                             mq-25 (cbars)
    34. Senator McCain. Vice Admiral Grosklags, the Navy has designated 
the MQ-25 one of the first Maritime Accelerated Capabilities Office 
(MACO) programs, yet the schedule in the budget docs does not appear to 
show anything close to an accelerated program, with first flight in 
fiscal year 2024 and ICO in fiscal year 2028. Please describe how the 
Navy intends on ensuring this is in fact a rapid program.
    Vice Admiral Grosklags. The MQ-25 program office (PMA-268) and all 
industry partners remain engaged to identify opportunities to 
accelerate first flight and Initial Operational Capability (IOC) to 
meet a fiscal year 2024 IOC objective. The Department of the Navy (DON) 
has introduced the framework to accelerate acquisitions through the 
following two instructions:
    1) Secretary of the Navy (SECNAV) Instruction 5000.42, Department 
of the Navy Accelerated Acquisition for the Rapid Development, 
Demonstration and Fielding of Capability, December 22, 2016.
    2) Chief of Naval Operations (OPNAV) Instruction 5000.53, Navy 
Accelerated Acquisition for the Rapid Development, Demonstration, and 
Fielding of Capabilities, March 15, 2017.
    SECNAV Instruction 5000.42 establishes the Maritime Accelerated 
Capability Office (MACO) which enables rapid development, demonstration 
and fielding of capability to the fleet. MQ-25 was designated a MACO 
program on March 24, 2017, and empowers the staff of the Chief of Naval 
Operations (CNO) and the Program Executive Officer, Unmanned Aviation 
and Strike Weapons, (PEO (U&W)), to identify and address systematic 
issues associated with the acquisition process to accelerate IOC when 
compared to a traditional program. Additionally, these instructions 
establish the Accelerated Acquisition Board of Directors (AA BoD), co-
chaired by the CNO, the Assistant Secretary of the Navy for Research, 
Development and Acquisition (ASN(RD&A)), and when required the 
Commandant of the Marine Corps. The AA BoD provides oversight of MACO 
designated programs and facilitates direct access by MACO program 
stakeholders to DON leadership for expeditious decision making that 
will aggressively manage cost, schedule and performance enabling 
accelerated capability to the Fleet.
    MQ-25 is the first program designated by the Deputy Secretary of 
Defense as a Key Performance Parameter (KPP) Reduction Pilot Program 
per Section 854 of Public Law 114-328, the fiscal year 2017 National 
Defense Authorization Act. This designation reduces rigid, non-
warfighter KPPs and facilitates DON requirements ownership and 
oversight in order to manage cost, schedule and performance throughout 
the acquisition process. Additionally, MQ-25 was the first Navy program 
with parallel Navy and Joint Staff Capability Development Document 
staffing. This resulted in accelerated validation of requirements so 
the Navy can remain focused on draft RFP feedback prior to formal 
source selection and contract award.
    The DON will continue to assess every aspect of the entire 
acquisition process to identify opportunities to accelerate the MQ-25 
program. The MQ-25 program is fully funded in fiscal year 2017 and 
fiscal year 2018 to execute an accelerated source selection and 
contract award process. The CNO is committed to addressing out year 
funding requirements to support an accelerated IOC in future budget 
submissions. Acceleration of MQ-25 will require stable, predictable 
funding support from all quarters to ensure success.
                          ch-53k king stallion
    35. Senator McCain. Lieutenant General Davis, the costs for the CH-
53K have seen a marked rise. Can you explain the causes of the cost 
inflation?
    Lieutenant General Davis. Along with normal inflation, additional 
factors for increased cost include labor rate increases from the OEM, 
schedule delays, a revised estimate for engines, and a shallow 
procurement ramp. Although cost has increased, this program is not in 
danger of a Nun Mc-Curdy breach.

    36. Senator McCain. Lieutenant General Davis, can you describe why 
the USMC needs the exquisite capabilities the King Stallion will bring?
    Lieutenant General Davis. The CH-53E Super Stallion entered service 
in 1981--the average age of the aircraft it 28 years old. It is the 
only heavy-lift helicopter in the DOD rotorcraft inventory. Although a 
very capable platform, the out of production CH-53E is 55 aircraft 
short of the required inventory and maintenance man-hours for the CH-
53E have doubled due to age and obsolescence. More importantly, the CH-
53E cannot lift 100 percent of today's vertical MAGTF--the payloads and 
ranges required to support the ship-to-objective maneuver concepts 
outlined in Marine Operating Concept exceed the capability of the CH-
53E. The CH-53K provides three times the lift capability under the same 
ambient conditions, and is the only fully marinized, heavy-lift 
rotorcraft capable of supporting current and future warfighting 
concepts by lifting 100 percent of the vertical MAGTF for approximately 
the same projected O&S cost as the legacy CH-53E. The CH-53K will be a 
game-changer for the MAGTF by providing unprecedented heavy lift with 
increased range and payload, interoperability, and survivability.
                               __________
             Questions Submitted by Senator Luther Strange
                           f-35 capabilities
    37. Senator Strange. Rear Admiral Miller, the F-35 currently does 
not have a powered, internal-carriage, air-to-surface/ground standoff 
weapon. Given that such a weapon would minimize drag while enhancing 
survivability by maintaining the aircraft's low-observable 
characteristics, does the Navy consider that situation to indicate a 
potential capability gap? If so, is it receiving consideration 
regarding future weapons procurements?
    Rear Admiral Miller. There are scenarios where internal carriage, 
air-to-surface/ground standoff weapon would be advantageous in the 
future fight and the Navy will continue to balance all capabilities 
against available funding in order to field the required force to meet 
threats in accordance with Defense Planning Guidance scenarios. The 
Navy fights as an integrated Carrier Strike Group (CSG) and does not 
rely on any one platform to provide needed capabilities. The Navy is 
committed to developing and deploying a broad range of weapons systems 
to address threats in the next decade, including long-range, precision, 
air-to-surface/ground weapons. Through the 2020s, the CSG will include 
both 5th and 4th generation aircraft and will continue to develop 
capabilities that can be employed for both.
                     f-35's operational environment
    38. Senator Strange. Rear Admiral Miller, while recent military 
conflicts have been in permissive environments, it appears that the 
likelihood of conflicts in high-end, non-permissive environments (like 
those that could occur with China, Russia, Iran, and North Korea) has 
risen. Given that 5th Generation aircraft like the F-35 were developed 
so they could operate in such environments, is there a reason that no 
5th Generation standoff weapons that leverage the F-35s unique 
capabilities (like internal carriage) are currently being developed? If 
such weapons were developed by partner nations, would they be 
considered to address that apparent shortcoming?
    Rear Admiral Miller. The Navy fights as an integrated Carrier 
Strike Group (CSG) and does not rely on any one platform to provide 
needed capabilities. The Navy is focused on meeting the requirements in 
Defense Planning Guidance and committed to developing and deploying a 
broad range of weapons systems to address threats expected in the next 
decade. This includes long-range, precision, air-to-surface weapons. 
The CSG requires a mix of 4th and 5th generation aircraft. It is 
critical to develop capabilities that can be employed effectively from 
both. There are scenarios where internal carriage, along with other 
survivability features, would be advantageous in the future fight. The 
Navy will continue to balance capabilities against available funding to 
field the capability required to meet the threat.
    If North Atlantic Treaty Organization partner nations develop and 
produce 5th generation weapons, with inherent capabilities to survive 
in rigorous flight and austere maritime environments (where the Navy 
operates), the Navy would be very interested in exploring options to 
expand capability and increase competition within the industrial base.
                  negative impacts on mission packages
    39. Senator Strange. Rear Admiral Miller, does the lack of an 
internally-carried, powered, standoff weapon for the F-35 negatively 
impact the types of mission profiles the F-35 can fly in non-permissive 
environments?
    Rear Admiral Miller. There are scenarios where internal carriage, 
along with other survivability features, would be advantageous in the 
future fight and the Navy will continue to balance all capabilities 
against available funding in order to field the required force to meet 
threats in accordance with Defense Planning Guidance. The Navy fights 
as an integrated Carrier Strike Group and does not rely on any one 
platform to provide needed capabilities. The Navy is committed to 
developing and deploying a broad range of weapons systems to address 
threats in the next decade, including long-range, precision, air-to-
surface weapons.
                         adversary capabilities
    40. Senator Strange. Rear Admiral Miller, given the ``tyranny of 
distance'' and the long range of potential adversary air defense 
systems currently confronted by the Navy, would an air-to-surface/
ground weapon for the F-35 that extended the aircraft's engagement 
range while maintaining its low observable radar signature be 
considered to be of significant utility?
    Rear Admiral Miller. The Navy is committed to developing and 
deploying a broad range of weapons systems to address threats in the 
next decade, including long-range, precision, air-to-surface/ground 
weapons. The Navy fights as an integrated Carrier Strike Group (CSG) 
and does not rely on any one platform to provide all required 
capabilities in accordance with Defense Planning Guidance scenarios. 
Through the 2020s, the CSG will include both 5th and 4th generation 
aircraft and will continue to develop capabilities that can be employed 
for both.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                                 ch-53k
    41. Senator Blumenthal. Lieutenant General Davis, the CH-53K ``King 
Stallion''--the replacement for the only true heavy lift helicopter--
will play an integral role for the U.S. Marine Corps in the coming 
decades, providing significant improvements to the CH-53E ``Super 
Stallion'' predecessor--three times the external lift capacity, greater 
range capability, and better reliability to move heavy equipment for 
longer distances from sea to land. Replacing the legacy CH-53E remains 
crucial as low numbers of flyable aircraft is impacting the current 
state of Marine Corps aviation readiness. The CH-53K program 
successfully reached Milestone C earlier this year. What does heavy 
lift capability bring to the Marine Corps? How will it be improved with 
the CH-53K? Can any other helicopter meet heavy lift requirements?
    Lieutenant General Davis. The CH-53K will provide unprecedented 
heavy lift along with increased range, payload, interoperability, and 
survivability. This aircraft leverages technology to increase 
reliability, maintainability (reduced maintenance man-hours as compared 
to the CH-53E), and reduce overall cost of ownership. This aircraft is 
optimized for vertical heavy lift--delivering heavy equipment, supplies 
and troops--to mass combat power in the objective area that was 
previously not possible. In addition to the lift capability, the CH-
53K's cabin is wider than the CH-53E and can handle increased payload. 
The wider cabin is also compatible with the large TRANSCOM 463L pallets 
used for intermodal transportation throughout the battlespace. The new 
triple-hook external cargo system enables disbursing three different 
external loads to three different locations during one sortie. Other 
improvements include a modern glass cockpit, fly-by-wire flight 
controls (increases safety and survivability and decreases pilot 
workload--especially in a degraded visual environment), efficient 4th 
generation main rotor blades, and an engine that produces 57 percent 
more horsepower with 63 percent fewer parts than its predecessor. There 
is no other helicopter in the DOD that can meet the Marine Corps' heavy 
lift requirements. As demonstrated by a MAGTF capabilities analysis in 
support of the 2014 Heavy Lift Helicopter Requirements Analysis, it 
would take nearly three times the alternate or medium lift assets to 
accomplish what the CH-53K is capable of doing under one period of 
darkness. The next closest competitor is the CH-47, which is classified 
as a medium lift platform due to its Maximum Gross Weight and is not 
marinized. Modifying a CH-47 it would sacrifice payload, requiring even 
more sorties to equal the CH-53K. The increased capabilities that the 
CH-53K brings to the MAGTF, coupled with its increased reliability and 
ease of maintenance will set a new standard for vertical heavy lift.

    42. Senator Blumenthal. Lieutenant General Davis, I am concerned 
about the shallow production ramp this program is facing. Last year it 
was just two, this year the official request is four, and it continues 
to be slow in future years' projections. The Marine Corps top priority 
on its unfunded request list is two additional CH-53Ks--to total 6 
helicopters. Can you explain why these additional two helicopters are 
so important?
    Lieutenant General Davis. The two additional aircraft will 
accelerate transition to the first CH-53K Heavy Helicopter Squadron and 
ensure we qualify and train aircrew who are ready to deploy in support 
of the DOD and MAGTF. With the current procurement ramp, the first 
squadron transition will take longer and will delay delivery of this 
capability to the fleet.

    43. Senator Blumenthal. Lieutenant General Davis, last month, you 
visited Sikorsky to assess the CH-53K production line in Connecticut. 
Are you confident in Sikorsky's ability to produce this helicopter?
    Lieutenant General Davis. Yes, I am confident in Sikorsky's ability 
to execute the plan.
                                  f-35
    44. Senator Blumenthal. Lieutenant General Davis, Vice Admiral 
Grosklags and Rear Admiral Miller, while we often focus on the 
importance of the F-35 as it pertains to the Air Force, the other 
variants are just as crucial to our national security. The F-35B short 
take off vertical landing variant and the F-35C carrier variant will 
transform Navy and Marine Corps Aviation. In the President's fiscal 
year 2018 budget request, there are 20 F-35Bs, as anticipated last 
year. However, there are only 4 F-35Cs, two less than what was 
anticipated just last year, which is accompanied by lower projected 
buys in the FYDP. Do you agree that the F-35 has leaps in stealth and 
strength that a fourth-generation fighter jet cannot match? What 
capability with the F-35C bring to the fleet that the F-18 cannot? Will 
fourth-generation aircraft be survivable in an advanced threat 
environment in the coming years and decades?
    Lieutenant General Davis. Yes, the F-35 is capable of exceeding 
every mission essential task assigned to current legacy platforms while 
operating in a high threat environment due to its advanced stealth 
technology and sensor fusion technology. This ensures greater 
survivability and mission success in a robust integrated air defense 
system (IADS) environment without external support. Penetrating an 
advanced IADS of a peer or near-peer adversary is operationally 
challenging with extremely high risk for legacy 4th generation aircraft 
in the current threat environment. The F-35, on the other hand, is 
designed to operate in that environment. The aircraft is not only more 
effective there, but the pilots are now better equipped to train to 
those threat levels and are well-postured for the future fight with 
this aircraft. With potential adversaries equipped with advanced anti-
access / area denial (A2/AD) long-range precision strike capabilities 
that threaten traditional US power projection, it is increasingly 
critical that we field this next generation strike weapons system. The 
F-35 was developed using a complete analysis of legacy aircraft 
shortfalls, emerging threats, and consideration of future operating 
locations. This approach led to an aircraft design that incorporates 
advanced stealth characteristics and a powerful sensor suite that 
provides superior awareness to the pilot and ensures increased 
survivability and lethality in all environments. The aircraft has an 
autonomous capability to strike a broad range of moving or fixed 
targets, either day or night and in adverse weather conditions, which 
is a capability gap within 4th generation aircraft. These targets 
include air and ground threats, as well as enemy surface units at sea 
and anti-ship or land attack cruise missiles. Using fused information 
from its onboard systems and/or other F-35s within the flight allows 
pilots to complete the entire kill chain without reliance on external 
sources. This capability shortens engagement times, reduces exposure to 
threats, and retains the element of surprise. Together these elements 
allow the pilot to affect the tactical environment using proactive 
tactics. The 5th generation capabilities that the F-35 brings to the 
mission increase the synergy, awareness, lethality and survivability of 
the entire force. In the coming years and decades everything will 
advance and we continuously view the requirements of air power through 
a lens of continuous modernization. The F-35 modernization plan is 
mapped in detail over the next decade, both in terms of the 
technologies that we pursue and in terms of managing our fleet so that 
we can modify the earlier lot aircraft and cut new developments into 
the production line. This aircraft will last for decades, both in terms 
of its long, 8000 hour, airframe life and the long term view to 
continuously improve capabilities to pace the threat.
    Vice Admiral Grosklags. While the answers to your direct questions 
cannot be fully answered in an unclassified format, the F-35 does bring 
revolutionary advances in stealth, survivability, information 
management, and sensor fusion to the Carrier Strike Group for the first 
time. The F-35, with its stealth and advanced sensors will make the 
entire CSG more lethal and survivable. It is the combination of both 
4th and 5th generation aircraft that will ensure that the Navy has both 
the capacity and capability to meet the threat in the next decade.
    Rear Admiral Miller. While the answers to your direct questions 
cannot be fully answered in an unclassified format, the F-35 does bring 
revolutionary advances in stealth, survivability, information 
management and sensor fusion to the Carrier Strike Group (CSG). The F-
35, with its stealth and advanced sensors will make the entire CSG more 
lethal and survivable. It is the combination of both 4th and 5th 
generation aircraft that will ensure the Navy has both the capacity and 
capability required in the next decade.

    45. Senator Blumenthal. Lieutenant General Davis, Vice Admiral 
Grosklags and Rear Admiral Miller, what is the status of DOD's review 
and comparison of the F-35 and the F-18 as directed by Secretary Mattis 
in January?
    Lieutenant General Davis. The USMC and Navy contributed to the 
requested review by Secretary Mattis, and were active participants 
throughout. The comparison was based primarily in capabilities and 
cost, and was conducted at the classified level. The information was 
compiled and delivered to the Office of the Secretary of Defense as 
requested.
    Vice Admiral Grosklags. The Office of the Secretary of Defense Cost 
Assessment Program Evaluation (OSD CAPE) completed the F-35/F-18 review 
on March 1, 2017 in cooperation with the Department of the Navy, 
Acquisition, Technology & Logistics, and the F-35 Joint Program Office. 
The Secretary of Defense delivered a copy of the report to the National 
Security Advisor during the week of 13 March.
    Rear Admiral Miller. The Office of the Secretary of Defense Cost 
Assessment Program Evaluation (OSD CAPE) completed the F-35/F-18 review 
on March 1, 2017 in cooperation with the Department of the Navy, 
Acquisition, Technology & Logistics, and the F-35 Joint Program Office. 
The Secretary of Defense delivered a copy of the report to the National 
Security Advisor during the week of 13 March.

    46. Senator Blumenthal. Lieutenant General Davis, Vice Admiral 
Grosklags and Rear Admiral Miller, the F-35C projected ramp rate has 
been reduced in this year's budget request. I am concerned that if we 
delay procurement, it will negatively impact cost and affordability. 
Are you concerned about the adjustments made to the planned procurement 
pace for the F-35C?
    Lieutenant General Davis. Delays in procurement of F-35C are a 
major concern for the Marine Corps. Our recapitalization and transition 
plan allows Marine Aviation to support our global commitments--a delay 
in procurement puts our transition at risk. We do not foresee a delay 
in our transition to our first F-35C squadron, but reduced procurement 
will certainly delay transition with our remaining three F-35C 
squadrons. Any delay in the F-35C transition will burden our legacy 
fleet with additional deployments in aircraft that are rapidly 
approaching the end of their service lives.
    Vice Admiral Grosklags. The Navy continues to focus on cost and 
affordability due to procurement rate changes. However, our primary 
concern remains the F-35C squadron standup and transition plan. 
Maintaining this plan is critical towards reducing warfighter risk in 
the coming decade through modernization of our fleet and delivering 
warfighter capability that 5th generation aircraft bring.
    Rear Admiral Miller. As one of the highest priorities for the 
Department of Defense, the Department of the Navy is committed to 
increasing the affordability of the F-35 program. Current F-35C 
procurement plans focus on cost and affordability.
    The Navy is committed to ensuring the F-35C delivery and transition 
plan remains on schedule. Maintaining this plan as part of the overall 
Strike Fighter Inventory Management strategy is critical towards 
reducing warfighter risk.
    The F-35C plays a critical role in the Air Wing of the future. A 
mix of 4th and 5th generation Strike Fighters will provide the 
complementary capacity and capability from our flight decks that is 
needed to meet the threat through the 2030s. Stable funding and timely 
fleet integration is critical to meet this requirement.

    47. Senator Blumenthal. Lieutenant General Davis, Vice Admiral 
Grosklags and Rear Admiral Miller, in the Marine Corps' and Navy's 
unfunded request lists, the services request an additional 10 F-35s--4 
F-35Bs and 6 F-35Cs. Can you explain why it is so critical to ensure 
these additional aircraft are procured?
    Lieutenant General Davis. The F-35B replaces legacy F/A-18, AV-8B, 
and EA-6B aircraft - modernizing the entire USMC TACAIR fleet. Our 
current transition to F-35 is already behind timeline as our legacy 
fleet aircraft rapidly approach the end of their service lives. While 
we continue to operate the battle-proven aircraft in our legacy fleet 
by executing a robust airframe life-extension program, we are unable to 
increase the reliability of these aircraft. The real key to attaining 
future readiness is through recapitalization - transitioning to new 
aircraft as fast as possible to increase our fleet readiness numbers. 
The addition of these F-35 aircraft in fiscal year 2018 maximizes 
capacity on Lockheed Martin's production line, which is capable of 
producing 24 aircraft per year.
    Vice Admiral Grosklags. The additional six F-35Cs in fiscal year 
2018's (FY18) Unfunded Priority List support training and deployment 
requirements for the second F-35C squadron and contribute to the third 
squadron transition (beginning in fiscal year 2021). Without these six 
aircraft, there is substantial risk to the second squadron's deployment 
and third squadron's transition. Complementing the capability of the F-
35C with the capacity and capability of the F/A-18 is critical to pace 
the nation's threats over the next decade.
    Rear Admiral Miller. The additional six F-35Cs in fiscal year 
2018's (FY18) Unfunded Priority List support training and deployment 
requirements for the second F-35C squadron and contribute to the third 
squadron transition (beginning in fiscal year 2021). Without these six 
aircraft, there is substantial risk to the second squadron's deployment 
and third squadron's transition. Complementing the capability of the F-
35C with the capacity and capability of the F/A-18 is critical to pace 
the nation's threats over the next decade.

    48. Senator Blumenthal. Lieutenant General Davis, Vice Admiral 
Grosklags and Rear Admiral Miller, the Marine Corps has already 
declared initial operational capability (IOC) in July 2015 and forward 
based its first operational squadron of F-35Bs in Japan earlier this 
year. What does this fifth generation capability bring to our national 
security and the region?
    Lieutenant General Davis. VMFA-121 is forward-deployed with 10 F-
35Bs in Japan and will have their full complement of 16 aircraft by 
this summer. By the end of this year, they will fill both the 31st 
Marine Expeditionary Unit (MEU) requirement and the land-based 
requirements within PACOM. At the most basic level, 5th generation 
capabilities bring stealth and sensor fusion to the fight. In an 
operational setting, this means the aircraft has unfettered access to 
high threat environments and can provide real time targeting through 
overcast weather. Our legacy systems cannot target through visible 
obscuration such as an overcast cloud layer. Even a single well-placed 
medium threat surface-to-air capability would create a significant 
hurdle for a legacy system--where a 5th gen aircraft would probably 
categorize a medium threat system as a minor nuisance on a strike or 
close air support mission. Today we use a combination of strategic 
targeting and electronic warfare (EW) assets to overcome the 
aforementioned threats, but an F-35 can operate independently and 
unsupported by dedicated EW assets. In addition to being able to 
operate autonomously in these environments, the F-35 provides a 
significant enhancement to our high-end strategic fight. The jet is not 
only an extremely effective platform for penetrating complex Integrated 
Air Defenses, it has also proven to be a significant contributor to the 
overall situation awareness of the larger combat force by providing 
threat and targeting data to supporting assets over multiple waveforms. 
Additionally, the proliferation of long-range, precision, conventional 
threats such as advanced SAMs, cruise missiles, and armed UAVs, 
contests the use of traditional bases and methods of operations. With 
the Short Take-Off and Vertical Landing (STOVL) variant of the 
aircraft, the Marine Air Ground Task Force (MAGTF) aviation combat 
element has the ability to conduct distributed aviation operations 
(DAO) in support of land and/or naval campaigns. DAO is a task 
organized MAGTF operation, employing aircraft in a distributed force 
posture, independent of specialized fixed infrastructure. The F-35B 
will be a key part of DAO due to its STOVL capabilities because it 
expands basing options by reducing runway requirements. The F-35B can 
launch from a sea base or land base to conduct multiple missions then 
re-arm and re-fuel at mobile forward arming and refueling points (M-
FARPS), which may be located closer to or within the operating area. 
The Marine Corps' F-35B brings strategic agility, operational 
flexibility and tactical supremacy to the MAGTF and represents the 
centerpiece of Marine aviation transformation. This aircraft is 
incredibly capable in its 5th generation day one IOC configuration. The 
F-35B unites 5th generation stealth, precision weapons and multi-
spectral sensors with the expeditionary responsiveness of a STOVL 
fighter-attack platform.
    Vice Admiral Grosklags. VMFA-121 is forward-deployed with 10 F-35Bs 
in Japan and will have their full complement of 16 aircraft by this 
summer. By the end of this year, they will fill both the 31st Marine 
Expeditionary Unit (MEU) requirement and the land-based requirements 
within PACOM.
    At the most basic level, 5th generation capabilities bring stealth 
and sensor fusion to the fight. In an operational setting this means 
the aircraft has unfettered access to high threat environments and can 
provide real time targeting through overcast weather. Our legacy 
systems cannot target through visible obscuration such as an overcast 
cloud layer. Even a single well-placed medium threat surface-to-air 
capability would create a significant hurdle for a legacy system--where 
a 5th gen aircraft would probably categorize a medium threat system as 
a minor nuisance on a strike or close air support mission. Today we use 
a combination of strategic targeting and electronic warfare (EW) assets 
to overcome the aforementioned threats, but an F-35 can operate 
independently and unsupported by dedicated EW assets.
    In addition to being able to operate autonomously in these 
environments, the F-35 provides a significant enhancement to our high-
end strategic fight. The jet is not only an extremely effective 
platform for penetrating complex Integrated Air Defenses, it has also 
proven to be a significant contributor to the overall situation 
awareness of the larger combat force by providing threat and targeting 
data to supporting assets over multiple waveforms.
    Additionally, the proliferation of long-range, precision, 
conventional threats such as advanced SAMs, cruise missiles, and armed 
UAVs, contests the use of traditional bases and methods of operations. 
With the Short Take-Off and Vertical Landing (STOVL) variant of the 
aircraft, the Marine Air Ground Task Force (MAGTF) aviation combat 
element has the ability to conduct distributed aviation operations 
(DAO) in support of land and/or naval campaigns. DAO is a task 
organized MAGTF operation, employing aircraft in a distributed force 
posture, independent of specialized fixed infrastructure. The F-35B 
will be a key part of DAO due to its STOVL capabilities because it 
expands basing options by reducing runway requirements. The F-35B can 
launch from a sea base or land base to conduct multiple missions then 
re-arm and re-fuel at mobile forward arming and refueling points (M-
FARPS), which may be located closer to or within the operating area.
    The Marine Corps' F-35B brings strategic agility, operational 
flexibility and tactical supremacy to the MAGTF and represents the 
centerpiece of Marine aviation transformation. This aircraft is 
incredibly capable in its 5th generation day one IOC configuration. The 
F-35B unites 5th generation stealth, precision weapons and multi-
spectral sensors with the expeditionary responsiveness of a STOVL 
fighter-attack platform.
    Rear Admiral Miller. VMFA-121 is forward-deployed with 10 F-35Bs in 
Japan and will have their full complement of 16 aircraft by this 
summer. By the end of this year, they will fill both the 31st Marine 
Expeditionary Unit (MEU) requirement and the land-based requirements 
within PACOM. At the most basic level, 5th generation capabilities 
bring stealth and sensor fusion to the fight. In an operational 
setting, this means the aircraft has unfettered access to high threat 
environments and can provide real time targeting through overcast 
weather. Our legacy systems cannot target through visible obscuration 
such as an overcast cloud layer. Even a single well-placed medium 
threat surface-to-air capability would create a significant hurdle for 
a legacy system--where a 5th gen aircraft would probably categorize a 
medium threat system as a minor nuisance on a strike or close air 
support mission. Today we use a combination of strategic targeting and 
electronic warfare (EW) assets to overcome the aforementioned threats, 
but an F-35 can operate independently and unsupported by dedicated EW 
assets.
    In addition to being able to operate autonomously in these 
environments, the F-35 provides a significant enhancement to our high-
end strategic fight. The jet is not only an extremely effective 
platform for penetrating complex Integrated Air Defenses, it has also 
proven to be a significant contributor to the overall situation 
awareness of the larger combat force by providing threat and targeting 
data to supporting assets over multiple waveforms.
    Additionally, the proliferation of long-range, precision, 
conventional threats such as advanced SAMs, cruise missiles, and armed 
UAVs, contests the use of traditional bases and methods of operations. 
With the Short Take-Off and Vertical Landing (STOVL) variant of the 
aircraft, the Marine Air Ground Task Force (MAGTF) aviation combat 
element has the ability to conduct distributed aviation operations 
(DAO) in support of land and/or naval campaigns. DAO is a task 
organized MAGTF operation, employing aircraft in a distributed force 
posture, independent of specialized fixed infrastructure. The F-35B 
will be a key part of DAO due to its STOVL capabilities because it 
expands basing options by reducing runway requirements. The F-35B can 
launch from a sea base or land base to conduct multiple missions then 
re-arm and re-fuel at mobile forward arming and refueling points (M-
FARPS), which may be located closer to or within the operating area.
    The Marine Corps' F-35B brings strategic agility, operational 
flexibility and tactical supremacy to the MAGTF and represents the 
centerpiece of Marine aviation transformation. This aircraft is 
incredibly capable in its 5th generation day one IOC configuration. The 
F-35B unites 5th generation stealth, precision weapons and multi-
spectral sensors with the expeditionary responsiveness of a STOVL 
fighter-attack platform.
                                 mh-60r
    49. Senator Blumenthal. Rear Admiral Miller, the production line 
for the MH-60R helicopter is coming to an end in 2018. As the Navy's 
2016 Force Structure Assessment (FSA) seeks to build a 355-ship Navy, 
is the Navy reexamining its helicopter force structure? Do you see a 
need for additional helicopters beyond the current requirement? If so, 
how many?
    Rear Admiral Miller. The Department is committed to building the 
capability and capacity in our Fleet, and Seahawk helicopters play a 
vital role in accomplishing these goals. The Navy operates nearly 600 
MH-60 helicopters around the world, and intends to modernize and 
sustain MH-60 inventory via planned Service Life Extension Program and/
or Mid-Life Upgrade initiatives. These programs will ensure the 
capabilities of these aircraft remain relevant well into the future.
    Although the current fleet of Seahawks is fulfilling our needs, we 
need to consider airframe delivery schedules relative to future ship 
delivery timelines before committing to purchasing additional Seahawks. 
The decision to procure or recapitalize the current MH-60 in the face 
of increasing threats will be considered alongside all of our 
warfighting priorities.



  DEPARTMENT OF DEFENSE AUTHORIZATION REQUEST FOR APPROPRIATIONS FOR 
         FISCAL YEAR 2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        WEDNESDAY, JUNE 21, 2017

                               U.S. Senate,
                          Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                       NAVY SHIPBUILDING PROGRAMS

    The subcommittee met, pursuant to notice, at 9:03 a.m. in 
Room SR-232A, Russell Senate Office Building, Senator Roger F. 
Wicker (chairman of the subcommittee) presiding.
    Committee Members Present: Senators Wicker, Cotton, Rounds, 
Tillis, Sullivan, Hirono, Shaheen, Blumenthal, Kaine, and King.

          OPENING STATEMENT OF SENATOR ROGER F. WICKER

    Senator Wicker. The Senate Armed Services Subcommittee on 
Seapower convenes this morning to examine Navy shipbuilding 
programs.
    We welcome our three distinguished witnesses: Ms. Allison 
F. Stiller, performing the duties of Assistant Secretary of the 
Navy for Research, Development, and Acquisition; Vice Admiral 
William K. Lescher, Deputy Chief of Naval Operations for 
Integration of Capabilities and Resources--and that is a 
mouthful--and Lieutenant General Robert S. Walsh, Deputy 
Commandant for Combat Development and Integration.
    Our subcommittee is grateful to all of you for your decades 
of service.
    We are at a critical juncture for shipbuilding. We 
currently have 276 ships in the fleet. In 2016, after 
deliberation and consideration, the Navy increased its 
requirement to 355 ships for the battle fleet, a figure that is 
supported by a number of congressionally mandated future fleet 
architecture studies. Admiral Richardson, the Chief of Naval 
Operations, believes we need to reach the 355-ship objective in 
the 2020s. Given the timelines for new ship construction, such 
as the 5 years it takes to build a new submarine, the Nation 
must commit to building a bigger Navy now.
    While I support the budget request focused on improving 
readiness, I agree with the Chief of Naval Operations (CNO) 
that we must build more ships at the same time. The Navy's 
fiscal year 2018 budget request includes funding for eight new 
construction ships, which is one less than the number procured 
in 2017. Following the budget submission, the administration 
announced a request for a second littoral combat ship, but 
Congress has not received the formal documentation.
    While the budget request is a good start, the shipbuilding 
industrial base can support higher levels of shipbuilding 
today. In fact, the CNO's white paper, ``The Future Navy,'' 
states that the industrial base could build 29 additional ships 
over the next 7 years, over and above those that are already 
projected. Given sufficient and stable funding, industry 
leaders told the subcommittee that their shipyards are up to 
the task.
    In addition to new ship construction, some naval analysts 
have proposed increasing the size of the fleet through 
reactivating ships, extending service life, and other 
alternatives. The subcommittee will explore all options.
    The Nation has supported a major fleet expansion before. 
During the Reagan era buildup, the Navy added 91 ships to the 
fleet in 8 years. This subcommittee wants to help the Navy 
build a firm foundation in this year's authorization bill to 
support a substantial buildup in the near future.
    There is no time to waste. Our real and potential 
adversaries are out-competing the United States in this area. 
Our maritime edge is eroding. If we fail, I believe General 
Dunford's assessment will come to pass that within 5 years, we 
will lose our ability to project power, the basis for how we 
defend the Homeland, advance U.S. interests, and meet our 
alliance commitments. These are the words of the Chairman of 
the Joint Chiefs of Staff.
    I would like to hear our witnesses' views on this critical 
juncture and four other key issues.
    First, industrial base vitality. The Navy must comply with 
the law and submit its 30-year shipbuilding plan to Congress. 
The strength of our shipbuilding industrial base will determine 
the viability of the plan. Reaching the Navy's 355-ship 
objective is not possible without the unique skills, 
capabilities, and capacities inherent found in the new 
construction shipyards, repair facilities, and among our 
dedicated suppliers. The witnesses should describe the budget 
request's effects on the shipbuilding industrial base. The 
subcommittee would also like to hear about ways in which 
Congress can help support the industrial base.
    Second, best use of taxpayers' resources. The subcommittee 
will conduct rigorous oversight of shipbuilding programs to 
ensure the Navy is making the best use of taxpayer dollars. 
Congress expects the Navy shipbuilding programs to deliver 
promised capability on time and on budget. Schedule delays and 
cost growth put additional strain on the legacy platforms which 
these new ships will replace. Specifically, I am interested in 
understanding why the cost of the USS Enterprise, CVN-80, is 
more than $1 billion greater than the previous aircraft 
carrier, USS John F. Kennedy.
    I also remain concerned that the key warfighting 
capabilities of the LCS [Littoral Combat Ship], including mine 
countermeasures and antisubmarine warfare, have fallen years 
behind schedule and remain unproven. The witnesses should 
address the Navy's plan to pursue full and open competition in 
selecting a new frigate with greater lethality and 
survivability.
    Third, building he future force. This subcommittee also has 
the duty to shape the future of our Navy. Each of our surface 
combatant ships, cruisers, destroyers, and littoral combat 
ships will begin retiring within the next 20 years. Now is the 
time to determine the requirements for our future surface 
combatants, as well as the munitions they will carry. Our main 
concern is that the Columbia-class submarine program, the 
second largest DOD [Department of Defense] acquisition program, 
may stress our already constrained shipbuilding budget. This is 
an important program, but we do need to look at the strains it 
places on the budget.
    Fourthly, amphibious ships. The Navy and Marine Corps 
continue to serve as the linchpin of American force projection 
around the globe. I am interested in ways we can address the 
demand from our combatant commanders for amphibious ships. The 
combatant commanders need more than 50 amphibious ships on a 
day-to-day operational basis, but the current inventory 
includes only 31 amphibious ships. The witnesses should discuss 
the Navy's ability to accelerate procurement of the next 
amphibious assault ship known as the LX(R).
    So thank you to our witnesses and thank you to interested 
Americans who are attending.
    I now recognize my good friend and ranking member, Senator 
Hirono.

               STATEMENT OF SENATOR MAZIE HIRONO

    Senator Hirono. Thank you, Mr. Chairman.
    I join the chairman in welcoming our witnesses this 
morning.
    Over the weekend, we all learned about the tragedy on the 
USS Fitzgerald. Our thoughts are with the USS Fitzgerald crew 
and the families of the seven sailors who lost their lives in 
service to our country. These seven young men represented 
diverse backgrounds but were united in their service to our 
country. As we honor their lives, we must also move forward to 
support their fellow sailors and marines.
    Over the past weeks, we have held a number of hearings on 
the future of a number of Navy and Marine Corps programs. 
Today's witnesses will also tell us about the balancing act our 
military faces. On one hand, they need to support ongoing 
operations and sustain readiness. On the other, they need to 
modernize and keep the technological advantage that is critical 
to military success, all of this under the cloud of limits 
imposed by the Budget Control Act.
    While that law necessarily raised the debt ceiling, it also 
imposed draconian caps on defense and non-defense programs and 
included sequestration. Sequestration, or automatic, across-
the-board cuts, was included as a worst case scenario to 
motivate Congress. The mindless cuts to defense and non-defense 
programs brought by sequestration were meant to be so bad that 
Congress would move forward or would be forced to find an 
alternative way forward. We all learned a lesson in 2013 when 
sequester was allowed to take effect. In fact, some in our 
industrial base are still working through the aftermath of that 
fiasco.
    Yet, here we are 6 years later living under the caps and in 
fear of sequestration and what it would do. Funding for 
critical programs, both defense and non-defense, is not an 
either/or proposition. We cannot enact the priorities and 
programs discussed today until we lift the caps and eliminate 
the fear of sequester.
    I look forward to working with the chairman and other 
committee members to balance the needs of our military with 
critical domestic programs. It has been long enough and the 
time for leadership is certainly now.
    With that in mind, a continuing focus of this subcommittee 
has been to see that we improve our acquisition stewardship and 
thereby ensure that we are getting good value for every 
shipbuilding dollar that we spend.
    The big news this year is the increase in force structure 
that was recommended by the Chief of Naval Operations' most 
recent force structure assessment. The Navy has not submitted a 
plan--and the chairman has mentioned this also--for ramping to 
meet this new 355-ship goal, but we hope to gain some insight 
into what reasonable steps we could take now to help the Navy 
achieve this increase.
    Eventually we will need to increase attack submarines and 
major surface combatants to much higher force levels. The Navy 
was supposed to implement an engineering change proposal for 
the DDG-51 destroyer program to include the air and missile 
defense radar, or Area and Missile Defense Radar (AMDR), on one 
of the ships in the fiscal year 2016 shipbuilding program. To 
date, the Navy has not signed a contract for that upgrade. We 
need to assess why this has been delayed and whether the Navy 
and contractors are making sufficient progress on the AMDR 
program to award a new multiyear procurement program in fiscal 
year 2018. I know that the Navy conducted what by all accounts 
was successful testing of the AMDR system at the Pacific 
Missile Range Facility (PMRF), located on the Island of Kauai. 
I hope we can hear from Secretary Stiller on this important 
program as well.
    I look forward to hearing your testimony this morning.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Hirono.
    Who would like to go first on the testimony? Ms. Stiller?
    Ms. Stiller. Yes, sir. I am going to give an opening 
statement for the three of us.
    Senator Wicker. Excellent.

   STATEMENT OF ALLISON F. STILLER, PERFORMING THE DUTIES OF 
ASSISTANT SECRETARY OF THE NAVY FOR RESEARCH, DEVELOPMENT, AND 
 ACQUISITION; ACCOMPANIED BY: VICE ADMIRAL WILLIAM K. LESCHER, 
   USN, DEPUTY CHIEF OF NAVAL OPERATIONS FOR INTEGRATION OF 
 CAPABILITIES AND RESOURCES, N8; LIEUTENANT GENERAL ROBERT S. 
   WALSH, USMC, DEPUTY COMMANDANT FOR COMBAT DEVELOPMENT AND 
     INTEGRATION; COMMANDING GENERAL, MARINE CORPS COMBAT 
DEVELOPMENT COMMAND; AND COMMANDER, UNITED STATES MARINE FORCES 
                       STRATEGIC COMMAND

    Ms. Stiller. Chairman Wicker, Ranking Member Hirono, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to address the 
Department of Navy's shipbuilding programs.
    Each day we are mindful of our men and women in uniform 
serving this great Nation, and we especially hold the USS 
Fitzgerald's sailors and their families and friends in our 
thoughts and prayers.
    I am joined this morning by Lieutenant General Bob Walsh, 
Deputy Commandant for Combat Development and Integration, and 
Vice Admiral Bill Lescher, Deputy Chief of Naval Operations for 
Integration of Capabilities and Resources. I request that our 
written statement be included in the record.
    Senator Wicker. Without objection.
    Ms. Stiller. Thank you.
    On behalf of our Navy and Marine Corps, we want to thank 
this subcommittee for your strong support in the fiscal year 
2017 defense authorization and appropriations bills. Not only 
has Congress supported our request, but the committee increased 
funding for many of our critical programs. We are committed to 
making good on that investment and to do so in the most 
fiscally responsible manner possible to provide the ships, 
aircraft, vehicles, and weapons that are needed for our men and 
women in uniform to be successful.
    We continue to leverage every tool available to drive down 
costs. We have tightened requirements, maximized competition, 
capitalized on multiyear and block buy procurements, explored 
cross-program efficiencies, and attacked our cost of doing 
business so that more of our resources can be dedicated to the 
warfighting capability.
    Global activities over the last year have made it clear 
that security challenges are intensifying at an increasingly 
rapid pace. To remain competitive, it is imperative that we 
continuously adapt to the emerging security environment and do 
so with a sense of urgency. This requires us to work closely 
with Congress to return budget stability and predictability to 
the Department, which necessitates increasing defense caps 
under the Budget Control Act.
    Our 2018 President's budget submission is governed by 
SecDef's priorities to improve warfighting readiness by 
addressing pressing programmatic shortfalls that have accrued 
from 15 years of wartime operational tempo. The budget 
maintains the operational effectiveness of our current force 
while also building a bridge to growing the future force 
starting in 2019.
    Over the past year, 11 ships were delivered and an 
additional 12 ships were christened. One of the ships delivered 
this year was DDG-1000 USS Zumwalt, a truly transformational 
platform. Just last month, CVN-78, Gerald R. Ford, our newest 
aircraft carrier, was delivered to our Navy. This past Friday, 
we awarded the detail design and construction contract for LHA-
8 Bougainville.
    Today there are 61 ships under contract and 44 are in 
construction. These include aircraft carriers, submarines, 
large surface combatants, small surface combatants, amphibious 
ships, and auxiliary ships. The shipyards constructing these 
vessels have a vast infrastructure of suppliers supporting 
them, and we are mindful of this industrial base as we build 
our budgets and recapitalize our force.
    I would like to briefly discuss a couple of items posed by 
our budget request.
    First, as mentioned, we have requested multiyear 
procurement authority for the fiscal year 2018 to fiscal year 
2022 DDG-51 Flight III buy. We have a handshake agreement with 
Huntington Ingalls Industries to introduce the Flight III 
capability on their fiscal year 2017 ship, the last of this 
current multiyear. We are also requesting multiyear procurement 
authority for the fiscal year 2019 to fiscal year 2023 
Virginia-class, which will introduce the Virginia payload 
module capability. In both cases, the multiyear criteria laid 
out by Congress is met.
    Second, we have made a couple of adjustments to our 5-year 
shipbuilding plan. We added a Virginia-class submarine in 
fiscal year 2021 and we deferred the start of the frigate 
program from fiscal year 2019 to fiscal year 2020 while we 
revisit the ship's requirements. Our small surface combatant 
requirement remains at 52 ships and we desire to transition to 
the frigate as soon as possible.
    The administration's supports funding a second LCS in 
fiscal year 2018 and an amendment to the President's budget is 
expected to be delivered to the Congress very soon.
    We note that our shipbuilding plan beyond fiscal year 2018 
may be adjusted in our Presidential Budget 2019 submission as a 
result of the defense strategic review that we will complete 
later this summer, consistent with SecDef's fiscal year 2019 
priority to grow a larger and more lethal force.
    In summary, the Navy's 2018 budget is focused on improving 
the wholeness of our current forces. We greatly appreciate this 
subcommittee's strong and consistent support of your sailors 
and marines.
    Mr. Chairman, thank you for the opportunity to appear 
before you today, and we look forward to answering your 
questions.
    [The combined prepared statement of Ms. Stiller, General 
Walsh, and Admiral Lescher follows:]

 Combined Prepared Statement by Allison F. Stiller, Lieutenant General 
          Robert S. Walsh, and Vice Admiral William K. Lescher
    Chairman Wicker, Ranking Member Hirono, and distinguished members 
of the subcommittee, thank you for the opportunity to appear before you 
today to address the Department of Navy's shipbuilding programs.
    The global activities over the last year have made it clear that 
the security challenges from major power competition are intensifying 
at an increasingly rapid pace. The Navy and Marine Corps continue to 
support the Joint Force in defending the Homeland and responding to the 
security challenges of Russia, China, North Korea, Iran and global 
counter-terrorism. In the Indo-Asia-Pacific, our carrier strike groups, 
amphibious ready groups, and destroyers provide presence, strengthen 
partnerships, patrol the South China Sea to maintain interoperability, 
and deter adversaries. In the Middle East, our carrier strike groups 
and strike fighter aircraft continue operations against the Islamic 
State of Iraq and Syria. In Afghanistan, the Marine Corps deployed to 
Helmand Province to train, advise and assist the Afghan National Army 
and Police. This past April, two destroyers operating in the 
Mediterranean Sea enabled the United States to take swift action 
against chemical attacks in Syria with Tomahawk cruise missile strikes.
    Over 2016, the Marine Corps executed over 210 operations, 20 
amphibious operations, 160 Theater Security Cooperation events, and 
participated in 75 exercises, with units deployed to every Geographic 
Combatant Command. In response to a request for the U.S. Agency for 
International Development to assist with U.S. Government disaster 
relief efforts after Hurricane Matthew made landfall in October 2016, a 
Special Purpose Marine Air Ground Task Force (MAGTF) self-deployed 
within 48 hours to provide much needed aid to the people of Haiti, 
followed by the 24th Marine Expeditionary Unit (MEU) shortly 
thereafter. Our sailors and marines deployed around the world continue 
to perform missions and operate forward--ready to respond to any 
challenge and being where it matters when it matters.
    To remain competitive, it is imperative that we continuously adapt 
to the emerging security environment--and do so with a sense of 
urgency. This requires working closely with Congress to return budget 
stability and predictability to the Department, and address defense 
spending in a fiscally responsible manner. Together, we can ensure our 
military's capability, capacity and readiness can continue to deliver 
superior naval power for the United States around the world, both today 
and tomorrow.
            the fiscal year 2018 president's budget request
    The Fiscal Year (FY) 2018 President's Budget submission is governed 
by the defense priorities of the Secretary of Defense to improve 
warfighting readiness and program balance by addressing pressing 
programmatic shortfalls that have accrued from 15 years of wartime 
operational tempo, fiscal constraints and budget uncertainty. Improving 
readiness directly impacts the operational capacity of our current 
fleet by ensuring that our ships and aircraft are ready to deploy when 
needed. If a ship is de-certified due to lack of maintenance, it is one 
less asset that the Navy and Marine Corps can deploy. The Department 
thanks the subcommittee for your efforts in supporting the 
Administration's request for additional funding for our critical 
readiness shortfalls and increases in force structure procurement in 
the fiscal year 2017 Consolidated Appropriations Act.
    At the same time, investing in the modernization of our current 
platforms and weapons is necessary to restore the fleet to full health 
and ensure they have the advanced capabilities needed to address the 
dynamic current and future threats. The fiscal year 2018 request 
continues key investments in advanced technologies and modernization of 
our current Seapower and Projection forces.
    The Navy prioritized addressing the significant readiness debt and 
improving the wholeness of our current fleet over our ability to grow 
force structure in this budget. The fiscal year 2018 President's budget 
supports procurement of nine ships in fiscal year 2018: two SSN 774 
Virginia-class attack submarines; two DDG 51 Arleigh Burke-class 
destroyers; two Littoral Combat Ships (LCS); one Ford-class aircraft 
carrier (CVN); one John Lewis-class fleet oiler (T-AO); and one Towing, 
Salvage and Rescue ship (T-ATS). The Secretary of Defense has 
prioritized growing capacity and lethality, informed by the National 
Defense Strategy, for the fiscal year 2019 President's Budget. The 
wholeness that the fiscal year 2018 President's Budget delivers will 
accelerate key warfighting capabilities and maintain the operational 
effectiveness of our current force, while also building a bridge to 
growing the future force.
    The Navy's 2016 Force Structure Assessment (FSA) was developed in 
an effort to determine the right balance of forces--ships currently 
under construction and future procurement--needed to address the 
evolving and increasingly complex threats naval forces are expected to 
counter. The FSA detailed a long-term requirement for 355 ships in the 
battle force, assuming the Navy continues to replace the ships we have 
today with ships of similar capability and employs them using similar 
concepts of operations. The fiscal year 2019 President's Budget will be 
informed by the pending National Security Strategy and the National 
Military Strategy and chart a course to building the larger, more 
capable battle force the nation needs.
    In addition, the Department continues to analytically assess the 
Future Fleet Architecture studies directed by the fiscal year 2016 
National Defense Authorization Act in order to incorporate the most 
promising elements in our concept development, research and 
development, and rapid fielding efforts. This assessment will innovate 
ways to deliver the equivalent naval power of a larger force.
                                summary
    The Department of the Navy's fiscal year 2018 budget request 
strategically delivers the best balance to responsibly improve the 
wholeness of our current forces. In addition, the Department is 
aggressively pursuing efforts to accelerate acquisition processes and 
schedules and further drive affordability into our programs, in order 
to deliver capability to our warfighters faster and be as effective as 
possible within our resources. We greatly appreciate this 
subcommittee's strong and consistent support for your sailors and 
marines.
    Programmatic details regarding Navy and Marine Corps capabilities 
are summarized in the following section.

        U.S. NAVY AND MARINE CORPS SEAPOWER CAPABILITIES

                           aircraft carriers
    The aircraft carrier is the centerpiece of the Navy's Carrier 
Strike Groups and central to Navy core capabilities of sea control, 
maritime security, and humanitarian assistance and disaster relief. 
Nimitz and Ford-class carriers will be the premier forward deployed 
asset of choice for crisis response and early decisive striking power 
in major combat operations for the next half-century. The Department 
has established a steady state Ford-class procurement plan designed to 
deliver each new ship in close alignment with the Nimitz-class ship it 
replaces. The USS Gerald R. Ford (CVN 78), the first new design 
aircraft carrier in 40 years delivered this past May, returning force 
structure to 11 aircraft carriers and providing an unprecedented 
capability to our nation for the next half century.
    By capitalizing on lessons learned from the lead ship, CVN 79 and 
80 have achieved significant cost reductions. The USS John F. Kennedy 
(CVN 79) is 28 percent complete with launch planned in 2020 and 
delivery in the fall of 2024. The USS Enterprise (CVN 80) has begun 
construction planning and long lead time material procurement. 
Construction is scheduled to begin in spring of 2018.
    The Nimitz-class Refueling Complex Overhaul (RCOH) is key to both 
the maintenance and modernization of each carrier in support of the 
second half of its service life. This spring, USS Abraham Lincoln (CVN 
72) will return to the Fleet for another 23 years after completing her 
mid-life recapitalization depot availability to accomplish refueling of 
the ship's reactors, modernization, and repair of ship systems and 
infrastructure. This fall, USS George Washington (CVN 73) will begin 
her mid-life recapitalization.
                               submarines
    Ballistic Missile Submarines, coupled with the Trident II D-5 
Strategic Weapon System, represent the most survivable leg of the 
Nation's strategic arsenal and provide the Nation's most assured 
nuclear response capability. The current SSBN and SSGNs' life cycles 
cannot be extended, and the Columbia-class Program is on track to start 
construction in fiscal year 2021, deliver to pace retirement of our 
current ballistic missile submarines, and deploy for first patrol in 
fiscal year 2031. The Navy released the Detail Design Request for 
Proposal for Columbia and plans to award the design contract in 
calendar year 2017. The fiscal year 2018 President's Budget supports 
the funding required to achieve a target of 83 percent design 
completion at construction start in fiscal year 2021. This budget 
request also funds Continuous Production of Missile Tubes which will 
improve manufacturing efficiencies and vendor learning, maintain 
critical production skills, and reduce costs by leveraging high-volume 
procurements.
    In addition to the Department of the Navy's budget request, the 
continued support of Congress for Naval Reactors' Department of Energy 
funding is vital to the Navy mission and ensuring the safe, reliable, 
and enduring operations of the nuclear-powered fleet. The President's 
fiscal year 2018 budget fully funds Naval Reactors' request for the 
Columbia-class SSBN. Recapitalizing this capability is critical to the 
Navy's readiness, specifically by ensuring adherence to the tight 
refueling and defueling schedule of nuclear-powered aircraft carriers 
and submarines.
    The Virginia-class submarine program continues to deliver 
submarines that are operationally ready to deploy within budget. The 
Block IV contract for 10 ships continues the co-production of the 
Virginia-class submarines through fiscal year 2018. The Navy intends to 
build on these savings and capitalize on increased efficiency and 
decreased costs with a Virginia-class Block V Multiyear Procurement 
(MYP) contract for 10 boats, planned for fiscal year 2019. The Block V 
contract will bring to bear two new capabilities to the fleet with the 
introduction of the Virginia Payload Module (VPM) and Acoustic 
Superiority. The Navy is investing in VPM to mitigate the 60 percent 
reduction in undersea strike capacity when the SSGN boats retire in 
fiscal year 2026-2028.
    In 2014, the Navy led a comprehensive government-industry 
assessment of shipbuilder construction capabilities and capacities at 
General Dynamics Electric Boat (GDEB) and Huntington Ingalls 
Industries-Newport News Shipbuilding (HII-NNS) to formulate the 
Submarine Unified Build Strategy (SUBS) for concurrent Columbia and 
Virginia-class submarine production. This build strategy's guiding 
principles are: affordability; delivering Columbia on time and within 
budget; maintaining Virginia-class performance with a continuous 
reduction in costs; and maintaining two shipbuilders capable of 
delivering nuclear-powered submarines. In 2016, the Navy established 
the Integrated Enterprise Plan to further the SUBS effort and provide a 
framework for an integrated approach to support Columbia, Virginia, and 
CVN construction. This long term plan will guide the execution of these 
nuclear powered platforms to reduce cost and schedule risk.
                        large surface combatants
    The Arleigh Burke-class (DDG 51) program remains one of the Navy's 
most successful shipbuilding programs with 64 ships delivered to the 
Fleet. The fiscal year 2018 President's Budget request includes the 
fiscal year 2018-2022 MYP for ten destroyers, maximizing affordability 
and stabilizing the industrial base. All ships in this MYP will 
incorporate Integrated Air and Missile Defense and provide additional 
Ballistic Missile Defense (BMD) capacity known as Flight III, which 
incorporates the Air and Missile Defense Radar (AMDR). AMDR meets the 
growing ballistic missile threat by improving radar sensitivity and 
enabling longer range detection of increasingly complex threats. The 
program demonstrated design maturity through its successful completion 
of several stages of developmental testing and its recent achievement 
for entry into the Production and Deployment phase.
    This radar is planned for inclusion in fiscal year 2017 via an 
Engineering Change Proposal to the Flight IIA configuration. This much 
needed capability is essential for future sea-based BMD and is expected 
to deliver to the fleet in the early fiscal year 2020s.
    The DDG 1000 Zumwalt-class guided missile destroyer is an optimally 
crewed, multi-mission, surface combatant designed to provide long-
range, precision, naval surface fire support to Marines conducting 
littoral maneuver and subsequent operations ashore. The DDG 1000 
program accomplished several milestones in 2016 including the first 
phase of delivery, commissioning, and sailaway of USS Zumwalt to her 
homeport of San Diego. The ship has completed multiple at sea underway 
periods for follow on testing and has since commenced its Combat 
Systems Activation period in her homeport of San Diego. USS Zumwalt 
will deliver in the spring of 2018. The remaining two ships of the 
class, DDG 1001 and DDG 1002 are under construction and are 92 and 59 
percent complete, respectively.
                        small surface combatants
    The 2016 FSA revalidated the warfighting requirement for a total of 
52 small surface combatants. To date, nine LCS ships have delivered and 
17 are in various stages of construction. Both LCS shipyards have 
upgraded their facilities and have a qualified work force and industry 
team in place for full serial production; delivering ships well below 
the congressionally mandated cost cap. The Department continues to 
refine the requirements and acquisition strategy for the Frigate. To 
allow adequate time to mature the design and thoroughly evaluate design 
alternatives, the fiscal year 2018 President's Budget request defers 
the first year of Frigate procurement to fiscal year 2020 with the LCS 
program continuing in fiscal year 2018 and fiscal year 2019 to bridge 
to the Frigate. The Department plans to transition to Frigate in fiscal 
year 2020 and maximize competition in the shipbuilding industrial base.
    The LCS Mission Modules program continues the development of the 
Surface Warfare (SUW), Mine Countermeasures (MCM), and Anti-Submarine 
Warfare (ASW) capabilities and delivering individual mission systems 
incrementally as they become available. The LCS with an embarked SUW 
Mission Package (MP) provides a robust and flexible combat capability 
to rapidly detect, track, and prosecute small-boat swarm threats. The 
Surface-to-Surface Missile Module with Longbow Hellfire is currently in 
testing with Initial Operational Capability (IOC) planned for fiscal 
year 2018. Development and integration of the ASW MP Escort Mission 
Module (EMM) and Torpedo Defense Module are ongoing. The Department 
recently awarded an option to build the ASW EMM and is on track to 
fully integrate with LCS to support IOC with the ASW MP in fiscal year 
2019.
    The MCM MP provides the capability to detect, classify, identify, 
and neutralize mines throughout the water column, from the beach zone 
to the sea floor. Several of the MCM MP systems performed well during 
MCM MP TECHEVAL. IOC for Airborne Laser Mine Detection System and 
Airborne Mine Neutralization System was achieved in November 2016. 
These systems are in production and are being delivered to the fleet 
today. After cancelling the Remote Minehunting System program in fiscal 
year 2016 due to poor reliability during TECHEVAL and following the 
conclusion of the Independent Review Team recommendations, the 
Department designated the MCM Unmanned Surface Vehicle (USV) as the new 
tow platform for minehunting operations. The MCM USV is based on the 
USV already used in the Unmanned Influence Sweep System program and 
development began in March of 2017. IOC is planned for fiscal year 
2020.
                            amphibious ships
    Amphibious ships operate forward to support allies, rapidly and 
decisively respond to crises, deter potential adversaries, and provide 
the Nation's best means of projecting sustainable power ashore. They 
also provide an excellent means for providing humanitarian assistance 
and disaster relief. The 2016 FSA validated the warfighting requirement 
for 38 amphibious ships, driven by: maintaining persistent forward 
presence, which enables both engagement and crisis response; and 
delivering the assault echelons of two Marine Expeditionary Brigades 
(MEB) for joint forcible entry operations. The 38 ship requirement is 
comprised of 12 Amphibious Assault Ships (LHD/LHA) and a mixture of 26 
Amphibious Transport Dock (LPD), Dock Landing Ship (LSD), and 
Amphibious Ship Replacement LX(R) Ships. The amphibious force structure 
is projected to grow to a total of 34 ships starting in FY 2021.
    LX(R) is the replacement program for LSD 41 and LSD 49 classes. The 
LX(R) program focus during the remainder of this year will be on 
completing the contract design efforts. The LX(R) contract design is 
being performed by General Dynamics National Steel and Shipbuilding 
Company (GD-NASSCO) and HII, in support of the future Detail Design and 
Construction competitive acquisition. The lead LX(R) is planned to 
begin construction in fiscal year 2022.
    LHA 6 America-class ships are flexible, multi-mission platforms 
with capabilities that span the range of military operations, from 
forward deployed crisis response to forcible entry operations. These 
ships will provide the modern replacements for the LHA 1 Tarawa-class 
ships and the aging LHD 1 Wasp-class ships. USS America (LHA 6) will 
begin her first operational deployment with the 15th MEU in July 2017. 
USS Tripoli (LHA 7) construction is 70 percent complete and on schedule 
to deliver in 2018. LHA 8 will have a well deck to increase operational 
flexibility and a reduced island that increases flight deck space to 
enhance aviation capability. The Detail Design and Construction 
contract for LHA 8 was awarded last Friday and delivery is planned for 
fiscal year 2024.
    The San Antonio-class (LPD 17) provides the ability to embark, 
transport control, insert, sustain, and extract elements of a MAGTF and 
supporting forces by helicopters, tilt rotor aircraft, landing craft, 
and amphibious vehicles. Two ships are under construction, Portland 
(LPD 27) and Fort Lauderdale (LPD 28), and are planned to deliver in 
October 2017 and August 2021 respectively. LPD 28's design and 
construction features will leverage many of the ongoing LX(R) design 
innovations and cost reduction initiatives that are necessary for the 
program to achieve affordability goals while maintaining the high level 
capabilities of the LPD 17-class. Congress added a 13th ship (LPD 29) 
in fiscal year 2017 which will mitigate critical impacts to 
shipbuilding and combat systems industrial bases caused by the gap in 
ship construction between the start of construction for LPD 28 and the 
start of construction for LX(R).
           auxiliary ships, expeditionary, and other vessels
    Support vessels such as the Expeditionary Sea Base (T-ESB), 
Expeditionary Transfer Dock (T-ESD) and the Expeditionary Fast 
Transport (EPF) provide additional flexibility to the combatant 
commanders. The USNS Montford Point (T-ESD 1) and USNS John Glenn (T-
ESD 2) provide two core capabilities of vehicle and equipment transfer 
at-sea and interface with surface connectors to deliver vehicles and 
equipment ashore to complete arrival and assembly. The USNS Lewis B. 
Puller (T-ESB 3), the first Afloat Forward Staging Base variant of the 
T-ESD, was delivered in June 2015 and becomes operationally available 
this year. T-ESBs are flexible platforms capable of hosting multiple 
mission sets with airborne, surface, and subsurface assets. T-ESBs 4 
and 5 are under construction, with deliveries scheduled for March 2018 
and May 2019, respectively.
    The T-EPF provides a high-speed, shallow-draft alternative to 
moving personnel and materiel within and between the operating areas, 
and to supporting security cooperation and engagement missions. T-EPF 8 
was delivered in April 2017 and production continues on EPFs 9-11.
    The Combat Logistic Force consists of T-AOE fast support ships, T-
AKE auxiliary dry cargo ships, and T-AO fleet replenishment oilers. 
Combat Logistics Force ships fulfill the vital role of providing 
underway replenishment of fuel, food, repair parts, ammunition and 
equipment to forward deployed ships and embarked aircraft, to enable 
them to operate for extended periods of time at sea. The Kaiser-class 
(T-AO 187) fleet replenishment oilers will be replaced with the John 
Lewis-class fleet replenishment oilers, designated T-AO 205-class. The 
Detail Design and Construction contract was awarded in 2016 to GD-
NASSCO for production of the first six ships of the class.
    The Department has begun procurement of a combined Towing, Salvage, 
and Rescue (T-ATS) ship to replace the four T-ATF 166-class fleet tugs, 
which reach the end of their expected service lives starting in 2020, 
and the four T-ARS 50-class salvage ships, which reach the end of their 
expected service lives starting in 2025. The lead ship is planned for 
award in 2017 and the total ship quantity is planned to be eight ships.
    Also in 2016, the Navy and Coast Guard established an Integrated 
Program Office to rebuild the Nation's heavy icebreaking capability. 
The Navy is supporting the Coast Guard's efforts to responsibly and 
affordably recapitalize the heavy polar icebreaker fleet. The Coast 
Guard intends to leverage existing designs and mature technologies to 
mitigate schedule and cost risks using a strategy based on robust 
industry collaboration and competition. Based on this effort, the Coast 
Guard expects delivery of the first icebreaker as early as 2023.
                       surface ship modernization
    Modernization is a critical aspect of sustaining the current fleet 
with advanced capability. The Navy and industry are collaborating on 
innovative approaches to conducting Modernization of Cruisers and Dock 
Landing Ships. The fiscal year 2018 President's Budget includes funding 
for the modernization of six destroyers to sustain combat 
effectiveness, ensure mission relevancy and achieve the full expected 
service lives of the AEGIS Fleet. The request also continues to execute 
and fully funds $4 billion over the FYDP for ``2-4-6'' modernization of 
seven cruisers to ensure long-term capability and capacity for purpose-
built Air Defense Commander platforms. The remaining four CGs, which 
have BMD capability, will receive modernization to their hull, 
mechanical and electrical systems to support their operation through 
their engineered service life.
    In order to maintain 11 deployable LSDs in the Active Force until 
LX(R) delivers, the Department continues modernization of three LSDs to 
ensure 40 years of operational service life for each ship. The first 
LSD, USS Tortuga (LSD 46), was inducted into modernization in fiscal 
year 2016 and is scheduled to begin her modernization availability in 
fiscal year 2018. This plan mitigates presence shortfalls and supports 
2.0 MEB Assault Echelon shipping requirements.
                      autonomous undersea vehicles
    Autonomous Undersea Vehicles (AUV) are a key component of the 
Navy's effort to expand undersea superiority. These unmanned vehicles 
operate independently from or in cooperation with manned vehicles, 
conducting maritime missions such as Intelligence, Surveillance and 
Reconnaissance (ISR), Seabed Warfare, and Deception.
    The Orca Extra Large Unmanned Underwater Vehicle (XLUUV) is one of 
the larger class unmanned undersea vehicles that is being designed to 
launch from a pier or large surface ship and operate for weeks or 
months. It will have extended range and a reconfigurable, modular 
payload bay to support multiple payloads and a variety of missions to 
complement manned systems.
    The Snakehead Large Displacement Unmanned Underwater Vehicle 
(LDUUV) is an unmanned undersea vehicle to offload ``dull, dirty, 
dangerous'' missions from manned platforms and mitigate the submarine 
gap beginning in 2022. Snakehead LDUUV will be launched from a variety 
of platforms, including both surface ships and submarines. The initial 
craft's mission will be intelligence preparation of the operational 
environment with follow-on missions including ISR, acoustic 
surveillance, ASW, MCM, and offensive operations.
                             combat systems
    The Department continues to field the most capable and lethal 
surface and submarine combat systems in the world. The AEGIS Combat 
System Baseline 9, fielded on cruisers and destroyers, offers 
unprecedented defense capabilities, including simultaneous air and 
ballistic missile defense on Destroyers and Air Defense Commander 
capability on cruisers. By the end of 2017, the Navy will have 
completed a total of twelve AEGIS Baseline 9 Combat Systems 
installations. Baseline 10 will bring the AMDR radar providing enhanced 
radar performance and expanding the Navy's ability to perform the 
Integrated Air and Missile Defense mission.
    The Ship Self Defense System combat system supports a myriad of 
mission areas on all Carrier and large deck Amphibious Class Ships (six 
ship classes).
    The Department continues to aggressively pursue affordable 
defensive systems that are employable from multiple platforms. Under 
the Surface Electronic Warfare Improvement Program (SEWIP), the 
Department is replacing aging analog electronic warfare defensive 
systems first fielded in the early 1970's with new, digital systems. 
SEWIP Block 1 and 2 systems have been approved for Full Rate Production 
and are currently being fielded across the fleet. The SEWIP Block 3 
program has completed its Critical Design Review in 2017 and is 
currently on track to begin fielding in the 2019-2020 timeframe.
    The Submarine community continues to successfully deliver 
improvements in Anti-Submarine Warfare utilizing a bi-annual spiral 
development model and leveraging commercial off-the-shelf (COTS) 
technologies via the Acoustic Rapid COTS Insertion (A-RCI) program. 
Developmental towed arrays with improved telemetry have been 
successfully fielded on deployed fast attack submarines and new 
contracts for TB-29X and TB-34X, with these new telemetries were 
awarded in FY 2016.
                                weapons
    The Department continues to make significant strides in extending 
the fleet's layered defense battle-space while also improving the 
capabilities of the individual ship defense layers in order to pace the 
increasing anti-ship missile threat. Standard Missile-6 (SM-6) provides 
theater and high value target area defense for the fleet and with 
integrated fire control, has more than doubled defensive battle-space. 
In April 2017, SM-6 Block I testing successfully completed live fire 
requirements and the program is on schedule to declare Full Operational 
Capability (FOC) by the end of this calendar year. SM-6 Block IA is an 
enhanced version of SM-6 Block I with guidance section hardware and 
software modifications for improved capability against advanced 
threats. Delivery of both the SM-6 Block I and SM-6 Block IA continue 
to meet contractual delivery schedule requirements.
    The Evolved Sea Sparrow Missile (ESSM) provides another layer to 
the Navy's defended battle-space. The ESSM Block 2 Milestone C decision 
is scheduled for July 2018 with IOC for AEGIS platforms scheduled for 
2020 and Ship Self Defense System platforms IOC in the 2022-2023 
timeframe.
    The third inner layer of the fleet's layered defense is the Rolling 
Airframe Missile (RAM) Block 2 designed to pace the evolving anti-ship 
cruise missile threat and improve performance against complex stream 
raid engagement scenarios. In fiscal year 2017, the RAM Block 2 Program 
continued to demonstrate outstanding performance through successful 
fleet and ship qualification firing events. The RAM Block 2 will 
proceed to a Full Rate Production Decision Review in fiscal year 2018 
upon completion of the final modeling and simulation runs.
    The fiscal year 2018 President's Budget includes funding to 
continue upgrades to the Standard Missile-2 (SM-2) inventory with 
active guidance. This investment provides an affordable, integrated 
fire control capable, area defense missile to counter stressing 
threats.
                               connectors
    Our expeditionary warfare doctrine requires surface and vertical 
lift capability to transport personnel, supplies and equipment from 
within the seabase and maneuver them to objectives ashore. Surface and 
aviation connectors with enhanced speed and range will provide future 
expeditionary force commanders greater flexibility to operate in 
contested environments. While the aviation component of our connector 
capability has seen significant modernization with the fielding of the 
MV-22 and continuation of the CH-53K program, our primary surface 
connectors, the Landing Craft Air-Cushion (LCAC) and the Landing Craft 
Utility (LCU) are reaching the end of their service lives and require 
modern replacements.
    The fiscal year 2018 President's Budget funds the new LCAC-100-
class air cushioned vehicles. The Ship-to-Shore Connector program will 
replace the aging LCACs which have undergone service life extension 
programs (SLEP) and a post-SLEP sustainment program. Additionally, 
fiscal year 2018 budget request includes the procurement of the first 
LCU-1700-class craft which will begin the recapitalization of the aging 
LCU 1610-class.
    These platforms are essential in connecting the combat power and 
logistics sustainment the sea base provides, with the forces operating 
in the littorals and executing inland missions. The Department will 
continue to explore future connector options that will increase our 
ability to exploit the sea as maneuver space by increasing range, 
speed, and capacity.
                               conclusion
    The Department of the Navy continues to instill affordability, 
stability, and capacity into our shipbuilding and supporting programs. 
Continued congressional support of the Department's plans and budgets 
will help sustain a viable industrial base. This request begins to lay 
the ground work for growing warfighting capabilities in the fiscal year 
2019 President's Budget, as the Department also makes initial 
investments in a larger Navy and Marine Corps. We thank you for your 
continued support of the Navy and Marine Corps and request your support 
of the fiscal year 2018 President's Budget.

    Senator Wicker. Thank you, Ms. Stiller, and thank you to 
our other witnesses.
    Well, let me ask about the 355-ship requirement. I jotted 
down some words that you used, which I think should be 
instructive to the Congress and also to the public, Ms. 
Stiller. You talked about the emerging security environment, 
which is much more dangerous than it has been. You said that we 
must proceed with a sense of urgency. As chairman of this 
subcommittee, I can tell you that I want to help you proceed 
with that sense of urgency on a number of these issues, 
including accelerating the 355-ship buildup.
    This has been asked a number of times in this subcommittee, 
and so I want to make sure that we understand. With regard to 
the requirement of 355 ships, that requirement includes a 
requirement that those ships be fully staffed with additional 
personnel. Is that correct?
    Ms. Stiller. Yes, sir.
    Senator Wicker. That we have the capability of having the 
aircraft that is required for that size fleet.
    Ms. Stiller. Yes, sir.
    Senator Wicker. That you have the munitions that a 355-ship 
fleet with that particular mix--with the appropriate mix would 
need to get the job done.
    Ms. Stiller. Yes, sir.
    Senator Wicker. So it is not just building these floating 
fortresses, but it is making them fully operational. The 
requirement is that we be able to have all of that in a package 
that gets us up to 355. Is that correct?
    Ms. Stiller. Yes, sir.
    Senator Wicker. What options is the Navy exploring--and 
this is to any of you--to grow the size of the fleet more 
rapidly?
    Vice Admiral Lescher. Mr. Chairman, I will take a stab at 
that.
    So the Navy is looking at a very comprehensive approach to 
accelerate the growth of the fleet that the CNO has talked 
extensively about with a sense of urgency to bring a broader 
capability, a more capable, more lethal Navy in the 2020s. One 
element of that is clearly new construction that we have talked 
about and that is featured in the force structure assessment, a 
very analytical look at the way we have operated the force over 
a decade and a half of wartime OPTEMPO [Operation Tempo], at 
the current security environment, and our commitment to 
combatant commanders in terms of presence and surgability.
    Beyond that, the Navy is also looking at service life 
extensions on existing platforms. So Vice Admiral Tom Moore at 
Naval Sea Systems Command (NAVSEA), is leading an effort right 
now and it shows some potential to extend service lives both 
hull, mechanical, and electrical, as well as combat systems in 
cruisers, destroyers, amphibs, logistic force ships. Then we 
are also looking at reactivation of ships. This is something 
that is an ongoing analysis right now. We have to look very 
carefully at that because the ships that have been 
decommissioned are older and have older combat systems. We have 
to have a strong look at the return on investment from that 
approach. But between all those elements, a very comprehensive 
approach at accelerating the growth to the 355-ship Navy.
    Senator Wicker. When do you think you might have something 
to us about whether reactivation is pragmatic and doable?
    Vice Admiral Lescher. I will take that for the record and 
talk to Admiral Moore and the team he is leading. I know they 
are looking at that aggressively. I do not have a sense for 
specifically when they will develop that insight. So we will 
get back to you.
    [The information follows:]

    In May 2017, the U.S. Navy began an assessment of the 
technical effort and costs to reactivate and extend the 
expected service life of specific classes of surface ships. The 
Navy's review and assessment is ongoing, with a target 
completion date of fall 2017. Naval Sea Systems Command is 
leading the assessment in coordination with OPNAV, Military 
Sealift Command, and other Navy stakeholders. The assessment is 
focused on the reactivation and/or service life extension of 
the following ship classes: FFG, CG, DDG, LHD, LHA, LSD, LPD 
17, LCS, T-AO, T-AOE, and T-AKE Class Ships.

    Senator Wicker. Okay.
    Now, we are going to have a 30-year shipbuilding plan, 
which is required of the Navy. When is that coming? When do you 
think that is coming, Ms. Stiller?
    Ms. Stiller. Sir, we are staffing that 30-year shipbuilding 
plan now. As you know, that has to be signed out by the 
Secretary of Defense's Office.
    Another nuance, just to make sure you are aware, is that 
part of the language that requires submittal of the plan also 
requires us to certify that the plan that we submit is 
adequately funded. As we are looking at today's FYDP [Future 
Years Defense Program], we do not see growth in the out-years 
at any kind of rate. So the 355-ship plan would be addressed in 
a future 30-year shipbuilding plan because this current budget 
environment does not give us that assurance to be able to 
certify.
    Senator Wicker. I wanted the committee to fully understand 
this. I am probably at first blush going to be a little 
disappointed when I see this shipbuilding plan, but it is not 
because the leadership of the Navy represented at this table 
and on up, to include the top leadership of DOD, does not 
believe in the 355-ship idea. It is because you are constrained 
by the statute to put only a certain level of shipbuilding on 
paper until we get the funding straightened out.
    Vice Admiral Lescher. Yes, sir. I was going to say the law 
stipulates that we certify in the 30-year shipbuilding plan 
that it is funded in the program.
    Senator Wicker. We are going to try to help you on that.
    Unless any of you have any follow-up on that, I will be 
happy now to turn the questioning over to my good friend, Ms. 
Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Admiral Lescher, I just want to get clarification then. The 
ways to get to the 355-ship number--and you cited three ways: 
new construction, extend service life of our ships, and then to 
reactivate ships. Are there numbers attached to these three 
ways that you intend to or you see getting us to 355 ships?
    Vice Admiral Lescher. Ma'am, there are definitely numbers 
attached to the new construction element, which is the force 
structure assessment.
    Senator Hirono. Yes.
    Vice Admiral Lescher. The examination of service life 
extensions and how it can accelerate the path to 355 beyond 
just what is available in the industrial base and 
reactivations--that is analysis that is going on right now at 
Naval Sea Systems Command. So I do not have numbers right now 
for you.
    Senator Hirono. You were just talking about reactivation or 
are they extending the life of our----
    Vice Admiral Lescher. For both. That is both ongoing work 
right now.
    Senator Hirono. So there will be an assessment of how many 
ships can actually be brought back and how many can be 
extended.
    Vice Admiral Lescher. Yes.
    Senator Hirono. When is the time frame for that assessment?
    Vice Admiral Lescher. I will take that for the record and 
talk to Admiral Moore and see what the time frame to complete 
that analysis on both those pieces is.
    [The information follows:]

    Huntington Ingalls Industries received a modification to an 
existing contract on June 27, 2017 to build DDG 125 to the Flight III 
baseline standard. Negotiations with General Dynamics Bath Iron Works, 
to incorporate Flight III, is ongoing.
    The fiscal year 2018-fiscal year 2022 MYP Request for Proposal is 
planned to be released by first quarter of fiscal year 2018 with a 
contract award targeted for third quarter of fiscal year 2018. The Navy 
plans to leverage a competitive acquisition strategy, with all ships 
procured in the Flight III configuration. The design for Flight III is 
currently over 88 percent complete and expected to be 100 percent 
complete at the time of the MYP contract award.

    Senator Hirono. I wanted to ask you again--well, not again, 
Admiral Lescher. I and others on the SASC committee, as well as 
on the subcommittee, have been very focused on what we need to 
do in the Asia-Pacific area. I would like to ask you how are 
you incorporating the shift to the Asia-Pacific as you consider 
expanding the fleet to deploy the number of ships you need? 
Where are you intending to base this larger fleet?
    Vice Admiral Lescher. So this broader approach of the 
approach to the Asia-Pacific encompasses a number of elements 
that I think in some respects you are tracking. In terms of the 
actual number of ships that we are deploying--you are familiar 
with the Navy commitment to have 60 percent of the fleet in the 
Asia-Pacific or in the Pacific fleet by 2020. So that is going 
to grow the physical number of ships on the order from 160 in 
fiscal year 2016 I believe to 176 in fiscal year 2020. The 
number of deployments will increase as well.
    Beyond that, the Navy is preferentially deploying our 
newest capability to the Asia-Pacific. So whether it is P-8, E-
2D, F-35B, F-35C, MQ4 Trident, those newer capabilities are 
going first to the Asia-Pacific region. The same thing applies 
for our ships as well. So whether it is Zumwalt, DDG Flight 
III, the newest, most capable ships will go to the Asia-
Pacific.
    So it is a combination of numbers. It is a combination of 
capability, and then as you indicated, the infrastructure to 
support that as well.
    General Walsh might talk about some of the particular work 
that is going in Guam as a hub of activity. Of course, we have 
submarines forward deployed there as well. Then the 
infrastructure required for this balance in Hawaii and broader 
areas is part of ongoing investment. So across all those 
elements.
    Senator Hirono. When you are talking about infrastructure, 
you are talking about the movement of a number of our troops 
from Futenma to Guam and recycling through Australia and 
eventually to Hawaii.
    General Walsh, would you like to add something to this 
discussion?
    Lieutenant General Walsh. What I would add on just the 
amphibious piece that Admiral Lescher talked about as part of 
this growth as we increase the number of the size of the fleet 
and we increase the size on the current growth path we are on 
with the amphibious forces, the plan is to put a second 
amphibious ready group in the Pacific. Currently the one that 
we have right now is in Sasebo with the 31st MEU [Marine 
Expeditionary Unit]. So that is part of that.
    But any other further questions on the Guam relocation--we 
are continuing to execute that plan.
    Senator Hirono. Thank you. Yes, we need to keep the Futenma 
issue on track I would say.
    I mentioned in my opening statement that the Navy had been 
testing an engineering and development model of the air and 
missile defense radar (AMDR), at PMRF [Pacific Missile Range 
Facility]. The Navy's testing of AMDR was supposed to allow the 
Navy to award a contract for an engineering change proposal 
last fall to upgrade one of the fiscal year DDG-51 destroyers 
to a Flight III configuration.
    Secretary Stiller, could you give us an update on the 
Navy's progress in signing a contract for the engineering 
change? Why has there been a delay in signing this engineering 
change proposal? Does this delay have any implications for the 
Navy being ready to sign a multiyear procurement contract in 
fiscal year 2018, and how many DDG-51's could the industrial 
base handle in fiscal year 2018? So I hope you can remember all 
the series of questions.
    Ms. Stiller. If I do not, please remind me. But, yes, 
ma'am, let me give you a status on Flight III.
    From a ship design perspective, we are 86 percent complete 
with the design to introduce Flight III to the DDG-51. As I 
mentioned in my opening statement, we have a handshake 
agreement with Ingalls to introduce that engineering change 
proposal on their fiscal year 2017 ship. We recently received a 
proposal from Bath Iron Works for their ECP [Engineering Change 
Proposal], and we are in negotiations with them. We have also 
received a bid from them on their 16 ship as a Flight IIA, and 
we are also asking them to also give us an ECP to look at that 
as a Flight III.
    But talking about the radar, the radar, as you mentioned, 
is doing quite well. It is in testing. We have been before the 
OSD [Office of the Secretary of Defense] Defense Acquisition 
Board and gotten permission to proceed to buy the radars for 
those ships. We also are testing our Aegis combat system that 
will marry up with that radar, and testing is going well.
    All the way along, we have the radar folks, the 
shipbuilding folks, the government folks, the combat systems 
folks working together. So there is no mystery here.
    But where we will be at start of construction with the 2018 
multiyear, we are 100 percent complete with the design. As I 
said, we are 86 percent complete today. We completed our CDR 
back in November of 2016.
    You asked me about number of ships in the multiyear. Our 
request is 10. Certainly the industrial base can handle more 
than two a year, but our request right now in our budget 
constrained environment is for 10 in the multiyear.
    I think that I got all your questions.
    Senator Hirono. I think so. Thank you.
    Senator Wicker. Thank you.
    Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    First, let me thank you all for your service to our 
country.
    Admiral Lescher, recently the proposed budget for 2018 
requests the funding, if I am correct in my addition, of eight 
additional ships based on the administration's proposal for a 
350-ship Navy and the current fleet at 275 ships. First of all, 
I am just curious and just a confirmation that the 350-ship 
number is an appropriate number in your opinion. Second of all, 
is the current fiscal year 2018 ship construction plan in line 
with the strategic goals of the United States Navy?
    Vice Admiral Lescher. Yes, sir. Three hundred fifty-five 
ships delineated in the force structure's estimate is the 
correct number. It is the objective number. The fiscal year 
2018 budget submission with the addition of the second littoral 
combat ship that the administration has indicated is 
forthcoming in an amendment would bring it to nine ships in 
fiscal year 2018, eight right now as you cited.
    I am sorry.
    Senator Rounds. I am just curious as to the--is it in line 
with the strategic goals of the United States Navy?
    Vice Admiral Lescher. So it is aligned in this manner. The 
Secretary of Defense has talked very extensively about the path 
to get to a larger, more capability, more lethal Navy that we 
all believe is urgently required. The path that he laid out in 
his direction--he calls it a three-phase campaign plan to get 
there.
    Fiscal year 2017, with the request for additional 
appropriations, which we thank the committee and the broader 
Congress for enacting, was all about getting up to the 
readiness debt that all the services have accumulated over the 
course of this decade and a half of wartime OPTEMPO.
    Fiscal year 2018, this budget is to build on that readiness 
recovery and address pressing shortfalls wholeness issues. So 
you see, for example, in the Navy budget a strong focus on ship 
depot maintenance, on aviation depot maintenance, on the flying 
hour program, on the steaming days program, and funding the 
enabling readiness accounts to elevate the readiness of the 
force. That is across spares, logistics, and depot support 
funding. So it sets the condition now. That is the design of 
this budget, to set the condition for the third phase of the 
campaign plan the Secretary was talking about, which is an 
fiscal year 2019 budget, given the relief from the defense caps 
in the Budget Control Act that will support and make actionable 
the growth of capacity and modernization as well.
    So that is really the strategic concept.
    Senator Rounds. I am curious. The relationship between the 
ability of the industry and the depot capabilities--is there a 
relationship or a limitation there between the number of new 
ships or boats that can be delivered and the number of existing 
submarines, as an example, that can be appropriately depoted? 
Is there a limiting relationship between the two? Are there 
suppliers? Are there limiting processes here that we should be 
aware of? I am thinking in particular, just as an example, the 
USS Boise is sitting at dock. It is not usable. It is an asset 
which most certainly I believe the Navy had anticipated would 
be usable.
    Vice Admiral Lescher. Yes, sir.
    Senator Rounds. Is there a relationship between the numbers 
that we are building versus the numbers that we are trying to 
get through depot?
    Vice Admiral Lescher. Yes, sir. That is a great question. I 
will ask Ms. Stiller to talk in a moment.
    But to your point, I think your insight is right on, which 
is a submarine we have that is not deployable because we cannot 
execute the depot maintenance on it is every bit as lost an 
opportunity as a submarine we did not build.
    We are very focused on increasing the throughput on our 
public nuclear-capable shipyards to get after the issue, the 
prioritization being on the ballistic missile submarines, the 
nuclear aircraft carriers, and then attack submarines are third 
in priority right now. That is what led to the prioritization 
of Boise not being----
    Senator Rounds. Share with me this. I do not mean to 
interrupt, but I am really curious. Clearly we have some very, 
very smart people within the Navy. This is not a surprise that 
you now have three of these submarines which are sitting 
basically at dock, are not in depot. I do not think that this 
was simply a case of malfeasance. This is not a case of where 
there was not an understanding that it needed to be done. Would 
you share with the committee what causes this type of a backup 
at dock, please?
    Vice Admiral Lescher. Yes, sir. Part of it is us learning 
about the dynamics of growing the capacity in our shipyards. As 
we saw, for example, the Los Angeles-class submarines come into 
mid-life as a surge in workload, along with refuelings in the 
aircraft carriers. People certainly were looking at that 
forthcoming bow wave of workload and trying to be thoughtful 
about growing the capacity of our four public shipyards to get 
after that.
    We are on a path, and this budget continues that path, for 
example, to grow labor in the public shipyards from 33,800 
full-time equivalents in this budget to 36,100.
    I think what was a little bit of a learning curve here is 
understanding what happens to the demographics of the labor 
force in a shipyard as you grow it that quickly. We are at a 
place right now where well over 50 percent of the people in our 
public shipyards have less than 5 years of experience. The 
training element of taking a new hire, becoming an artisan is 
something that was learned and understood in terms of how 
productive they are. I think in aggregate what that showed--
what that led is to insufficient capacity. Even as it was 
growing, it was an insufficient rate of growth of capacity in 
the public yards that led to us not being able to put through 
all these submarines.
    Senator Rounds. Well, if I could. My time has expired. I am 
just going to ask one thing for the record, please. When would 
this backlog of existing assets--when would this backlog of 
existing submarines be taken care of in the current budget 
process? Could you share that with us either----
    Senator Wicker. Go ahead.
    Vice Admiral Lescher. What the Navy is doing to get after 
that backlog is a number of investments in this budget. I 
talked about the growth in the labor elements. There is growth 
in improving the infrastructure itself, capital investment in 
the shipyards at rates well above what is legislated to 
increase the throughput. Again, that is the bottom line goal 
here. We need to buy and increase throughput.
    The other thing you see in this budget--and planning 
continue--and it gets back to the foundation of your question 
of the relationship between the nuclear-capable shipbuilding 
industry and our public depots is we are leveraging across both 
to get after this, both on a--we will bring touch labor out 
of----
    Senator Rounds. Look, I am going to run out of time. I 
would like if you could get back to us with a timeline for the 
elimination of that backlog.
    Vice Admiral Lescher. Fair enough. Yes, sir.
    [The information follows:]

    The Navy is taking several actions to improve public shipyard 
capacity and productivity in order to reduce the current backlog. The 
Navy's goal is to size the Naval Shipyards capacity to match the 
programmed workload requirements for aircraft carrier and submarine 
readiness.
    Specifically, the Navy's Fiscal Year 2018 President's Budget (PB18) 
includes investments to increase hiring of shipyard workers; enhance 
workforce training and development; improve and modernize aging 
infrastructure facilities, information technology systems, and 
equipment; and modernize shipyards with an architecture that optimizes 
the layout for ship maintenance and modernization and improves the 
productivity of the workforce. The Navy also uses return data from 
every type of availability at the Naval Shipyards as feedback for 
programming and planning efforts on future hulls to improve the 
planning/estimation process.
    At PB-18 funding levels, the Navy anticipates recovering the public 
shipyard backlog by the end of fiscal year 2023. The timing of full 
recovery is dependent upon several factors outside of the Navy's direct 
control, including stable and consistent funding and global operational 
demands.

    Senator Rounds. Thank you.
    Thank you for your patience, Mr. Chairman.
    Senator Wicker. Senator King?
    Senator King. Thank you, Mr. Chairman.
    Ms. Stiller, welcome. Delighted to have you here to discuss 
these important issues.
    I have probably been to a dozen hearings, maybe more, about 
procurement and particularly about procurement problems. It 
always seems to come back to trying to build something while 
you are designing it and changes in requirements, changes in 
design, unanticipated changes whether it is the F-35 or any of 
the other big issues that we have been dealing with.
    I am very much in favor of multiyear contracts for all the 
reasons you have stated: taxpayer savings, better for the 
industrial base. I am worried, however, about the Flight III 
being ready for multiyear. You have testified and Mr. Stackley 
testified the other day, 86 percent design complete. But 
generally, one of the criteria--and the GAO [Government 
Accountability Office] talks about this--is not only a complete 
design but having built one or two and having seen how it 
actually works and whether the cost estimates are realistic. 
You mentioned that you have an agreement with Ingalls, a 
handshake, to build one.
    My only request is to consider slowing the multiyear down 
maybe 6 months in order to start construction on the first 
Flight III before we buy 10 ships and ask our industrial base 
to make commitments based upon not an unproven design, but a 
new design and a substantially changed design. This is not 
minor changes. This is much more than the Flight IIA changes. 
It really is a question of not whether there should be a 
multiyear but when and when do we get to the point where we 
have full confidence, enough confidence to buy 10 at a time.
    Could you give me your thoughts?
    Ms. Stiller. Yes, sir. I look at the multiyears that we 
have sent over both for Virginia and DDG-51 kind of in the same 
boat. We are going to introduce the Virginia payload module 
into the Virginia multiyear as well. Right now, that is a year 
behind because we are asking for--that multiyear starts in 
2019. But to give you some perspective, that design is 
approximately 10 percent complete today. Obviously, we will be 
in the 80 percent complete when we get to that multiyear as 
well and close to 100 by the time we start construction.
    The way we are trying to mitigate the risk on the 51 
program is by trying to introduce that Flight III ECP into this 
last multiyear, the one that ends in 2017, on the last ships of 
those multiyears. As I pointed out, we have a handshake with 
Ingalls. We are in negotiations with that. We feel like that 
the design is mature and that we understand it. We want to 
continue to work with the companies.
    Obviously, it will take us time. We will have a competition 
for the multiyear. I cannot tell you exactly when we will 
award. We usually never award on the first day of the fiscal 
year anyway. We are never that prepared. But I would tell you 
that I have high confidence that we have the design well in 
hand. Both yards have been on schedule on design.
    Senator King. The design--but again, generally in the past 
when there is a multiyear, one or two have been built, not only 
the design, but you have something afloat that you can say did 
it work or were the prices realistic. Did we understand the 
risks? Were there design changes during construction? I am just 
suggesting again not stepping away from the multiyear, but it 
is just a question of timing to be sure that we get it right 
because you are asking our yards to take a big risk on 10 
ships, none of which have--none of that design have ever been 
built before. That is my question.
    Ms. Stiller. Yes, sir. I understand your concern, but we 
have been successful in doing this in the past. I will point 
out on the Virginia side, this current multiyear that we are 
in, we introduced additional change into that ship design, as 
we did block upgrades. We talk about the blocks on Virginia. We 
have introduced at a lesser extent on DDG-51 over the years 
change. We view that the amount of change in this particular 
Flight III design, it touched about 45 to 50 percent of the 
drawings.
    Senator King. That is not inconsiderable.
    Ms. Stiller. I know that is not but it is along the same 
lines on the Virginia as well. In fact, in the Flight IIA, we 
touched more drawings on Flight IIA than we are on Flight III. 
But that aside, we also were not nearly as complete with design 
when we introduced Flight IIA. We are making ourselves and 
making ourselves to be disciplined about making sure we are at 
a certain percent design complete before we start getting into 
construction. I think we have changed our processes and the way 
that we look at percent design complete to make sure that we 
are not putting undue risk.
    Senator King. I appreciate that. Again, I am a big 
supporter of multiyear. I am a big supporter of Flight III. I 
think it is going to bring a major advantage to the fleet, and 
we want to get it as soon as possible. But I would rather get 
it right than get it fast. Thank you very much.
    Senator Wicker. Ms. Stiller, with regard to IIA, those 
concerns, as Senator King mentioned, in your view turned out to 
be unfounded.
    Ms. Stiller. I would say IIA goes back quite a bit, but 
certainly there were challenges on the lead ships when we went 
to Flight IIA. But I would also tell you that we went into 
Flight IIA with a much less percent complete of the design 
products. That is one thing we have learned, and the Congress 
has stressed and we have taken that to heart. For example, 
Columbia. The lead Columbia we predict will be 83 percent 
complete design before we start construction. That is far 
better than we saw Seawolf. Virginia even was only about in the 
mid-40 percent complete when we started that program.
    We understand the reasons we need to get percent design 
complete way up there before we start construction. We are 
committed to it and we have learned our lessons. Back to your 
comment about having on-time and on-schedule, that resonates 
with us because it is important to us to be able to make sure 
that are affordably procuring these assets.
    Senator Wicker. On the Flight III, how much do you think we 
are going to save by doing it this way?
    Ms. Stiller. Well, the Flight III capability will cost 
more. The radar is a bit more expensive but not very much.
    Senator Wicker. How much are we going to save through using 
multiyear?
    Ms. Stiller. On the DDG-51, we predict we are nearly 10 
percent, and on the Virginia, we are at 14 percent. We 
obviously have to go through the certification process with the 
CAPE [Cost Assessment and Program Evaluation], and so those 
numbers will solidify over time and certainly having industry 
bids will help us to inform. But we always see on multiyears 
that we get at least 10 percent savings.
    Senator Wicker. Well, Senator King, has a concern and so I 
hope you will work with us to see if we can achieve a 
consensus.
    Ms. Stiller. Yes, sir. We will lay out the schedule for 
Senator King to show you what our timeline is. I do not have 
that off of the top of my head.
    Senator Wicker. Senator Strange?
    Senator Strange. Thank you, Mr. Chairman.
    I thank our witnesses for their appearance here today. I 
appreciate your service as well.
    I appreciated Senator Rounds' question to Admiral Lescher 
about shipyard expertise. That is an issue of particular 
concern to me. I think we see how it affects various aspects of 
the programs we are trying to achieve. As I know you well know, 
Madam Secretary, there are 21,000 men and women at two 
shipyards, 1,200 suppliers in 45 States who support the current 
LCS program. I am very pleased with the administration's 
decision to add an additional ship in the budget and look 
forward to seeing that. It is not sufficient in my view, and I 
will certainly be weighing in on that subject, but it is a step 
in the right direction. I greatly appreciate that.
    Back to the issue of shipyard capability and efficiency, 
should we agree to cut production back in those shipyards, in 
my view it will have a significant affect on efficiency, 
competition, and other factors, particularly price. In my view 
that is, in this current budget environment, a very significant 
concern. In my view, if we truly want to grow our Navy fleet, 
which I strongly support, to the 350 to 355, we have got to 
expand the LCS frigate program rather than cut it back at this 
time.
    I guess my question is pretty basic. If we want to achieve 
that goal, does cutting back on the frigate LCS program help us 
achieve that goal? How does it impact in your view how we get 
to that goal in the most efficient, cost-effective way that 
actually delivers something that our warfighters need in the 
theater? Whoever would like to take a shot at that.
    Ms. Stiller. Well, sir, as I mentioned in my opening 
statement, we have a requirement for 52 small surface 
combatants, and we want to get to the frigate as soon as we 
possibly can. We had taken a pause to go and--with the emerging 
threat environment out there to take a look again at the 
requirements to make sure we have it right. As we transition 
from LCS to the frigate, that is why we put in quantities to 
bridge to getting to frigate and know they are not at the 
optimal build rates for the yards but they are where we feel 
that we are at minimum sustaining rate so that we can 
transition to frigate because we want that 52 total number to 
have a number that are frigates. Twenty is where our head has 
been for a while now.
    We realize that we cannot just turn off LCS and immediately 
get to frigate. That is why you see ships added because we are 
mindful that we have an industrial base out there that we do 
not want to walk away from because they are a critical part of 
our ability to build the ships.
    Admiral, if you wanted to comment on the requirements.
    Vice Admiral Lescher. Absolutely. This is very much an 
intersection of sustaining the industrial base and getting the 
design and the requirements right and preferably working with 
the industry to get them right.
    Senator, I know you are very familiar with the evolution 
requirements and the concept of the littoral combat ships we 
have put on contract. We absolutely need to buy the fleet. 
Admiral Rhode and the surface force commanders said I need them 
now. I need more of them.
    At the same time, as we broaden our operational concept to 
distributed maritime operations, distributed lethality, looking 
for these ships to operate not only in the littorals but 
perhaps more independently, that is what is driving them from 
being a single-mission focus to a multi-mission focus. As we 
mature those requirements and work with industry to understand 
where the knee in the curve is for most capability, for price, 
that also drives very much into this timeline that you talked 
about.
    Senator Strange. Thank you very much, Admiral. I look 
forward to following up on that issue.
    Mr. Chairman, I will yield back my time. Thank you.
    Senator Wicker. Thank you, Senator Strange.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair. Thanks for yielding me 
a few seconds. I will not take it.
    But thank you all, witnesses, for your good testimony.
    A couple of things. The high costs associated with 
shipbuilding are often attributed to the time elapsed between 
building. You have had some success in both the Arleigh Burke 
and the Virginia-class sub when you have done multiyear 
procurements. Is there any reason to think that that would not 
potentially yield similar cost saving results if applied to 
other programs like carriers, for example?
    Ms. Stiller. Senator, we have found that once you have a 
stable design--we have just come through the lead carrier. As 
you look forward to and you say, yes, I am not going to be 
introducing great change to the carrier, there are 
opportunities. We have done a 2-year block buy on carriers in 
the--two carrier block buys in the past. It is certainly 
something that if we can make the commitment to the supplier 
base, it is effective, and we can get savings.
    We do try to look, after we get through a lead ship, to get 
into multiyears as soon as we possibly can and be able to 
introduce capability incrementally.
    So, yes, sir, we find that giving the industry that 
predictability--and it is not just at the shipyard level, but 
the supplier level too--is critical.
    Senator Kaine. The second question is there was a Bloomberg 
article in the last day or so that talked about something that 
we might be seeing. You talked about an additional presidential 
budget coming over I think with respect to the second LCS. I am 
a strong LCS fan, but my understanding from the article is part 
of the funding for that. Second is going to be reducing 
aircraft overhaul by $300 million.
    Is that accurate? If that is so, give me some kind of 
context as to why that is a good idea and what it would mean.
    Vice Admiral Lescher. Yes, sir. I will not speculate on 
what will be in the OMB submission to you, but I will tell you 
what you cited is inaccurate. It would not be a source coming 
out of overhaul funds.
    Senator Kaine. Are you familiar with the Bloomberg piece 
that I just referenced? As you know right now, that is not an 
accurate article.
    Vice Admiral Lescher. Correct.
    Senator Kaine. Thank you.
    Thanks, Mr. Chair.
    Senator Wicker. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    I appreciate the service of our witnesses today. Thank you, 
all three, very much.
    I wanted to focus, not surprisingly for some of my 
colleagues on the panel, on our Arctic strategy. We are an 
Arctic nation because my great State, the State of Alaska. 
Secretary Mattis during his confirmation hearing said the 
Arctic is key strategic terrain in part because of the new 
opportunities there, new challenges. The Russians are building 
up their icebreaking fleet, their navy. They are putting new 
brigade combat teams in the Arctic, very aggressively, probing 
countries by their bomber runs. Just in the Alaska air space in 
the last month and a half, we have had to go intercept them 
with our F-22's up in Alaska.
    So this committee mandated that the Secretary of Defense 
put out a new Arctic strategy which the end of the Obama 
administration/beginning of the Trump administration did, which 
was a much better improvement on the old one which was not 
really a strategy but more of a document with a lot of nice 
pictures in it.
    One of the elements of the new Arctic strategy is that we, 
to protect our interests and sovereignty in the region, need to 
be able to conduct FONOPS [Freedom of Navigation Operations] in 
the Arctic. Yet, Admiral Richardson just testified before this 
committee. He said it is absolutely true we do not have the 
capacity or the capability to conduct Arctic FONOPS. Our 
strategy right now has an end state that we cannot meet. It is 
very obvious.
    Admiral, I wanted to talk a little about--you know, as we 
look to pursue a fleet of 355 ships, what are the current plans 
in the Navy to include ice hardening of any ships that we are 
obviously going to need to be able to conduct FONOPS and 
protect our interests in the region? If so, what ships would we 
be looking at to ice harden?
    Vice Admiral Lescher. Right. I will take this for the 
record as well to give you a more detailed, fulsome answer. 
Right now, I am unaware of any current plans announced--if you 
chose to correct me, please do so--for ice hardening.
    Senator Sullivan. Why is that? We have been focused on it. 
The Secretary has focused on it. We have a new strategy. It 
says we need to conduct FONOPS [Freedom of Navigation 
Operations]. I am going to get to the icebreakers here in a 
minute.
    Vice Admiral Lescher. The short answer is the Navy has a 
very active presence in the Arctic but it is undersea and in 
the air right now, and it is not on the surface right now.
    Senator Sullivan. Can you conduct a FONOP with a sub? Not 
an obvious one.
    Vice Admiral Lescher. Not the way we envision it. Exactly 
right. It would depend on how you message that.
    Let me get back to you with the detail on the hardening of 
our ships.
    Are you aware of any ongoing work with that?
    Ms. Stiller. I am not aware.
    [The information follows:]

    Vice Admiral Lescher. The Navy is currently not pursuing 
ice hardening of surface combatant ships because there is no 
current validated combatant commander requirement for these 
ships to operate in the Arctic year-round. Preliminary 
examinations of ice-hardening surface combatants and amphibious 
ships revealed re-design would be required at significant cost 
and design risk. In addition to ice-hardening the hull, designs 
for ships operating in the Arctic would also need to factor in 
the many operational risk factors, including sea-ice, wind, ice 
accumulation on equipment, and limited communications and 
satellite coverage. In addition, surface operations in the 
Arctic would require significant new infrastructure in the 
Arctic region and regional authorization for development that 
would likely have cultural and social impacts on the local 
population. This would entail substantial investment of funding 
beyond ice-hardening ships.
    The DOD has several options to conduct Freedom of 
Navigation operations (FONOPS) beyond Navy surface combatants. 
First, Navy submarines can and do conduct FONOPS, either 
undersea or by surfacing. Second, Navy surface combatants could 
conduct Arctic and sub-Arctic FONOPS in open water conditions 
during the summer melt season. Third, the DOD's FON Program 
employs every branch of Military Service, including the U.S. 
Coast Guard (USCG). Thus, USCG cutters could conduct FONOPS in 
the Arctic and the new Heavy Polar Icebreakers are planned to 
have maritime security capability and the capability to provide 
assured year-round access to the Arctic. Fourth, the Arctic 
Strategy continues to prioritize and maintain the long-standing 
partnerships with other Arctic nations who have publicly 
committed to working within a common framework of international 
law and diplomatic engagement. FONOPS support international 
law. If necessary, FONOPS could be conducted by a partner 
nation, as is currently being done in the South China Seas.
    The Navy's undersea and air assets continue to fulfill 
current operational requirements in the Arctic. Advances in the 
Navy's undersea technology and modernization of both undersea 
and aviation platforms (e.g. P-8A aircraft) will continue to 
provide greater capabilities for the Arctic region. DOD and the 
Navy continue to closely monitor the Arctic activity and will 
continuously re-assess requirements with combatant commanders.

    Senator Sullivan. Mr. Chairman, this is actually a really 
important issue. We are looking to build a 355-ship Navy. We 
have an Arctic strategy. The CNO is saying we cannot conduct 
what we are saying we are supposed to do in our strategy, and 
we have no plans to ice harden our ships and we are going to 
increase our ships by 60 ships. I think we need a very detailed 
answer on why that is not even being considered. It seems to me 
a huge oversight. I would appreciate that.
    Let me get to the icebreaker issue. You know, the Coast 
Guard has talked about the need for three heavy icebreakers, 
three medium icebreakers. Again, Admiral Richardson stated in 
his confirmation hearing that it is clearly in the national 
interest for the U.S. to have more than one heavy icebreaker. 
Right now, we have two, but one is broken and that was 
commissioned in 1976. I went and toured it recently. I think 
was shameful. We should have no man or woman who puts the 
uniform of the U.S. military on that should deploy on a ship 
that is that old and broken. You should go see it, Admiral. It 
is really shameful for our Coast Guard men and women who have 
to deploy on that.
    Initially the estimated cost of one single icebreaker was 
10 years it would take and a billion dollars to build. The 
Norwegians just built the first-ever liquid natural gas powered 
medium icebreaker for $150 million. What are we doing wrong 
here? What can we be doing, and is the Navy working with the 
Coast Guard on trying to get at least the original. The target 
is 2023. I think it needs to be sooner. But why are we talking 
10 years and a billion dollars to build a ship? We put a man on 
the moon in a shorter amount of time. Everybody else is doing 
it. What is the problem, and how are we going to fix it? How 
are we going to get Navy-Coast Guard cooperation and working 
together on this issue which seems to have a little bit of a 
hot potato. No service wants to own it. Yet, everybody says it 
is in our national interest to do it. How are we addressing 
this?
    Ms. Stiller. Sir, we are working very closely with the 
Coast Guard. It is a joint program office right now on the 
icebreaker. There are two memorandums of understanding that we 
have signed, one at the Department of Homeland Security level 
and Department of Navy. I signed for the Navy. The other one is 
the Navy with the Coast Guard. There are a little bit different 
nuances in both.
    But both of them reference that the Coast Guard's mission 
is icebreaking, and so Coast Guard will have the lead on this 
and Navy is in a supporting role. We are providing technical 
assistance with them. We are providing program management type 
support, contracting if they need it. We are participating in 
their reviews. I sit with the Vice Commandant of the Coast 
Guard on all of their reviews. I can tell you that they are 
going through every single requirement and questioning them, 
and we are driving the cost of that ship. It is not going to be 
a billion dollar ship.
    I am not sure the 10 years was not tied to when funding 
might become available. Obviously, we are looking at how do you 
bring that in subject to funding.
    But we are very much engaged with the Coast Guard. We have 
a great working relationship with them, and we are working very 
closely together to get this program on solid footing at an 
affordable cost.
    Senator Sullivan. Is the target of 2023 still doable?
    Ms. Stiller. Yes, sir, subject to funding availability, but 
yes, sir. We are doing design work right now. We have five 
industry teams providing great insight on what our cost drivers 
are so that we can get the specifications right to get this out 
for bid. There is $150 million that the Congress appropriated 
as part of the Navy's budget last year that will go towards the 
detail design and then the construction funding will have to 
follow.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman. I think this committee needs to 
keep a very close oversight role here because there is just a 
lot we need to do and the coordination between the Navy and the 
Coast Guard has not been that good. I am glad to hear that it 
is improving.
    Senator Wicker. Senator Sullivan, you have raised a very 
important topic. Let me just ask this. Admiral Lescher, you 
have taken a few questions for the record and perhaps others of 
you, and I appreciate that because we want to get the right 
information to the committee. This does provide a record for us 
to look at in the future. But this should be fairly easy for 
you to get back to us about. Is that correct?
    Vice Admiral Lescher. Yes, sir. Again, the answer was none 
of us are aware of a program for hardening of the ships. But I 
will just go back and do a quick check to make sure that is 
factual.
    Senator Wicker. Along with these things, do you think maybe 
you could get back to us in 2 weeks?
    Vice Admiral Lescher. Yes.
    Senator Wicker. On all of the things that you have taken 
for the record. Thank you. Ms. Stiller is nodding yes also. I 
do appreciate that.
    Senator Shaheen is next.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all very much for being here and for your service 
to the country.
    I apologize for missing your opening statements, but I 
understand that there was some discussion about how to get to a 
355-ship Navy.
    The question that I have is how did we arrive at 355 as the 
appropriate number and how do we break down the components of 
that 355 number in a way that provides for the national 
security that we think we need.
    Vice Admiral Lescher. Yes, ma'am. The analytical basis for 
the force structure assessment is it takes a look really 
starting with the combatant commander requirement to execute 
the strategy. The current strategy we have is the Quadrennial 
Defense Review Strategy of 2014. It talks about everything from 
ensuring a safe and secure nuclear deterrent, which drives the 
requirement for our ballistic missile submarines, to building 
peace and security globally, which drives our presence 
requirement, our so-called phase zero, phase one, set to 
theater forces, to deter coercion and defeat when necessary, 
which drives capability in a high end.
    As we integrate those strategic requirements, that is the 
charter to the Navy. These are the missions to execute. We did 
an analytic basis. Each of the combatant commanders made an 
assessment of this is what I need in my theater in Central 
Command, in Pacific Command to execute the strategy that I have 
been assigned. That essentially boils down to essentially a 
contract the Navy has with the Nation to provide rotational 
forces forward for presence and then to surge forces for 
crisis.
    That is the analysis that was done that culminated with a 
number of options, and the best military advice of the service 
leadership was 355 is the right recommendation to the Nation. 
It is not a zero-risk force, but it is a moderate risk we can 
execute. That really is the analytic basis that looks at the 
current security environment and the current requirements to 
execute the strategy.
    Of course, the security environment is very dynamic. There 
was a surge in Russia, North Korea, et cetera.
    Senator Shaheen. Well, along those lines, I was surprised 
to hear in testimony before the full committee probably in the 
last couple of months that we expect China to get to a 350-ship 
Navy by 2020. How concerned are we about that and about our 
capacity at that point to be able to offset what we expect 
China to be doing?
    Vice Admiral Lescher. Yes, ma'am. That is a great question.
    But we do not mirror image platform versus platform. That 
is not the way we fight, and so you hear the CNO and the 
Secretary talk very extensively beyond the platforms. 
Obviously, numbers absolutely matter, to your point.
    But our view of executing that strategy to include the 
deter, coercion, and defeat, when required, has to do with the 
innovation that will be taking place concurrently with growing 
the ship to the 355 level. That is everything from new 
technology and the investments you see in this budget in 
unmanned, directed energy, digital elements networking, 
electromagnetic maneuver warfare, and the new operational 
concepts, distributed maritime.
    Senator Shaheen. Given that, how important--I guess this is 
for Ms. Stiller. How important is it that we maintain a robust 
industrial base?
    Ms. Stiller. Ma'am, it is vital that we have a robust 
industrial base, and we watch that very carefully. We watch 
critical suppliers. We rely on our shipyards to identify 
critical suppliers that we might not see. It is very important 
that we have that industrial base there to be able to help us 
grow.
    Senator Shaheen. One of the shipyards I am concerned about 
is our public shipyard at Portsmouth, the Portsmouth Naval 
Shipyard. Can you talk about the role that the public shipyards 
play in making sure that we have the naval capability that we 
need?
    Ms. Stiller. Yes, ma'am. They are also vital because we 
have to have our public shipyards in place to address our 
nuclear-capable ships and their maintenance and modernization 
availabilities. It is very important that we invest in our 
naval shipyards. Admiral Lescher talked earlier about we are 
ramping up the number of folks that are going to be in our 
public shipyards. We are also looking at infrastructure 
improvements. What do we need to position ourselves so that 
those public yards can also be more productive and allow the 
proper throughput that we need to support our fleet.
    Senator Shaheen. I appreciate the challenges that the Navy 
has, given Congress' failure to address the budget issues. I 
remember being at the first Navy caucus, and Admiral Richardson 
pointed out that they have instructed agencies within the 
Department not to plan on doing anything in the first quarter 
because of the budget uncertainty because we have had so many 
years of continuing resolutions and lack of budget certainty. 
Maybe you could all speak to what that means as we are trying 
to address the challenges that we face around our national 
security.
    Vice Admiral Lescher. I will start. What we see under a 
continuing resolution--and as you have precisely described, you 
know, every year for the last 8 or 9 years, we are starting 
with a continuing resolution. It is very inefficient. It 
constrains our ability to execute the program. The CNO has 
talked about essentially the Department on three-quarters of a 
year from a planning perspective.
    The technical aspects of a continuing resolution. We cannot 
do new starts. We cannot do production rate increases. From an 
industrial base stability and the industrial base, we are 
talking about a lot of churn in that.
    Our inability to execute the ship depot maintenance in the 
private shipyards on a scheduled plan means we took 
availabilities planned for the first quarter and we are pushing 
them into the second and third quarter. Churn again now in our 
private shipyards as they are trying to have a stable labor 
force.
    It is very inefficient on the government workforce. Instead 
of signing a yearlong contract, for example, to execute a 
service, it is broken down into multiple contract actions at 
the same time as we are driving to a 25 percent reduction in 
management headquarters, at the same time as we are driving 
very strongly to auditability. It drives workload inefficiency 
and it absolutely costs the taxpayer money to do it that way.
    Lieutenant General Walsh. If I could, Senator. To add on to 
what Admiral Lescher said, like you said, I think 9 out of the 
last 10 years, we have been operating under CRs [Continuing 
Resolution]. I think we have had over 30 continuing 
resolutions. It just gives us instability in our readiness and 
our modernization plans. If you kind of look at it as Admiral 
Lescher kind of walked through and said the Secretary of 
Defense has a campaign plan in 2017 to fix readiness, 2018 to 
kind of continue to solve the readiness issues, fill those 
holes, increase some of that modernization capability, and then 
now start to modernize and grow the force, without the 
stability--you could see that looks good from this plan 2017 
on, but if we do not get the stability that we need, then we do 
not solve the readiness, and therefore, you cannot have the 
stability you need to modernize.
    Ms. Stiller. I think they hit all the points.
    Senator Shaheen. I think they did. Thank you.
    Senator Wicker. Senator Cotton?
    Senator Cotton. Thank you.
    In his opening, Chairman Wicker addressed the cost of the 
USS Enterprise, and I know that Chairman McCain mentioned this 
recently at the Navy posture hearing. I understand the cost was 
projected to increase from $11.4 billion to $13 billion, a 
whopping $1.6 billion, but I have also heard some reports that 
the cost is under review and may be revised downward.
    Ms. Stiller, can you update the committee on your current 
cost estimate for the Enterprise? Is it $13 billion, or is it 
something less?
    Ms. Stiller. Sir, it is something less. It is at $12.6 
billion, and when we send the amended budget over for the 
additional LCS, we intend to send a budget exhibit that 
reflects that. You will not see a reduction in the fiscal year 
2018 column. As you know, that ship is incrementally funded, 
but you will see a net reduction to the cost of the Enterprise.
    Senator Cotton. That is a good news story.
    Ms. Stiller. Yes, sir.
    Senator Cotton. $400 billion--I am not great at math, but 
that is what? About a 4 percent, 5 percent decrease?
    Ms. Stiller. Yes, sir.
    Senator Cotton. What accounts for that break in savings?
    Ms. Stiller. We looked hard at what we were counting on as 
inflation rates, which we are not experiencing at this 
particular point in time. We also looked at the effect of where 
we have added the second Virginia-class in fiscal year 2021 and 
what that does to rates at the shipyard. Those were the two 
large drivers there. We are also looking at efficiencies we are 
seeing on 79.
    Senator Cotton. When you say inflation rates, inflation 
rates in what? Could you be more specific?
    Ms. Stiller. Inflation rates for material specifically. A 
lot of time shipbuilding inflation rates do not mirror the rest 
of the world or the rest of the country. But we are seeing that 
coming more in line, and so we do not feel like we have to 
address larger inflation.
    Senator Cotton. Do you think we might anticipate the 
possibility of future downward revisions as well?
    Ms. Stiller. We will continue to scrub the numbers as we 
get there. Obviously, as we get to contract on that ship, that 
may also--but, yes, sir. We also look at inefficiencies we are 
seeing today on 79, and we will apply those to CVN-80.
    Senator Cotton. Thank you. That is good news.
    I would like to turn my attention now to the undersea 
domain. In terms of the program cost, the Ohio-class 
replacement, the Columbia-class is going to be, I think, only 
second to the Joint Strike Fighter. Those submarines are going 
to carry about 70 percent of the Nation's deployed ballistic 
missiles, obviously, the most survivable part of our nuclear 
triad. But if the Columbia-class turns into an acquisitions 
debacle the way some of our big programs have in the past, that 
would not just be very bad consequences for the taxpayer, it 
would be grave consequences for the safety of our Nation.
    What steps are we taking to ensure that we get the 
Columbia-class right from lessons learned on past acquisition 
experiences, especially with the 78?
    Ms. Stiller. Yes, sir. We are robustly, along with 
industry, managing this program. The Congress--you have given 
us authorities that we feel will help us to drive cost and 
efficiency into the program, and we thank you for those. We are 
continuing to look for if there are additional authorities we 
might need. We are carefully watching how the shipyards are 
able to--what they plan to do for facilities to be ready for 
Columbia.
    We are looking at what critical skills do they need to hire 
and how they are going to get ahead of that so that we are not 
in a situation where we do not have the skilled workforce we 
need.
    We are looking at critical vendors to make sure they can 
ramp up as they are building attack submarines and Columbia-
class.
    We are looking at synergies where we need to support the UK 
[United Kingdom] because they also are building their 
replacement. For example, a common missile compartment. We know 
we have not built missile tubes in over 40 years since we built 
the Ohio, and so we see that there are synergies to go ahead 
and build continuously those missile tubes to make sure we are 
getting risk out of the program.
    I can assure you there were a lot of lessons learned that 
we are applying today. I mentioned earlier our intent is not to 
start construction until we are over 80 percent. We are 
targeting 83 percent complete with design on that program. 
Right now, all the metrics are leaning in the right direction. 
We are on track with design, but it is not something that we 
are going to take our eye off of. It is critical to us, and we 
fully understand your concerns.
    Senator Cotton. Thank you.
    Admiral Lescher, turning our attention to attack 
submarines, Admiral Harris recently testified that only about 
half of his requirements for attack submarines in the Pacific 
theater is being met, and the challenge is only going to grow 
more in the 2020s as we retire these at a faster rate than they 
are planning to be built. China continues to expand its fleet, 
and many other nations in East and Southeast Asia go on 
something of an attack submarine buying spree of their own.
    What steps is the Navy taking to try to mitigate this 
shortfall in attack submarines, especially as it relates to the 
Asia-Pacific theater?
    Vice Admiral Lescher. So a number of steps I would cite.
    The first is, obviously, the path we are on to grow the 
number that are being purchased. Beyond that, we are making 
strong investments to make the submarines we do have more 
capable and execute their missions more broadly as well. Some 
of the investments you see in this budget to get at that are, 
for example, the investments in the family of underwater 
unmanned vehicles. This will allow any submarine across the 
spectrum of that family--so there is small, medium, large, and 
extra large. The ones that are deployable on submarines will 
actually execute subsets of missions for that submarine, 
whether it is ISR [Intelligence, Surveillance and 
Reconnaissance] or other missions--we could talk in a different 
forum--to make the ones we do have forward more capable.
    Similar to that is the investment, obviously, in the 
Virginia payload module. That again makes the submarines we 
have, particularly for Admiral Harris in that theater, able to 
carry broader types of weapons that will make them just more 
effective in what they do.
    It is a combination of growing capacity and then growing 
capability to make the ones we have more effective.
    Senator Cotton. Thank you.
    Senator Wicker. Ms. Stiller, before I turn to Senator 
Blumenthal, let me follow up on an important matter that 
Senator Cotton mentioned, and that is avoiding an acquisition 
budget disaster on these big programs. The Senator mentioned 
the F-35. At what point will we have a comfort level that this 
new replacement, the Columbia-class submarine, is proceeding as 
you expect it to do in terms of the cost?
    Ms. Stiller. We have an integrated master schedule that the 
shipyards collectively have put together on how they are going 
to get through the design products, what they need to do from 
an integrated schedule on having the facilities in place, and I 
mentioned the workforce. It is something that we on a very 
regular drum beat at the program executive officer level is 
reviewing. We cannot just review Columbia in isolation. We have 
to make sure we are looking at Virginia and Virginia payload 
module to make sure that we do not have one program getting out 
of step with the other.
    I can tell you at the senior leadership, Admiral Caldwell, 
Director of Naval Reactors, and I are going to take a trip up 
to Electric Boat this summer to review both programs in detail. 
Mr. Stackley and Admiral Caldwell did this last year. We are 
going to make this manual daylong review. But we have regular 
reviews in the building to go through the program. If we start 
to see things going not in the right direction, we are going to 
put the attention and focus to make sure we get it back on 
track. But I can tell you that we are managing it very, very 
carefully because it is critical.
    Senator Wicker. It is critical, absolutely. Thank you.
    Senator Blumenthal, you are recognized.
    Senator Blumenthal. Thanks, Mr. Chairman. I would just like 
to assure Senator Wicker and Senator Cotton that there is a 
very strong program of oversight and scrutiny in place to avoid 
any of the kinds of mishaps that have plagued other programs. I 
have been briefed. I am sure that Electric Boat would be more 
than happy to brief anyone on our committee or any Member of 
the Senate, for that matter. But there is a very strong sense 
that the tradition of producing submarines on time and on or 
under budget, as has happened with the Virginia-class, has to 
be continued into the Columbia program even though it is a much 
more complex--well, I should not say more complex. It is 
certainly a challenging and, as you have observed, Senator 
Cotton, a critically important part of our national defense.
    Senator Cotton. I will just add that I appreciate those 
comments. This is something that is bipartisan. Obviously, 
nobody on this subcommittee or full committee wants to see 
something like what happened with the F-35, whether it is the 
Columbia-class or the B-21. We have experts and professionals 
that handle these matters, but it is incumbent upon us to have 
these kind of regular check-ins.
    Senator Wicker. We want to be teammates in this regard. 
Tell us what you need with regard to authority.
    Ms. Stiller. Yes, sir. You have given us the authorities 
that we have asked for. We do not have additional authorities 
that we need this year, but we certainly know that we can come 
back and bring you additional authorities as we see them. We 
are continually challenging the team, the government-industry 
team, are there better ways to go procure that we would need 
additional authorities. Do not be constrained by current 
authorities. Right now, we have what we need, but we certainly 
will come back if we need additional ones.
    Senator Wicker. Maybe some day we will look back on this 
little discussion and be able to pat ourselves collectively on 
the back that we did our part. But when we do something new and 
something big, Senator Cotton has raised a very legitimate 
concern. We acknowledge that.
    Start Senator Blumenthal's time over, if you do not mind, 
Mr. Clerk.
    Senator Blumenthal. Thanks, Mr. Chairman.
    Even though I do not have authorization to do it, I would 
like to invite you to visit Electric Boat.
    Senator Wicker. I have been there and I will come back.
    [Laughter.]
    Senator Blumenthal. I would just like to tell you that Ms. 
Stiller christened the USS Mississippi, one of the more recent 
Virginia attack submarines, in a dramatic show of force.
    [Laughter.]
    Senator Wicker. I am sure it was one of the highlights of 
her life.
    [Laughter.]
    Senator Blumenthal. Well, she did very well, and she has 
done important service for our Nation. In all seriousness, we 
thank you and the other witnesses who are here for your service 
to our Nation. I hope that we can continue this conversation 
because it is critically important, and it is bipartisan.
    With respect to authority, I know that in the NDAA fiscal 
year 2017, continuous production was authorized for the 
Columbia-class common missile compartment, which allows the 
industrial base to continue manufacturing that component. Are 
there additional authorities, just to follow up on the 
chairman's question, that you might need for other components 
or other aspects so that you do not have to, in effect, produce 
boat by boat and you can do continuously the production of 
things like missile compartments?
    Ms. Stiller. We are looking very hard in different areas of 
the boat. Right now, we have not identified that we need the 
additional authorities, but we may come back to you and say we 
see merit in other areas. But right now, we are comfortable 
with the authorities that we have.
    Senator Blumenthal. Great.
    Let me turn to the security clearance backlog. I know you 
are familiar with it. Secretary Stackley, recently called the 
decision to assign I think 10 reservists to some of the work 
that otherwise would be done by others, the result of the 
backlog for submarine construction clearances. I wonder whether 
the Navy will continue extending that detail if necessary and 
what can we do to help to end this backlog, which is really 
regrettable?
    Ms. Stiller. Yes, sir. What Secretary Stackley has assigned 
10 reservists to help clear within the Department of Defense--
within the DOD [Department of Defense], to help clear getting 
these interim secret clearances so that workers can go and work 
in secret areas of the ship. The yard was having to fence off 
when they could not get people cleared for a long time. What 
that does not solve is getting their permanent clearances 
because that is at the OPM level, and we collectively have got 
to figure out how to correct that.
    We did ask that this be a one-time, but we recognize the 
criticality to our industrial base, and so we will have to look 
at it as time goes on to see if we need to continue to 
supplement in that area.
    Senator Blumenthal. He called this assignment--I am quoting 
him--an extreme measure----
    Ms. Stiller. Yes, sir.
    Senator Blumenthal.--which we would difficulty repeating. 
Although it sounds mundane, it is critically important to the 
work done at the yard, as you well understand. I hope that you 
will let us know whether there is anything we can do to help.
    I understand that last week, the Navy approved Electric 
Boat's revised security plan, which seeks to allow non-cleared 
workers in certain parts of the shipyard, which is important, 
and a formal letter for approval is forthcoming. Is that 
correct?
    Ms. Stiller. Yes, sir.
    Senator Blumenthal. I know you have been asked about 
maintenance and particularly about the Boise, which I 
understand is going to be done in a private shipyard because 
the public yards are so fully operational. They are operating 
at capacity. Is that going to be a trend that we see expanded 
in the future, that is, the use of more private yards for 
maintenance?
    I ask this question because not only the USS Boise has to 
be really returned to sea--right now, it is tied up pier side, 
cannot be used by the Navy--but also because of the skill 
challenges, the training, the capacity challenges that we face 
I think are the biggest obstacle in some ways to achieving the 
goals in timeliness and cost for Columbia and for the Virginia-
class and for maintenance. If the maintenance burden is going 
to add to the private sector, it makes all the more important 
the skill training and building that defense industrial base 
capacity that right now is in jeopardy in my view. Let me 
invite your comments.
    Ms. Stiller. Sir, we want to make sure we are doing the 
right things, we believe, to get the naval shipyards to the 
ability to handle the capacity for the depot work. You are 
right. With Boise, we have hit a stumbling block. We are now 
having to do the planning, and it will go to the private sector 
to do that availability.
    I do not anticipate there will be a tremendous amount of 
work pushed to the private sector, but it is something--you are 
exactly right--that we have to carefully watch because the new 
construction, especially Columbia, is very vital that it stays 
on schedule. It is important that we have the workforce across 
the board. Your points are well taken. Right now, we do not see 
additional ships being pushed to the private sector, but it is 
something, if we see it happening, we need to make sure we are 
working private industry early so that they are aware of what 
is coming.
    Senator Blumenthal. Thank you.
    Senator Wicker. Thank you, Senator Blumenthal.
    Ms. Stiller, as we grow the fleet, we are going to need 
propellers. Is that correct?
    Ms. Stiller. Yes, sir.
    Senator Wicker. I understand the Navy is chatting with 
Rolls Royce in Pascagoula about this issue. Can you update me 
on these discussions?
    Ms. Stiller. Yes, sir. Back in the 2014 time frame, I 
became aware that the Rolls Royce facility, the foundry, in 
Pascagoula was looking to shutter, and that caused us great 
concern because, as you know, a number of our ship propellers 
are cast and machined in that facility. The only other facility 
we have in this country that does the castings is the 
Philadelphia foundry, the naval foundry, and they work 
primarily on our submarine propulsors.
    I have been talking in conversations with the Rolls Royce 
leadership for some time now, and we have done things to help 
to have them stay open. We advanced the CVN-80 propeller work 
to make sure that they have workload in the facility. We have 
been working with the Office of the Secretary of Defense's 
staff to figure out are there alternatives or things that we 
can do to help them invest in their facility to make it more 
productive.
    They have come to us with a proposal. We have looked at 
title 3, the defense procurement authorities, which require 
presidential approval, and that is a lengthy process. But there 
is a program within the Secretary of Defense's Office called 
the Industrial Base Analysis and Sustainment (IBAS), program 
that might offer us an opportunity to work with the company, 
investment from the company, as well as investment from the 
government to help keep that facility more productive and give 
them the tools they need so that they can be there to help us 
grow our future fleet.
    That is one example of a supplier base issue that we are 
tackling one at a time, but we need to make sure that we are 
doing that so that we have our critical suppliers there as we 
grow the force.
    Senator Wicker. Well, keep us posted on that. I would point 
out to you that Pascagoula is, to my knowledge, the only city 
in America that rhymes with hallelujah.
    [Laughter.]
    Ms. Stiller. Yes, sir.
    Senator Wicker. I give a hallelujah to your answer there.
    Let me ask you then, Ms. Stiller, on the LX(R) scheduled 
for 2020. Given the need for 355 ships and including 38 
amphibs, could this LX(R) be accelerated to 2019 and would 
additional funding be required?
    Ms. Stiller. Yes, sir. You are correct. The LX(R) in our 
budget is a 2020 ship. The critical enabler to getting to an 
accelerated ship would be funding for detail design and 
advanced procurement of long lead time items. If that funding 
were available, the ship would more likely execute like a 
fiscal year 2019 ship than it would a fiscal year 2020 ship. 
But you would need that advanced work done to be prepared to do 
that.
    Senator Wicker. Well, let us know what you need there.
    Senator Hirono?
    Senator Hirono. Thank you.
    On the LX(R) program, which you say is a 2020 execution, 
the question was whether we can accelerate that because that 
would be good. Did you say that that acceleration is dependent 
on funding?
    Ms. Stiller. Yes, ma'am. It is dependent on being able to 
do the detail design work so that the design is ready so that 
you can get into construction. Right now, all that funding is 
in fiscal year 2020. If part of that money was accelerated, you 
could execute that ship more like a fiscal year 2019 ship.
    Senator Hirono. We need to accelerate the funding to enable 
you to do the detail design work that is needed.
    There was an earlier discussion about our submarines being 
in dry dock, and the number three was mentioned, three subs. I 
thought it was only the Boise that was in dry dock. Admiral?
    Vice Admiral Lescher. When you say in dry dock, meaning----
    Senator Hirono. Well, they are not deployable.
    Vice Admiral Lescher. For example, we have the USS 
Montpelier right now also in a private shipyard as well. That 
was a fiscal year 2017 avail that was rolled in and is being 
done now. I think as Secretary Stiller said, on a case-by-case 
basis where the capacity is not there, they are looking to 
bring them into the private shipyards.
    Senator Hirono. I am not sure I understand. There are three 
submarines right now that should be deployable except that they 
are needing to be repaired. That is not accurate. Is it?
    Vice Admiral Lescher. We will have to find out.
    Senator Hirono. I am not talking about bringing on a 
submarine that had already been----
    Vice Admiral Lescher. Right. Montpelier is in maintenance. 
Then in terms of an example like Boise where it has lost its 
certification to submerge, Boise is the one example of that 
right now.
    Senator Hirono. In terms of the capability of our shipyard 
workers, you mentioned, Admiral, that 50 percent of our 
shipyard workers have less than 5 years experience. I do not 
know how many years of experience will be necessary. I am sure 
that is not exactly something that you can just pinpoint. But 
are we doing certain things to accelerate their capabilities, 
their training, whatever we can do?
    Vice Admiral Lescher. Yes. That is a great question.
    In each of our four public shipyards, you will see a 
tremendous focus on this training of the new hires. As a matter 
of fact, each of the four shipyards is participating in a 
community of excellence to share best practices on how you take 
new-levels and turn them into artisans and qualified to do the 
maintenance. That is investments both in those training 
programs. You will see investments in mock-ups so that the new 
hires can go to specific areas and go through the processes 
that they will have to do on the submarines as well. There is a 
very heavy focus on recognizing that and training our people 
properly, and I think we are really starting to traction on 
that.
    Senator Hirono. That is very good. Please keep that up.
    Thank you, Mr. Chairman.
    Senator Wicker. Madam Ranking Member, let us agree that 
members need to get their questions for the record in within 
five business days. Is that all right?
    Senator Hirono. Yes.
    Senator Wicker. Without objection, that will be the rule in 
this case.
    I do hope that things taken for the record--you could get 
back to us in 2 weeks after they are submitted.
    I want to thank the witnesses and members of the 
subcommittee for a very informative and valuable hearing.
    Unless there is further comment, we are adjourned.
    [Whereupon, at 10:34 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
